No. 20-440
IN THE

Supreme Court of the United States
___________

MINERVA SURGICAL, INC.,
v.

Petitioner,

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Respondents.
___________

On Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit
___________

JOINT APPENDIX – VOLUME II
___________

ROBERT N. HOCHMAN*
CAROLINE A. WONG
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

MATTHEW M. WOLF*
MARC A. COHN
JENNIFER A. SKLENAR
R. STANTON JONES
WILLIAM C. PERDUE
SEAN A. MIRSKI
ARNOLD & PORTER
KAYE SCHOLER LLP
JILLIAN SHERIDAN
601
Massachusetts Ave., N.W.
STONECIPHER
Washington, D.C. 20001
SIDLEY AUSTIN LLP
(202) 942-5000
1501 K Street, N.W.
Washington, D.C. 20005 matthew.wolf@arnoldporter.com
(202) 736-8000
Counsel for Petitioner
Counsel for Respondents
*Counsels of Record
[Additional counsel listed on inside cover.]
PETITION FOR CERTIORARI FILED SEPT. 30, 2020
CERTIORARI GRANTED JAN. 8, 2021

VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
EDWARD G. POPLAWSKI
OLIVIA M. KIM
WILSON SONSINI GOODRICH
& ROSATI, P.C.
633 West Fifth Street
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner

TABLE OF CONTENTS

Page

Volume One
Relevant Docket Entries, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-01031-JFB-SRF
(D. Del.) .........................................................

1

Docket Entries, Hologic, Inc. v. Minerva Surgical,
Inc., No. 19-2081 (Fed. Cir.) .........................

25

Declaration of Dr. Edward Evantash in Support
of Hologic, Inc.’s Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15-cv-01031-SLR (D. Del. Dec.
16, 2015), ECF No. 29 ...................................

43

Defendant Minerva Surgical, Inc.’s Answer to
Hologic, Inc.’s and Cytyc Surgical Products,
LLC’s Second Amended Complaint for
Infringement and Counterclaims, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR (D. Del. Mar. 11, 2016), ECF No. 85 ....

51

Excerpts from Declaration of Dr. Evgueni
Skalnyi M.D. in Support of Defendant
Minerva Surgical, Inc.’s Opposition to
Plaintiffs’ Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva
Surgical, Inc., No. 15-1031-SLR (D. Del.
Mar. 11, 2016), ECF No. 89 ..........................

91

Memorandum Order Denying Motion for
Preliminary Injunction, Hologic, Inc. v.
Minerva Surgical, Inc., Civ. No. 15-1031SLR (D. Del. June 2, 2016), ECF No. 127 .... 104

ii
Memorandum Order Regarding Claim Construction, Hologic, Inc. v. Minerva Surgical, Inc.,
Civ. No. 15-1031-SLR (D. Del. Apr. 24,
2017), ECF No. 227....................................... 128
Excerpts from June 30, 2017 Declaration of
Csaba Truckai [attached as Exhibit 42 to
Declaration of Olivia M. Kim in Support of
Defendant Minerva’s Motion to Dismiss,
Motion for Partial Summary Judgment,
and Daubert Motion, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-SLRSRF (D. Del. Jan. 5, 2018), ECF No. 281-8,
Ex. 42] ........................................................... 136
Excerpts from June 30, 2017 Expert Report of
Dr. Robert Tucker, M.D., Ph.D. Regarding
Invalidity of U.S. Patent Nos. 6,872,183,
9,095,348 and 9,247,989 [attached as
Exhibit 43 to Declaration of Olivia M. Kim
in Support of Defendant Minerva’s Motion
to Dismiss, Motion for Partial Summary
Judgment, and Daubert Motion, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR-SRF (D. Del. Jan. 5, 2018), ECF No.
281-8, Ex. 43] ................................................ 165
Excerpts from October 25, 2017 Deposition of
Csaba Truckai [Attached as Exhibit 4 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 292-1,
Ex. 4] ............................................................. 227

iii
Excerpt from January 26–30, 2011 Email
Thread [Attached as Exhibit 83 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 293-4,
Ex. 83] ........................................................... 296
Email from Dave Clapper to Erik Glaser “Re:
Confidential ‘DRAFT’ - Minerva Pivotal
Study One Year Report,” dated November
10, 2015 [Attached as Exhibit 179 to
Delaration of Marc A. Cohn, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Feb. 14, 2018), ECF No. 3254, Ex. 179] ..................................................... 301
Joint Statement of Uncontested Facts, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031JFB-SRF (D. Del. June 7, 2018), ECF No.
367-1, Ex. 1 [Attached as Exhibit 1 to Joint
Proposed Pretrial Order] .............................. 310
Order Regarding Summary Judgment, Hologic,
Inc. v. Minerva Surgical, Inc., No.
1:15CV1031 (D. Del. June 28, 2018), ECF
No. 408 .......................................................... 315
Jury Verdict, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15CV1031 (D. Del. July 27,
2018), ECF No. 499....................................... 317
Volume Two
Excerpts from official transcript of jury trial
held on July 17, 2018 .................................... 321
Excerpts from official transcript of jury trial
held on July 18, 2018 .................................... 329
Excerpts from official transcript of jury trial
held on July 19, 2018 .................................... 331

iv
Excerpts from official transcript of jury trial
held on July 20, 2018 .................................... 347
Excerpts from official transcript of jury trial
held on July 23, 2018 .................................... 487
Excerpts from official transcript of jury trial
held on July 24, 2018 .................................... 498
Excerpts from official transcript of jury trial
held on July 26, 2018 .................................... 507
Judgment Following Jury Verdict, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Aug. 13, 2018), ECF No. 520 ... 508
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00680, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 1 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 1] ...................................... 510
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00685, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 2 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 2] ...................................... 545
Memorandum and Order Regarding Judgment
as a Matter of Law, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-1031 (D. Del. May
2, 2019), ECF No. 616 ................................... 578

v
Final Judgment, Hologic, Inc. v. Minerva
Surgical, Inc., Civ. No. 15-1031-JFB (D.
Del. June 3, 2019), ECF No. 621 .................. 603
Plaintiffs’ Trial Exhibit 12: Press Release, Cytyc
Corp., Cytyc to Acquire Novacept in $325
Million Cash Transaction; Expands Women’s
Health Franchise (Mar. 1, 2004) .................. 605
Plaintiffs’ Trial Exhibit 14: Agreement and Plan
of Merger between Cytyc Corporation and
Novacept (Mar. 1, 2004) ............................... 611
Excerpt from Plaintiff’s’ Trial Exhibit 41: Email
thread dated July 12–18, 2010 between
Colin Pollard, U.S. Food & Drug Admin.,
and Mary Edwards, Minerva Surgical, Inc.,
regarding “Questions for budget purposes
regarding endometrial ablation trials” ........ 732
Plaintiffs’ Trial Exhibit 55: Email thread dated
August 12–15, 2015 regarding “JMIG article
about Minerva endometrial ablation” .......... 735
Plaintiffs’ Trial Exhibit 106: Email thread dated
December 2–19, 2014 between Mandy
Callahan, IP Paralegal, Hologic, Inc., and
Csaba
Truckai
regarding
“Patent
declaration” ................................................... 737
Plaintiffs’ Trial Exhibit 128: Minerva Statement
on Training ................................................... 739
Defendant’s Trial Exhibit 424: Email thread
dated August 12–18, 2015 regarding
“Minerva Hiring” .......................................... 741
Defendant’s Trial Exhibit 425: Email thread
dated September 30–October 2, 2015
regarding Minerva “defense program”......... 746

vi
Defendant’s Trial Exhibit 622: “Strategy
Planning Meeting Key Themes and Take
Aways” attachment to email thread
regarding Minerva “defense program”......... 748
Excerpt from Joint Trial Exhibit 5: U.S. Patent
No. 9,095,348 File History, U.S. Application
No. 13/962,178 (08/08/2013) .......................... 753
Excerpt from Joint Trial Exhibit 24: PMA
P140013: FDA Summary of Safety and
Effectiveness Data (SSED) – Thermal
(Radiofrequency Ionized Argon Gas)
Endometrial Ablation Device – Minerva™
Endometrial Ablation System ...................... 755
Excerpts from Joint Trial Exhibit 32: PMA
P010013: Summary of Safety and
Effectiveness Data – Thermal (RadioFrequency) Endometrial Ablation Device –
NovaSure™
Impedance
Controlled
Endometrial Ablation System ...................... 759
Supplemental Appendix
Plaintiffs’ Trial Exhibit 114: Letter and attachment from Mandy Callahan, IP Paralegal,
Hologic, Inc., to Csaba Truckai “Re:
Request for Signature – Hologic Inventor
Declaration for 13.003011 US CON 7” ........ 763
Excerpts from Defendant’s Trial Exhibit 16:
U.S. Patent No. 6,813,520 ............................ 795
Joint Trial Exhibit 2: U.S. Patent No. 9,095,348 .... 802
Excerpts from Joint Trial Exhibit 15: U.S.
Patent No. 6,813,520 File History, U.S.
Application No. 09/103,072 (06/23/1998) ....... 834
Joint Trial Exhibit 18: U.S. Patent No. 5,443,470 ... 977

vii
NOTICE
The following documents have been omitted from the
printing of this Joint Appendix. They may be found
in the Appendix to the Petition for a Writ of
Certiorari at the following pages:
Opinion, Hologic, Inc. v. Minerva Surgical, Inc.,
957 F.3d 1256 (Fed. Cir. 2020) .....................

1a

Memorandum Opinion, Hologic, Inc. v.
Minerva Surgical, Inc., 325 F. Supp. 3d
507 (D. Del. 2018), aff’d, 957 F.3d 1256
(Fed. Cir. 2020) ............................................ 33a
Order Denying Petitions for Panel Rehearing
and Rehearing En Banc, Hologic, Inc. v.
Minerva Surgical, Inc., Nos. 2019-2054,
2019-2081 (Fed. Cir. July 22, 2020), ECF
No. 72 ............................................................ 79a

321
[317] IN THE UNITED STATES DISTRICT COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and Counterclaimant.
————
Wilmington, Delaware
Tuesday, July 17, 2018
9:00 o’clock, a.m.
————
VOLUME 2
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[467] PLAINTIFFS’ TESTIMONY
. . . EDWARD GORDON EVANTASH, having been
duly sworn/affirmed as a witness, was examined and
[468] testified as follows . . .
* * * *
DIRECT EXAMINATION
BY MR. WOLF:
* * * *
[511] Q. Now, you were here an hour ago when
there were slides on the screen showing 2001 data for

322
NovaSure compared to 2017 data for the success of
Minerva; is that right?
A. I was.
Q. In your opinion, in your experience, was that a
fair comparison?
MR. BISH: Objection, Your Honor. Asking for
opinion.
MR. WOLF: Your Honor, he submitted a statement
and it’s also corporate designee. I mean, I can -THE COURT: Overruled. He can answer.
BY MR. WOLF:
Q. Go ahead.
A. I’m sorry. Can you reword the question?
Q. Was that a fair comparison?
A. Oh, no, no. I mean, the NovaSure has been
around for 15 years and things have changed. Things
have changed both in the device as I pointed out to you,
in the generator, simplifying the way we do it,
understanding the procedure [512] better and how
physicians use the device, can insert it into the uterus,
how they can deploy it and seat it.
Choosing the right patients. We’ve had so many
articles, over 80 articles published on NovaSure, so we
have an understanding of which patients might do
better, which patients might not. It helps in our
patient selection. All of these issues help contribute to
success rates that we see are higher than we originally
saw back in 2001.
Q. What’s a peer-reviewed article?

323
A. So journals exist to published articles for
physicians to read, and to find out new information,
new data from studies that have been performed.
Some journals are call peer-reviewed journals. That
means that they go through the process by which these
articles submitted, the studies have been evaluated for
both their significance, the credibility, their
contributions, the way their methodologies are done,
to determine if they are worthy enough of being
published in these journals. And then they are, once
edited, deemed acceptable for publication.
They come out in journals, many of which you’ve
heard of, like New England Journal of Medicine, the
Journal of the American Medical Association, or
Lancet. In OB/GYN, we have what’s called the Green
Journal, the Gray Journal, Sterility. I will talk about
these later. But a number of [513] journals that are
peer-reviewed that provide the practicing OB/GYN
with articles from studies that demonstrate what we
call real-world data. How is this device being used by
mainstream physicians? How is it being used by
physicians doing clinical studies in the real world?
Q. Have there been peer-reviewed studies since
2001 that have been published that have talked about
NovaSure’s success rates?
A. Many.
Q. And have those peer-reviewed journals shown
that NovaSure’s success rates are comparable to
Minerva, better than Minerva, or worse than Minerva?
A. Essentially comparable.
Q. Is there a reason why NovaSure’s non-prejudice
in the market from 2001 to 2014 might have helped
Minerva get better numbers to its FDA study?

324
MR. BISH: Objection, Your Honor. It calls for
speculation.
THE COURT: Yes. I would like to hear a little bit
more foundation before he offers the opinion.
MR. WOLF: Understood.
THE COURT: Sustained.
* * * *
[531] Q. Let’s just blow it back up altogether and
look only at the bottom line, the grand total row. So we
know from before that that fiscal years, up to 17,577.
Let me ask you can you roughly add up how much you
spent on R&D there?
A. Yes.
MR. BISH: Objection, Your Honor, on foundation.
I’m not sure we have a basis for his knowledge for the
number yet.
BY MR. WOLF:
Q. Are you familiar with the research and
development programs at Hologic?
A. I’m familiar with the names, except for TOTO.
Q. And are you generally familiar with the
budgetary process for research and development
programs?
A. I am. Finance releases, yes.
Q. And you see it in your ordinary course of
business?
A. I do.
Q. Okay. So then let me ask, roughly speaking, how
much you have you spent on R&D from fiscal ’08 to
fiscal ’17?

325
A. About 90 to 100 million.
Q. We can obviously add that up ourselves.
A. Okay.
Q. That’s 90 to 100 hundred million. Does that
include [532] money spent on physician training?
A. No.
Q. Does that include money spent on marketing?
A. No.
Q. Does that include money spent on education?
A. No.
Q. If we include physician training and marketing
and education, how much more has been spent on
NovaSure since the acquisition?
A. About 40 million.
Q. So if you include the 325 million you spent to
purchase Novacept, 100-plus on R&D and the 40
million or so in total, how much have you spent to
bring NovaSure to patients?
A. Roughly 450 million or so.
Q. Are you familiar with the term star product?
A. Yes.
Q. What does that mean in business lingo?
A. So that’s a product that’s in a market that’s
growing and the product is growing and you want to
continue investing in it to make it even better, to
continue to see its improvement so that you can
continue to generate more revenue into the future.
Q. Is NovaSure a Star product?
A. It is.

326
* * * *
[537] BY MR. WOLF:
Q. And are you aware that during that window -let me ask it differently. Has Minerva made public
presentations about its technology at trade shows?
A. Yes.
Q. Can you look in your binder at PTX-270 -- oh . . .
(Pause while counsel conferred.)
MR. WOLF: May I approach, Your Honor?
THE COURT: Yes, you may.
THE WITNESS: Thank you.
BY MR. WOLF:
Q. Let’s turn to the first page. Just look at it first.
Can you tell me what that document is?
THE COURT: Well, first, would you identify it
for the record as an exhibit number.
MR. WOLF: I’m sorry, Your Honor. PTX-0278.
Apologies.
THE WITNESS: Yes. So this is a program from the
AAGL meeting. It stands for the American Association
of Gynecologic Laparoscopy.
Q. And when is it dated?
A. It is November 6th through November 10th,
2011.
[538] MR. WOLF: Move the admission of PTX-0278.
THE COURT: Any objection?
MR. BISH: No objection, Your Honor.

327
THE COURT: 278 is received.
(PTX-0278 was admitted into evidence.)
BY MR. WOLF:
Q. If we can turn to the page ending 242313.
And let me ask you: I assume you’ve been to AAGL?
A. I go every year.
Q. The title of the page is technical exhibit
description, and you see in the middle of the righthand column Minerva Surgical?
A. I do.
MR. WOLF: Could you blow that up, please?
BY MR. WOLF:
Q. Could you please read allowed the description of
Minerva’s technical exhibit?
A. Minerva Surgical is clinically testing a new
endometrial ablation system utilizing RF energy and
argon plasma energy within a balloon. System
attributes include: Total procedure time -- three
minutes, small diameter device, large opened array,
easy seating, cervical canal sealing balloon, easy
removal, touchscreen plug-and-play controller. Visit
their web page.
[539] Q.
identified?

And how big is the conference that this is

A. About 5,000 typically would attend.
Q. And physicians attend this?
A. They do.
Q. And competitors?
A. Yes, exactly. A lot of businesses attend.

328
Q. Does Hologic have its own booth?
A. Yes. Can I describe what booth it is?
Q. Yes?
A. There’s this big conference where we have
scientific exchange. People get up. They talk about
abstracts or they give presentations that have been
accepted. There’s some educational and training
programs and then there’s this one area where all of
the product, the medical device companies and some
pharmaceutical companies have an opportunity to
have booths where they show their product.
They showcase new products and it’s an opportunity
for them to engage and interact with physicians who
can look at it and ask direct questions.
Q. Do you need to sign a nondisclosure agreement
to attend this conference?
A. No, you don’t need to have a nondisclosure
agreement in place.
* * * *

329
[571] IN THE UNITED STATES DISTRICT COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and Counterclaimant.
————
Wilmington, Delaware
Wednesday, July 18, 2018
8:34 o’clock, a.m.
————
VOLUME 3
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[627] REDIRECT EXAMINATION
BY MR WOLF:
* * * *
DIRECT EXAMINATION
BY MR. WOLF:
* * * *
[632] Q. Is there any reason why Hologic might
have been particularly uniquely concerned about
Minerva as opposed to another competitor coming on
the market?

330
MR. BISH: Same objection.
THE COURT: Overruled.
THE WITNESS: Yes.
BY MR. WOLF:
Q.

And what is that?

A. It was frustrating. We’re competing against our
own product with a balloon. It’s a -- we’re competing
against many of our own previous reps. We are
competing against inventors of our own device, and we
were hearing claims from our physician customers
that, yes, they told me it’s the new NovaSure, that this
is the -- you know, that this is, you know, what -- it
looks like NovaSure, maybe a little better. That’s what
we were hearing. We were competing against
ourselves essentially, and, yes, that -- that was -- that
made us rather emotional.
* * * *

331
[879] IN THE UNITED STATES DISTRICT COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and
Counterclaimant.
————
Wilmington, Delaware
Thursday, July 19, 2018
8:32 o’clock, a.m.
————
VOLUME 4
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[1042] . . . CHRISTOPHER C. BARRY, having been
duly sworn/affirmed as a witness, was examined and
[1043] testified as follows . . .
* * * *
[1151] RECROSS EXAMINATION
BY MR POPLAWSKI:
Q.

Cytyc bought Novacept in about 2004?

A.

Yes.

332
Q. And Novacept is the company that put the
NovaSure product on the market in 2001?
A.

Yes.

Q.

And then Hologic bought Cytyc in about 2007?

A.

Yes.

Q. And Hologic, since by Cytyc, including the
NovaSure product, has made about $3 billion on sales
of NovaSure product?
A.

On the top line, correct. Sales, right.

Q. And so in essence here, and that's basically for
all technology. Right? It has been on the market since
2001?
A. Yes. It has been around and it's established and
still popular.
Q. So Hologic believes it should get well over half
of Minerva’s sales going forward as lost profits?
A. It’s not going forward. The damages that
we’retalking about are historical, the past sales.
Q.

Okay.
* * * *

[1156] THE COURT: Mr. Truckai, if you would
stand right there. We’re going to ask you a couple
questions and then swear you in.
. . . CSABA TRUCKAI having been duly sworn as a
witness, and was examined and testified as follows . . .
MS. ELSON: Thank you, Your Honor.
And just to introduce -- let’s get you set up here.
THE COURT: You may proceed, counsel.
MS. ELSON: We have binders.

333
Thank you, Your Honor. We are very pleased now to
finally begin the presentation of Minerva’s case.
I would like to introduce you to Minerva’s first
witness, who is Mr. Csaba Truckai, and he is
an inventor and founder of Minerva, and I will now
ask -- well, Mr. Csaba is on the stand.
[1157] DIRECT EXAMINATION
BY MS. ELSON:
Q. Good afternoon, Mr. Truckai. We’ll at least give
a little bit of an introduction and then we’ll have to
pick up again tomorrow.
Have you ever testified in court before?
A. No. It is the first time.
Q. Would you please introduce yourself to the ladies
and gentlemen of the jury.
A. Good afternoon. My name is Csaba Truckai.
Q. And feel free -- there should be a mike.
THE COURT: If you just move it a little closer, it
might help.
THE WITNESS: Okay. Thank you.
BY MS. ELSON:
Q. It’s right there and there’s water if you need it?
A. Thank you.
Q. All right. So where do you live, Mr. Truckai?
A. Saratoga, California.
Q. Do you have a family?
A. Yes, I do. Wife and three boys.
Q. Three boys?

334
A. Yes.
Q. Are you a U.S. citizen?
A. Yes, I am.
[1158] Q. Were you always a U.S. citizen?
A. No, I was not.
Q. And where were you actually born?
A. I was born in Hungary.
Q. Can you just briefly describe your studies in
Hungary.
A. I had three years of pre-med and the fourth year
I transferred to mechanical engineering.
Q. How long did you study mechanical engineering?
A. A year.
Q. I’m sorry?
A. A year.
Q. Okay. Now, when did you move to the United
States?
A. 1984.
Q. Okay. Now, today, how would you describe your
main line of work?
A. I’m inventing new medical devices, new
technologies, and evaluating them, their application in
the medical device field.
Q. How long have you been an inventor of new
medical devices?
A. Close to 30 years.
Q. Okay. Now, where do you spend most of your
time nowadays?

335
A. I’m still spending up to 14 hours in the lab,
checking prototypes, devices, what’s wrong with them,
how we can fix [1159] it, how we can apply to various
procedures.
Q. Okay. Now, have you prepared a list of the
different types of medical devices that you have
invented and developed over those nearly 30 years?
A. Yes. Yes, I did.
Q. Can we see that, please?
So can you just briefly for the ladies and gentlemen
of the jury describe the different kinds of medical
devices you’ve invented over those nearly 30 years.
A. I started in cardiac device market and I have a
very unique patent for cardiac catheters. Angioscopy,
the way you can look inside the heart and evaluate
various plaques in the arteries.
Q. If you could speak a little more into the
microphone and just a little slower?
A. I’m sorry.
Q. Okay.
A. Pulmonology for intubation. Cardiac ablation for
arrhythmia.
Q. Arrhythmia?
A. Arrhythmia. Irregular heartbeat. Endometrial
ablation, vessel sealing to replace sutures. Spinal
fraction fixation. Spinal tumor ablation. Arthroscopy
and orthopedic products. Fibroid resection and an
enlarged prostate resection, BPH.
[1160] Q. BPH?
A. It’s a prostate resection.

336
Q. Okay. Now, how many of these products that you
have developed over those 30 years that are listed here
are still being sold? How many of these products that
fall in these categories?
A. The only one that’s not sold is the angioscopy
product and the orthopedic and the prostate product
will be on the market in the next couple of months or
so.
Q. Okay. So out of all of these, the only one that’s
not being sold is angioscopy?
A. That’s correct.
Q. And this one is soon to be sold?
A. In a month or so.
Q. Okay. Now, are you a named inventor on any
U.S. patents?
A. Yes, I am.
Q. Okay. How many issued? Let’s start with issued
U.S. patents?
A. I have over 160 issued U.S. patents.
Q. All right. And how about any pending United
States patent applications?
A. Over 150.
Q. Okay.
A. Pending applications.
[1161] Q. All right. So roughly altogether, over 300
issued United States patents and pending
applications? Inches approximately.
Q. Okay. Now, when the Patent Office issues you a
patent, do you consider it your property?

337
A. Every issued patent is a property. Very
important intellectual property that I own.
Q. Okay. Now, do you respect the intellectual
property of others?
A. Absolutely.
Q. Okay. And why is that?
A. I respect it because I hope others are going to
respect mine, too.
Q. Fair enough.
Now, after you arrived in 1984 in the U.S., what was
your first job in the United States?
A. I couldn’t speak English, so the first job I got was
a graveyard shift in a hosptial. I was a nurse assistant.
Q. A graveyard shift in a hospital?
A. That’s right.
Q. And your position was?
A. Nurse assistant.
Q. Nurse assistant. Okay.
A. And during the day, I went to English school.
Q. All right.
[1162] A. And I had to learn English.
Q. You did a good job.
What was your first job with an actual company here
in the United States?
A. Cordis Corporation.
Q. Okay. And what was your last position? And
what do we sear here?
A. This is just one of the devices from Cordis.

338
Q. Okay.
A. But it’s a very broad range of products. It’s a very
large company.
Q. And what was your last position -- when you left
Cordis, what was your title or position?
A. I was a senior R&D engineer in custom products.
Q. Okay. Now, what kinds of products did you
personally develop while at Cordis? And if it helps you,
we have it here on the screen?
A. This is one of the products which I’m pretty
proud of. We call it a Brite Tip Guiding Catheter. The
catheter introduces the device into the coronary
artery. Pressure. That’s for evaluating heart valve
function.
Q. Evaluating heart valve function?
A. That’s right. But generally speaking, the
braiding technology which I developed used today
about 6 to 10 million catheters. So most of the products
that Cordis has [1163] has my technology.
Q. Okay. You said braiding technology?
A. Braiding.
Q. Do we see that here?
A. That’s right. The mesh you see on the device
here, the wire structure is call the braided wire
structure.
Q. Okay. So is the -- you said this product is still on
the market?
A. That’s right.
Q. All right. So what was your next job after leaving
Cordis?

339
A. I joined a company in California called Advanced
Cardiovascular Systems.
Q. Advanced Cardiovascular Systems?
A. That’s correct.
Q. Okay. Was that also in Florida?
A. Unfortunately, not. I had to move to California.
Q. Okay.
And
is
that
cardiovascular was located?

where

advanced

A. Yes. In Santa Clara, California at the time.
Q. And what was your position at Advanced
Cardiovascular Systems?
A. I was a senior R&D engineer and project lead
engineer.
Q. All right. By the way, did you apply to them for
a [1164] job?
A. Actually, no. End of 1989, they called me, that
they would like me to join them and run this project
for the company.
Q. Okay. So they sought you out?
A. They did.
Q. Okay. Now, as a lead engineer, what products
did you develop while at Advanced Cardiovascular
Systems?
A. It was two products, the an gee yo scope and
guide wire.
Q. What?
A. It’s called a guidewire.
Q. Guidewire?

340
A. Fine filament, which goes in the center lumen of
this catheter.
Q. And is Advanced Cardiovascular Systems still
around?
A. Yes, but they why bought by a large company
called Abbott.
Q. They were purchased by Abbott?
A. That’s right.
Q. Okay. Abbott Laboratories?
A. Yes.
Q. Is that a large company?
A. It’s a very large company.
Q. And where did you go next?
[1165] A. After that, I joined a very small startup
company called CardioRhythym.
Q. Can you spell that, please?
A. My spelling is not the the greatest.
Q. Okay. Oh, let me give it a try.
C-a-r-d-i-o-R-h-y-t-h-m.
A. That sounds right.
Q. Where was CardioRhythm located?
A. In California.
Q. And what did you do -- what did you develop at
CardioRhythm?
A. Developing radiofrequency-based cardio devices.
And actually, we request see it here on the picture.
Q. Yes.
A. One of the slides.

341
Q. And is CardioRhythm still around?
A. No. Medtronic bought at the very early stage.
Q. Okay. Medtronic?
A. Medtronic, which is again a very large, probably
the second largest medical device company in the
world.
Q. Are the products you developed while at
CardioRhythm still on the market?
A. Yes. I’m not sure what you can see here is
identical. The only thing they changed is the color.
Q. Of this?
[1166] A. That’s right.
Q. Now, when you started at CardioRhythm, did
you work there exclusively?
A. No. When I joined the company, I talked to the
CEO and the founders and I told them that I would
like to run my own company some day, and would they
mind if I start on not interfering with the company
business, starting my own company, and they agreed.
Q. So this is before you even started, you worked
something out up front?
A. Absolutely right.
Q. All right?
A. I felt like it’s the right thing to do because if they
don’t like it, I don’t want to interfere with them. But I
told them that it would not interfere with the business
and I would do everything I need to do to make sure
that the company is successful and acted actually it
turned out very well because it was such a startup
company, they had nothing, and I had more equipment
in my garage, you know, from equipment and other

342
devices, that, you know, actually used to build their
first devices.
Q. Now, so far, are any of these products you talked
about so far, are any of these companies you talked
about so far Minerva?
A. I’m sorry?
[1167] Q. Are any of these companies or products
that you’ve talked about so far, are any of them
Minerva or Minerva products?
A. No.
Q. Okay.
A. Absolutely not.
Q. So how did you manage to do both your own
company on the side and work for CardioRhythm?
A. I work a lot, so I start usually around, at the
time, around seven, and I was there until 11:00 or
11:00 o’clock at night.
Q. There, where?
A. At the company.
Q. All right.
A. And I went home and I started to do my own
business like 3:00, 4:00 in the morning, and it started
again the next day.
Q. And was that your lab in your garage?
A. That’s correct.
Q. Now, what happened eventually to your own
side startup?
A. So we called the company KST Medical and
eventually over many name changes, it ended up
Novacept.

343
Q. Okay. And when did you formally, can we see the
slide -- are we seeing here the prior company up here?
[1168] A. That’s correct.
Q. All right. And so when did you formally kick off
Novacept?
A. 1993.
Q. Okay. And what inspired you to found Novacept?
A. Well, we were working on endoscope, and one of
the products was a hysteroscope.
Q. Excuse me. A what?
A. Hysteroscope.
Q. Hysteroscope?
A. That’s correct. That’s a device, you can look
inside uterus and I was talking to gynecologists in the
bay area.
Q. Gynecologists?
A. Gynecologists. They talk about the problems
they have and one of the problems, they mentioned
that it’s a big issue for them, was endometrial
ablation. It was very technique dependent and the new
devices, they didn’t always address the issues -Q. And I am sorry. The new devices didn’t?
A. They didn’t address some of the issues they
considered to be important.
Q. All right.
A. On a personal note, you know, my mother had,
you know, this problem, and in her mid-forties, you
know, she went through a hysterectomy. So even then
I thought, there has [1169] to be a better way to deal
with this problem.

344
Q. Okay. And what was wrong? What did you find
was wrong or deficient about the existing technology?
A. Partly.
A. The part I was interested in the radiofrequency
devices, try to address this issue, and I found that the
liquid buildup they have on the surface, preventing
these devices to work normally, or function the way
they should.
Q. Did you say the liquid buildup?
A. Liquid buildup on the surface of the device and
the tissue.
Q. Okay. And so were there electrodes on the
surface of the device?
A. So, yes. If you have a -- if you have
radiofrequency electrodes on the surface, you have to
make direct contact with the tissue, and when you
apply energy to the tissue, radiofrequency energy, you
know, the fluid from the tissue can come out.
So only way I can explain, if you grill a steak, you
put it on the grill.
Q. First, would you explain, what causes
biologically -- what causes the moisture to build up?
A. So if you heat up the tissue, all the collagen
structure constructs in the tissue and the moisture
oozes out from the tissue.
[1170] So just like I mentioned that, you know, if you
put a steak on the grill, you can see the same process.
You know, the liquid comes out, and that liquid is
actually very conductive. It’s filled with salt, very
conductive, and current is bypassing the tissue, but
rather goes through this liquid layer. Two things.

345
Q. Let’s break this up a little bit. The liquid that
you come out you said is saline?
A. It’s almost like, it’s very conductive.
Q. Okay.
A. It’s high salt content.
Q. Okay.
A. So it’s conductive.
Q. It conducts electricity?
A. That’s right.
Q. Okay. And what is it that happens to the
electricity? I apologize for interrupting. Go ahead.
A. So two things happen. The first thing is liquid
buildup pushes it away from the tissue. You’re losing
the direct contact.
Secondly, between this liquid layer is channelled
energy. It’s almost like shorting. So you are no longer
running the current through the tissue, but rather this
liquid layer and that prevents the device to function
normally.
[1171] Q. Is it fair to say current was getting
diverted into this liquid layer?
A. Not just diverted. The current that’s required is
extremely high, which I considered unsafe.
Q. Okay.
Q. In your experience, what is wrong with using
more current than necessary in the human body?
A. So, you know, you’ve got to look at the safety
aspect, and I always thought, you know, if you can do
something, a minimal amount of energy, do it with
minimal amount of energy.

346
The reason why if something goes wrong, we are
putting a large amount of current in the tissue, the
side effect can be devastating. You always want to
minimize the amount of current you put into the
tissue.
MS. ELSON: Your Honor, we’ve actually reached a
transition point. This might be a good time to take a
break, break for the day.
THE COURT: That’s fine.
So, ladies and gentlemen, I asked Ms. Elson to
introduce you to this witness and she has done that.
We will continue his testimony tomorrow morning at
9:00 o’clock.
I will again remind you, don’t talk to anybody. Don’t
do any research. This is your decision, nobody [1172]
else’s. So keep an open mind until you’ve heard all the
evidence and I will see you tomorrow morning at 9:00
o’clock.
(The jury was excused for the evening recess.)
THE COURT: The record should reflect we’re
outside the presence of the jury and everyone may be
seated.
Mr. Truckai, you’re welcome to step out of the
courtroom if you would like to.
THE WITNESS: Okay. Thank you.
(Witness excused.)
* * * *

347
[1178] IN THE UNITED STATES DISTRICT
COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and
Counterclaimant.
————
Wilmington, Delaware
Friday, July 20, 2018
8:32 o’clock, a.m.
————
VOLUME 5
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[1201] Welcome back. We are going to continue the
examination of Mr. Truckai.
Ms. Elson, you may continue.
MS. ELSON: Thank you, Your Honor.
. . . CSABA TRUCKAI, having been duly sworn as a
witness, and was examined and testified further as
follows . . .
DIRECT EXAMINATION, Continued.

348
BY MS. ELSON:
Q. Good morning. So, Mr. Truckai, we’re going to
just recap a little bit to see where we left off. We were
talking about the early days at Novacept.
Do you recall?
A. Yes.
Q. Okay. And we were talking about the problem
with the existing technologies when we were first
thinking of developing the NovaSure.
Do you recall?
A. That is fine.
Q. Okay. So can you just recap for us, what was the
problem with those older devices in general?
A. All of them, you know -Q. Can you lean just a little closer to the mike?
A. Is that better?
Q. Yes. Thank you.
[1202] A. Okay. So all of the devices were having
the same issue that a liquid buildup on surface of the
electrode, between the electrode and the tissue caused
the ablation process, not to path 1. But they should -but that liquid layer, the gap and also electrically
conductive liquid channelled energy not into the
tissue, but through the liquid layer, between the coat,
and that was one of the fundamental issues, also
causing current needed to run the process.
Q. All right. So a gap between the tissue and the
electrode?

349
A. Developed, and the liquid started a buildup, and
the liquid came from the tissue, which I explained, the
process, squeezed the moisture out from the tissue.
Q. And why couldn’t the older device, why couldn’t
the liquid come out?
A. Because they had like a solid surface, either
ceramic backing, or they had a balloon like, you know,
one of the devices.
Q. All right.
A. So the moisture has no way to escape from the
location. It just keeps collecting.
Q. Okay. And so yesterday’s we were discussing
that was the problem. So can you tell us, what was
your solution to that problem of liquid buildup in the
uterus?
[1203] A. Our solution was moisture transport
system and the moisture transport system does
exactly as the name defines it. The moisture, which,
you know, squeezes out from the tissue, you know, the
suction, removed it from the ablation site, and that’s a
pristine, clear, dry condition for that conducting the
tissue. So the liquid would not build up, the electrode
is always making contact with the electrodes, and the
current always was passing through the tissue.
Q. Okay. And when, roughly, when did you come up
with your solution of moisture transport?
A. 1996, when we started ablation.
Q. Okay. So what do you now see here?
A. This is the NovaSure electrode head. You can see
the gold color, the electrode. You know, this white color
is the inner layer, so this is two opposing for any given

350
moment, point in time. And here on the magnification,
we can see how porous this electrode is.
Q. How porous?
A. Yes. It’s a metallized fabric. Actually, what we
used was this Lycra that we sent out to be metallized,
and that’s the way we formed the electrode in the early
days.
Q. All right. If we could go to the next slide, please.
So what do we see here on the left? Start with [1204]
the left.
A. So, you know, if you would strip away this
electrode mesh, this porous electrode mesh, you would
see, you know, the interior. And the most important
part of that is the suction. And the reason why that
was a very important portion, because all the
moisture, the gap, the seems generated during the
ablation process was suctioned out here and outside,
to the outside of the uterine cover.
Q. Thank you.
MS. ELSON: Your Honor, I’m thinking, would it be
all right if we put something beneath Mr. Truckai’s
mike to lift it up a bit?
THE COURT: I think you can -- yes. Do whatever
you want to do. It doesn’t matter to me.
MS. ELSON: I’m going to scrounge up a binder
somewhere. There you go.
THE COURT: We’ll see how it goes along. The
microphone might be overloading a little bit, too, and
cutting out. If it doesn’t work out very well, we’ll take
a break.
MS. ELSON: I think he’s taller than the mike was.

351
THE COURT: All right.
MS. ELSON: Okay. Thank you.
BY MS. ELSON: [1205] Q. Now, have you prepared
an animation, Mr. Truckai, to illustrate the problem
and your solution?
A. Yes, I did.
Q. Okay. So what do we see here?
A. So this is the old technology. What you what you
can see here is a balloon.
Q. This is the old technology?
A. This is the old technology which existed prior to
I started experimentation with our device.
Q. You’ll have to talk a little closer to the mike.
A. Okay. So this device, you can see is based on a
bubble surface. So it’s a known permeable, nonporous.
So those electrodes are glued on or molded on the
surface.
Q. Okay.
A. And it’s positioned inside the uterine cavity. You
can see this triangle shape, generally speaking, and
the device is approximating the size and the shape of
the uterine.
Q. This was one of the older-type devices?
A. This is one of the older-type devices.
Q. Next, please. So what do we see here?
A. So if you would magnify only this area here, you
know, that’s what you see. You can see the tissue,
which is the endometrium, and you can see this is the
balloon and this is the balloon interior. And you can
inflate this balloon with [1206] either air or fluid.

352
The point I’m trying to make here, this electrode is
coming in close contact with the tissue. The balloon is
forcing the electrode to be pushed against the tissue.
Q. So you can place the balloon and push the
electrodes against the tissue?
A. That’s right.
Q. Okay.
A. And you can see hear the positive and the
negative. It’s just showing the two, and current starts
to flow through the tissue, heats up. The liquid is
driven out from the tissue and builds up. It’s pushing
the electrodes apart and the current goes from one
electrode to the other versus going into the tissue and
going back to the other electrode. That’s a
fundamental issue of the technology.
Q. All right. And was that basically shorting the
electrodes?
A. Technically, a different type of short. I would say
90 percent of the current channelled through the
liquid versus channelled through the tissue.
Q. Okay. Instead of going to the tissue, where it’s
supposed to go?
A. That’s right. The goal is to get energy into the
tissue, not the liquid layer.
[1207] Q. Next, what do we see here? Next, please.
What is this?
A. So this is, as you can see, the same triangle
shape. This is a NovaSure device with, again, the two
opposing at any given point in time, and it opens up
and it’s approximating the uterine cavity size and
shape.

353
Q. Okay. Next?
A. This is -Q. So how does your NovaSure solve the problem of
moisture buildup?
A. So, again, if I magnify this little area, you can
now see how this metallized fabric, you know, was
constructed. And you can see there are huge openings
on it.
So the current passes from this electrode structure
into the tissue, but then moisture is generated. That
moisture was actually drawn through that porous
mesh.
Q. Can you see the next slide? The next step?
What’s happening here?
A. So this is just showing that, you know, that the
electrode heats up, that moisture is drawn through
this mesh, like a filter, and that suction that I
mentioned before, all of this moisture was channelled
through this, the porous mesh.
Q. Can we go to the next set. So what’s happening
here?
A. This is the suction that I just talked about, and
that [1208] moisture is being drawn everywhere, every
direction. It’s pulling the seems, the moisture, keep it
dry at all times.
Q. Okay. And do you have a name for your solution,
or did you back then?
A. We called it just like, you know, named here,
moisture transport system.
Q. You can take that down.

354
Did there come a time when you filed an original
application relating to your moisture transport
system?
A. 1998, May 8th.
Q. And if you could turn, please, in your binder,
that one, to DTX-16.
A. Yes.
Q. Okay. And what is, what do you see there, Mr.
Truckai?
A. I see my original patent, moisture transport
system.
Q. Are you a named inventor on that patent?
A. Yes. I’m the named inventor.
MS. ELSON: Move to admit, Your Honor.
THE COURT: Any objection?
MR. WOLF: No objection, Your Honor.
THE COURT: It is received.
(DTX-16 was admitted into evidence.)
MS. ELSON: We can show it on the screen, [1209]
please. Just zoom in at the top.
BY MS. ELSON:
Q. Again, now that we can all see it, Mr. Truckai,
what is this?
A. This is the original patent that was filed. You
can see here, which is the ’520 patent, which we’re
talking about. It says the title. It shows the title that
is the moisture transport system, as you can see here,
for coagulation. You can see the inventor, the person,
me here, and the others, you can see it has been

355
assigned to Novacept, and you can see that, you know,
it’s filed -- actually, you can see the patent application.
It’s for that one. It’s 1998, June when it was filed.
Q. Can you go to the abstract, please. What do we
see here? What is this telling you?
A. Very short, describes what the invention is, and
the invention was permeable to moisture.
Q. Permeable?
A. That’s right. Permeable to moisture although to
mount an electrode carrying member on it. And
through this permeated electrode member, the
moisture can leave the ablation site.
Q. Is there a simpler way of putting electrode
carrying member?
A. It was a host metallic fabric.
[1210] Q. The fabric we saw earlier?
A. That’s right.
Q. If we could go to DTX Figure 23, please. DTX-16,
Figure 23.
What do we see here?
A. This is the -- in the patent, this is a drawing
representation of our proposed property.
Q. The porous fabric?
A. That’s right. Electrode mesh.
Q. Okay. If we could go to Figure 26(a). What do we
see here at the top, this upper half?
MR. WOLF: Your Honor, briefly, just for
presentation purposes about claim construction
issues, we would object to this line of questioning.

356
THE COURT: All right. I’m overruling it, but you’re
asking a continuing objection?
MR. WOLF: Yes, Your Honor.
THE COURT: All right. I will give you a continuing
objection, but I have to know when the continuing
objection stops, so when it stops, would you please
stand and let me know?
MR. WOLF: I will do my best, Your Honor. Thank
you.
THE COURT: Thank you.
Ms. Elson, you may continue.
[1211] MR. WOLF: Thank you, Your Honor. If we
could go to the upper half and zoom in.
BY MR. WOLF:
Q. What do we see here, Mr. Truckai?
A. This is a magnified representation of our porous
metallized mesh.
Q. The porous metallized mesh?
A. That’s right.
Q. All right. And this is in the patent?
A. This is in the patent.
Q. And Figure 28, please. And if we could zoom in
on the center figure. Thank you.
And what is this illustrating, Mr. Truckai, in your
’520 patent?
A. The very thing I was talking about, that all the
moisture, which was transmitted through that mesh
was suctioned out through the suction, too.

357
Q. And did any of the examples, sometimes called
embodiments described in your ’520 moisture
transport patent, describe a head with a, an exterior
that liquid could not flow through?
A. None of them, because it would defeat the
purpose. It would not work, just like the prior device.
Q. I’m talking about examples of your invention.
A. That’s right. None of them.
[1212] Q. Now, do any of your early patent
applications in this moisture transport family say
anything about using plasma?
A. No.
Q. Now, given what we’ve seen in your ’520 patent,
what was your belief about the nature of the property
that Novacept sold to Cytyc?
A. Well, the most important part of this moisture
transport system, which we’ve been talking about.
Q. Okay. Can you say that just one more time
slowly?
A. So the most is that the very subject, the moisture
transport system for electrocoagulation is metallic
mesh that all the steam moisture go through and
suction out from the ablation cite.
Q. So that was your understanding what was sold
to Cytyc?
A. That was my understanding.
Q. Did you ever think that when that what
Novacept sold to Cytyc covered in a handpiece a head
that used plasma to ablate tissue?
A. No.

358
Q. Now, could you turn to, let’s go to column 19, and
in particular, claim 1 of that same ’520 moisture
transport patent. What do we see here?
A. It describes the same thing we’ve been talking
about. This is a fluid permeable elastic member. This
is the same [1213] porous metallic fabric which we’ve
been talking about.
Q. Okay. This is in the claims of the ’520?
A. That’s right. This is claim number 1.
Q. Do all of the claims in the ’520 patent require
‘fluid permeable elastic member.’
A. They are.
Q. Now, when you -- let’s go back a little early to
when you filed the application for this ’520 patent.
Was there one claim, and if we could pull it up and
see what I’m talking about. Let’s zoom in on claim 31.
Was there one particular claim that you submitted
along with your application that did not require a fluid
permeable exterior?
A. Yes. When we filed the patent, the broader
application, broader description of the patent, but the
patent examination, one of the -THE COURT: All right. Let’s stop. We’re losing the
microphone.
This is a technical issue that requires somebody way
over my training, so let’s take five minutes, ladies and
gentlemen, and ask IT to come in and restore the
original configuration.
All right. So let’s take five minutes.
(The jury was excused for a short recess.)

359
[1214] THE COURT: I think when we changed out
the microphone, this microphone is not set up,
generally speaking, to hook into the system for this
particular input, and so they put something to kind of
translate the two, and then they turned up the gain on
this microphone, and I think it’s shorting, it’s cutting
out. So we’re going to have to go back to the original
system, which the system is designed for, and then
we’ll just have to put it close to the witness and hope
that it works.
MS. ELSON: Because what I’m hearing is that it’s
perhaps because he’s breathing into the mike?
THE COURT: I don’t know.
MS. ELSON: Okay.
THE COURT: But we’ll have the IT guy come and
then we’ll figure it out.
MS. ELSON: Thank you, Your Honor.
THE COURT: So we’re on a short break.
MS. ELSON: We appreciate the accommodation.
(Short recess taken.)
--(Proceedings resumed after the short recess.)
THE COURT: Please be seated.
Let’s get the jury.
(The jury entered the courtroom.)
MR. WOLF: Your Honor, may I suggest I get the
[1215] last question and answer?
MS. ELSON: I will recap.
MR. WOLF: Thank you.

360
(The jury entered the courtroom.)
THE COURT:
gentlemen.

Please

be

seated,

ladies

and

I believe we have the problem solved, so you may
continue, Ms. Elson.
MS. ELSON: Thank you, Your Honor. We resolved
the technical issue.
BY MS. ELSON:
Q. So, Mr. Truckai, you were looking at JTX-15,
and in particular, the application that you filed that
ultimately led to your ’520 patent.
Do you recall that?
A. Yes, I do.
Q. Okay. And just to recap, first I just want to
know, was this the one claim in that application that
didn’t require a fluid permeable exterior?
A. That’s right.
Q. Okay. Did claim 31 ever issue as an actual
issued claim?
A. No. It was canceled.
Q. And why did you cancel it? Yes, perfect. Yes, go
ahead.
[1216] A. Because during, submitted it after the
examiner brought it to our attention that it’s prior art.
We reviewed it and we agreed that this is too broad,
and our invention is actually the proposed metallized
fabric moisture transport system.
Q. Now, let’s go back to the timeline to after you
completed how you filed your application for the
NovaSure product, what was your next project?

361
A. My next project was SurgeRx. It’s a company,
radiofrequency tissue, which means we, using a very
simple instrument, sealing vessels and veins.
Q. Like blood vessels?
A. Like blood vessels. You didn’t have to use staples
or sutures.
Q. No need for a staple or suture?
A. It speeds up the procedure. You didn’t leave
anything behind.
Q. This is for sealing blood vessels?
A. That’s correct.
Q. What do we see next? What is this?
A. This is probably the most recent product for the
EnSeal product.
Q. This is the product you were just talking about
you developed?
A. That’s right.
[1217] Q. Okay. Can you just describe it briefly?
A. You can see these are instruments. This is what
a physician holds. At the end it’s a structure that has
clamps, hold the vessels between, compress it
together, apply energies, melts vertically the wall in
the vessel, fuse it together and in the middle, we could
dissect it.
Q. Very good. If we could have the next slide,
please.
And what do we see here?
A. That’s a trade show. We went to it every year.
AAGL.

362
Q. American
Laparoscopists?

Association

of

Gynecological

A. That’s right.
Q. Thank you.
A. So this is the largest surgical show for
Gynecologists since our device was used for
hysterectomy to cut through the ligaments, both sides
of the uterus. You know, we had a booth there. You can
see SURGRx.
Q. This is your company, SURGRx?
A. That’s right.
Q. Can we zoom in on the left there? Is that the
product we were just looking at?
A. That’s right.
Q. So is SURGRx still around as a company?
A. No. In 2008, Johnson & Johnson, they brought
it.
Q. They bought it?
A. Yes.
[1218] Q. Is your EnSeal product still being sold by
J&J today?
A. Yes.
Q. Okay. If we could go to PTX-278, please.
THE COURT: So, Mr. Wolf, I assume your
continuing objection has ended?
MR. WOLF: Yes, Your Honor. I apologize. Yes.
Thank you.
THE COURT: Thank you. You may continue,
counsel.

363
MS. ELSON: Thank you. Thank you, Your Honor. If
we could have that up again.
BY MS. ELSON:
Q. Okay. So what do we see here, Mr. Truckai?
A. This is an AAGL journal they publish before the
AAGL meeting. So this is the cover page of it. Fortieth
year of AAGL.
Q. Do you attend the AAGL?
A. Every year.
Q. Every year. If we could go to PTX-278 at 2306.
What are we looking at here?
A. This is a trade show floor where you can see the
various companies that demonstrate their products for
the surgeon.
Q. Is this part of the same brochure?
A. Yes.
[1219] Q. All right. And what is shown here
highlighted in yellow?
A. You know, these are the companies who are
selling, or the companies my product being sold one
way or the other.
Q. Okay. So these are all companies who are selling
a product that you developed?
A. That’s right.
Q. All right. Let’s go on briefly. What was your next
project after SURGRx?
A. The next project was DFINE.
Q. Okay. And just briefly, if you could tell us, what
did the DFINE product do?

364
A. DFINE product was for vertical compression and
also for vertebral tumor.
Q. Vertebral tumors?
A. That’s right.
Q. Okay.
A. So the issue was that of a woman’s age or man’s
age, the bone density loses. You can have a fracture.
It’s extremely painful.
Q. It’s extremely painful?
A. Painful. That’s right. And the technique they
used in the past was a bone cement. Bone cement.
Q. So the old thing was the bone cement?
A. And it took about 30 minutes and it resolved the
pain, [1220] so it was very effective. However, it did
not resolve the compression. The patient stayed in a
hunchback.
Q. The patient would stay hunchback?
A. That’s right. We came up with a brand-new
technique where we were able to increase the viscosity
of the bone cement, that we elevated the height of the
vertebral body. It’s not just the pain, but the patient
has a straight posture.
Q. So the old solution to carry the pain, that the
patient was still hunchbacked?
A. That’s correct.
Q. With your solution, you took care of the pain and
the patient was able to straighten up?
A. Yes.
Q. And is DFINE somewhere else?

365
A. Yes.
Q. Okay. Were they acquired at some point?
A. Yes.
Q. Now, what was your next company?
A. Minerva.
Q. Okay. Now, when did you found Minerva?
A. 2008.
Q. Is Minerva a Delaware corporation?
A. It is.
Q. Okay. Now, so by the time you started Minerva,
how [1221] many years had it been since you designed
the older NovaSure product?
A. About ten years.
Q. Ten years?
A. Yes.
Q. And are you president -- at the time when you
founded it, were you president and CEO of Minerva?
A. Yes, I was.
Q. Okay. Did there come a time when someone else
assumed that position?
A. Yes. In 2011, Dave Clapper took over for me.
Q. Okay. And did you remain on the Board of
Directors?
A. Yes, I am.
Q. Okay. At a high level, what’s your role as the
director?

366
A. I go to the board meetings. Management of the
company, make the presentation at the company.
R&D, sales, various corporate subjects.
Q. Okay. Including sales?
A. That’s right.
Q. Now, were you a member of the board when
Minerva began to actually sell its product?
A. Yes, I was.
Q. Okay. And so did the board have to approve the
launch and sale of Minerva’s product?
[1222] A. I’m not sure the board had to approve it.
Q. Well, collectively, did the board approve the
launch and sale of Minerva’s product?
A. Absolutely.
Q. Okay. And let’s see. We’ll move on.
So are you aware that Hologic has alleged that
Minerva copied the old NovaSure product, the
handpiece?
A. Yes, I am.
Q. Okay. And let’s see. I guess we’ve seen it now
several times. If you held up the two devices, the
handpieces side by side from a distance, they appear
to have a similar shape. So why do you believe that,
nevertheless, Minerva did not copy the NovaSure
product?
A. It can be very deceiving. You know, there are
devices on the market prior to NovaSure that has very
similar shape. You know, handle, controller,
handpiece.

367
Q. Okay. Now, do you personally have knowledge of
an older device that predated even the NovaSure with
this same general shape?
A. Yes, I am.
Q. Okay. And what device was that?
A. That was the Vesta device.
Q. Now, when did you become aware of the Vesta
device before you completed your design of the
NovaSure?
A. In 1995, when I reviewed their patent.
[1223] Q. Was that before you completed your
design of the NovaSure?
A. Way before.
Q. Way before?
A. Way before.
Q. Okay. Can we see the next slide, please?
And what are we looking at here?
A. This is the Vesta disposable device. You can see
a slender shaft, a handle. What you don’t see here, the
connection that goes to an outside controller. On the
shaft, you can see the tip.
This is enclosed within this, so the sheath was pulled
back, exposing the triangular shape. You can see the
electrodes on the surface of the balloon.
Q. So am I correct that this portion here is inside
here?
A. That’s correct.
Q. Okay.

368
A. It’s easier at this point, the physician, when they
put it into the uterus, they pull back the sheath and
exposing this triangle shape, applicator.
Q. Is this the portion that would go inside the
uterus?
A. That’s right. I call it the business end. This is the
most important part of the entire product. The rest of
this is -- it’s really just a shaft and a handle. Every
[1224] device has a shaft and a handle.
Q. And was the Vesta system that you even be
countered in ’95, I think you said, was that an
endometrial ablation device?
A. Very specifically designed for endometrial
ablation. They called it at the time global endometrial
ablation.
Q. Let’s go to the next line. What do you see here?
A. The same thing. You can see the business end is
enclosed within the shaft, the handle, and you can see
the controller that they used, and that’s it. So that is
the entire system here.
Q. Okay. And if we could go to JTX-18, the cover,
and zoom in on the upper half, please.
Okay. What do we see here?
A. So -Q. If we could start with what’s up in the upper
right?
A. So just like with every patent, you can see this
is the patent number. The last three digits, the ’470
patent. You can see, you know, it was Vesta Medical
who it was assigned to. That was the company,
intellectual property. You can see it was filed in 1993.

369
You also can see it was issued in 1995, August 22nd,
about a year earlier before we started the NovaSure
project.
Q. And if we could also highlight the title. What
does this tell us?
[1225] A. The title, it just says this is a device for
endometrial ablation.
Q. Okay. Now, if we could go to Figure 12 of that
same ’470 patent, so that’s the patent?
A. Yes.
Q. And what do we see here?
A. This is a drawing representation we just talked
about.
Q. All right.
A. You know, the triangle shape, applicator head,
the slender introducer, some sort of handle, and then
the controller.
MS. ELSON: If I may, Your Honor, step over here.
THE COURT: Which exhibit are you handling?
MS. ELSON: Thank you, Your Honor. It doesn’t
have a label, but this is the -- oh, here we go. JTX-47.
THE COURT: Thank you.
MS. ELSON: It’s the NovaSure Advance, I believe.
THE COURT: All right.
BY MS. ELSON:
Q. So, Mr. Truckai, did the -- what’s shown there
have the same general shape as the NovaSure?
A. It has to. You know, I cannot put a square device
into a triangle shape.

370
[1226] Q. Okay. And your patent was filed in 1993?
A. That’s correct.
Q. Okay. Can we go to the next slide, please.
So what do we see here? Let’s start with the right.
A. Okay. So, again, just as I described, 190 is a
triangle shape, applicator head. You can see a slender
tube, which actually is slidable, so you can hide head
to put in. You can see a handle. It’s nothing specific,
but the handle was described in the patent to objection
date the sheath, you know, to move over enough from
the energy applicator head, and a controller that
controls the radiofrequency ablation process.
Q. Now, at the time you filed your ’520 application
for your moisture transport invention, did you disclose
this earlier Vesta patent to the Patent Office?
MR. WOLF: Your Honor, we’re back to the
continuing objection.
THE COURT: Overruled, and you may continue.
MS. ELSON: Thank you, Your Honor.
BY MS. ELSON:
Q. So did you disclose this older Vesta patent to the
Patent Office?
A. Yes, I did.
Q. And why was that?
[1227] A. For the very same reason you asked me
at the very beginning yesterday. Do I value other
intellectual property of others?
Q. Do you value?
A. I am. And I feel it’s very important for me to
provide the Patent Examiner all the intellectual

371
property which relates to the product I’m submitting
for invention, to evaluate that subject, and in this case,
it happened. You know, this is a very important
disclosure to the Patent Office.
Q. All right. Could we go, please, to the background
section of DTX-16, the ’520 patent, the written part of
the patent, of the background section, please.
All right. And with a do we see here, Mr. Truckai?
A. So the patent we filed, the ’520 patent, we clearly
described that there is a device out there, you know,
prior to our invention.
Q. Prior art?
A. Moisture transport. Prior art. It describes that it
has an expandable bladder with electrodes on its outer
surface.
Q. Just so we’re clear, that’s the ’470 patent you’re
disclosing to the Patent Office in your application?
A. That’s right. That’s right. That was one of the
[1228] patents among many that we disclosed.
Q. Now, did you consider this general shape of the
NovaSure handpiece to be your invention?
A. Not at all.
Q. Okay. And what did you consider your moisture
transport invention to be?
A. Exactly what you just said. This is the business
end, moisture transport that posed electrode mesh
that holds the seem to go through and away from the
ablation site.
Q. Now, I’d like to just now jump ten years into the
future and talk about Minerva’s device.

372
What did you consider to be the most critical
component of Minerva’s device?
A. Very much the same thing. You know, the very
end, the end of the applicator, because that’s what’s
doing the procedure.
Q. And what does Minerva call that business end of
its device?
A. We named it PFA, plasma formation array.
Q. Plasma formation array?
A. That’s right, because it really describes the
energy source we’re using the plasma energy to ablate
the tissue.
Q. All right. Can you just tell us just briefly, what
is plasma? Briefly, if you can?
A. It’s ionized gas, so it doesn’t tell us too much. But
[1229] the best way I can describe it, if you look up in
the sun, it’s all plasma.
Q. Okay.
A. So plasma is the most common material, you
know, in the universe.
Q. So could we put up slide DDX-7-36, please.
Okay. So what do we see on the left?
A. On the left, the device we’ve been talking about,
the porous electrode mesh with a metallized fabric.
Q. And on the right, ten years later, what do we
see?
A. So this is, you know, the Minerva energy
applicator head. This is plasma energy. What you see
here, you know, internally, circulated. Those little
filaments, okay, they are scanning the silicone

373
material membrane surface and they’re looking for on
the other side tissue which hasn’t been thermally
treated yet.
Q. Ablated?
A. Ablated.
Q. Now, did you ever believe, or were you aware of
anyone at Minerva believing that Minerva covered the
NovaSure?
A. No, I didn’t. I don’t know how. So different.
Q. Okay. Now, what did you -- let’s see. Is there
anything else like Minerva’s plasma formation array
on the market as far as you know?
[1230] A. I’m not aware of anything remotely.
Q. As far as you know, do any of the NovaSure
variations along the way use plasma in any way to
ablate tissue?
A. No.
Q. All right. Have you prepared a summary of the,
what you consider the advantages of the Minerva over
the NovaSure?
A. Yes, I have.
MS. ELSON: Can we bring that up, please?
BY MS. ELSON:
Q. Okay. Just briefly, we’ve heard some of this, but
can you just briefly touch on what some of the
advantages are as far as you believe?
A. So, first of all, you have a very smooth slippery
silicone membrane, non-stick. NovaSure has a rough
metallized fabric. We are controlling the ablation
steps. We call them plasma streamers. You can see the

374
little filaments kind of moving around. Those are the
ones seeking out where there is un-ablated tissue. So
this is a completely different mechanism. You know,
the plasma streamers. We have a smaller diameter.
That means, you know, that it’s easier to insert.
We used a small portion of the power. You know, you
say here one-fourth of the power. Very likely, that’s
one fourth of the power, which is great, because you
want to [1231] put the minimal amount of current into
the patient. Because of the silicone, you are able to
retain the moisture.
My pointer died.
Q. I got it.
A. Sorry about that. So we weren’t able to -- there’s
nothing moving the moisture. Keeping the tissue
moist, it’s very important, because it’s very easy to
remove the device. With NovaSure, many times what
happened, it’s almost like the tissue is seared.
Q. Seared?
A. That’s right. Yes. So seared to the electrode. It
was very hard to remove. Many times, it would pull,
coagulate the tissue off.
So retaining the natural moisture is very important.
And because of that, we had less tearing and bleeding,
which is very important for the procedure, because
you -- other issues are not favorable to the patient.
Q. Less tearing and bleeding?
A. That’s right. It’s always better. This membrane
doesn’t over heat, because it keeps the moisture to
maintain the equilibrium of the surface.
Q. Okay. Now, did all of this factor into your belief
that you did not copy the NovaSure?

375
A. At the time, I really believe and I still believe.
Q. Now, have you prepared -- I’m sorry. Can we
show [1232] JTX-32 and JTX-24, just the two charts of
the SSED, please.
Okay. What do we see here?
A. This is the safety and efficacy chart approved by
the FDA.
Q. So what’s the upper one?
A. So the upper one is the Minerva, as you can see,
and the lower one is the NovaSure.
Q. Okay.
A. Effectiveness.
Q. And what is the difference in study success
rates?
A. This one shows that the Minerva device was
significantly higher. And if you are looking at
amenorrhea, complete stop of bleeding.
Q. Complete stop of bleeding?
A. Complete stop of bleeding. It’s virtually double.
Q. Okay. Now, did this factor into your
understanding that you didn’t copy the NovaSure at
all?
A. I think -- I think this is the other proof that they
are different, and it is factored in, because if we would
have the same technology, we would have the same
result.
Q. I’m sorry. Can you say that again?
A. So if we would have copied the NovaSure, we
would have ended up with the same result. Same
technology, same process.

376
Q. You would have expected the same result?
[1233] A. Same
different.

result.

This

is

significantly

Q. Now, did Minerva’s rates stay the same since
2015?
A. I believe they improved.
Q. Okay. Can we see the next slide, please.
Can you tell us what we’re looking at here?
A. So after 2015, the last year the FDA agreed that
Minerva success rate is 93 percent versus the 77.7
percent of NovaSure and the amenorrhea rate is 72
percent versus 36 percent. I think we additionally
proved the point we were making before.
Q. Okay. Now, let’s go back to our timeline. We left
off where you started Minerva.
And did you at that time, as you were about to found
Minerva, did you immediately think to use plasma for
specifically endometrial ablation?
A. No.
Q. Okay. Can you look in your binder at DTX-1367,
please.
A. One second. Oh, DTX. I’m sorry.
Q. DTX-1367. There are two volumes. Do you have
it?
A. I see it.
Q. Okay. And it’s probably best if you turn to the
second page. There we go.
What is this document?
A. This is a patent for tissue ablation.

377
[1234] Q. Okay. Is that your patent?
A. This is my patent, yes.
Q. Okay.
MS. ELSON: Your Honor, move to admit.
MR. WOLF: Subject to -THE COURT: Objection?
MR. WOLF: Subject to prior objection, no objection,
Your Honor.
THE COURT: It’s received.
(DTX-1367 was admitted into evidence.)
MS. ELSON: May we publish, Your Honor?
THE COURT: Yes, you may.
BY MS. ELSON:
Q. Okay. If we could see the cover of DTX-1367.
And what do we see here, Mr. Truckai?
A. So if we go in the same order before, you can see
this is the patent number, which is the ’068 patent,
and it says it’s a tissue ablation system. I’m the
primary inventor, and it has been assigned to Hermes
innovation, which is my intellectual property holding
company. I put many patents into the corporation.
Q. Who owns this patent now?
A. Minerva.
Q. And you’re a named inventor; is that correct?
A. Yes.
[1235] Q. Now, did you in your -- let me just ask you
generally. So was this patent directed to use of plasma
specifically for endometrial ablation yet?

378
A. No, because this technology is very valuable in
many other procedures.
Q. So were you exploring?
A. Exploring, you know, other areas where we can
use the technology.
Q. Okay. Now, did you disclose even in this patent
the older moisture transport patent, the ’520, we were
looking at earlier?
A. Yes, I did.
Q. May we go to that, please? Page 2, I believe. All
right.
This is -- at the top, this is page 2 of the patent?
A. That’s right.
Q. Okay.
A. That’s right.
Q. You have it in front of you, too?
A. Yes.
Q. What is all this listed?
A. This is all the patents I found I have to disclose
to the Patent Office, to the examiner, to evaluate if this
is a new novel technology or not. So I felt even though
it’s my [1236] own private patent, I felt compelled to
disclose it, because they have to see what’s out there
and make a determination, is it patentable or not.
Q. All right. And what do we see here?
A. This just shows that it was disclosed to the
Patent Office, the existence of the ’520 patent.
Q. This is the old moisture transport patent?
A. Yes.

379
Q. Now, if we could go to the abstract. Go back,
please. The page, the cover. What is this telling us?
A. It’s pretty much describing the invention. It says
that you have an enclosed chamber. You are creating
plasma within the chamber, which is ionized plasma.
Q. If we could go to Figure 27 of your same ’068
patent, please. What do we see here?
A. This technology easily can be used in a cardiac
application, where you want to ablate some cardiac
tissue responsible for arrhythmia.
Q. Just generally backing up, this is very early just
before you founded Minerva?
A. Yes.
Q. And were you exploring different uses of plasma
at this point?
A. Yes.
Q. Okay. Can we go to the next figure, 33, please.
[1237] Okay. What do we see here?
A. This is your -- this is the stomach and this is the
area which needs to be ablated for eliminate cancerous
cells.
Q. Okay. Did there come a point when you began to
hone in on the use of plasma specifically for
endometrial ablation?
A. I mean, realized the capability of the technology,
and we found it’s very applicable for ablation and
would improve lots of shortcomings of the prior
technology.
Q. So you began to focus on endometrial ablation?
A. Yes.

380
Q. Would you please look at your binder, and DTX -yes, I’m sorry. So there’s a series here. DTX-71. Look
at that first.
A. DTX-71.
Q. Take a look. And we’ve seen, what is it?
A. This is a picture. I’m assuming it’s a video.
Q. This is the same video of the plasma formation
we’ve seen earlier?
A. Yes.
Q. Okay. Now, if you could look also, just quickly at
DTX-103 to 118. Just flip through those and let me
know generally what those are.
A. They are -- seem to be older experimental videos
which [1238] were made.
Q. And were these videos you had created of your
prototyping?
A. Yes, in our lab.
Q.

Roughly, when was that?

A. 2008/2009.
Q. So are these video records of your work that you
created in the ordinary course of your prototyping?
A. Yes.
Q. Okay.
MS. ELSON: Your Honor, move to admit, that would
be DTX-71, DTX-103 to 118.
THE COURT: Any objection?
MR. WOLF: No objection, Your Honor.
MS. ELSON: All right.

381
THE COURT: The exhibits are received.
(DTX-71 and DTX-103 to DTX-118 were admitted
into evidence.)
MS. ELSON: Thank you.
BY MS. ELSON:
Q. Let’s play some of these videos for the ladies and
gentlemen of the jury of your prototyping work. Let’s
show the earliest one, DTX-103.
Okay. First of all, before we roll it, what are we
looking at here?
[1239] A. That was one of the early experts where
we put a silicone membrane on a tissue. You can see
this is under the device. Square box.
Q. This is a box?
A. That’s right. So you can see through it with an
injecting argon gas.
Q. You’re injecting argon gas?
A. Into that chamber and we’re looking at how the
plasma formation took place, how it reacted, and
studying, we have to exchange argon.
Q. Okay. Can we play it?
A. Sure.
MS. ELSON: Go ahead.
(Video played.)
THE WITNESS: You can see, once you started
somewhere, that plasma formation, it spreads
throughout the entire chamber.
You can see here, you know, you have long plasma.
I want to point out, this is plastic, you know, and it

382
doesn’t melt. So it’s ablating the tissue. The plasma
filaments are hitting the membrane and kinetic
energy of the plasma is going to heat generally, heat
within the silicone membrane.
BY MS. ELSON:
Q. So this is one of your early prototypes?
[1240] A. Yes. It was very exciting to see how that
technology works.
Q. Okay. Could we see DTX-105, please.
What do we see here? And you can ask to zoom in on
any part.
A. A squid.
Q. A squid? Okay. And what is it?
A. So this is all the inflow and outflow. You can see
how slender is the shaft. And down here, that was the
earliest prototype we were able to put together. You
can see the silicon chambers. We put electrode inside.
We flow argon gas in and out of the chamber.
Q. Did this early prototype have two chambers?
A. That’s the separation. One chamber and another
chamber.
Q. And can we play or bring up 106, please.
Okay. Before we roll it, what are we looking at?
A. So this is our squid. You can see nobody
expended it. We put in this argon gas. I it expended.
Vaguely, you can see the electrodes.
Q. Can we play it now?
A. We’ll be putting the argon gas. You can see the
same plasma formation happening, just like the other
one. Not perfect. You can see it’s expending and

383
contracting. There [1241] was no way for us to know
how this technology based, because there was no prior
art. So I couldn’t learn from anybody that experiment.
Just like this one, you can see it exploded. So it wasn’t
a very good day for us.
Q. Is this a setback?
A. I would say so.
Q. Okay. So can we go to DTX-107. And what do we
see here?
A. Now, this is another experiment, you know.
Q. Can we just roll this one?
A. Where we lose the two chambers. This is a single
chamber now.
Q. So now you’re down to a single chamber?
A. That’s right.
Q. Okay.
A. So then the expert is thinking, can we make this
more uniform in nature. Can we control the plasma
formation and ablation process more, especially that
depth of coagulation of the tissue.
Q. Would plasma control an issue?
A. I can’t even describe the number of issues.
Q. Okay.
A. Exchange rate, voltage, keeping the argon gas
pure, you know, during the process. I mean, I can talk
a whole day about it. It was a lot of bad days.
[1242] Q. Unfortunately, we don’t have a whole
day.
So DTX-108, please. And what do we see here?

384
A. You can see it’s resembling a balloon.
Q. Can we zoom in on the tip there. Okay.
A. Again, it’s still crude, but now you’ve got the
triangle shape. Unfortunately, it’s not transparent,
but maybe it has the electrodes inside and the gas
outflow for controlling the argon gas.
Q. Okay. Now, if we could go to DTX-109. Okay.
Now, before we roll it, what do we see here?
A. That was very exciting. That was one of our
better prototypes. You can see now it’s a nice triangle
shape and the internal electrodes, because the
internal electrode is not touching the shape.
Q. So far are we
chronological order?

seeing

these

videos

in

A. Pretty much.
Q. Yes? Okay. And if we could go to DTX-111,
please.
A. Yes.
Q. Okay.
A. This is, again, just showing that you see much
finer this solution of plasma, more controlled. This is
just a configuration, very close to what we have today.
Q. If we could go to 113.
A. And this is, again, very, very close, but it’s still
[1243] not the current product. But you can see here,
now we have the length, improve the flexure.
Everything was worked out.
What you can see here, you put the external
electrode on it. Aluminum foil.
Q. Aluminum foil?

385
A. Yes.
Q. At this time?
A. At this time we used whatever was in the
kitchen. We just glued it on and we had a beautiful
plasma formation.
Q. What does the final device use in place of the
aluminum?
A. We have gold.
Q. Gold. Now, if we go to DTX-115, please.
And what are we seeing here?
A. This is again an experiment with the same
device. Actually, you can see here.
Q. And what is the device sitting on?
A. It’s liver tissue.
Q. Liver tissue?
A. Yes.
Q. What kind of liver tissue?
A. We use pork or cow liver.
Q. Pork or cow liver?
A. That’s right. Porcine or bovine.
[1244] Q. All right.
A. Because it has the closest consistency to
endometrial tissue.
Q. Okay. If we could go to 117, please. And were you
still having issues at this time?
A. Yes. As you can see, this didn’t control very well
the process. So move forward, a setback. I mean, years
of development.

386
Q. Right. Let’s look at again the final product, the
final result of all of your research and development.
What do we see here?
A. Now you have the gold electrode on the outside.
Inner electrode, all the proportions for plasma
formation has been finished.
Q. So this is the commercial device?
A. This is the commercial device.
Q. And did there come a time when you decided to
file patents on your own plasma based solution for
endometrial ablation?
A. Yes, I did.
Q. All right. If you could turn back to your binder,
please.
A. Okay.
Q. And it’s specifically DTX-1368 to start with.
A. 13?
[1245] Q. 1368.
A. DTX?
Q. DTX-1368, and just tell me what you see there.
A. I do not have DTX-1368. Oh, I’m sorry. 1368.
Q. Eight.
A. I’m sorry.
Q. And what is it?
A. This is tissue ablation patent.
Q. Okay. And just to deal with them together, if you
go to the next one, DTX-1369, what is there?
A. Again, this is our endometrial ablation patent.

387
Q. Okay. And roughly, when did you file these two
patents?
A. In 2009/2010.
MS. ELSON: Okay. Move to admit, Your Honor.
MR. WOLF: Same objection as before.
THE COURT: Overruled. 1368 and 69 are received.
MS. ELSON: Thank you, Your Honor.
(DTX-1368 and DTX-1369 were admitted into
evidence.)
BY MS. ELSON:
Q. So if we could just bring up one of the two for
now.
So this is DTX-1369. And before we start that.
MS. ELSON: So may I approach the witness, Your
[1246] Honor, just to show him something?
THE COURT: Yes, you may.
BY MS. ELSON:
Q. I’m going to bring you, Mr. Truckai, these two
documents. What are these? What are the two items
I’ve just handed you?
A. This is the two issued patents describing our
technology.
Q. Are these the originals?
A. These are the originals.
Q. From the Patent Office?
A. From the Patent Office. This is like a piece of
deed or property.
Q. Thank you.

388
Now, let’s take a look at one of your two plasma
formation patents. DTX-1369. And if you could just
briefly again walk us through what we see here as far
as the number, title, and your name, et cetera.
A. The patent issued. The last digit is 732. The
patent was issued in 2013, August 6th. It’s describing
an endometrial ablation device and system, such as
devising the system. It’s naming me the primary
inventor and one more person. It’s assigned to Hermes
Innovation.
Q. Who owns these patents now?
A. Minerva Surgical.
[1247] Q. Okay.
A. And you can see that it was filed in 2009,
October 26th.
Q. Okay. Go to the abstract, please. And what does
this tell you?
A. Pretty much it’s describing just like a prior
patent. Specifically, an endometrial ablation device.
Q. Now it’s specifically endometrial ablation?
A. Yes. It’s still having flute-like interior chamber.
Q. If we could go to page 2 of this same patent.
Again, what are all of these columns?
A. These are the referenced patents.
Q. That you disclosed?
A. We disclosed to the patented office.
Q. If we could zoom in on that one at the bottom.
Once again, did you disclose your old moisture
transport technology to the Patent Office?
A. Absolutely.

389
Q. Okay. Now, let me ask you, why you didn’t you
disclose the ’348 patent that’s in this case?
A. I couldn’t. At that time, it wasn’t in existence.
Q. It didn’t exist?
A. No, it did not.
Q. Okay.
A. Years later.
[1248] Q. Okay. Very good.
Now, I’m going to change gears now and ask you just
a few questions about Minerva’s red/green indicator,
so this little red/green item here on the handle.
THE COURT: So why don’t we take our morning
break before you do that, counsel.
MS. ELSON: Yes.
THE COURT: So let’s take ten minutes, ladies and
gentlemen.
(The jury was excused for a short recess.)
(Short recess taken.)
--(Proceedings resumed after the short recess.)
THE COURT: Please be seated. If we can get the
jury.
MR. WOLF: Your Honor, when do you want to break
for lunch today?
THE COURT: I don’t know. Sometime around noon.
Before, but not after. The jury doesn’t listen to you
after noon when the clock strikes, so sometime around
noon. If at a quarter till, we’ll break at a quarter till.

390
MR. WOLF: We’ll still be on cross-examination.
THE COURT: So if your cross-examination is going,
then we’ll go until noon, but if we’re finished with him,
we might stop.
[1249] MR. WOLF: I was just trying to figure out if I
get to a module at five of, should I flag Your Honor?
THE COURT: That’s fine.
(The jury entered the courtroom.)
THE COURT:
gentlemen.

Please

be

seated,

ladies

and

You may continue your examination.
MS. ELSON: Thank you, Your Honor.
BY MS. ELSON:
Q. So, Mr. Truckai, just to wrap up on the three
patents we just walked through collectively, that was
DTX-1367, 1368 and 1369.
Are those three collectively, do you mind if I call
them your plasma formation patents?
A. You may.
Q. Okay. And does Minerva actually practice its
own plasma formation patents in its system?
A. Yes, they do.
Q. Okay. Very good. And these plasma formation
patents, do they have anything to do with the older
NovaSure technology?
A. I don’t believe so.
Q. Okay. But you disclosed the older NovaSure
technology in the form of that ’520 patent?
A. Absolutely.

391
[1250] Q. Okay. And, you know, I just want to ask
you: You’ve been accused of copying NovaSure in this
case. How do you feel about that?
MR. WOLF: Objection, Your Honor. Mr. Truckai has
not been accused of anything.
THE COURT: Please?
BY MS. ELSON:
Q. Excuse me. Minerva, your company, has been
accused of copying the NovaSure. How do you feel
about that?
A. Speechless.
Q. Does it trouble you?
A. Yes.
* * * *
[1256] BY MS. ELSON:
Q. Okay. I’m going to change topics, Mr. Truckai,
and ask you just a couple questions.
[1257] Let’s go back to 2004, when the board sold
Novacept to Cytyc. Okay?
Now, at the time of the sale of Novacept to Cytyc,
what percentage of Novacept did you own personally?
A. Two or two-and-a-half percent.
Q. Two or two-and-a-half percent?
A. Somewhere around there.
Q. Now, how much did Cytyc pay for Novacept?
A. $325 million.

392
Q. Okay. So if I had my math right, you -- if you
owned, let’s go with the upper bound, two-and-a-half
percent.
You made about 8 million from that sale personally;
is that right?
A. That sounds about right.
Q. Okay. So can you tell us, what happened to the
other $317 million from the proceeds of that sale?
A. A large portion went to the investors and a large
portion went to the people who developed it and
worked within the company.
Q. Employees?
A. Technology. The employees, yes.
Q. All right. So was that the remaining 97.5 percent
of the sale went to others?
A. Yes, it did.
Q. Okay. Now, one last topic here. Would you
please [1258] turn in your binder to tabs PTX-22 and
23.
A. Okay.
Q. Now, what do you understand these to be?
A. If I recall right, it’s the video which I shot back
in 1996 or around.
Q. So these are screen shots of videos you took in,
when did you say?
A. 1996.
Q. Okay. And did you create these videos?
A. I did.
MS. ELSON: I move to admit, Your Honor.

393
MR. WOLF: No objection.
THE COURT: 22 and 23 are received.
(PTX-22 and PTX-23 were admitted into evidence.)
BY MS. ELSON:
Q. So let’s start with PTX-22. And if we could just
start, not play it. Just bring it up.
Okay. What is this? This is before you completed
your design of NovaSure?
A. Yes. We had nothing. That was just a very rough
fabric. We created insulated layers. We had no
triangle shape, no handle. We didn’t even have a
generator.
Q. This is very early?
A. Very, very early.
Q. Okay. So give us some context. What is this?
Why [1259] did you create this video?
A. I’m sorry?
Q. Just some context. Why did you create this
video? What is it?
A. I had to go to Johnson & Johnson and ask for an
investment and they asked me to create a description
of the technology.
Q. Okay.
MS. ELSON: Can we play it now?
(Video played.)
BY MS. ELSON:
Q. So -A. So --

394
Q. So just very briefly, what are we seeing here?
A. We can see the -- you can see the coagulation in
the tissue, so the tissue. Anywhere where the tissue
turns white is being killed or ablated. An area, you can
see that the depth is being controlled by the center, the
center distance of the electrodes.
You can see -- you can have a coagulation where the
depth of coagulation goes, and then stops.
Q. Okay. I really only have two questions with
respect to this video. Are we watching an ablation
using Minerva’s device?
A. No.
[1260] Q. Okay.
A. This is -- you can see different, probably
different everything.
Q. How many years was it until Minerva’s device
even existed?
A. Twelve, 13, something like that.
Q. Sorry?
A. 12 or 13, or something like that.
Q. So this is about 12 or 13 years before Minerva’s
commercial device even existed?
A. Something like this, yes.
Q. And so if I was showing this to someone and
telling them or suggesting to them that this is what
they would get as a consequence of using Minerva’s
device, would that be true?
A. No, not at all.
Q. Now, is this using even the NovaSure?

395
A. No, it’s not. It’s a concept, a technology concept.
Q. Okay. If we could now play PTX-23.
Actually, can we go back on the years for a moment.
You said you did this in ’96?
A. That’s right.
Q. And you formed Minerva in 2008?
A. Yes.
Q. So how many years was that?
[1261] A. That’s about 12 years, but, you know -Q. You’re right, you’re right.
A. In 2008, I just did the math.
Q. All right. So PTX-23, please. And if we can just
ROLL it.
Okay. I have basically the same question: Are we
seeing proof of concept, whatever you call it, using
Minerva’s device?
A. No.
Q. Okay. And did Minerva’s device even exist?
A. No.
Q. This was also ’96?
A. Yes, same time.
Q. Was this even using the NovaSure?
A. No.
Q. Did this predate the NovaSure?
A. Way before.
Q. Okay. So if I showed this to somebody and said
or suggested, implied this was somehow reflecting a

396
consequence of what would happen if you used
Minerva’s device, would that be accurate?
A. Not at all.
Q. Okay.
MS. ELSON: That is the end of my direct
examination, Your Honor. Pass the witness.
[1262] THE COURT: Cross-examination, counsel.
MR. WOLF: It will take us a moment to set up.
THE COURT: Yes, that’s fine.
MR. WOLF: I promise we will not use all of these
documents.
(Pause.)
THE COURT: Whenever you are ready, Mr. Wolf,
tell me, and I will turn the microphones on.
MR. WOLF: Yes, Your Honor. Thank you. I’m ready.
Thank you.
THE COURT: All right. You may proceed.
CROSS-EXAMINATION
BY MR. WOLF:
Q. Good morning, Mr. Truckai.
A. Good morning.
Q. It is an honor to speak with you, and I speak for
everyone in the room when we say we were truly
impressed with the history of your development and
your contribution to medical science.
I want to talk to you first about the board that you
talked about, the board of directors. If I recall
correctly, you said board made important decisions
with regard to the Minerva product; is that right?

397
A. The board advises the CEO how to proceed, but
the CEO makes the decision.
[1263] Q. The
decisions?

board

advises

on

significant

A. The board approves significant decisions.
Q. Okay. So let’s find out who the board is and who
makes those decisions.
And just so we’re clear, you are a member of the
board?
A. I am.
Q. And you have been the whole time Minerva has
existed?
A. Yes.
Q. You’ve never actually been an employee of
Minerva though; right?
A. No.
Q. I asked my question badly because it was a
double negative. Have you ever been an employee of
Minerva?
A. No. I was always a CEO or board member.
Q. Now, given your other business interests, you
don’t spend much time on Minerva; is that correct?
A. I spend whatever I have to.
Q. But you don’t spend time on Minerva; right?
A. Not anymore. Not on a daily basis.
Q. Yes. And Mr. Clapper is fully capable to run the
company in your opinion; is that right?
A. Absolutely.

398
Q. All right. So you don’t need to?
A. I don’t.
[1264] Q. All right. Now, from 2008 to the present,
Minerva has raised about $125 million of debt and
equity; is that right?
A. It sounds about right.
Q. And I want to get a sense of who has been
investing and what the role is.
Let’s start with a company called Novo Holdings.
Are you familiar with that?
A. Yes, I am.
Q. They are a global venture company?
A. They are a very large venture firm.
Q. Could you explain to the jury what a venture
firm is?
A. Venture firms, these are inventors who put
money into a company for -- in exchange for a certain
percentage of ownership in the company.
Q. Okay. So Novo, do they have a board seat?
A. Yes, they do.
Q. Okay. Could you explain how venture companies
come to have a seat on a board of directors?
A. They, they come on the board as part of the
investment. Very simply, you know, you want X
amount of money? Okay. I want X percent of the
company, and I also want to be on the board of the
company. And it depends on the situation where the
company is. You can take the offer [1265] or not.
Q. Right.

399
A. So most of the time, you know, companies do
take those offers, and they bring them on the board.
Q. And sitting here today, roughly,
percentage of Minerva does Novo hold?

what

A. I have no idea.
Q. Would Mr. Clapper be in a position to know that,
do you think?
A. Probably, he could give you a more accurate
number.
Q. Okay. Let me ask the question a couple more
times then. If you don’t know, that’s just fine.
Vivo Capital, is that another venture capital
company that has invested in Minerva?
A. Yes.
Q. And they’re headquartered in Beijing, Shanghai,
Taipei and Palo Alto; right?
A.

know only the Palo Alto people.

Q. And they have a seat on the board; is that right?
A. They do.
Q. Do you happen to know what percentage of
Minerva Vivo Capital owns?
A. I can’t give you a very accurate answer.
Q. Okay. New Enterprise Associates is another
global venture capital company; is that right?
[1266] A. That’s right. One of the largest.
Q. And they have a seat on your board as well?
A. That’s correct.

400
Q. And I will ask the same question, but don’t
worry. Do you know what percentage they own?
A. Double digit.
Q. Double digit?
A. Yes.
Q. Okay. Versa, another San Francisco venture
capital company that has invested in Minerva; is that
right?
A. That’s correct.
Q. Do you have a sense collectively what these
venture capital companies and similar companies own
in Minerva altogether?
A. Most of it.
Q. And you and your family personally own about
five percent of Minerva; is that right?
A. 4.9.
Q. Now, the goal of the venture capital companies
that own Minerva is to sell Minerva as a company to
some other big company; right?
A. Not necessarily.
Q. Well, are you familiar with the term liquidity
event?
A. Oh, yes.
Q. What is a liquidity event? Could you tell the
jury?
[1267] A. A startup has technically two exits,
successful exits. One is to go for an IPO, which you go
on the stock market. Another way to go is if a larger
company can purchase the company, and they pay you

401
money for the company. So either you go IPO or you go
into a merger and acquisition.
Q. These venture companies that own a fair
majority of Minerva, they’re looking to do one of two
things. Either get bought by someone big like Johnson
& Johnson or Medtronic, some of the companies that
bought your previous startup company, or
alternatively go into the stock market and do an initial
public offering; is that right?
A. I can’t speak for that the venture partners.
Q. But you’ve had board meetings where they’ve
talked about strategies and what you are trying to do
with the company; is that right?
A. We are at the stage where we want to run the
business, so we want to be involved with the business,
and we want to be -- that’s the stage we’re at the
company.
Q. You would agree it’s important to the venture
companies that Minerva reaches a liquidity event?
A. I think it’s very important for all of us.
Q. Now, this case is about the ’183 and the ’348
patents. You understand that?
A. I do.
Q. All right. Can we call up on the screen JTX-001,
and [1268] that’s the ’183 patent, what we sometimes
call the procedure patent. And you are one of the
named inventors; is that right?
A. That’s right.
Q. And you would agree that you had a significant
role in developing the technology in the ’183 patent?
A. Yes, and I’m proud of it.

402
Q. And in this case you understand that it has been
determined that Minerva infringes this patent; is that
right?
A. I understand that the decision has been made.
The decision has been made.
Q. Understood. Let’s call up JTX-002. And this is
the ’348 patent. And this is what we’ve been calling the
product patent.
You’re the lead inventor on that; is that right?
MS. ELSON: Objection, Your Honor. We talked
about this.
THE COURT: This is what Hologic has been calling
the project patent. That’s better.
MS. ELSON: He’s calling it the ’348.
THE COURT: This is what he’s calling it. The
witness can agree or disagree. Your objection is
overruled.
BY MR. WOLF:
Q. And you’re the named lead inventor on this as
well?
[1269] A. Hologic put my name on it even though I
declared that I’m not an inventor.
Q. We’ll get to that, but you are the lead inventor;
right?
A. I am not.
Q. Isn’t your name the first?
A. I didn’t put my name there.
Q. This is a continuation of the application you sold
to Hologic in 2004; is that right?

403
A. Correct.
Q. Okay. Now, you’re also aware that it has already
been determined that Minerva infringes this patent; is
that right?
A. That’s my understanding.
Q. Okay. Now, you held up in your direct the
pretty -- the PTO issue, what we call ribbon copies of
your, your patents with Minerva; is that right?
A. Correct.
Q. All right. And these are the pretty versions of the
’183 and the ’348 patent.
You characterized these as like a deed in property on
direct; is that right?
A. That’s correct.
Q. And you would agree that the ’183 and the ’348
patents are just as much a deed or just as much
property as the [1270] patents you held up; is that
right?
A. Absolutely.
Q. And you don’t mean to suggest that the ’183 or
the ’348 patent are entitled to less respect as deed or
property than the patents you held up during your
direct examination, do you?
A. No, I’m not.
Q. Okay. You understand it’s important for a
company to respect the intellectual property of other
companies; is that right?
A. Yes, I do.

404
Q. So I want to spend some time focusing on
Minerva’s decision-making regarding the ’348 patent,
the patent we have on the screen.
If we could go to PTX-0114, please. Now, let me tell
you.
If at any time -- it’s probably going to be much easier
if we used the screens for documents, but if at any time
you want to see a whole document, they’re in the
binders next to you, it’s entirely up to you, but it
probably will go smoother to use, if we’re all focused.
But, again, whatever you prefer.
A. I’m fine with that.
Q. Okay. Now, this is a letter to you from Mandy
Callahan at Hologic in 2014; is that correct?
[1271] A. That’s correct.
Q. This “Re” line is request for signature, Hologic
inventor declaration; is that right?
A. That’s right.
Q. And the last sentence of the first paragraph sat,
as a reference, I have also attached a copy of the
application as published in February 2014.
Do you see that?
A. Yes.
Q. Let’s turn to that application, 42877.
Okay. Now, this is the application that became the
’438 patent; right?
A. Yes.
Q. Okay. Now, there were some things -- we can
take that down for the moment.

405
A couple things that have been said earlier in this
case that I think might be helpful for you to offer some
insight.
When you file a patent application the first time, not
maybe later on in continuations, but when you file a
patent the first time, that’s not public; right?
A. No. Usually, it’s six months to a year. I can’t
determine how the PTO publishes.
Q. Sure. When you first submit a patent, it’s quote
in secret end quote; right?
[1272] A. I don’t know if you call it secret, but I
have no access to it.
Q. Right.
A. Not public.
Q. Not public.
MS. ELSON: I’m sorry. I just want a clarification. Do
you mean application?
MR. WOLF: The witness answered the question. He
understood it.
MS. ELSON: Okay. Confusing.
BY MR. WOLF:
Q. Not public. When you file your application, your
first applications, there’s nothing wrong about it not
being public when you file it; right?
A. I have no control. I can’t say it’s a problem or not.
It’s -- you know, the PTO published them on their own
timetable.
Q. So you submit an application that’s not public,
and then at some point later on, it becomes public. The

406
Patent Office tells the world, hey, here’s an application
that has been filed. That’s your experience?
A. Normal.
Q. Yes. And once an application is published, you
can go to the Patent Office’s website and look at it. The
whole public can; right?
[1273] A. That’s correct.
Q. Now, the date -- can we pull that back up, the
date of the document? And we see up there publication
date, February 13, 2014.
Do you see that?
A. Yes, I see it.
Q. Okay. So on that date, anyone in the world can
see that Hologic has filed this application; is that
right?
A. Yes.
Q. Now, as of that date, Minerva had not yet even
applied for FDA approval for its device; is that correct?
A. They were in the process of completing their
FDA filing.
Q. So they hadn’t yet filed for FDA approval; is that
right?
A. That was about the time. But you can talk to Mr.
Clapper.
Q. Fair enough.
Now, on that date, on or about -- let’s just round up
a little bit, March 2014, in the face of this application,
Minerva had at least three choices. It could, in light of
the application, it could redesign its product. It could
go to Hologic and say, we’d like a license if this ever

407
becomes a patent, or it can say, we’re just going to go
ahead and keep doing what doing; is that right? Are
those [1274] your three basic choices?
A. I have no idea if anybody besides me was aware.
The only time I was aware of that patent, then the
letter was sent to me.
Q. Let’s talk about that. At the time you get the
letter as a member of the Board of Directors, Minerva
could have done one of three things and maybe more,
but at least these three things.
It could have said, we’re going to design around to
avoid this problem with the patent issues. We’re going
to change the way our product is built.
They could say, we’re going to go to Hologic and get
a license, or they could say, we’re just going to take our
chances.
What did Minerva do at that point?
A. Personally, I was advised -- I don’t recall the
discussion we had at the time, but I can tell you my
advice would be just move forward because our
technology is completely different. And it’s very clearly
in this patent, it’s getting twisted in some way, that
you turn a moisture transport system into a no
moisture transport system.
Q. I understand your opinion about the patent, but
did you communicate that opinion to anyone, or was
that what was in your head at the time?
[1275] MS. ELSON: Objection, Your Honor. I just
want to make sure we’re not treading into privileged
communication. Otherwise, it’s fine.
THE COURT: So your question is: Did he
communicate that with anyone on the board?

408
MR. WOLF: Right.
THE COURT: And management?
MR. WOLF: That’s right. Thank you, Your Honor.
THE COURT: You’re welcome.
THE WITNESS: So when I got this letter, it was on
my mind.
BY MR. WOLF:
Q. Okay.
A. Because I looked at this, it doesn’t make sense.
Q. All right. So now let’s go to JTX-005.
And this is what we call a notice of allowance; right?
If we go to 145901, do you see that, notice of
allowance? Do you see that document?
A. Yes, I can.
Q. And the date mailed in the right-hand side is
4/27/2015.
A. Yes.
Q. And we see that this was mailed to Hologic, but
it is a notice.
[1276] So on this date, on or about April 27th, 2015,
the whole world was put on notice that the ’348 patent
was going to come out; right? That it had been
approved by the Patent Office?
A. I was not aware of it.
Q. Well -A. The only thing I know, when it was published.
Q. You’re aware that the notice of allowance is a
public document put on the website; is that right?

409
A. I wasn’t aware personally.
Q. Well, are you generally aware with all of your
patents that a notice of allowance is the kind of thing
that’s publicly available?
A. No, I’m not.
Q. All right.
A. I’m not a patent attorney.
Q. I understand. There are certainly people at
Minerva whose job it is to make sure you don’t infringe
other people’s patents; right?
A. I assume it.
Q. Yes. So let me ask you, as a board member, in
around the time frame of 4/27/2015, when this notice
of allowance came out, was there any discussion along
the lines of, hey, Hologic is about to get a patent that
we might infringe. We need to do something about it,
and excluding lawyers at the [1277] board or at
management?
A. I don’t recall discussion.
Q. The same three choices; right? You could have at
this point, now that you know a patent is coming out,
you could redesign. You could go to Hologic and ask for
a license, or you could just push ahead.
Minerva chose to push ahead after April 27, 2015; is
that right?
A. Again, I just can speak for myself. I was not
personally aware of it.
Q. And let’s go ahead then to August 4, 2015. If we
could bring up JTX-2 again, please.

410
So the way this works is, the Patent Office issues a
notice of allowance. There are some formalities. It
takes a couple months to get this printed out.
Apparently, it takes three months to get this printed.
And on August 4th, the patent issues; is that right?
A. That’s right.
Q. Okay. And now again, this is -- this is the same
month that you launched the commercial launch of
your product; is that right?
A. That’s right.
Q. And you had three choices again, at least three
choices. In the face of this patent, it now exists. You
could launch the product and risk infringement. You
could [1278] change the design of the product to avoid
infringement, or you could ask Hologic for a license.
What did you do at Minerva?
A. So first choice, changing the product, it’s
virtually impossible. This is a PMA trial. Even the
smallest detail, change in the PMA application, it
would be a month if not a year delay, which I’m sure
you’re aware of. So I don’t think that we can talk about
that, the company was in the position to change the
design of the product.
Q. Did you ask Hologic for a license to the ’348
patent?
A. I’m not aware.
Q. At or around the time of the issuance of the ’348
patent, are you aware of any discussions within the
board or within senior management of what to do
about the ’348 patent?
A. I believe all of a sudden, big challenges.

411
Q. So you decided at that point that you roll the dice
rather than ask for a license and challenge the patent?
A. I don’t feel that, you know, we are rolling dice.
We felt that we had a very good argument that this
patent should have been issued, but, again, it was our
opinion or my opinion at the time.
Q. Okay. Now, let’s go to claim 1 of the ’348 patent.
And we’ve been through this a number of times.
You understood at the time you made that [1279]
decision to challenge the patent that if you infringed
each of these steps, if your device had each of these
things in it, it didn’t get you off the hook for
infringement if you added other things; right? You
understood that, didn’t you?
A. Repeat it one more time.
Q. Sure. Okay. Let’s break it down. I was trying to
get through it. That’s my fault.
So we see that there’s a device for treating the uterus
comprising, an elongate member, an applicator head,
a handle, a deflecting mechanism, and indicating
mechanism. Those are the bake features of the device;
right?
A. Yes.
Q. And you will agree with me that there’s nothing
in there about whether you do or do not use, for
example, argon gas; right?
A. Okay.
Q. Do you agree?
A. I agree.
Q. All right. And you showed those interesting
experiments of the balloon and the water and first it

412
failed, then it succeeded. There’s no mention of
whether you should or shouldn’t have that feature in
these claims; right?
A. I don’t know how that relates to that.
[1280] Q. All right. Let me go back to my original
question, see if this is a better question.
Did you understand as a board that if you did
everything in claim 1, it didn’t matter if you also had
other things in the device. You would still be
infringing?
A. I have not done any analysis or formal analysis
of the claims of this patent, so I can speak only on my
own belief, and my own belief was that, you know, you
know, that claim should be challenged.
Q. Sitting here today, do you understand that if you
practice all of the claims, all of the elements of the
claim, but also do other things, that you still infringe?
Do you understand that?
A. Yes, I do.
Q. When did you come to that understanding?
A. Sometime ago.
Q. So before you made the decision to launch the
Minerva product?
A. Yes.
Q. So you understood when you launched that, it
didn’t matter if you did other things, even if they were
really important, good, useful things, that it didn’t
matter for deciding whether or not you infringed as
long as you did what’s on the screen right now; right?
You understood that when you chose to launch the
product?

413
[1281] A. I still feel that, you know, the right thing
to do at the time. Again, just my opinion. It’s a
challenge because it doesn’t make it right.
Q. You didn’t agree with the law?
A. I do agree with the law, but the law also allowed
you to challenge.
Q. So you decided as a board you would roll the
dice?
A. Me, I’m not the board. I’m just a member of the
board.
Q. Yes. Mr. Truckai, as I said, none of this is
personal. It’s company versus company. All of my
questions are about Minerva.
You as a board decided that you were going to take
a chance and challenge the patent rather than get a
license from Hologic or change the design of the
product; right?
A. I didn’t feel that this is a valid patent,
personally.
Q. Now, one more question
understanding at the time.

about

your

There were a lot of questions in your direct about
copying. You understood at the time that if you copied
what was on the screen or copied that part of the
NovaSure device that’s reflected on the screen, even if
you added new stuff, you’re still copying; right?
A. So, you know, let’s talk about specifically, what
did [1282] we copy?
Q. I’m just asking as a general matter, did you
understand that?

414
A. You know, generally speaking, yes, I
understand, but what is it directed and how does it
relate to, you know, the Minerva technology? And I’m
not trying to be argumentative.
Q. No, no.
A. I’m just trying to understand the points you’re
trying to make.
Q. If I invent this notebook, and you copy the
notebook but then add a great feature so that these
things don’t pop open as they always do on me, you
understand you still copied what I invented; right?
A. I understand.
Q. Even if you come up with a great idea later that
may improve the notebook.
A. As long as it’s not in the prior art, that’s the
invention.
Q. Now, you talked about, at some length about the
moisture transport system in your direct; right?
A. Yes.
Q. All right. And you said you thought that was
essential to your invention, part of your invention,
something to that effect?
[1283] A. It’s not part and essential. It didn’t work
without it.
Q. Okay. Now, you, Minerva -- and, again, I
apologize. When I say “you,” I mean Minerva. I really
don’t want to make this personal.
Minerva made that very argument to a Court, and
that argument was rejected in April 2017; right?

415
MS. ELSON: Your Honor, this is opening a big door
here.
MR. WOLF: Your Honor -THE COURT: I don’t know how else to do this,
counsel, so I’m going to overrule the objection. And you
may have a continuing objection.
MS. ELSON: Yes, Your Honor.
THE WITNESS: Sir, if you could repeat it?
BY MR. WOLF:
Q. Yes. Let me back up a little bit.
You understand that Minerva made an argument,
not to this Court, but to a Court that this claim needed
to have moisture transport in it. You understand that;
right?
A. Yes.
Q. That was your challenge that you talked about
before; right?
A. That’s correct.
[1284] Q. Now, in April 2017, that challenge was
rejected by a Court; right?
A. Some portion. I believe not everything, but some
portion of it.
Q. Well, that particular thing. All of that discussion
of moisture transport, that argument, that’s not part
of claim 1; right?
A. I understand.
Q. Okay. So now as a board, you had this idea that,
well, we’re going to go ahead and sell the product even
though the ’348 patent exists, because we think it
should include moisture transport, and since we don’t

416
do moisture transport, we can’t infringe. Now that’s
rejected, so what do you do as a board in light of that?
A. There are other ways, you know, to look at the
validity of the patent. You can look for patent reexamination or IPR, and I think that’s the sensible
thing to do, because, you know, the Patent Office is
especially focused on this and they’re very
knowledgeable, more knowledgeable than -- you know,
about how to deal with this.
Q. Were there any discussions at the board that
you’re aware of about the importance of the Court
saying, this doesn’t include moisture transport, claim
1? Did anybody say, we need to revisit our decision to
launch the product [1285] because of what the Court
said?
A. The product was already launched.
Q. Fair enough. To continue selling the product as
is?
A. We definitely had a discussion regarding the
core decision. I felt, you know, personally as a board
member, you know, to challenge it to the Patent Office.
Q. So despite what the Court said, you said, we’re
going to just keep selling?
A. I found out the Patent Office, the people who are
very knowledgeable to the case, should be better,
whether this claim is valid or not.
Q. Yesterday you weren’t here, but we saw a
discussion of a design-around with a different measure
of, method of attachment of the handle. There was
discussion of a pivot point.
Do you remember discussion of a design-around
within Minerva?

417
A. Yes.
Q. Do you know what a design-around is?
A. I do.
Q. Could you explain to the jury what a designaround is?
A. If you can’t do it that way, can I change
something to make it still work, but it’s a little bit
different. I would say it’s a little bit different.
[1286] Q. So the idea is that there’s a patent that I
don’t want to infringe, but I think I can still make a
product without infringing, so I’m going to change the
design. I’m going to design around the patent; is that
right?
A. That’s fair.
Q. It’s like if I own this piece of the floor, rather
than walk through my piece of the floor, you’re going
to walk around it; is that right?
A. That’s my understanding.
Q. And Minerva looked at a design-around to ’348,
claim 1; right?
A. Again, I’m not aware of the design-around.
Q. Were you aware that there was a lawyer that
was called in to analyze whether the design around
infringes the ’348 patent?
A. No, I’m not.
Q. Do you know why you were not part of that
discussion?
A. I ran two companies at the same time. I’m fairly
busy.

418
Q. So there are some parts of Minerva’s activities
regarding ’348, claim 1, that you are a part of, and
others that you are not?
A. I was part of this. Hologic sent me that
disclosure, the disclosure statement. I was aware of
that. But other effects, I may or may not be aware.
[1287] Q. Now, one more question or series of
questions on claim 1.
You understood at the time that Minerva decided to
launch its product, that if you infringed claim 1, this
language, it didn’t matter whether you also had your
own patents on your device. You still infringe; right?
A. My personal belief that that patent should have
been issued, but, again, it’s just my personal belief,
and I think the company should challenge it to the
USPTO and the PTO should make a determination at
the time. That’s, again, just my belief, so . . .
Q. I asked a slightly different question.
A. Okay.
Q. Just so I understand what the decision-making
was at the board.
You understood it was no defense to patent
infringement to say, well, we also have patents on it;
right?
A. I don’t believe that the board looked at it, that
we have a patent. I think the board was in good faith
told that, you know, our technology is completely
different, and I still believe personally that our
technology is completely different.
Q. Okay.

419
A. And I do understand that, the it written words
of this [1288] patent, the claim, and the Patent Office
makes mistakes, and, you know, we’ve got to go and
challenge it.
Q. Please try to answer my question. I understand
your position.
A. Okay.
Q. But try to answer my question. You understood
that it was not a defense to patent infringe. To say,
well, we got our own patents on the product, too; right?
A. At that time.
Q. And you understood that the whole time; right?
A. I do understand.
Q. Right. So when you were showing the jury your
patents, you weren’t trying to tell them, but you got
patents, well, you knew you didn’t infringe ’348, claim
1; right? Wasn’t what you were trying to suggest?
A. No, it does not.
Q. Okay.
MR. WOLF: Can we call up DTX-1367, please.
BY MR. WOLF:
Q. You showed us this patent before, do you
remember, in your direct?
A. Yes, I recall.
Q. Okay. Can we blow up the first half?
You are the inventor. The assignee is Hermes
Innovations, LLC.
[1289] A. Yes.
Q. What is Hermes Innovations?

420
A. It’s my company, and I have my health
insurance through Hermes Innovations, and I put
intellectual property into the company. And I license
it all.
Q. I didn’t mean to interrupt. I’m sorry.
A. And I license technologies all from the company.
Q. Right. So you own Hermes; right?
A. Yes.
Q. And Hermes owns the ’068 patent?
A. Yes.
Q. And Minerva pays a royalty fee to Hermes to use
the ’068 patent; right?
A. No, they do not.
Q. They have a license to it?
A. No. In exchange of ownership.
Q. Oh. So you’re paid, but in the form of ownership
as opposed to a royalty?
A. That’s right.
Q. Okay. So let me start over. The ’068 patent is
owned by Hermes. Yes?
A. Correct.
Q. And Minerva licenses it so that they can, in
order to sell their product, they can use the technology
in the ’068 patent?
[1290] A. That’s correct.
Q. And the form of payment you get for that is a
part of the ownership of Minerva?
A. That’s correct.

421
Q. Right. So Minerva regularly, in fact, licenses
other people’s technology to practice and sell its
product; is that right?
A. I’m sorry?
Q. I will put some more up there. Let me ask you
this: Let me ask it. Minerva licenses other people’s
technologies in addition to their own patents to sell
their product; right?
A. I don’t know.
Q. Okay.
A. I know they license mine.
Q. You don’t know whether they license others or
not?
A. I don’t believe so, but I think Mr. Clapper can
answer that.
Q. Okay. That’s fair.
Now, you would agree that at the time of the launch,
you were not qualified, the launch of the Minerva
product, you would agree you were not qualified to
analyze the claims of the patent and form an opinion
about it, because that’s not your job; right?
A. That’s not my job and I’m not a patent lawyer.
[1291] Q. And you would agree that personally,
you’re not qualified to go into a patent and analyze the
claims and form opinions about it; right?
A. That’s correct.
MR. WOLF: Your Honor, may we approach?
THE COURT: Yes.
MR. WOLF: He just answered the $64,000 question.
What I normally want to ask next is, so who was it at

422
Minerva that was competent to decide, that said it was
okay to launch the product.
MS. ELSON: It is a foundation issue.
MR. WOLF: No.
THE COURT: No. His next question is, so who at
Minerva has said it was okay to launch?
MS. ELSON: Okay.
THE COURT: And then you’re going to ask -- so say
it again how you’re going to do this.
MR. WOLF: So who was it at Minerva that was
qualified.
THE COURT: Oh. And then gave the advice to
launch?
MR. WOLF: Yes. That said it was okay to launch. I
won’t say advise.
MS. ELSON: You are saying it’s one individual.
THE COURT: Well, that’s the who. It could be [1292]
five people, four people, three people.
MS. ELSON: Okay.
THE COURT: And if he says a lawyer, then you’ve
got problems. That’s the bottom line.
MS. ELSON: Okay.
THE COURT: But he has to answer it truthfully.
MS. ELSON: Yes. But as long as it’s not asked.
There may have been lawyers involved, but there were
also businesspeople. Is there a way to ask it to just
exclude any conversations with lawyers?

423
THE COURT: I think he just names the people, and
if he names them and one of them turns out to be a
lawyer, we’ll take it up then.
MS. ELSON: Your Honor, I would like to have a
continuing objection, because we’d like to talk about
excluding the two UIT patents. The Exmark decision
has a pass knowledge we’d like to show Your Honor.
THE COURT: Excluding what?
MS. ELSON: Those two perforation test patents that
we talked about earlier on direct.
THE COURT: Oh.
MS. ELSON: Exmark said expressly, and they
should know, you have to show for purposes of the
damages that your system is covered by your own
patents and that’s relevant to damages. If we could
just address this later [1293] because they’ve agreed,
we have a stipulation, they’ve agreed if these patents
come in, they’ve stipulated that we practice our own
IT patents already.
THE COURT: We’ll take that up later.
MS. ELSON: Okay.
MR. WOLF: I will look at the case. If I’m wrong
about the objection, we’ll withdraw it. They can deal
with it on redirect.
THE COURT: Okay.
MS. ELSON: Or we can just enter the stipulation.
THE COURT: Okay.
(End of sidebar conference.)
BY MR. WOLF:

424
Q. So I had just asked you, and you would agree
that you were not qualified to go into a patent and
analyze the claims and form opinions about it; is that
correct?
A. No, I’m not.
Q. Who at Minerva, who is qualified to go into a
patent and analyze the claims and form opinions about
it made the decision or was involved in the decision to
release the Minerva product?
MS. ELSON: And, Your Honor. I’m sorry. Objection.
THE COURT: Oh, as previously stated.
[1294] MS. ELSON: That’s a different question from
what we discussed.
MR. WOLF: I don’t think so.
THE COURT: So I just want to be sure. Who at
Minerva made the decision to go forward with the
product after the patent was published.
Is that the question?
MS. ELSON: That wasn’t the question. The question
was, who at Minerva who actually did basically an
infringement analysis. Perhaps we could just have the
question read back.
MR. WOLF: I will break it up into two questions.
MS. ELSON: The first part is objectionable.
THE COURT: Okay.
BY MR. WOLF:
Q. Who at Minerva made the decision to launch the
product despite the ’348 patent?
A. The board and the management.

425
Q. Who among the board and management, if any,
was qualified to go into a patent and analyze the
claims and form opinions about it?
A. None of them. Nobody. None of us are patent
attorneys.
Q. So there was not a single person that was
qualified to [1295] go into a patent and analyze the
claims and form opinions about it who told you it was
okay despite the ’348 patent to sell your product; is
that right?
MS. ELSON: Objection, Your Honor.
THE COURT: Overruled.
MS. ELSON: Can I have a running objection based
on Section 289?
THE COURT: Yes.
MS. ELSON: Thank you.
THE WITNESS: Sorry. Can you repeat it?
(The court reporter read back the testimony as
follows:
“Question: So there was no one on the board or in
management who was qualified to tell you whether or
not you infringed ’348 patent, yet you went ahead and
sold it anyway; is that right?
“Answer: The only thing I can say, I’m sure that
management of the company talked to the lawyers
who can evaluate.”)
THE COURT: All right. I thought it was who on the
board or who in management. So I’m going to ask you
to rephrase your question.

426
MR. WOLF: Well, so, Your Honor, just to be clear,
the previous question was, who had those
qualifications and the answer was no one.
[1296] THE
management?

COURT:

On

the

board

or

in

MR. WOLF: In management.
THE COURT: Okay.
BY MR. WOLF:
Q. So there was no one on the board or in
management who was qualified to tell you whether or
not you infringed ’348 patent, yet you went ahead and
sold it anyway; is that right?
A. The only thing I can say, I’m sure that
management of the company talked to the lawyers
who can evaluate.
MR. WOLF: Your Honor, shall we take a break?
THE COURT: This is a good time.
Ladies and gentlemen, I’m going to give you an early
lunch. Okay? It’s Friday. I feel good about an early
lunch. So let’s come back at 1:00. Okay? So we’re in
recess until 1:00.
(The jury was excused for a luncheon recess.)
THE COURT: All right. So if the witness would step
down, and you have to go back outside because we’re
going to talk about your testimony. Okay?
THE WITNESS: Okay.
THE COURT: So I think you’re on lunch break.
THE WITNESS: Okay. Thank you.
THE COURT: The rest of us aren’t. You are.

427
MR. WOLF: Enjoy your launch.
* * * *
[1342] BY MR. WOLF:
Q. Just a few followup questions on what we were
talking about when we broke and then we will move
on to a new topic.
If someone at Minerva had identified what they
thought was a serious concern about infringement of
the ’348 patent, whose decision, one or more people,
would it have been to hit the red button, to pull the
plug, to stop the press? Who was making that decision?
A. You mean, when you say pulling the plug?
Q. Fair. Let me ask it more formally. It’s important
to Minerva not to infringe someone’s patents; right?
A. That’s correct.
Q. Yes. And so if at any point there had been a
determination that there was a risk of patent
infringement, who, which one or more people would
have been the ones that decided, we’ve got to do
something about it, whether it’s get a license or not
release the product or change the product, whatever it
was? Who were the people that would actually decide
that?
A. Yes. The board, but they use legal counsel to
make that determination.
Q. Let’s shift topics now to your role in the early
days of the company and the jury was instructed on
what a [1343] 30(b)(6) witness is. I assume you don't
remember that you were a 30(b)(6) witness for
Minerva?

428
Do you remember you were asked to be the designee
on the topic of conception, design, development and
testing of the Minerva endometrial ablation system?
A. Yes, I do remember.
Q. So you were speaking on behalf of the company?
A. That’s right.
Q. Okay. We call that legal nonsense jargon
30(b)(6). And you were that guy; right?
A. That’s right. Yes, I was.
Q. All right. Let’s go back to JTX-20, or let’s go to
JTX-20, which the jury has seen before, but you
haven’t. And this was a slide deck that you were
involved in preparing for a meeting with Hologic; is
that right?
A. That’s right.
Q. And this was your standard template; right? You
presented a similar presentation to J&J and others?
A. As I recall.
Q. Let’s go to the next page. That was this mission
statement on the next page of the document. That was
Minerva’s, that’s what they were trying to do; right?
A. As I recall.
Q. Next slide.
And that was the attributes you were seeking, [1344]
the third slide, the project goal?
A. Sounds reasonable.
Q. Okay. Let’s go to the next page. I just want to -I talked to the jury about this in opening, but I want
to now get this officially in the record. This is

429
Novacept, at least the core team at Novacept in 2009;
is that right?
A. Novacept?
Q. Not Novacept. I’m sorry. Minerva.
A. Okay.
Q. I was going to talk about the Novacept. Let me
start over. This was the core team of Minerva in 2009;
is that right?
A. Yes. And others, and others.
Q. And others? Okay. So we see the board of
directors up there, the top, the five people?
A. Yes.
Q. And all five of the board of directors were at one
time or another part of Novacept; right?
A. That’s right.
Q. All right. Now we see medical advisory board
and we see 1, 2, 3, 4, 5, 6 names. What is a medical
advisory board?
A. These are physicians who are evaluating your
product and they tell you that, you know, this is what
they think is needed in the marketplace.
[1345] Q. And how do you decide as Minerva who
you want on your medical advisory board?
A. I like knowledgeable people who don’t sugar coat
it for you and they tell you that, look, you know, this
is great, but. So I’m looking for the but. What do we
need to fix?
Q. And so these are physicians that you respect to
give it to you straight?
A. Yes.

430
Q. And I want to focus on a couple names. Ted
Anderson first. Dr. Anderson has now a relatively
prominent role in the community, doesn’t he?
A. I believe, I have not kept in touch with him. He
was already a very respected physician.
Q. Do you know whether he has a current president
title with an organization?
A. I’m not sure. I heard about it. Maybe AGL was
going to be one, but I’m not sure, you know, that this
is true or not.
Q. Right. In any event, Dr. Anderson is a well
respected -A. Who’s very well respected.
Q. Let’s go to the last one. Adolf Gallinat. Another
very well respected physician?
A. He passed away, but, yes.
[1346] Q. Fair. But he was a very well respected
physician?
A. Yes.
Q. And then Dr. Garcia is actually one of the expert
witnesses Minerva will be calling in its case; right?
A. Right.
Q. And she’s a member of your medical advisory
board?
A. Was part at the time.
Q. Yes.
A. I don’t know, I don’t know who is the medical
board.
Q. But at the time --

431
A. At the time, she was.
Q. Yes. And then we have Corpora. What does that
refer to? I assume that’s a typo?
A. Yes. Should be Corporate.
Q. And then we have IP, Jim Heslin, Townsend,
Townsend & Crew.
Do you see that?
A. Yes.
Q. Who was Mr. Heslin?
A. Patent attorney.
Q. Is he still Minerva’s patent attorney?
A. Yes.
Q. And he was actually Nova’s past patent
attorney; right?
A. At some point. At the very beginning, no.
[1347] Q. He prosecuted -- he took to the Patent
Office a number of the patents we’ve seen in this case;
right?
A. Yes.
Q. He was at Novacept and -- he represented
Novacept. Then he represented Minerva; is that right?
A. At the very beginning, you know, I couldn’t use
Jim at all, also when we started Novacept.
Q. And at some point he became your attorney?
A. At some point.
Q. Okay. Then we have management. I think that’s
probably self-explanatory, but we see that you and Ms.

432
Williams and Ms. Morgan were former Novacept folks;
is that right?
A. Yes.
Q. Consultants, Mary Edwards. Who was Mary
Edwards?
A. Regulatory person.
Q. What do you mean by a regulatory person?
A. Regulatory means dealing with FDA matters.
Q. So you used her as an FDA person at Novacept.
Then you chose to bring her to Minerva; is that right?
A. Yes.
Q. We know who Mr. Clapper is. At the time he was
a consultant. At some point he became the CEO of
Minerva?
A. Yes.
Q. Okay. The Medical Advisory Board, are they
[1348] compensated for their services?
A. I think we at the time -- I don’t recall precisely,
but I think we had formal compensation for them.
Q. You did have formal?
A. Yes.
Q. All right. Let’s go to PTX-63. Rather than have
them flip in the binder, do you have any objection to
what’s on the screen?
(Pause while counsel conferred.)
MS. ELSON: What was the question?
MR. WOLF: Just do you have any objection?
MS. ELSON: To 63?

433
MR. WOLF: Yes.
(Pause.)
MS. ELSON: No objection.
MR. WOLF: All right, Your Honor. Move the
admission PTX-63.
THE COURT: Received.
(PTX-63 was admitted into evidence.)
MR. WOLF: Will you publish, sir? Thank you
BY MR. WOLF:
Q. So we see here an e-mail from Michael Regan.
Who is Michael Regan?
A. He was the COO of the company.
Q. The chief operating officer?
[1349] A. Yes.
Q. Does that make him number two or number
three?
A. He was really doing that day to day, running the
company.
Q. So he was running the company on a day-to-day
basis. And it’s to you, among others.
A. That’s correct.
Q. And we talked about Mary Edwards already.
Could you remind us who Dominic Filloux is?
A. Vice president of research and development.
Q. And the subject is MAB notes; right?
A. Yes.

434
Q. All right. Let’s look briefly at the notes. Next
page. Actually, the third page of the document.
Let’s just look at the top two boxes. We say, a topic
and a response and action.
Do you see that?
A. Yes.
Q. This is input that your doctors gave you that said
this is important for your device. Is that fair?
A. Many times, you know, they said that these are
issues. You have to explain to them.
Q. And one of your MAB members said, number
scale for cornu measurement is important. If it is
under three centimeters, it is almost guaranteed that
the device is not [1350] opened enough or is impaled in
the wall; right?
A. Yes, I see it.
Q. And that was the advice that physicians were
giving you as you were designing the product; right?
A. Yes, but you have to take into consideration, the
first time you’re talking to these guys, you know, they
pretty much tell you what they know. So the
physicians are using, as is most of them, are using
NovaSure. So once you go into the technology and I
explain to them you no longer need this. You don’t
know what you are going to need to measure
regardless of the size of the cornu, and you don’t have
to, you no longer have to input the cornu. I think they
got, you know, pretty much the idea. But that was
more like an action that, you know, physicians in the
marketplace, you know, they’ve been conditioned to
take a measurement and enter it into equipment.

435
Q. Respectfully, the answer to my question was:
Yes, this is what a doctor would.
A. Yes, but you can’t take it out of context. You
noted it that, you know, they broke up. Look, you have
to enter this in the marketplace. This is important to
us right now.
Q. Mr. Truckai, you’ve attended and participated in
FDA meetings regarding the Minerva product; is that
correct?
A. Yes, I did.
[1351] Q. And you’ve been involved in pre-IDE
activities as well; is that correct?
A. Yes.
Q. Can you explain to the jury what pre-IDE
means?
A. So you go to the FDA, and physicians and other
FDA persons who understand the type of product and
procedure. They sit down with you and you explain to
them how your device is working. You know, they
understand, you know, what you’re trying to do, and
you are trying to give them the information.
You are trying to bring them up with technology,
what we’re trying to do, how the device is working and
what we want to achieve. And this is very important
because based on that, you establish later on the
protocols, the clinical protocols, how you’re going to
conduct your clinical trial.
So that’s the purpose of that meeting. How are you
going to conduct your clinical trial.
Q. Very good.

436
So let’s go to Exhibit 41, PTX-41, please. And this is
an e-mail chain at the bottom from Mary Edwards to
Colin Pollard, and then from Colin Pollard to Mary
Edwards. Keep it blown up.
At the top, it’s back to Regan. We’ll break this up.
Start at the very top of page 2, very top of [1352] page
2, the signature block.
And we see it’s from Mary Edwards, and she’s
identified as the VP of regulatory and clinical affairs;
is that right?
A. She was at that time, yes.
Q. Right. What does the VP of regulatory and
clinical affairs do?
A. She was responsible to establish the regulatory
framework, how we’re going to work with the FDA
constructing the regulatory file for submission, and
she was managing the clinical, overall, the clinical.
Q. And she was good at her job, I assume?
A. She was pretty good.
Q. You brought her from Novacept to Minerva;
right?
A. Yes.
Q. Okay. So let’s go to the top of this e-mail. It’s
from Mary Edwards to Colin Pollard. Now, Colin
Pollard was at the Food and Drug Administration at
the time?
A. That’s right.
Q. This is an official communication, or at least one
communication between Minerva on the one hand and
the United States Food and Drug Administration on
the other; right?

437
A. Mm-hmm.
Q. Yes?
[1353] A. Yes.
Q. I’m sorry. I do this all the time, so it’s my fault,
but the mm-hmms and the nods, unfortunately, the
court reporter can’t get?
A. Yes.
Q. This goes without saying. I assume you try to be
accurate and honest in all communications with the
Food and Drug Administration?
A. You have to be.
Q. Have to be. So she writes, “Colin: I’m under huge
fire because I was not able to get answers after almost
six weeks. I know it’s crazy for you; but not getting any
internal sympathy. We have a board meeting on the
20th and fundraising will be dependent on the
regulatory plan.”
Do you have any idea of what she meant by we have
a board meeting on the 20th and fundraising will
dependent on the regulatory plan?
A. I can’t really can’t comment. This is the first
time I’m seeing it. I don’t know what context she’s
referring to.
Q. Is it generally true that in order to get
fundraising from those large venture capital
companies we heard about before, they want to see
progress with the Food and Drug Administration
towards approval of the product?
A. They want to know what the plan is.

438
[1354] Q. Right. I’m really hoping that we could
touch base for just a couple minutes on the Monday
when you return?
MS. ELSON: Your Honor, objection.
THE COURT: Yes?
MS. ELSON: I think he needs to lay some
foundation. He just said he hasn’t seen this e-mail
before, not familiar with it.
THE COURT: Foundation for what?
MS. ELSON: For testifying about this document. It
may be appropriate for other witnesses, but Mr.
Truckai just testified that he’s not familiar with the
document.
THE COURT: All right. Mr. Wolf?
MR. WOLF: Among other things, Your Honor, Mr.
Truckai was asked the following question:
Was anyone at Minerva -- did you or anyone at
Minerva ever believe Minerva copied the NovaSure?”
And he said, No.
THE COURT: Overruled.
BY MR. WOLF:
Q. I’m really hoping that we could touch base for
just a couple minutes on the Monday when you return.
I fully understand that some of the below might sound
new -- but they really are not new questions.
And then number three. The Minerva device is
almost dead identical to NovaSure except using
plasma energy [1355] (RF).
Now, plasma energy RF, that refers to that balloon
you talked all about in your direct; right?

439
A. Yes. That’s assuming that that is what she
meant.
Q. And this says that the Minerva device is almost
dead identical except for that feature; right?
A. Yes, but, you know, I don’t know what before
that. You’ve got to look at it in the context. The clinical
trial is pretty much the same, you know, regardless,
you know, it’s an HTA trial, it’s a Minerva trial, it’s a
NovaSure trial. She was referring from the FDA
standpoint, I’m assuming again, but I don’t know, that
the device trial, which should be engaging, trying to
get information out of them, how do you get to run the
trial? This is pretty much the same trial, you know,
you run many times before. And at the time I
remember we were talking about this, this is a PMA.
That was like the eighth of the kind at the time. It was
eight devices went through the same process.
Q. You would agree that your answer to Ms. Elson
might have to be changed in light of this e-mail; right?
Ms. Edwards at least thought that the Minerva device
was almost dead identical to NovaSure.
A. I -- I don’t think so. I’m not sure that she’s
talking about the way the trial is from the FDA
standpoint. You have to look at it from FDA
standpoint. It doesn’t [1356] matter I’m using -- what
do I use. This is from FDA standpoint, conducted go
the same trial. You know, you’re going to use, you
know, the same diary method, evaluation. I mean, I
didn’t see anything new here from the FDA. I think
that’s what she’s referring to, but, again, I can’t
comment.
Q. All right. Let’s go up one more e-mail in the
chain. Keep the whole thing blown up.

440
Now, you can just keep the whole blown up. I think
everybody can read it.
From Colin Pollard. Then we see the official FDA
address. Food and Drug Administration at Human
Services.Gov.
Do you see that?
A. Yes.
Q. He’s writing to Mary Edwards. He says, I’m
sorry. I was away last week on vacation. I hoped my
last e-mail to you would help, but I will find some time
to talk to you tomorrow even if it’s late any day. So the
FDA is trying to be cooperate you’ve with you; right?
A. I can’t comment. I don’t know what the
discussion was. If that was the only conversation they
had at the time, I can refer to the written words.
Q. All right. Now, next at the top, Ms. Edwards
forwards this to Michael Regan; right? Do you see it to
Michael [1357] Regan, she forwards this e-mail
exchange?
A. Okay. I see it.
Q. Yes. And she writes: Mike, interesting. We’re
getting better response from FDA than from our own
advisory board. Talk to you tomorrow.
Do you see that?
A. Yes.
Q. To your knowledge, did Mr. Regan or anybody
else ever say to the FDA at any time, you know what
we talked you it was dead identical? We were wrong.
It’s not dead identical.
A. I don’t know. Even in the response, the prior email, there’s no response. You can see a short answer,

441
and then the next thing, we had a better response, so
I’m confused, you know. I mean, I don’t know what
she’s referring to. I don’t know we got a great response,
you know. After weeks, there’s no response, then a
little blurb and she called it a great response. I just
want comment.
Q. You understand that to infringe a patent, you
don’t need to copy it. You can infringe a the patent
even if you didn’t even know about an old product;
right?
A. Of course. If you don’t know anything about it,
you are looking. This is a prior art.
Q. I’m sorry. That was a bad question. Patents are
like deeds. I think you used that before; right?
[1358] A. Yes.
Q. If I infringe someone’s patent and I didn’t even
know about it, I’m still liable for infringing; right? It’s
not something I have copy or anything to be an
infringer; right?
A. I understand.
Q. But copying is a big deal for whether you’re a
willful infringer; right?
A. I understand.
Q. And what you thought about your similarity to a
product that’s patented, that’s a big deal; right?
A. We didn’t feel that we have any similarity
beyond the point, which was public knowledge. Those
devices, you know, had existed before. So that was our
belief.
Q. Let’s move on to PTX-601. Is that objected to?
MS. ELSON: It’s okay.

442
MR. WOLF: Thank you. If we could put 601 up on
the screen.
THE COURT: Has 601 been received?
MR. WOLF: It has, Your Honor. Well, it hasn’t.
It’s no objection from Minerva.
THE COURT: Okay. Can you move?
MR. WOLF: I move to admit 601, Your Honor.
THE COURT: 601 is received. Okay.
(PTX-601 was admitted into evidence.)
[1359] BY MR. WOLF:
Q. We see in this e-mail, it’s from Michael Reagan,
the person we were just talking about, your COO; is
that correct?
A. Correct.
Q. And it’s to a number of members of your advisory
board, including Dr. Ted Anderson; is that right?
A. Yes.
Q. And these were folks on your Medical Advisory
Board; is that right?
A. That’s right.
Q. And you’re on this as well. Is that right?
A. That’s right.
Q. You look under the first full paragraph, last
sentence. We were fortunate to have Dr. Gallinat
proctor these cases which helped tremendously with
the new user learning curves.
Do you see that?
A. Yes, I do.

443
Q. You would agree as we were talking about
before, doctor Gallinat’s opinion is well respected?
A. Yes. I think his is pretty good, what he used to
do.
Q. Yes. And then we have procedural observations,
and just a few examples. The second bullet: We are
investigating methods to minimize tip profile, that
[1360] referring to the handpiece of the device; right?
A. The tip of the device.
Q. Of the handpiece, the tip of the handpiece?
A. This is the plug formation.
Q. Just so we understand what we’re talking about,
whichever product we’re talking about, this is the
handpiece; right?
A. Yes, but this is talking about the very tip, this
one.
Q. Understood. It’s a piece of the handpiece? It’s a
part of the handpiece?
A. There’s a big difference between a handle and a
tip. This is specifically stating the tip profile, which is
that was the important thing, because I’m not taking
the handle and put it into the uterus. The only portion
that goes into the uterus -Q. I am delighted to hear that that is not the case.
But just so we’re getting our words and our
nomenclature straight, when I say handpiece, do we
all understand that that is what I’m referring to?
Does that make sense?
A. That’s a handpiece.

444
Q. Yes. And so he’s talking there about a part of the
handpiece?
A. He’s talking about the most important part of
the device, which is the tip. He’s not talking about the
entire [1361] device. He’s talking about a portion of the
device.
Q. All right. If we look three bullets down, a
suggestion was made to use dot scale for feedback on
cornu-to-cornu measurement. Additionally, it might
be helpful to increase the resolution of the reading
scale.
Again, talking about a part of the handpiece; right?
A. Yes.
Q. And there we’re talking about this measurement
right here; is that correct?
A. It’s not a measurement. It’s an indicator. But
that’s what we’re talking about.
MR. WOLF: Your Honor, may I approach?
THE COURT: The witness?
MR. WOLF: No. You, Your Honor.
THE COURT: Yes, you may.
(Sidebar conference held out of the hearing of the
jury as follows.)
MR. WOLF: So, Your Honor, you will recall we had
a discussion I guess on Friday about this. I envision
major patent infringement disputes.
THE COURT: This is from Anderson.
MS. ELSON: This is the one I think Your Honor
excluded.

445
MR. WOLF: With invitation to revisit, lay a [1362]
foundation. And I just went through this document
and established who Mr. Anderson was, what his
relevance to the company was and some of the bullets
refer to the handpiece, so I think I’ve laid the
foundation now to get his response.
THE COURT: Just let me look at it again.
MS. ELSON: Okay.
THE COURT: This is from Anderson. Your objection
is?
MS. ELSON: My objection is that this is now -- it’s
four-and-a-half years before the patent ever existed, so
how can it be relevant to a recklessness or state of
mind with respect to what is covered by the patent.
Copying in the instructions was covered by the patent.
It wasn’t filed. It wasn’t published, nothing.
This is going to overlap into the ’183, which one
could, you know -- that one is out. Willfulness is out on
the ’183.
THE COURT: But you’re saying that this covers
both.
MR. WOLF: Yes. We just saw on direct, she went
through claim 31 of the original patent that talked
about moisture transport.
MS. ELSON: Let me be clear. These bullets are
separate from that statement. Just because he’s
commenting [1363] about things about the handpiece
doesn’t mean -- it’s ambiguous. We don’t know because
they never deposed Dr. Anderson. It’s unclear.
THE COURT: All right. He was never deposed by
either side.
MS. ELSON: Correct.

446
MR. WOLF: Correct.
THE COURT: All right.
MS. ELSON: There’s no foundation linking this to.
THE COURT: I’m sorry. I think it goes in.
(End of sidebar conference.)
THE COURT: So, Ms. Elson, when we get to the
appropriate time, if you would lodge your objection.
MS. ELSON: Yes. Yes, Your Honor.
THE COURT: Okay.
MS. ELSON: For the record, I object now.
THE COURT: Now? Let’s wait for a question first.
MR. WOLF: Your Honor, we would ask to admit and
publish Exhibit 58.
THE COURT: Okay. And your objection?
MS. ELSON: We object, Your Honor, for all the
grounds we just discussed.
THE COURT: All right. This is Exhibit -[1364] MR. WOLF: PTX-58.
THE COURT: PTX-58 is received.
MR. WOLF: Thank you.
(PTX-58 was admitted into evidence.)
MR. WOLF: Could we go to PTX-58 and start with
the section we were just on. The second page, please.
BY MR. WOLF:
Q. Mr. Truckai, just to be clear, this is the e-mail
we were just looking at from Mr. Reagan to, among
others, seconds line, Dr. Anderson; is that right?

447
A. Yes.
Q. And if we scroll up to the response, please. And
this is from Mr. Anderson to Mr. Reagan; is that right?
A. Yes.
Q. It says, looks good. How long after treatment is
the hysterectomy done? Have you looked at
hysterectomy about two to four weeks after treatment?
There is going to be further tissue devitalization after
the initial burn and it would be good to examine at
what that looks like.
He says, I have one sort of global question. I envision
major patent infringement disputes for this device
versus NovaSure. How is this being dealt with or how
do you plan you will be able to deal with it?
Do you see that?
A. Yes.
[1365] Q. You were on an e-mail that responded to
the list. Scroll up. And this is from Mr. Reagan to Dr.
Anderson, and cc’d on that was Mary Edwards, who
we talked about before, and then Dr. Skalnyi.
So now Mr. Reagan, your COO, writes, thanks for
your comments on our peri-hysterectomy series. The
hysterectomy is typically done just following the
ablation treatment. The uterus is sent to pathology
within the hour. We have not done any two to fourweek post treatment hysterectomy. Discussions to
date with FDA indicate that we won’t be required to
do delayed hysterectomy cases. Then he said,
regarding the patent position, we have been closely
working with counsel on this matter since the
inception of the company and will continue this
approach on our design choices.

448
Do you see that?
A. Yes.
Q. So Mr. Reagan told Dr. Anderson at that time
that you were aware of the risk of patent infringement,
right?
A. That was Dr. Anderson’s opinion, not our
opinion. Dr. Anderson didn’t know all the details, so,
for example, he didn’t understand using know meter
versus pressure sensor. So, you know, his general
comments here is not understanding, you know, what
we were doing at the time.
Q. You weren’t surprised when Hologic sues you in
2015, [1366] were you?
A. I was somewhat surprised.
Q. Even though members of your Medical Advisory
Board were telling you there were global patent
problems?
A. But they have no information about that, how
we’re doing.
Q. Let’s go to Exhibit JTX-15 and specifically let’s
start with page 146893. It’s about 15 pages before that.
146893.
All right. Focus on claim 31. Do you recall talking
about this?
A. Yes, I do.
Q. So this was a claim in your original application
all the way back in 1998; is that right?
A. Yes. They filed the patent application with that
claim.

449
Q. And you agreed that there’s nothing in this
claim, in claim 31, that says anything about mesh or
moisture transport; right?
A. At the time, it was our belief that we can get a
broader claim.
Q. All right. So in 1998, when you filed this
application, all that discussion you had about how
moisture transport was what you invented, you
thought you invented more than that as represented
in claim 31; right?
[1367] A. We thought we can have a broader claim.
Q. So you thought just like Hologic thought with
claim 1 of the ’348, that you could get a claim without
moisture transport; right?
A. Correct.
Q. Okay. Let’s go to 146906. We see -- actually, can
we see, go down, please. One more page.
That is your signature?
A. That’s correct.
Q. And you, although the printing is not great,
you’re agreeing that you hereby declare that all
statements made herein of my own knowledge are true
and that all statements made on information and
belief are believed to be true letter further, that these
statements were made with the knowledge that willful
false statements and the like are so made and are
punishable by fine or imprisonment or both.
A. Yes.
Q. And you understood at the time that the Court
signed the declaration, you were attesting that you

450
believed you were the original first inventor on the
subject matter of claim 31; right?
A. The entire patent.
Q. Including claim 31?
A. Yes.
[1368] Q. This was all before Hologic bought
Novacept; is that correct?
A. Yes.
Q. So Hologic bought Novacept at a time when you
had written a sworn statement that you believe that a
patent could issue on a claim that didn’t require
moisture transport; right?
A. Based on the information I had at the time.
Q. I understand that. But Hologic bought the
patent, bought -- spent a lot of money on it. $325
million. We agree that’s a lot of money; right?
A. Yes.
Q. And a big part of the deal was the intellectual
property; right?
A. Yes.
Q. And if the patents weren’t useful, they never
would have made the deal; right? No one is going to
buy a company with a cool product if other companies
can come in and just knock it off because there’s no
patent protection; right?
A. That’s correct.
Q. A big part that makes your company potentially
attractive to others is that you have your own patents;
right?
A. That’s correct.

451
[1369] Q. If you didn’t have patents, if someone
could come in and knock off Minerva, your company
wouldn’t be worth anything, or be worth very little;
right?
A. Correct.
Q. And so when Hologic bought this patent, they
had your sworn statement that you didn’t believe that
moisture transport was an essential part of your
invention; is that right?
A. Again, I believed, but later on I mentioned the
Patent Examiner brought it up, this is not going to go
because there is prior art. So that’s why we canceled
the claim.
Q. Understood. You came to change your mind, I
guess, but at the time, it wasn’t like you told Hologic,
look, these patents only apply to moisture transport
and you are not going to get protection against
someone that uses something different like an argon
balloon, did you?
A. Well, no, because the technology is so different
anyway.
Q. Now, we’ve heard in this case about supposed
confidential information shared with Hologic.
As far as you know, all the conversations with
Hologic and Minerva, Minerva didn’t share any
confidential information; right?
A. Shared a ton of confidential information with
Hologic.
Q. You remember that Minerva’s talks with Hologic
at [1370] board meetings around 2009 or 2010
involved nonconfidential discussions; is that correct?

452
A. In 2009. I can’t recall 2010, but 2009, yes, it was
not confidential.
Q. To the extent there were any board meetings in
2010, they also involved nonconfidential information;
right?
A. I can’t recall. Honestly, I can’t just tell you what
information I had in 2010 with the board.
Q. I believe not to go to the deposition. Let me just
ask you. You are not aware of any confidential
information shared with Hologic in 2010 board
meetings?
A. 2009 and 2010, I don’t really know.
Q. All right. So let’s shift our attention to 2011. Mr.
Truckai, by 2011, Minerva’s EAS design, and by EAS,
referring to this product?
A. That’s right.
Q. Minerva’s EAS design is completed in all
material respects; is that correct?
A. Pretty much.
Q. Well, I want to be clear. It was completed in all
material respects; right?
A. I don’t know what changes they have done after.
But from my standpoint, it was pretty complete.
Q. Now, you showed the will map of the AAGL 4.
Do you remember that in your direct?
[1371] A. Yes.
Q. All right. And you showed -- I don’t think you
talked about it, but you showed that Minerva had a
booth there; right?
A. That’s correct.

453
Q. Let’s call up PTX-602. This will be used as a
demonstrative, Your Honor.
If we go to the top of the screen, this is from Mr.
Clapper to a series of folks, including you. You’re on
the last “to” lines.
A. Yes.
Q. The subject is Minerva at the 2011 AAGL
meeting in Florida.
Do you see that?
A. Yes.
Q. It says, attached is a brief recap of this week’s
AAGL meeting, and a short slide show so you can see
the team in action. Dave?
Do you see that?
A. Yes.
Q. I think the jury probably knows it. Just in case,
the AAGL, that’s the Super Bowl of your industry?
A. Yes.
Q. I probably just committed a trademark violation
by using that term.
[1372] Let’s go to the next slide. So you showed -that’s the cover of the slide presentation.
Next slide. I think that’s the slide that you had
showed with Ms. Elson with the various booths colored
in; is that right?
A. I believe so.
Q. Right. The next slide. That’s your booth; right?
A. That’s the Minerva booth.

454
Q. Right. And we see in that booth -- is there a laser
pointer? We see in that booth, we see the device; right?
The handpiece device?
A. Yes.
Q. And then there’s the controller?
A. Yes.
Q. And just so we’re clear, by this time, the
handpiece, everything was completed, so this is the
final design; right?
A. Or very close to the final.
Q. Okay. And then we have this board. So let’s go
to the next slide. This shows us what the board said.
It gives us the procedure time; right?
A. Yes.
Q. It tells us, no pre-treatment?
A. Yes.
Q. Tells us about the sealing balloon.
[1373] A. Yes.
Q. Tells us about the silicon array?
A. Yes.
Q. The plasma energy design?
A. Yes.
Q. The diameter?
A. Yes.
Q. And there’s a note basically say, you’re not yet
approved to sell; right?
A. That’s correct.

455
Q. Right. And just to get back to this in a second,
but just so we’re clear, as a medical device developer,
you are allowed to develop a device without any fear of
patent infringement; right? It’s when you start selling
that you get at risk. Isn’t that your understanding?
A. That’s not completely accurate, because I
wouldn’t have been able to find the company, patent
infringement. I cannot go with a clear conscience.
When investors give money to me, I’m not looking,
they give it to the company. They I’ve it to me. So I
have to do a better job if there’s any chance for patent
infringement.
Q. I asked a very bad question. What I was trying
to say is, legally speaking, you’re allowed to, for
example, do your clinical trials, and that’s not patent
infringement, right, because patent infringement is
only if you are [1374] selling the product
commercially?
MS. ELSON: Objection, Your Honor.
MR. WOLF: I’m just trying to explain what the
bottom of that is. I can move on.
MS. ELSON: Trying to elicit a legal opinion.
MR. WOLF: I can move on.
THE COURT: Well, you’re going to withdraw the
question?
MR. WOLF: Yes.
THE COURT: Okay.
MR. WOLF: You understood that you are allowed to
do clinical research with your product, and even if the
product would infringe when you start to sell it, it’s not
infringing doing clinical research; right? That’s your
understanding?

456
THE COURT: Overruled.
THE WITNESS: It’s not very practical, because end
of the day, you know, if you have patent infringement
or not, you know, you’ve got to go in front of the
investors and tell them that, you know, I think we
have a problem or not. You’re not going to be able to
raise any money. It’s not very practical to do -- spend
the money on a clinical trial and you know you are
infringing. It makes no sense.
BY MR. WOLF:
Q. I don’t want to dig too deep in, I don’t think it
[1375] matters that much, but sometimes companies
will develop a product to launch after a patent expires;
right?
A. Maybe. I don’t know.
Q. So when the ’348 patent expires, anybody can do
anything they want. That’s the whole point of the
patent deal; right?
A. Yes.
Q. So you can develop prior to the expiration of a
patent and wait to sell until the patent expires. Then
you can do whatever you want; right?
A. Yes, but in this case, when they launch the
product, that wasn’t an issue. I mean, you know, it hit
us out of the blue.
So if you are looking, I believe this started in August,
everything was prepared by us. They got the FDA
approval prior to that. You know, everybody felt very
good about it, the boards, me. You know, said go
ahead, launch the product, you know, and, you know,
here you go a few weeks later, you know. A, the patent
comes out. That’s the first time that we’re way, you

457
know, that it’s potentially an issue. And, you know,
Hologic should have let us know. Not until November
of that year in November of 2015 that you have an
issue with it.
Q. Are you aware of the fact that your CEO told
folks right at the time of the launch, or excuse me,
right at the [1376] time of the lawsuit that they had
been anticipating a lawsuit for at least six months?
A. You know, I have to tell you, when I did SurgRx,
I anticipated the lawsuit at any point in time. If you
are not anticipating, you know, you’re not doing your
job as a CEO.
Every single company I started, I always believed,
even at Novacept, I anticipated that somebody is going
to sue us. Johnson & Johnson or somebody for reason
or no reason, they’re going to sue you.
Q. When did you personally first come to think that
Hologic might sue you if you launched Minerva’s
product?
A. When the patent got issued and we were aware
of it, so that’s one. And really, I was hoping it’s not
going to happen, but Hologic, you know, filed the
lawsuit.
Q. So you weren’t aware of other activities or other
information in the company prior to then anticipating
Hologic’s lawsuit?
A. No.
Q. Okay. That wasn’t shared with you?
A. I mean, we knew that you filed the patent, but,
you know, I didn’t know that the patent is, you know,
until it issued, I wasn’t aware that it was an issue.
Q. Okay.

458
A. So by the time we launched the product.
[1377] Q. Were you monitoring Hologic’s patent
portfolio?
A. So my practice, you know, every, you know, six
months or so, I go and I check, you know, what’s going
on. Otherwise, you know, if -- the person I’m looking
at my patent is getting issued, I’m getting the notice
of follow on or rejection. So I partly don’t have to do
that.
Q. I just asked another bad question because I used
a pronoun that wasn’t clear.
Does Minerva check on or keep track of Hologic’s
patent portfolio?
A. I have no idea.
Q. Shifting gears and we’re wrapping up, Mr.
Truckai, and I appreciate your patience very much.
You would agree that the cavity integrity test was
one of the reasons for NovaSure’s success; right?
A. That’s one of the reasons, yes. But actually, if
you -- believe it or not, we did the clinical trial without
it.
Q. The cavity integrity assessment was very
important to the commercialization of NovaSure;
right?
A. It was very important.
Q. It was very important; right?
A. I would say it’s important. Important, yes.
Q. Is there a reason today you’re saying important
and at your deposition, you said very important?

459
[1378] A. You know, the applicator had as
important a task. You know -- what is the ethical,
what is the safety? How do you want to split it?
Q. The cavity integrity assessment is a safety
feature that you have to have; right?
A. Many products doesn’t have it on the market
right now.
Q. It was your view that you have to have it.
Otherwise, the physician doesn’t have feedback if the
device is correctly positioned; right?
A. Correctly positioned and having a perforation is
two different things.
Q. Well, let me just ask the question. You would
agree that it’s a safety feature, you have to have it.
Otherwise, the physician doesn’t have feedback that
the device is correctly positioned; right?
A. I will agree with you only if you are talking about
perforation, because the purpose of the it is did you
perforate it or not? So it’s nothing that has to do with
the position. It’s not fully opened and it’s still passing
the perforation detection and it’s okay. It’s not a safety
concern. It’s an ethical concern. I mean, it doesn't
make -- I don’t know if it makes sense. I’m not trying
to avoid the question. I’m just trying to tell you, the
positioning of the device is ethical. Perforation, it’s a
safety.
[1379] Q. Can we just agree that, for however you
want to slice that apple, it’s a safety feature that you
have to have?
A. It’s an important safety feature.
Q. And you would agree that Minerva’s UIT, its
uterine integrity test, is an important feature?

460
A. It is an important feature.
Q. And it’s an important safety feature?
A. It’s an important safety feature.
Q. And you would agree that without the UIT, the
Minerva EAS really isn’t the system; is that correct?
A. I’m sorry?
Q. You would agree that without the UIT, the
Minerva EAS really isn’t a system; is that correct?
A. I would not agree with that. I think it would be
a significant and a safer system, but it still could be as
effective as it is today. Again, it’s a safety issue, not
ethical issue.
Q. It’s a must-have feature?
A. It’s a good-to-have feature.
Q. It’s a reason why in your deposition you called it
a must-have feature and you’re calling it a good
feature today?
A. No. The way you slice it. One is safety, another
one is ethical.
Q. I think just one more document. You would
agree, I [1380] think, already that Minerva always
strives to give truthful and accurate information to the
FDA; is that correct?
A. Absolutely.
* * * *
[1385] REDIRECT EXAMINATION
BY MS. ELSON:
Q. So in the meantime, just for context, Mr.
Truckai, now, Mr. Wolf raised the Hologic and, in

461
particular, Cytyc [1386] had filed an application that
eventually issued as the ’348 patent.
Are you aware of that?
A. Yes.
Q. Okay. And when was the first -MS. ELSON: Can we pull up in the meantime, Jim,
I’m sorry, PTX-0114, just while you’re looking for that
other one.
Oh, I missed it. So if we go to the back of the
application that was attached to this cover letter.
Okay. There’s some claims.
You were sent these claims. And the first time,
however, that you saw this application was when you
received it. And if we could go back to the cover letter.
MR. WOLF: Your Honor, I just ask counsel be
reminded, this is redirect, not cross.
THE COURT: Overruled.
BY MS. ELSON:
Q. So you -MR. WOLF: I meant in terms of leading questions.
THE COURT: Okay. I understand.
BY MS. ELSON:
Q. Did you receive this on November 21st, 2014?
A. Yes, I did.
[1387] Q. Okay. So when was the first time you
became aware that Cytyc Hologic had filed an
application that later we learned issued as the ’348?
A. I think about that time.

462
Q. Okay. And were you traveling at this time?
A. Yes. I was in Europe.
Q. What, to the best of your recollection, when did
you actually sit down and read this and respond to
Hologic?
A. I think in December sometime.
Q. Would that be December 2014?
A. I don’t remember. I mean, I don’t remember.
Around that time.
Q. Around December 2014?
A. I remember that, you know.
Q. Okay. And this was the first time that you
became aware of this application; is that right?
A. That’s correct.
Q. Now, when patent -- counsel went on and on
about how the world was given notice that the ’348
application had been filed.
Does the world receive notice the minute an
application is filed or do you have to go to the website
to actually proactively look what’s filed?
A. You have to look.
Q. Okay. So the Patent Office posts when
something is [1388] filed and published; is that
correct?
A. It’s very random. You never know when they’re
going to publish.
Q. But when they do, they publish it on their
website; right?
A. That’s right.

463
MR. WOLF: Your Honor, same objection.
BY MS. ELSON:
Q.
it?

But you would have to go to the website to find

A. Absolutely.
THE COURT: I understand your objection. It’s
leading.
MR. WOLF: Yes, Your Honor. And these questions
don’t matter, but when we get to more significant ones,
I want to note my non-waiver foundation.
THE COURT: Okay. So noted.
MR. WOLF: Thank you, Your Honor.
THE COURT: You may continue, counsel.
MS. ELSON: Thank you, Your Honor.
BY MS. ELSON:
Q. So, again, as far as you were ever personally
aware of this application in the files is when Hologic
actually sent it to you?
A. I had no way to know that they filed. I didn’t, I
didn’t even go and look.
[1389] Q. Right. But when they sent it to you, you
became aware; is that correct?
A. Oh, yes.
Q. All right. And when they sent it to you, and
here’s the cover letter, did they say a word about, hey,
Mr. Truckai, we’re concerned about infringement?
Anything about that?
A. This is the letter.

464
Q. That’s the letter. It doesn’t say anything about
infringement, does it?
A. No.
Q. In fact, what it says in the Re line, it’s a request
for signature.
Do you see that?
A. Yes.
Q. So where they were just saying, hey, Mr.
Truckai, we’d like your signature on this.
MR. WOLF: Your Honor -THE COURT: Now at this point. Leading.
BY MS. ELSON:
Q. What were they asking for, Mr. Truckai?
A. They wanted me to sign this document.
Q. What was it?
A. That I’m the inventor on this patent.
Q. Okay.
[1390] A. When I reviewed the patent, you know, I
realized that I’m not the inventor of this patent.
Q. Okay. And anything in here indicate to you that
they had even the slightest concern about
infringement?
A. No.
Q. Okay. Any time before Hologic filed its lawsuit,
to your knowledge, did they ever come to Minerva and
say, hey, and this is for the course since Minerva was
founded and they learned about you. In the course of
the seven years, did they ever say a word about any
concern?

465
MR. WOLF: Objection, Your Honor.
THE COURT: I’m asking if there was any concern
about infringement expressed to Minerva.
THE WITNESS: Not I’m -- I’m sorry.
THE COURT: You can argue your case in closing
argument. Okay? This is a direct examination, so you
have to be -- I don’t have to tell you. The objection is
sustained.
MS. ELSON: Thank you, Your Honor.
BY MS. ELSON:
Q. All right. So you received this request for
signature, and did you respond?
A. Yes, I did.
Q. Okay.
MS. ELSON: Can we bring up PTX-06. Okay.
[1391] BY MS. ELSON:
Q. And let me see here. And I apologize. Can we go
back to the prior exhibit? The letter? I forgot to point
out, do you have it there, Hologic’s PTX-114? If you
could look at that and go to the claims at the very back.
A. This is the -Q. PTX-114. Hologic’s PTX-114. This was attached
to the cover letter.
A. PTX-114.
Q. Correct.
A. 0114.
Q. 0?
A. Oh, 0114.

466
Q. And if you could just go back to the claims at the
very back of the attached patent application, the
Hologic test. Flip to the last page.
Are you there?
A. Yes.
Q. Do you see the claims at the end of the patent?
Excuse me. The application?
A. That are canceled?
Q. Claim 8, for example?
A. Claim 8?
Q. Yes. Do you see that?
A. Yes.
[1392] Q. Okay. Do you see the element, an
indicator mechanism? Do you see that element?
A. Yes, I have.
Q. Okay. That’s easier on the screen?
A. Yes. I didn’t bring my glasses.
Q. So was this the first time you had ever seen an
indicator mechanism as one of the claims in this family
of patents?
A. Yes. That is the first time I’ve seen it.
Q. Okay. And then you responded, and if we could
bring up, again, sorry, PTX-106.
So if you could go to the top and zoom in there. It’s a
little hard to read.
Okay. And this is -- what is this? What are we
looking at?
A. This is a letter that I wrote to Mandy.

467
Q. And who is Mandy?
A. That person that sent me that request.
Q. Was she with Hologic?
A. Yes.
Q. And so you’re responding to this letter that they
sent in November attaching the application?
A. That’s right.
Q. Okay. And what’s the date on there?
A. 12/19/2014.
[1393] Q. In substance, what were you saying to
her? Let’s start with the upper part, starting with
following will all the way down to the use of -- before
the use of mechanical spreaders?
A. I stated -Q. What are you saying here?
A. That I reviewed what they requested. I reviewed
the document and that I, in good faith, I can’t claim
that I’m, you know, the inventor, you know, on this
application. And it’s not my invention. I mean, I don’t
want to put my name on an invention if I’m not an
inventor.
Q. And why didn’t you think this was your
invention?
A. First thing, I knew in the past, they have -- oh,
I’m sorry. I was aware that, you know, other devices
like this on the market. So, you know, I didn’t file a
patent application because it was already there.
Q. Now let’s just highlight starting with the use of
mechanical spreaders. Go down the through the rest.

468
Okay. And can you just read that first sentence
highlighted there, Mr. Truckai?
A. The use of mechanical spreaders for indicating
the width of a uterus was well-known at the time that
we filed the application describing uterine
measurement.
Q. Go ahead and read the rest?
A. I would love it and such devices and I
incorporated [1394] such features into the device that
I described in the application. At no time have I ever
considered the use of the mechanism indicator
mechanism disclosed and for the first time now
claimed in the application to be an invention.
Q. Did Hologic follow up and ask you to send them
some prior art on the mechanical spreaders?
A. No, they did not.
Q. If we could go to now -- if we can pull up the one
where the pat even office -- I’m sorry, the applicant
amended the claims, rejected the claim. Maybe we can
remember from yesterday.
So after this, did the Patent Office reject all the
claims in this application?
A. I think so.
Q. Okay. If we can find that rejection. Perhaps,
ladies and gentleman of the jury, remember this. All
the claims were rejected, and were they rejected based
on one of your earlier patents?
A. That was the prior art.
Q. All right. And then you provided prior art to
Hologic for the indicator mechanism?
A. That’s right.

469
Q. Okay. And there we go. So all of these claims -can we go to the examiner’s response, paragraph 15 to
16, just [1395] to remind the ladies and gentlemen of
the jury.
So after you responded to Hologic, there we go, the
Patent Office rejected the claims of this patent as
unpatentable. Is that your patent, the ’880?
A. That’s right.
Q. Okay. In view of King.
Do you see that.
A. Yes.
Q. All right. So after you told them this wasn’t in
your invention and you thought mechanical spreaders
were old, are you aware that the Patent Office rejected
all of these claims?
MR. WOLF: Your Honor -THE COURT: Your objection is?
MR. WOLF: Leading.
MS. ELSON: I’m asking if he’s aware that the
examiner rejected all of these claims.
THE COURT: I’m afraid we’re never going to get
finished with the testimony unless it’s more or less
leading.
MR. WOLF: All right, Your Honor.
THE COURT: Okay. But I don’t want to discourage
you from objecting when you believe that it’s
appropriate, but under the circumstances, and given
the subject matter, I don’t think that it’s improperly
leading [1396] the witness.
MR. WOLF: Understood, Your Honor. Thank you.

470
BY MS. ELSON:
Q. So did you become aware later that the Patent
Office had rejected all of these claims?
A. Yes.
Q. Okay. And is that based on, is that your ’880
patent?
A. That’s correct.
Q. And is that based on the King reference?
A. That’s right.
Q. Okay. If we go to paragraph 16.
And do you see hear the Patent Office said King
discloses a uterine device, including an indicator
mechanism.
A. That’s right.
Q. So do you believe the Patent Office agreed with
you, that King was right about this is all old and
unpatentable?
A. I believe so.
Q. As far as what Hologic sent you?
A. Absolutely.
Q. I won’t go into what happened after that, but we
can talk about that later. So let me move on.
And let’s see. Now, did you consider Minerva’s
red/green indicator to be again an improvement on the
old gauge?
[1397] A. It wasn’t that important to us.
Q. Okay. Now, if we could pull up PTX-41. Okay.

471
Do you remember this one, which is the one Mr. Wolf
showed you from Ms. Mary Edwards, who at the time
was Minerva’s VP of regulatory with the FDA.
A. Yes.
Q. Okay. Now, this was sent, if we could go to the
top, in July 2010; is that correct?
A. Yes.
Q. Okay. Now, do you recall when the ’348 patent,
which is the only one at issue for willfulness, did this
exist yet?
A. No.
Q. Okay. And when did it issue?
Do you recall?
A. 2015, August something.
Q. Okay. And as far as -- just look at the subject
line, because -- did you say something earlier about
this had to do with clinical trials?
A. Clinical testing.
Q. And what did we see here in the subject line?
Could you highlight please regarding endometrial
ablation, just the word regarding endometrial ablation
trials?
A. Yes, because the budget and the way you
conduct in the cloud is very much related.
[1398] Q. Now, was Ms. Edwards, did she as far as
you know have any technical degree?
A. No.
Q. What was her specialty?
A. Regulatory.

472
Q. Does the FDA have, just at a high level in
general, its own regulatory scheme what they are
talking about whether things are similar or not?
A. Also, they have their own language.
Q. And does that -- does the similarity have to do
that you go to the same test, test the device in the same
way?
A. I assume, but, again, I wasn’t on this e-mail, but
that’s the assumption, you know.
Q. Okay. And if we could go down to the part that
Mr. Wolf pointed to towards the bottom, item three,
specifically. Let’s highlight that. There we go.
Now, here she’s saying the Minerva device is almost
dead identical to NovaSure and she’s talking about the
trials; is that correct?
A. It is, because it’s a global -- meaning you insert
it blindly. You don’t see where it is. You have to
position it, and how do you test it?
How are you going to conduct -Q. How do you test it?
A. Yes.
[1399] Q. Did she tag on, except using plasma
energy RF?
A. You have to disclose to the FDA that, you know,
the energy type is different.
Q. And is that, have you that that is what makes it
different from the NovaSure?
A. Yes. And the agency’s view about it. We did a
demonstration for them. We showed them how
different we are.

473
Q. Okay. So she’s saying identical, but it says
accept using plasma energy; is that correct?
A. Correct.
Q. Is that your plasma formation array?
A. Yes.
Q. If we go further down, one last thing here?
A. Just one thing I would like to point out.
Q. Sure?
A. We did show the working unit to the FDA. It’s
not just, you know, Colin Pollard, but others, so it
wasn’t like we tried to hide. We showed them, this is
the device.
Q. Absolutely. And then if you go down to page
3691, let’s go town to, this is the bottom of the e-mail
chain, so this is the context for the conversation. So
let’s just take a look at that at the subject line.
MR. WOLF: Your Honor -BY MS. ELSON:
[1400] Q. Again, it says regarding endometrial
ablation trials; is that correct?
MR. WOLF: I understand the interest of moving this
along, but this is pure testimony -THE COURT: No. I understand. Some of it is and
some of it isn’t, Mr. Wolf.
MS. ELSON: I will just point out two more things,
Your Honor. I won’t comment.
THE COURT: Okay.
MS. ELSON: Okay. Go ahead. I’m sorry.

474
THE COURT: Well, I will talk to you about it later,
but I’m going to overrule your objection right now, Mr.
Wolf, and we’ll go from there. But I can’t make your
objection for you either when she crosses the line, so
I’m expecting you to make your objection. But I
understand that it’s not fair to Ms. Elson for you to be
jumping up and interrupting the testimony all the
time. So we’ll just have to play it by ear.
Go ahead, Ms. Elson.
MS. ELSON: Thank you.
BY MS. ELSON:
Q. Do you see where it says, the first line, could you
answer a couple of quick questions? Do you see that
sentence?
A. Yes.
[1401] Q. Again, it says, we don’t have to highlight
that, but can you highlight regarding endometrial
ablation trials?
A. That’s right.
Q. Okay. And then just regarding endometrial
ablation trials.
A. Yes, I see it.
Q. And then a little further down, the next
paragraph, can you highlight pivotal trial? What is a
pivotal trial? If you know?
A. Yes, I see it.
Q. Okay.
THE COURT: The question is, do you know what it
is?

475
THE WITNESS: Yes, yes, I do know the pivotal. This
is the final PMA clinical trial which you are going to
submit to the agency if you are involved.
BY MS. ELSON:
Q. Okay. Is this in the context, this whole
conversation? Does it appear to you to be in the context
of how do you test the device?
A. Yes. I’m painfully aware what was the subject at
the time. I can explain if you want.
Q. So I just want to make sure that her comment to
Mr. Colin Pollard was regarding testing?
A. That’s right.
[1402] Q. You don’t need to elaborate?
A. Okay.
MR. WOLF: Your Honor, I don’t know whether to
laugh or object.
THE COURT: I think laughing is plenty fine. Okay?
So you may continue, Ms. Elson.
MS. ELSON: I’m only trying to move this along.
THE COURT: No, I know that.
MS. ELSON: Okay.
THE COURT: It’s a precarious dance. Friday
afternoon. I understand that.
MS. ELSON: Thank you.
THE COURT: So continue.
BY MS. ELSON:
Q. Okay. PTX. Let’s move on from this one. PTX0058. Okay.

476
This is that e-mail that Mr. Wolf showed you from a
Dr. Ted Anderson.
If we could go down to where it says, I have one sort
of global question.
THE COURT: So excuse me, counsel.
MS. ELSON: Yes.
THE COURT: What exhibit number is this.
MS. ELSON: PTX-0058.
[1403] THE COURT: Thank you.
MS. ELSON: Okay.
BY MS. ELSON:
Q. Do you recall talking about this earlier with Mr.
Wolf?
A. Yes.
Q. Okay. Now, at the time, if you look at the date,
at the time, did the ’348 exist?
A. No.
Q. Okay. So do you think Dr. Ted Anderson was
talking about the ’348?
A. No. It was almost four years later.
Q. Okay. And as far as the patents we’re talking
about in this case, was it only the ’183 that existed?
A. That’s correct.
Q. Correct?
A. That’s correct.
Q. Yes. And there’s no allegation that Minerva
willfully infringed the ’183 patent in this case; is that
correct?

477
A. Not at all.
Q. Okay. So just globally, if we could bring up, just
JTX-42.
Okay. Now, if we could zoom in on the top, please.
So before I ask about this specifically, [1404] Mr.
Wolf showed you some old power points and things
from 2009; is that correct?
A. Yes.
Q. All right. Now, you do recognize what this is?
A. Nondisclosure agreement.
Q. And can we highlight this? This is between
Minerva and Hologic.
A. Yes.
Q. Okay.
A. I’m sorry.
Q. And it’s dated January 6th, 2010; right?
A. Yes.
Q. So when he was showing you and asking you
about information conveyed prior to this, the NDA was
not yet in place; is that correct?
A. Because I remember in November of 2009, it was
a harmless, you know, nonconfidential, but that had
been eight years.
Q. Okay. It was after that that Minerva revealed a
lot more information to Hologic?
A. Yes, that would be correct.
MS. ELSON: All right. Thank you very much. No
further questions.

478
* * * *
[1414] THE COURT: Please be seated, ladies and
gentlemen.
You may continue your examination of the witness,
Mr. Wolf.
MR. WOLF: Thank you, Your Honor.
If we could call up PTX-114, please.
BY MR. WOLF:
Q. This was the request for you to sign the patent
application?
A. Yes.
Q. And to be clear, this is an application that tied
all the way back to your work in 1998?
A. Yes.
Q. And at the time, November 21st, 2014, you had
finalized your design for the Minerva product; is that
right?
A. Yes.
Q. So you knew that if you signed this application,
you would be signing onto a claim that your product
that you had been working on for five years infringed;
right?
A. It wasn’t my thought, sir.
Q. You knew that you would infringe the claims
that were in this application; right?
A. I felt, I wanted to see, you know, I’ve never been
in the situation and I thought we had prior art, but I
asked, [1415] you know, to sign something, which I
knew that it shouldn’t be valid.

479
Q. So the claim was rejected, but then it was
amended. It issued and the product infringes; right?
A. The patent was issued.
Q. So let’s go to. PTX-481. I just want to be clear.
This is the document where Ms. Edwards says, the
Minerva device is almost dead identical.
Two questions. You would agree with me that dead
identical is not language in talking about clinical
studies or -- that’s talking about the product; right?
A. I cannot tell you what she meant by dead
identical, but, you know, the two devices are not dead
either.
Q. The second question is: You said, and I just want
to be clear, that you had showed the FDA, at the time
you were describing dead identical, I think you said,
the whole final device; isn’t that right?
A. Whatever stage the device was, which I cannot
tell you besides this. Minor modifications.
Q. PTX-58, please. This is a document where it
says, one of the members of your Medical Advisory
Board, Dr. Ted Anderson said, I have one sort of global
question. I envision major patent infringement
disputes.
Do you see that?
A. Yes.
[1416] Q. Counsel asked you about dates.
A. Yes.
Q. Do you remember?
A. Yes.

480
Q. Just to be clear, the application, original
application was filed in 1998, and by this time, it was
public; right?
A. Yes, but nothing to do with claims. It was issued
later. At the time I didn’t know when it was going to
issue.
Q. It’s important for Minerva to make sure they
don’t infringe other people’s patents; right?
A. If I know about it.
Q. Right. And you’re aware that almost every
medical device company on earth has a group that
specifically is tasked with tracking the patents of their
competitor; is that right?
A. I don’t know. The company, I’m not sure. We do
have a team. I don’t think that we have the resources.
But Mr. Clapper can answer that.
Q. Last question. JTX-42. You were asked about
the date of this document.
Do you remember that?
A. Yes.
Q. Just so we’re clear, you would agree with me
that the [1417] 2011 AAGL conference occurred after
the date of this document?
A. Yes.
MR. WOLF: No further questions.
MS. ELSON: No further questions, Your Honor.
THE COURT: All right. Ladies and gentlemen of the
jury, do you have any questions of this witness?
You may step down, sir.
(Witness excused.)

481
* * * *
[1418] . . . EUGENE SKALNYI, having been duly
sworn as/affirmed as a witness, was examined and
testified as follows . . .
MR. BISH: Your Honor, may I approach?
[1419] THE COURT: Yes, you may.
DIRECT EXAMINATION
BY MR. BISH:
Q. Good afternoon, Dr. Skalnyi.
A. Good afternoon.
Q. Are you employed at Minerva Surgical?
A. Yes, I am.
Q. What’s your title?
A. I’m serving as vice president of medical affairs.
Q. Can you tell the jury a little bit about yourself,
starting with your education?
A. I was born and raised in Eastern Europe in the
country of Maldova. I went to medical school. I
graduated with a degree in medicine. Went through
my specialty training in obstetrics and gynecology,
subsequent to which I went through additional
training in Germany in advanced endoscopy, followed
by Stanford and some additional training in
Sacramento.
Q. Stanford University, is that in California?
A. It’s in California.
Q. So, sir, are you a medical doctor?
A. Yes, I am.

482
Q. Are there other medical doctors in your family?
A. Yes. Exactly. A family of physicians. My wife is
an OB/GYN. My sister is an OB/GYN. Her husband.
It’s a [1420] number of gynecologists in the family.
Q. Now, sir, when you first moved to the United
States, can you tell the jury what you did
professionally?
A. Well, we moved to the U.S. in about 1998. Came
in as refugees. I couldn’t work as a physician right
away. And we had to support our family, so I had
actually two jobs. I was delivering pizzas initially and
selling cars. But then subsequently, I obtained a
position at Stanford teaching advanced endoscopy.
Q. Advanced endoscopy, what is that?
A. It’s basically conduct of minimally invasive
procedures and we were teaching basically technique,
or how to con duck those procedures to gynecologists
and surgeons that exhibited interest in this type of
procedures.
Q. We’ve been talking a lot about endometrial
ablations in these proceedings. Can you explain how
what you were doing at Stanford relates to ablation?
A. Ablation back then and still is, the only one
available was the rollerball ablation, which is a
minimally invasive procedure. So that was a part of
the curriculum that was taught at the course. So the
rollerball procedure was taught to the doctors.
Q. You say rollerball?
A. Yes. It’s rollerball.
* * * *
[1425] Q. How do you know that?

483
A. Any time you make a change to a medical device
that has a material impact on the outcome of the
procedure, certain documentation has to be filed with
the FDA, where FDA has to be advised that this device
is actually different than the device that was originally
approved, and even though this is the case, most likely
additional clinical resources are required.
And everything that was filed so far indicated that
the generation to generation of this device is really
equivalent to the one that was there before.
Q. Okay. Now, let’s fast-forward. And now you’re at
Minerva Surgical; right?
A. Yes.
Q. And how many Minerva procedures have you
observed?
A. Hundreds.
Q. And have you trained doctors on the use of
Minerva?
A. Yes, I did.
Q. Now, so you’re very familiar with the Minerva
product; is that right?
A. I am.
* * * *
[1428] Q. That’s from the doctor’s perspective.
Now, what about from the patient’s perspective? In
your experience, what is better about the Minerva
device than anything else, any other ablation device?
A. Well, I will tell you this. That we see that -- we
get a lot of reports that the amount of both intra and
post-operative discomfort or pain is somewhat less.
But I think the important ones are those that we

484
actually can actually touch, and basically say, okay,
we know that for a fact, and success. Basically, the
objective of the procedure, to make sure that you’re
successful.
This particular technology allows for the highest
success among all when comparing to any device that
was developed in history of ablation. Rate of
amenorrhea. This is by far the most desirable outcome
as indicated by the recent research of over 1200
women, that indicated that the ultimate outcome for
them is to have amenorrhea, meaning no bleeding
whatsoever.
So Minerva produces by far the highest rate of
amenorrhea. Patient satisfaction is extremely
important. [1429] Patients in our study show one of
the highest, if not the highest rates of patient
satisfaction. But I think the most important one often
not looked into and not recognized is understanding
why these procedures are performed in the first place
and the true objective of end ablation is actually
avoidance of hysterectomy. That’s why these
procedures are done.
So the question should be: In the long term, are his’s
avoided or not? And when you look at the outcome, at
the clinical data coming from the FDA, outcome of
Minerva procedure produces seven times outcomes
when comparing to NovaSure when it comes to rate of
hysterectomy at three years post procedure.
Q. And how does that compare to the other devices,
like Thermachoice or HTA?
A. It’s even better.
Q. Or Her Option. I’m sorry. What was that?
A. It’s even better.

485
MR. BISH: Your Honor, I don’t know how long you
want to go this afternoon before we break. I’m at a
transition point. I’m happy to keep going.
THE COURT: I think you should.
MR. BISH: Okay. Great.
THE COURT: I’d like to go for a bit longer.
So we’ve tipped our hand. We’re going to let [1430]
you out a little early. Mr. Bish let the cat out of the
bag, but I’m the one that’s going to let you out early.
MR. BISH: I’m not taking credit for Your Honor.
THE COURT: Mr. Bish, keep going.
MR. BISH: Can we get DDX-10, slide 5. Slide 5. Yes.
BY MR. BISH:
Q. Now, again, we’ve talked a lot about the success
rate already. I know we’ve beaten the 77.7 number to
Beth. Sir, what are the SSED rates for the Minerva?
A. Well, we’ve conducted two FDA clinical trials,
and when you look at the success rate in the first
clinical study, it was 91.8, so basically almost 92
percent, and 93 percent in the second study. When you
look at the rate of amenorrhea, meaning complete
cessation of bleeding, it was 66.4 percent in the
Minerva treated patients in the first study, and 72
percent in the second.
Q. And if we can pull up JTX-24 at page 21 just very
quickly.
What do you see here, Doctor?
A. Basically, these are the numbers. In the SSE
document, which is the summary of safety and

486
effectiveness document, and this is a document that’s
published by the FDA.
* * * *

487
[1482] IN THE UNITED STATES DISTRICT
COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and
Counterclaimant.
————
Wilmington, Delaware
Monday, July 23, 2018
8:30 o’clock, a.m.
————
VOLUME 6
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[1654] . . . DAVID M. CLAPPER, having been duly
sworn/affirmed as a witness and testified as
follows . . .
* * * *
[1655] DIRECT EXAMINATION
BY MR. POPLAWSKI:
Q. Please introduce yourself to the jury and tell us
where you work.

488
A. My name is Dave Clapper. I am the president
and CEO of Minerva Surgical.
Q. A name we’ve heard from time to time. When did
you start work at Minerva?
A. In May of 2011.
Q. What are your responsibilities as the president
and CEO of Minerva?
A. I’m responsible for a variety of things, including
setting the strategy for the company, filling out the
organizational chart, particularly at the top level of
the senior management team.
I’m responsible for finalizing the product line,
financing the company, et cetera, et cetera.
Q. How many years did you work specifically with
endometrial ablation devices?
A. I started in 1990s.
Q. How many years have you worked in the field of
medical devices?
A. Over 40.
* * * *
[1682] Q. All right, Mr. Clapper. We’re going to
switch to another topic, and that is Minerva’s
communications with Hologic.
Did Minerva have any communications with Hologic
when it was developing Minerva’s product?
A. Yes.
Q. And when did that first happen to your
knowledge?
A. I believe the first communications were in the
fall of 2009.

489
[1683] Q. And how did that happen, sir?
A. Well, this is a, one of my unemployment periods,
and I met with Csaba. He described to me what his
plans were and his vision for Minerva Surgical. And
we talked about the project and its financing
requirements and getting to clinical trials and what
his vision, again, of what -- how the product could
potentially improve patients with AUB.
And we left and a couple days later, I thought about
the project, and I suggested that since we had had such
a good, you know, collaboration with Cytyc, it was
then, of course, part of Hologic, but many of the people
still worked there, that I suggested, you know, it just
seems like the right thing to do to contact them and
tell them right from the start exactly what you’re up
to, the project you’re working on, your vision of why it
could be an improvement over all the other ablation
product that are out in the marketplace with your
hope, because you’re going to need money down the
road, that they could get excited about this and say,
hey, this looks great. We’d like to work on this with
you.
Q. When did you first reach out to Hologic?
A. In the fall of 2009.
Q. And did you understand Hologic to be interested
in talking further to Minerva?
[1684] A. Yes. Right away. Yes. Immediately.
Q. And what happened next?
A. So we had a short meeting at a surgical
conference that took place, I believe the third week in
November, and after that, they went away and
thought about it, and we had gotten back in contact
with each other and decided that we wanted to then

490
kind of formalize the effort of talking to each other,
and we signed a nondisclosure agreement so that we
could from that point on disclose everything about the
product.
* * * *
[1693] Q. Now, let’s move forward from January
6th, 2010. Did you share any confidential information
of Minerva with Hologic under this confidential
nondisclosure agreement?
A. Of course.
Q. What did you share, sir?
A. Everything that was on the list that we talked
about earlier. We shared with them not just, here’s the
device and here’s the controller. We took the cover off
the controller in our laboratory, showed them the
inner workings of the controller and how it worked. We
had the engineers discuss and lecture their engineers
on, at least a person from R&D, on how the system
worked. We answered all of their questions about
everything from plasma formation array, which takes
a little while to understand, as everybody in this room
can attest to now, through all the steps of the
procedure and how they were different from the
Minerva device because at the outset, it looks like this
is a very similar device, but when you go through the
steps, it’s very different. But, yes, everything that they
asked [1694] questions about, we gave them the
answers.
Q. Did you share any financial and business
information of Minerva’s with Hologic?
A. Yes. We shared with them information that we
don’t even share with our own employees.

491
Q. All right. Would you go to, and I have to ask you
about this first before we get a publication request.
A. Okay.
Q. So would you go to DTX-0642. And I will wait
until you’re there, Mr. Clapper.
A. I’m there.
Q. What is this document, sir?
A. This is a presentation, one of a series of
presentations that were made to Hologic over the
course of our discussions with them. This was -- it
looks like this was made in September of 2012.
MR. POPLAWSKI: Your Honor, move to admit it
into evidence.
MR. WOLF: No objection.
THE COURT: 642 is received.
(PTX-221 was admitted into evidence.)
MR. POPLAWSKI: Thank you, Your Honor.
BY MR. POPLAWSKI:
Q. Mr. Clapper, we’ve now published. What is the
date of this presentation by Minerva to Hologic?
[1695] A. September 24, 2012.
Q. Okay. And was this a
confidential Minerva information?

presentation

of

A. Some of it was confidential. Some of it was not.
MS. ELSON: But, yes, it included confidential
information.
Q. And who gave this presentation to Hologic on
September 24, 2012?

492
A. I did.
Q. Was that in person between you and Hologic?
A. I believe so, yes.
Q. All right. Let’s talk about who those persons
were at Hologic. Who at Hologic did you share this
presentation with in person?
A. As I recall, it was Russell Layton and Shacey
Petrovic.
Q. And at the time, what was Mr. Russell Layton’s
position with Hologic?
A. I believe he had just come out of a research and
development position and was at this time working as
a director of business development.
Q. At Hologic?
A. At Hologic. Mm-hmm.
Q. Shacey Petrovic. At the time of this September
24th, 2012, presentation, what was her position with
Hologic?
[1696] A. She was the general manager of the
surgical division, which included endometrial, the
endometrial ablation product, NovaSure.
Q. All right. Now -A. And vice president.
Q. Thank you.
Can you describe the circumstances under which
you shared this September 24th, 2012, presentation
with Ms. Petrovic and Mr. Layton?
A. Well, this was in one of the ongoing series of
meetings and presentations. As you recall, we met
with them in 2009, in 2011, in 2012, so here we are

493
again, and we’re giving them a presentation that’s
formatted similar to the earlier presentations we gave,
but as we’re going through this, we’re giving them a
detailed update on where we’re at.
Secondly, I point out, this presentation is a guide.
Okay. So throughout this presentation, for example,
when we would talk about the technology, we would
break, go into the laboratory with them, and actually
demonstrate the controller and the device. In fact, on
this particular day, we actually went in and had them
do a simulated endometrial ablation in a large piece of
beef liver, where they actually walked through all the
steps of the procedure.
Q. Was Minerva’s intellectual property shared with
[1697] Hologic?
A. Yes.
* * * *
[1702] Q. Now, what happened after Ms. Petrovic
and Mr. Layton visited Minerva and received all of this
information back in September of 2012?
A. They were very pleased with the meeting and
told us that they were excited to go back to Boston,
where the Hologic’s headquarters are, and they were
going to meet with Rob Casella, who set was the
president of Hologic, and try to put together a creative
deal whereby they would acquire Minerva.
Q. The -A. This was a pretty exciting day at little Minerva
Surgical.
Q. Did Minerva, in fact, receive any offer from
Hologic to acquire the company?

494
A. No. We didn’t hear anything. We thought -when they left, said they’ll get back to us in a week or
ten days. It was two weeks, three weeks, four weeks.
Finally, we prodded them. Hello, are you going to get
back to us? And they [1703] did, finally.
* * * *
[1705] A. I tried to lay out the series of major
events, not all of the communications and events that
took place between our first contact in the fall of 2009
and, you know, the November 2015. So on this blue
line, it shows we met 2009, 2010. We signed the
nondisclosure agreement so we could really go to work
collaboratively, sharing all kinds of information.
We met again in 2011. It’s not on here, but we met
in 2012, where we went through the presentation that
we just looked at.
In 2013, five Minerva patents issued, so things are
humming along. We’re, you know, conducting clinical
trials. Life is good. And then August 13th, we had
other, you know, teleconference calls/meetings.
So this is the way that I and the senior management
teams in Minerva looked at the relationship. We had
everything going along great here.
What we didn’t know is on the redline above it.
[1706] Q. All right. Would you talk about this
redline that you prepared which starts with the word
Hologic?
A. Okay. So this is the disappointing part. While we
are sharing with them everything about our
technology, our financial status, everything about the
company, our view of the market, clinical
investigators, detailed information on how our clinical
trial was going after we treated 30 patients, 60, 90,

495
and so on, what we didn’t know that was in August of
2013, secret to us -- remember, this nondisclosure
agreement we signed was mutual, where we could
both share confidential information, but secret to us,
in August of 2013, Hologic filed for the ’348 patent.
Q. All right. And that ’348 patent issued in August
of 2015?
A. Yes, I believe it was the first week of August
2015.
Q. And then we’re here with a lawsuit in November
of 2015?
A. Right.
* * * *
[1729] CROSS-EXAMINATION
BY MR. WOLF:
* * * *
[1736] Q. I’m talking as a general concept. What
did you understand -A. Putting this aside.
Q. Did you know -A. A company is representing certain things and
warranting certain things -- the company, an
individual, et cetera.
Q. And you understand that -- you understood in
the context of this document that Hologic was entitled
to rely on your reps and warranties and that they did
so in signing the document; is that right?
A. That’s a good assumption.

496
Q. Let’s go to 3.9(e), so just to be clear, before we go
on, this is Article 3. These are horribly paginated
documents, but this is Article 3.
A. Yes.
Q. Okay. So let’s go to 3.9(e). And this is a rep and
warranty that Novacept made to Hologic in 2004; is
that right?
A. I have to read it.
(Pause while witness reviewed exhibit.)
THE WITNESS: Okay.
BY MR. WOLF:
Q. So you made the representation in 2004 to
Hologic that Novacept has no present knowledge from
which it could [1737] reasonably conclude that
Novacept’s own intellectual property and any
intellectual property licensed to the company under
the company licensed intellectual property, are invalid
or unenforceable; right?
A. At the moment this was signed, yes.
Q. Yes. In 2004?
A. Yes.
Q. Now, there has been some testimony in this case
about Novacept’s awareness of a product called Vesta
in 1995.
You would agree with me that to the extent that
Novacept knew of something before 2004, it was
telling Hologic, we don’t think this invalidates any
patents you might have or get; right?
A. Yes. I didn’t know anything about the Vesta
product whether we sold them. I had heard of it. I had

497
never seen it. I had never held it in my hands. I had
never seen a picture of it. I don’t know anything about
it. I saw it last week though.
Q. Right. Certainly, Hologic was entitled as a
matter of signing this agreement with you to
understand that it was not Novacept’s position that
Vesta invalidated any IP; right?
MR. POPLAWSKI: Objection, Your Honor. Calls for
speculation and what was not in the minds of what
was set.
* * * *

498
[1778] IN THE UNITED STATES DISTRICT
COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and
Counterclaimant.
————
Wilmington, Delaware
Tuesday, July 24, 2018
8:48 o’clock, a.m.
————
VOLUME 7
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[1858] (The jury entered the courtroom.)
THE COURT:
gentlemen.

Please

be

seated,

ladies

and

You may proceed, Mr. Bish.
MR. BISH: Thank you, Your Honor. Minerva offers
the deposition testimony from Ms. Whitney Parachek,
which, as a reminder, as you’ve heard, Ms. Parachek

499
was the head of sales for Hologic’s surgical division in
2015 and 2016.
We’re going to start with Ms. Parachek’s February
23rd, 2016 deposition.
THE COURT: You may proceed, counsel.
(The videotaped deposition of Whitney Parachek
was played as follows.)
* * * *
[1862] “Question: You had conversations at Hologic
that Minerva is a startup company; right?
“Answer: Yes.
“Question: That they have limited funds; right?
“Answer: Sure.
“Question: And if -- if Hologic is successful in
preventing sales in the near term after launch,
Minerva won’t be bought and won’t be a competitor;
right?
“Answer: Those discussions have been had.
“Question: And so that is the strategy at Hologic,
right?
“Answer: What is the strategy?
“MR. BISH:
“Question: To prevent Minerva from having any
traction in the market in the very near term so that it
can’t be bought and will go under, right?
“THE WITNESS: Our strategy is -- our strategy is to
focus on selling our products and continuing to partner
with our customers that we have for the past 14,
almost 15 years.

500
“Question: And you’ve had conversations that
Hologic’s strategy should be depriving Minerva of
sales in the near term so they can’t go bought and they
go under; right?
“Yes or no? Have you had those conversations?
[1863] “Answer: We’ve had those conversations.
“Question: And I asked you earlier what were the
factors that caused you in 2014 to perceive Minerva as
a formidable competitor?
“Do you recall what factors you had in mind?
“Answer: I believe I answered that that was -- they
were going to be a new competitor, as a new competitor
coming to market.
“Question: And did it impact your opinion that
several of the individuals at Minerva had -- were
amongst the inventors of NovaSure?
“Answer: Did it impact my opinion?
“Question: That they were going to be a formidable
competitor?
“Answer: Yes. I mean, I knew that Eugene and Dave
Clapper had had success in startups:
“Question: Including Novacept; right?
“Answer: Including Novacept.
“Question: And they were amongst the inventors of
NovaSure; right?
THE WITNESS: Eugene and Dave were part of that
team.
“Question: Which gives them credibility in the
market; right?
“Answer: Yeah, I think that -- yes, they had

501
* * * *
[1871] “Question: Can you give me a rough
approximation as to the number of customers who
were exposed to the videos after Minerva’s launch?
“Answer: No.
“Question: Fair to say in the hundreds?
“Answer: I would have no estimate, I don’t know.”
(End of videotaped deposition.)
MR. BISH: Thank you.
Minerva now offers the video deposition testimony of
Tom O’Neill.
As a reminder, Mr. O’Neill was the president of the
surgical division in the 2015 time period, and the
deposition is dated April 25th, 2017.
(The videotaped deposition of Tom O’Neill was
played as follows.)
“Question: Do you recall anything about how the
circumstances by which Minerva was first introduced
to you?
“Answer: As near as I can recall -- and my memory
is not always perfect at my age. But as near as I can
recall, it’s just that there was a competitor coming into
the space. And it was -- the GEA space hadn’t had a
new competitor in quite some time.
“Question: But from the outset, you conveyed to
[1872] your team that the goal was to not let them sell
even one product. Right?
“Answer: No, I don’t recall that at all.

502
“Question: Because you knew that putting financial
pressure on Minerva at an early stage could put them
out of business. Right?
“Answer: No, I don’t recall that at all.
“Question: Sir, Exhibit 1 is an e-mail from you;
right?
“Answer: Yes.
“Question: And you began, ‘While you don’t know me
yet, I have past experience in a startup company.’
“Do you see that?
“Answer: Yes.
“Question: And then you write, ‘The best thing we
can do is not let them get a footing in any market.’
“Do you see that?
“Answer: I do.
“Question: ‘This will put tremendous financial
pressure on their entire organization and we will step
them in their tracks.’
“Do you see that?
“Answer: Yes.
“Question: And so this is what we were talking about
before, that your goal was to put financial pressure
[1873] on Minerva. Right?
“Answer: Sure.
“Question: To stop them in their tracks?
“Answer: Right.
“Question: And put them out of business?

503
“Answer: That’s what I said here, right. It’s in an email.
“Question: And that was your goal. Right?
“Answer: No. Actually, I don’t think it was what the
goal was. I don’t think there’s any reasonable person
would think that we were going to keep them from
having any cases. I think what I was trying to do is
motivate and really get the team focused and
energized and excited about selling our story. Because
if you look at the rest of the e-mail from all of the folks
involved from the beginning, whether it was Dan or
Brian, up to Whit, it was really about this message,
which was the Hologic story and our NovaSure
message.
“So I wouldn’t characterize my comments after
having been there for a week as clear direction that
they shouldn’t let a case happen.
“Question: Now, you also had discussions with Ms.
Parachek about implementing a ‘scorched earth,’
strategy to beat Minerva. Right?
“Answer: Yeah. I don’t recall that.
[1874] “Question: I’m handing you what I’ve marked
as Exhibit 2, which is an October 2nd, 2015, e-mail
from you to Ms. Parachek, Bill Fruhan and Edward
Evantash.
“Answer: Okay. What’s the question?
“Question: Do you see Exhibit 2 starts with an e-mail
from yourself -“Answer: Right.
“Question: -- where you write, where are we with the
Minerva defense program we discussed last week at
dinner?

504
“Answer: Yes.
“Question: And Ms. Parachek responds, Tom, sorry
for the delay. I planned to respond to this during our
one-on-one, but we did not get to it. We have an outline
of aggressive ideas for a scorched earth strategy that I
will forward.
“Do you see that?
“Answer: Yes.
“Question: And do you recall what that scorched
earth strategy was?
“Answer: So the way I read it here with what
Whitney outlines is it has to do with leveraging our
Med Affairs Group and making sure that we were
putting together a co-op marketing program to drive
partnership and growth. That’s the way I read this.
* * * *
[1877] (End of videotaped deposition.)
* * * *
[1948] MR. BISH: Your Honor, Minerva offers the
video deposition testimony from Ms. Shacey Petrovic,
who is the former vice president and general manager
for Hologic’s gynecological surgical division in the
2013 time frame.
(The videotaped deposition of Shacey Petrovic was
played as follows.)
* * * *
[1951] “Question: I’ve handed you what’s been
marked now Exhibit 16, HOL-MIN_10 -- excuse me,
016205 on its face. And can you confirm this is the
attachment to the e-mail from Mr. Williamson of
Exhibit 15?

505
“Answer: Yes.
“Question: And it’s titled strategy planning meeting
key themes and takeaways. Correct?
“Answer: Yes.
“Question: And at this point in time, which his email again is dated June 17, 2011, Minerva has not
appeared on the market. Correct?
“Answer: Correct.
“Question: You don’t recall any concern at all about
IP expiring with respect to the NovaSure?
“Answer: I really don’t.
“Question: And here Mr. Williamson is exhorting the
team to accelerate our time to market of that smaller
diameter NovaSure device?
“Answer: Yes.
“Question: When -- at the very bottom bullet point,
it says, ‘Our Gen 4 team must focus their efforts on
laying minefields around our product to: A, prevent
more entrants into this field; B, protect our current
portfolio.’
[1952] “Do you see that?
“Answer: Yes.
“Question: What did Mr. Williamson mean by laying
minefields around our product?
“Answer: I understand that to mean additional
patent protection.
“Question: Okay. So was there any discussion of
filing for additional patents, for example?
“Answer: I don’t recall that specifically.

506
“Question: Okay. What is it -- as specific as you can
recall, what is he referring to exactly with respect to
‘laying minefields around our product?’
“Answer: My understanding is he’s asking the R&D
team to continue to create valuable IP in order to
protect new entrants from entering the market.
“Question: What you recall. But there was a concern
to prevent more entrants into this field, being global
endometrial ablation. Correct?
“Answer: Yes.
“Question: Okay.
“Answer: I don’t believe that was the only feature
associated with the next generation NovaSure device.
“Question: Okay. But it was a feature?
“Answer: Yes.
* * * *

507
[2319] IN THE UNITED STATES DISTRICT
COURT
IN AND FOR THE DISTRICT OF DELAWARE
————
CIVIL ACTION NO. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and
Counterclaimant.
————
Wilmington, Delaware
Thursday, July 26, 2018
9:00 o’clock, a.m.
————
VOLUME 9
————
BEFORE: HONORABLE JOSEPH J. BATAILLON,
U.S.D.C.J., and a jury
————
* * * *
[2419] MR. WOLF:
* * * *
[2425] Remember Mr. Truckai said, nothing in 2009
to 2010 was confidential. And nothing that becomes
generally public. We saw the AAGL. All the product
stuff was already out in the public. That’s the AAGL.
* * * *

508
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
JUDGMENT FOLLOWING JURY VERDICT
————
This action came before the Court for a trial by jury
beginning on July 16, 2018. The jury rendered its
verdict on July 27, 2018. The verdict was
accompanied by the verdict form (D.I. 498 and 499), a
copy of which is attached hereto.
On June 28, 2018, the Court issued an Order, inter
alia, granting Plaintiffs’ motion for a summary
judgment of no invalidity, Plaintiff’s motion for a
summary judgment of infringement, and Plaintiffs
motion for a summary judgment with respect to
assignor estoppel. D.I. 408.
IT IS HEREBY ORDERED AND ADJUDGED that
judgment be and is hereby entered on the July 27,
2018 verdict as set forth in the attached verdict form
and on the June 28, 2018 Order (D.I. 408).
IT IS FURTHER NOTED that this Judgment
Following Jury Verdict is subject to revision pursuant
to any rulings on post-trial motions.

509
IT IS SO ORDERED AND ADJUDGED.
August 13, 2018
/s/ Joseph F. Bataillon
SENIOR UNITED STATES
DISTRICT JUDGE

510
Paper 8

Trials@uspto.gov
Tel: 571-272-7822

Entered: September 12, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
————
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC.,
Patent Owner.
————
Case IPR2016-00680
Patent 9,095,348 B2
————
Before WILLIAM V. SAINDON, RICHARD E. RICE,
and NEIL T. POWELL, Administrative Patent Judges.
RICE, Administrative Patent Judge.
————
DECISION
Denying Institution of Inter Partes Review
37 C.F.R. § 42.108
————
I. INTRODUCTION
A. Background
Minerva Surgical, Inc. (“Petitioner”) filed a Petition
(Paper 3, “Pet.”) requesting an inter partes review of
claims 1–15 (“the challenged claims”) of U.S. Patent

511
No. 9,095,348 B2 (Ex. 1001, “the ’348 Patent”).
Petitioner supported the Petition with a Declaration
from John Anthony Pearce, Ph.D. (Ex. 1002). Hologic,
Inc. (“Patent Owner”) filed a Preliminary Response
(Paper 7, “Prelim. Resp.”).
Under 35 U.S.C. § 314, an inter partes review may
not be instituted “unless . . . there is a reasonable
likelihood that the petitioner would prevail with
respect to at least 1 of the claims challenged in the
petition.” 35 U.S.C. § 314(a). Upon considering the
Petition and the Preliminary Response, we determine
that Petitioner has not shown a reasonable likelihood
that it would prevail with respect to at least one of the
challenged claims. Accordingly, we do not institute
inter partes review.
B. Related Proceedings
We are informed that Petitioner is named as a
defendant in a federal district court case involving the
’348 Patent (Case No. 1:15-cv-01031-SLR pending in
the U.S. District Court for the District of Delaware).
Pet. 14. We also are informed that Petitioner has filed
a second Petition for inter partes review of the ’348
Patent (IPR2016-00685). Id.
C. The ’348 Patent
The ’348 Patent, titled “Moisture Transport System
for Contact Electrocoagulation,” issued from an
application filed August 8, 2013, and claims priority to
May 8, 1998. Ex. 1001, at (54), (21), (22), (60), 1:6–13.
The ’348 Patent relates to an apparatus for ablating
the interior linings of body organs such as the uterus.
Id. at 1:19–21. Ablation of the interior lining of a body
organ, the ’348 Patent explains, “involves heating the
organ lining to temperatures which destroy the cells of
the lining or coagulate tissue proteins for hemostasis.”

512
Id. at 1:26–28. Ablation may be performed, for
example, to treat chronic bleeding of the endometrial
layer of the uterus. Id. at 1:28–30. The ’348 Patent
states that conventional methods of effecting ablation
include “application of RF energy [i.e., radio frequency
energy] to the tissue to be ablated.” Id. at 1:31–35.
Problems addressed by the ’348 Patent include the
need for a device that eliminates steam and liquid
buildup at the ablation site and that allows control of
the depth of ablation in the treated tissue. Id. at 1:48–
2:30.
Figure 21 of the ’348 Patent, which is reproduced
below, illustrates ablation device 100:

Figure 21 is a side elevation view of ablation device
100 showing sheath 104, tubing 108, handle 106, and
RF applicator head 102 slidably disposed within
sheath 104. Id. at 11:59–62, 12:2–5. After insertion of
the device into the uterine cavity, manipulation of
handle 106 causes the applicator head to extend from
the distal end of the sheath and to expand into contact
with body tissue. Id. at 11:63–12:5. The ablation
device can be used to measure the width of the uterus,
and gauge 146 displays the measured width. Id. at
14:33–36. The measured width is entered into RF

513
generator system 250 and used to calculate the
ablation power. Id. at 18:37–39. Vacuum source 252 is
connected to inner hypotube 122 (discussed below) via
suction port 210. Id. at 18:40–41.
As illustrated in Figure 23 of the ’348 Patent, which
is reproduced below, applicator head 102 extends from
the distal end of tubing 108. Id. at 12:2–5.

Figure 23 illustrates applicator head 102 in the
expanded or deployed state.1 See id. at Fig. 23.
Applicator head 102 includes: external electrode array
102a, which is formed of a stretchable metallized
fabric mesh; an internal deflecting mechanism 102b,
which is used to expand and tension the electrode
array for positioning into contact with uterine tissue;
and non-conductive suturing threads 148, which
extend from hypotube 122 for use in measuring the
width of the uterus. Id. at 12:5–12, 14:33–39.
The deployment structure for deflecting mechanism
102b includes external hypotube 120, which extends
from tubing 108, and internal hypotube 122, which is
slidably and co-axially disposed within hypotube 120.
The ’348 Patent states that, for clarity, sheath 104 is not
shown in Figure 23. Id. at 12:2–3.
1

514
Id. at 13:8–12. Outer flexures 124 extend laterally and
longitudinally from tubing 108 on opposite sides of
external hypotube 120. Id. at 13:12–13. Internal
flexures 136 extend laterally and longitudinally from
the exterior surface of internal hypotube 122. Id. at
13:56–58. Each internal flexure 136 is connected at its
distal end to one of the outer flexures 124, and a
transverse ribbon 138 extends between the distal
portions of the internal flexures 136. Id. at 13:58–61.
As described in the ’348 Patent,
during use distal and proximal grips 142, 144
forming handle 106 are squeezed towards one
another to withdraw the sheath and deploy the
applicator head. This action results in relative
rearward motion of the hypotube 120 and relative
forward motion of the hypotube 122. The relative
motion between the hypotubes causes deflection
in flexures 124, 136 which deploys and tensions
the electrode array 102a.
Id. at 14:25–31.
Deflecting mechanism 102b and its deployment
structure are enclosed within electrode array 102a. Id.
at 13:8–9. Figure 25A of the ’348 Patent is a
perspective view of electrode array 102a in the
deployed or expanded state. Id. at 3:52–53, 12:53–55.
Figure 25A is reproduced below.

515

As shown in Figure 25A, insulating regions 110 are
formed on the applicator head to divide the mesh into
electrodes 118a–118d. Id. at 12:59–13:7. As power is
supplied to the electrodes, the tissue is heated,
releasing moisture. Id. at 18:44–47. Moisture is
withdrawn from the uterine cavity through internal
hypotube 122, which is connected to vacuum source
252. Id. at 18:47–49. Apertures formed in outer
flexures 124 facilitate moisture withdrawal by
preventing trapping of moisture between the flexures
and the lateral walls of the uterus. Id. at 18:49–52.
Handle 106 comprises distal and proximal grip
sections 142, 144, which are pivotally attached to one
another at a pivot pin. Id. at 16:13–16, Figs. 21– 22.
Proximal grip section 144 is coupled to hypotube 122
via yoke 168, overload spring 170, and spring stop 172.
Id. at 16:17–19, 17:38–40, Figs. 34, 37A, 37B. Distal
grip section 142 is coupled to external hypotube 120
via male and female couplers 174, 176. Id. at 16:20–
22, Figs. 32A, 32B, 34. Figure 34 of the ’348 Patent is
reproduced below.

516

Figure 34 is a side elevation view of handle 106 as
depicted in Figure 21 (reproduced above). Id. at 4:19–
21.
As the distal and proximal grips are moved towards
one another, sheath 104 is withdrawn from array 102a
until female coupler 176 contacts and bears against
frame member 178. Id. at 17:54–59, Fig. 37A, 37B.
“Continued motion between the grips causes a relative
rearward motion in the frame which causes the same
rearward relative motion in external hypotube 120.”
Id. at 17:59–61. “An opposing force is developed in
yoke 168, which causes a relative forward motion in
hypotube 122.” Id. at 17:61–63, Figs. 37A, 37B. “The
relative motion between the hypotubes causes
deflection in flexures 124, 136 which deflect in a
manner that deploys and tensions the electrode
array.” Id. at 17:63–66.
D. Illustrative Claims
Claims 1 and 11 are independent. Claims 2–10 and
12 depend, directly or indirectly, from claim 1; claims
13–15 depend directly from claim 11. Claims 1 and 11

517
are illustrative of the claimed subject matter, and are
reproduced below:
1. A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve
slidably and coaxially disposed within the outer
sleeve;
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue
of the uterus;
a handle coupled to the proximal portion of the
elongate member, wherein the handle comprises
a frame, a proximal grip and a distal grip
pivotally attached to one another at a pivot point
and operably coupled to the applicator head so
that when the proximal grip and the distal grip
are moved closer together, the applicator head
transitions from the contracted state to the
expanded state;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured

518
so that translating the inner sleeve relative to the
frame causes the applicator head to transition
from the contracted state to the expanded state;
and
an indicator mechanism operably coupled to the
inner sleeve, the indicator mechanism configured
to indicate a dimension of the uterus.
Id. at 19:9–42.
11. A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve
slidably and coaxially disposed within the outer
sleeve;
a handle coupled to the proximal portion;
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue
of the uterus;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured
so that translating one of the inner and outer

519
sleeves relative to the other causes the applicator
head to transition from the contracted state to the
expanded state;
an indicator mechanism operably coupled to the
inner sleeve, the indicator mechanism configured
to indicate a dimension of the uterus; and
wherein when the device is operably coupled to a
generator to deliver current to the electrodes, the
device is configured to electronically transmit the
dimension of the uterus to the generator.
Id. at 20:17–47.
E. The Asserted References
Petitioner relies upon the following references (Pet.
14–15):
Reference
Yoon
NadyMohamed
Ortiz
Jing
Lichtman

Patent No./
Exhibit
Date
Pub. No.
No.
US 5,514,091 May 7, 1996 Ex. 1007
US 5,353,784 Oct. 11, 1994 Ex. 1009
US 5,358,496 Oct. 25, 1994 Ex. 1006
Exs. 1010,
Published
CN 1060594A
1011
Apr. 29, 1992
(translation)
US 5,620,459 Apr. 15, 1997 Ex. 1008
F. The Asserted Grounds

Petitioner challenges claims 1–15 of the ’348 Patent
on the following grounds (Pet. 14–15):

520
References

Basis

Yoon, Nady-Mohamed, Ortiz,
§ 103(a)
and Jing
Yoon, Nady-Mohamed, Ortiz,
§ 103(a)
Jing, and Lichtman

Claim(s)
Challenged
1–7, 10–13,
and 15
8, 9, and 14

II. ANALYSIS
We turn now to Petitioner’s asserted grounds of
unpatentability to determine whether Petitioner has
met the threshold standard of 35 U.S.C. § 314(a) for
instituting review.
A. Level of Skill in the Art
Dr. Pearce testifies that a person of ordinary skill in
the art
would include someone who had, through
education or practical experience, the equivalent
of a bachelor’s degree in biomedical engineering,
electrical engineering, mechanical engineering, or
a related field and at least an additional two to
three years of work experience developing or
implementing electrosurgical devices.
Ex. 1002 ¶ 47. Patent Owner does not provide evidence
or argument on the level of ordinary skill. Prelim.
Resp. 11 n.3. We adopt Dr. Pearce’s definition for
purposes of this Decision.
B. Claim Construction
In an inter partes review, the Board gives claim
terms in an unexpired patent their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b); see Cuozzo Speed Techs., LLC v. Lee, 136
S. Ct. 2131, 2144–46 (2016). Under that standard, a

521
claim term generally is given its ordinary and
customary meaning, as would be understood by one of
ordinary skill in the art in the context of the entire
disclosure. See In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007). While our claim
interpretation cannot be divorced from the
specification and the record evidence, see Microsoft
Corp. v. Proxyconn, Inc., 789 F.3d 1292, 1298 (Fed. Cir.
2015) (quoting In re NTP, Inc., 654 F.3d 1279, 1288
(Fed. Cir. 2011)), we must be careful not to import
limitations from the specification that are not part of
the claim language. See SuperGuide Corp. v. DirecTV
Enters., Inc., 358 F.3d 870, 875 (Fed. Cir. 2004). Any
special definition for a claim term must be set forth in
the
specification
with
reasonable
clarity,
deliberateness, and precision. See In re Paulsen, 30
F.3d 1475, 1480 (Fed. Cir. 1994).
Petitioner proposes express constructions for two
claim terms, “frame” and “flexure.” Pet. 15–17. Patent
Owner does not propose an express construction for
any claim term. Prelim. Resp. 9–10,
1. “frame”
Claim 1 recites “a handle coupled to the proximal
portion of the elongate member, wherein the handle
comprises a frame” (emphasis added). Petitioner
proposes to construe the term “frame” “to include a
structure coupled (e.g., removably or continuously) to
a handle grip, that surrounds or encloses another
component (e.g., inner sleeve).” Pet. 16.
We have considered Petitioner’s proposed claim
construction, but determine that the term “frame”
does not require explicit construction for purposes of
our Decision. We note, however, that this term was
construed in a related case (IPR2016-00685).

522
2. flexures
Claim 1 recites “a deflecting mechanism including
flexures disposed within the applicator head”
(emphasis added). Petitioner argues that the term
“flexure” “should be construed to include a component
designed to be bent or curved.” Id. at 17. Petitioner
asserts that its proposed claim construction is
consistent with the use of “flexure” in the Specification
and the term’s ordinary meaning. Id. at 16–17 (citing
Ex. 1001, 13:65–67, 13:56–14:31, Figs. 23, 30; Ex. 1002
¶¶ 54–56; Ex. 1013, 3).
We do not agree with Petitioner’s proposed
construction because it is not consistent with the
Specification’s description of flexures 124, 136 as
strips that are capable of being bent or curved. See,
e.g., Ex. 1001, 4:1–9, 13:8–14:31, Figs. 23, 28–30.
Figures 23 and 28, for example, depict flexures 124 as
strips that have been bent or curved as the result of
relative motion between hypotubes 120 and 122. Id. at
13:8–15, 14:29–30, Figs. 23, 28. Indeed, Petitioner’s
declarant, Dr. Pearce, testifies that “a person of skill
in the art would understand the term ‘flexure’ to refer
to a component capable of being bent or curved.” Ex.
1002 ¶ 56.
On this record, we determine that the broadest
reasonable interpretation consistent with the
Specification of “flexures” is strips that are capable of
being bent or curved. We note that a distinction with
Petitioner’s proposed construction is that “designed to
be bent,” for example, could mean a structure that has
been bent but is no longer bendable or a structure that
is bendable. “Capable of being bent,” on the other
hand, means that the structure is further bendable.

523
C. Asserted Obviousness
A claim is unpatentable for obviousness under 35
U.S.C. § 103(a) if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art (“POSA”) to
which the subject matter pertains. See KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). A patent claim
composed of several elements, however, is not proved
obvious merely by demonstrating that each of its
elements was known, independently, in the prior art.
Id. at 418. In analyzing the obviousness of a
combination of prior art elements, it can be important
to identify a reason that would have prompted one of
skill in the art to combine the elements in the way the
claimed invention does. Id. A precise teaching directed
to the specific subject matter of a challenged claim is
not necessary to establish obviousness. Id. Rather,
“any need or problem known in the field of endeavor at
the time of invention and addressed by the patent can
provide a reason for combining the elements in the
manner claimed.” Id. at 420. The question of
obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and
content of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level
of skill in the art; and (4) objective evidence of
nonobviousness, i.e., secondary considerations, when
in evidence. Graham v. John Deere Co., 383 U.S. 1, 17–
18 (1966).
In this case, Petitioner challenges claims 1–15 as
unpatentable for obviousness. Pet. 14–15. Specifically,
Petitioner contends that claims 1–7, 10–13, and 15
would have been obvious over Yoon, Nady-Mohamed,

524
Ortiz, and Jing and claims 8, 9, and 14 would have
been obvious over Yoon, Nady-Mohamed, Ortiz, Jing,
and Lichtman. Id. For the reasons discussed below,
Petitioner has not shown a reasonable likelihood that
it would prevail with respect to any of the challenged
claims.
1. Overview of Asserted References
a. Yoon
Yoon discloses several distinct embodiments,
including multifunctional instrument 410, which can
be used for performing various diverse operative
procedures, including uterine ablation. Ex. 1007,
20:9–38. Instrument 410 includes inner member 416
and middle member 418. Id. at 20:19. Middle member
418 is made as a collapsible bag, balloon, or
membrane. Id. at 19:67–20:5. The middle member
defines expandable portions 434a and 434b, which
have “preformed predetermined” shapes. Id. at 19:55–
59. Expandable portions 434 are introduced through
an opening in the body in a collapsed state, and fluid
is supplied between middle member 418 and inner
member 416 to move the expandable portions from the
collapsed state to an expanded state in which they
form
enlargements
or
protrusions
having
configurations corresponding to the preformed
predetermined shapes. Id. at 20:9–38, Fig. 13. Middle
member 418 may include electrically conductive
material, such as an electrically conducting spine, for
use in performing uterine ablation. Id. at 20:34–38
Yoon also discloses multifunctional instrument
1110. Id. at 24:63–29:7, Figs. 23–27. Figures 23 and 24
are reproduced below.

525

The first figure above is Figure 23, which shows a side
view of instrument 1010 with expandable portions
1034 in the unexpanded state, and the second above
figure is Figure 24, which shows expandable portions
1034 in the expanded position. Id. at 5:33–38, 25:20–
31. “Multifunctional instrument 1010 is particularly
advantageous for performing endometrial ablation to
treat, for example, dysfunctional uterine bleeding in
that an electrically conductive spine 1083, shown in
dotted lines in FIG. 24, can be disposed within or on
middle member 1018 for contacting anatomical
tissue.” Id. at 26:26–32.
Figures 25–27 illustrate a further modification of
instrument 1010. Id. at 26:41–29:7. As modified,
instrument 1010 includes inner member 1116, middle
member 1118, and collar 1120. Id. at 26:43–48. Middle
member 1118 includes a transparent stretchable or
elastic membrane or a non-elastic or rigid preformed
membrane having distal end wall 1126, which closes

526
off or seals the lumen of the middle member; inner
member 1116 carries expandable spine 1183 for
mechanically shaping or expanding middle member
1118. Id. at 26:43–48, 27:40–44. Spine 1183 includes
plurality of legs 1192 pivotally or hingedly attached to
inner member 1116 at pivots, joints, or hinges. Id. at
26:54–56. The legs can be attached pivotally to the
inner member 1116 at various locations in accordance
with the configuration desired for expandable portion
1134 in the expanded position. Id. at 26:56–61. Figure
26 of Yoon is reproduced below.

As shown in Figure 26, spine 1183 is biased to, or
normally disposed in, an expanded position wherein
legs 1192 are disposed angularly outwardly of inner
member 1116. Id. at 26:61–63. The legs are equally
spaced about a longitudinal axis of the instrument. Id.
at 26:56–61. Yoon discloses that:
As shown in FIG. 26, operating cylinder 1196 is
rotated until forward edge 1136 of collar 1120 is
disposed proximally of expandable portion 1134
causing spine 1183 to move automatically to the
expanded position with legs 1192 disposed in a
direction angularly outwardly of the instrument
longitudinal axis as shown in FIG. 26.
Id. at 28:41–46. Yoon also discloses that:
Movement of spine 1183 to the expanded position
causes movement of expandable portion 1134 to
the expanded position forming an enlargement or
protrusion between end wall 1126 and collar

527
forward edge 1136. If desired, fluid can be
supplied to expandable portion 1134 via valve
assembly 1148 and the lumen 1125 of inner
member 1116 to further shape or maintain the
shape of or to increase the size of expandable
portion 1134 in the expanded position. In the
expanded position, the expandable portion 1134
can be used to manipulate tissue or organ
structure in the anatomical cavity for various
medical procedures.
Id. at 28:46–57 (emphasis added).
b. Nady-Mohamed
Nady-Mohamed relates to barrier-forming or
shielding means insertable into a cavity within the
body through a small incision. Ex. 1009, 1:6–10. A
disclosed embodiment includes cylindrical tube 10,
plunger 11, and flexible arms 13, 14, which are
preformed to their operative extended shapes. Id. at
3:45–4:6. “A membrane 20 is disposed between the
arms 13 and 14, and is fixed to each arm along the
lengths of its outer edges.” Id. at 3:67–4:1. NadyMohamed discloses:
In the retracted position, as illustrated in FIG. 1,
the membrane 20 is folded or otherwise
compressed for storage between the arms. In the
extended position, as illustrated in FIGS. 2 and 3,
the previously deformed arms 13 and 14 attain
their natural shape, and membrane 20 is thereby
spread to occupy the space between them.
Id. at 4:1–6. Figure 3 of Nady-Mohamed is reproduced
below.

528

Figure 3 is a cross-section view of the barrier-forming
apparatus showing plunger 11 and arms 13, 14 in an
extended position, with membrane 20 spread between
them. Id. at 3:17–19. Plunger 11 is slidably disposed
within tube 10, “and the arms and membrane are
expelled from the distal end of the tube or withdrawn
into the tube by sliding the plunger in the desired
direction.” Id. at 4:53–56. In use, for example, “the
distal end of the tube is placed in the vicinity of the
organ or tissue of interest, and the membrane and
arms are extended from within the tube, thereby
forming a solid barrier for shielding or retraction of the
organ.” Id. at 5:52–56.
Figure 6 of Nady-Mohamed, reproduced below,
depicts a structure for adding rigidity to arms 13, 14
in their extended position. Id. at 5:12–14.

529

As shown in Figure 6, plunger 11 terminates at disc
12, which has a longitudinal bore within which rod 50
is slidably disposed. Id. at 5:14–17. “The rod near its
distal end 52 is provided with a plurality of rigid ribs
53 which are pivotally joined to the outer surface of the
rod at pivotal joints 54.” Id. at 5:18–21 (emphasis
added). “The ribs extend laterally from the rod and are
pivotally joined at their opposite ends to the arms 13
and 14, such that, when the arms are urged by the
plunger to their extended position, the rod is drawn
forward with the arms, and the ribs are spread by the
expansion of the arms.” Id. at 5:21–26. A locking
feature prevents movement of the rod toward the
proximal end of the apparatus. Id. at 5:32–39. “The
locking feature is of critical importance in applications
in which it is necessary for the arms to resist a
collapsing force.” Id. at 5:39–43 (emphasis added).
c. Ortiz
Ortiz relates to an endoscopic tissue manipulator
that can be inserted through an endoscopic tube to
enable a surgeon to manipulate tissue inside a body
cavity. Ex. 1006, 1:10–12. A preferred embodiment

530
includes a proximal handle assembly and a distal
expandable platform 70. Id. at 4:37–39. Figure 3 of
Ortiz is reproduced below:

As shown in Figure 3, platform 70 consists of a
plurality of flexible, interconnected strips adapted to
expand laterally outward to form a pair of fingers 72.
Id. at 4:52–55. Each of fingers 72 comprises outer strip
74 and inner strip 76. Id. at 4:55–58. Outer strip 74 is
attached to the distal end of actuator tube 90, and
inner strip 76 is attached to the distal end of shaft or
push rod 100 inside of actuator tube 90. Id. at 4:59–63.
“[W]hen actuator tube 90 is retracted, i.e., moved
proximally relative to the support shaft 100, the
fingers 72 are spread apart and the platform 70 is
expanded into a tulip-shaped configuration.” Id. at
5:28–31. “The outer strips 74 are pulled in the
proximal direction by the actuator tube 90 and the
guide tube 86 is moved proximally along the inner
strips 76 by the struts 82.” Id. at 5:32–34. Figure 7 of
Ortiz is reproduced below.

531

Figure 7 depicts a longitudinal cross section
illustrating platform 70 in a tulip-shaped
configuration. Id. at 3:29–30, 4:10–11. As shown in
Figure 7, each of fingers 72 comprises flexible strut 82,
having its distal end secured to outer strip 74 and its
proximal end attached to connector sleeve 84, which is
slidably mounted on inner strip 76. Id. at 4:63–5:1.
Connector sleeve 84 is located within guide tube 86,
which is slidably received in the distal end of actuator
tube 90. Id. at 5:1–4. Struts 82 provide for shape
control of platform 70 in its expanded configuration.
Id. at 6:1–2. “The expanded platform 70 has a
generally planar configuration which provides two flat
tissue manipulating surfaces on its opposite sides.” Id.
at 8:36–39.
d. Jing
Jing relates to a computer-controlled apparatus for
measuring and displaying data of the morphology of a
woman’s uterine cavity. Ex. 1011, 3:5–7, 20–23, 4:25–
30.2 “An object of the present invention is to provide a
computer-controlled measurement apparatus for
measuring and displaying data of the morphology of
2

We cite to the certified translation of Jing (Ex. 1011).

532
the uterine cavity, thereby increasing the success rate
of the IUD technique and facilitating the modification
of IUDs.” Id. at 3:20–23. Figure 2 of Jing is reproduced
below.

Figure 2 illustrates measuring rod 3 and dovetail-type
contacts 22, 23. Id. at 5:9–13. Jing discloses:
When a transverse dimension of the uterine
cavity is to be measured, the measurement push
button may be pushed by hand, such that two
dovetail-type contacts (22, 23) of the transverse
dimension measuring rod protrude from throughholes (10) at two sides of the measurement sleeve
and expend [sic] to the transverse dimension
being measured.
Id.
2. Petitioner’s Contentions with Respect to
Claims 1 and 11
With respect to the requirement of claims 1 and 11
for an elongate member comprising an inner sleeve
slidably and coaxially disposed within an outer sleeve,
Petitioner relies on Yoon’s instrument 1110 as
depicted in Figure 25. Pet. 22–23. Petitioner also
argues: “To the extent that Yoon does not expressly
describe an inner sleeve slidably disposed within the

533
outer sleeve as recited in the claim, these aspects of
the limitation are fully disclosed by Nady-Mohamed.”
Id. at 23 (citing Ex. 1002 ¶ 182). Relying on the
embodiment depicted in Nady-Mohamed’s Figure 6,
Petitioner asserts that Nady-Mohamed’s rod 50 (i.e.,
the inner sleeve) is slidably disposed within NadyMohamed’s plunger 11 (i.e., the outer sleeve). Id.
(citing Ex. 1009, 5:14–18, Fig. 6; Ex. 1002 ¶ 183). As
reasons for combining the teachings of Yoon and NadyMohammed, Petitioner asserts:
One of ordinary skill in the art would have
incorporated an expansion mechanism as in
Nady-Mohamed into an ablation device as
disclosed by Yoon, because Yoon teaches that
different expansion mechanism designs can be
used and Nady-Mohamed’s mechanical expansion
elements are specifically designed for engaging
the uterine walls. Ex. 1002 ¶¶ 169-171, 184. In
addition, as Dr. Pearce also explains, use of the
mechanical expansion elements taught by NadyMohamed, including the inner sleeve slidable
within an outer sleeve, would have been
preferable over the fluid expansion media
disclosed in Yoon because it would have simplified
the device design and obviated potential safety
issues such as fluid leakage or contamination.
Id. at 24 (citing Ex. 1002 ¶¶ 173, 184).
With respect to the “deflecting mechanism”
limitation requiring “external flexures being coupled
to the outer sleeve” and “internal flexures being
coupled to the inner sleeve,” Petitioner relies on
combining features of Yoon’s instrument 1010 as
depicted in Figures 25–27 with the embodiment
depicted in Nady-Mohamed’s Figure 6. Id. at 31–32.
Petitioner asserts that Nady-Mohamed’s flexible arms

534
13, 14 correspond to the “external flexures” limitation
and that Nady-Mohamed’s rigid ribs 53 correspond to
the “internal flexures” limitation. Id. Petitioner argues
that a skilled artisan would have improved Yoon’s
ablation device by incorporating Nady-Mohamed’s
mechanical expansion design:
Moreover, a skilled artisan would have recognized
that an endometrial ablation device as in Yoon
would benefit from improved contact between the
expandable applicator head and the uterine wall.
[Ex. 1002 ¶ 171.] The mechanical expansion
design disclosed in Yoon utilizes straight, rigid
“legs” in its “expandable spine.” Ex. 1007 at
26:53–56, FIGS. 25–27 (elements 1192). NadyMohamed discloses a similar triangular shape for
its expandable head, but teaches the use of
flexible supports for the structure, teaching that
its flexible arms are beneficial for “firmly
engag[ing] the walls of the lumen of the uterus
without risk of tearing or other damage to the
tissue.” See Ex. 1009 at 4:30-33. It would have
been apparent to the skilled artisan that this
arrangement would be beneficial for maintaining
stable contact between the applicator head and
uterine walls during endometrial ablation. Ex.
1002 ¶ 171.
Id. at 50–51.
Petitioner additionally contends that, “[t]o the
extent the ribs 53 pivotally coupled to the sleeve 81
and flexures 13, 14 themselves do not satisfy as
flexures, it would have been obvious to use bendable
components such as those described in Ortiz.” Id. at 32
(citing Ex. 1002 ¶ 206). Petitioner asserts that “Ortiz
discloses first and second outer flexures, each referred
to as ‘outer strip 74,’ and first and second inner

535
flexures, each referred to as ‘flexible strut 82.’” Id.
(citing Ex. 1002 ¶ 206). As reasons to combine Yoon,
Nady-Mohamed, and Ortiz, Petitioner contends:
Dr. Pearce explains that it would have been
obvious to a person of ordinary skill in the art to
implement flexible reinforcing ribs capable of
achieving some degree of curvature, since this
would merely be a simple substitution of one
known element for another. [Ex. 1002 ¶ 207.]
Substituting pivoting ribs 53 with fixed flexible
members would still provide structural definition
for the expandable device while at the same time
providing flexibility and ability to conform to the
walls of the uterus. Id.
Additionally, a person of ordinary skill would
reasonably have incorporated a flexible design as
in Ortiz’s expandable platform, including its
bendable inner flexures, into an ablation device
such as disclosed by Yoon. Id. ¶¶ 172–173.
Utilizing a “plurality of flexible, interconnected
strips” and “flexible struts” such as taught by
Ortiz would further improve the ability of the
device to conform to the shape of the uterus and
accommodate different morphologies while also
providing sufficient support to maintain an
appropriate shape for uterine treatment. Ex. 1006
at 4:34–42, 52–55; Ex. 1002 ¶¶ 172–173.
Id. at 33; see also id. at 51–52 (advancing similar
arguments).
With respect to the requirement of claims 1 and 11
for “an indicator mechanism coupled to the inner
sleeve . . . configured to indicate a dimension of the
uterus,” Petitioner relies on Jing’s device for
measuring a transverse dimension of the uterine

536
cavity. Pet. 35–37. Petitioner contends that a skilled
person would have incorporated Jing’s measurement
apparatus into the ablation device taught by Yoon,
Nady-Mohamed, and Ortiz “in order to provide
dimension information that would assist a physician
in accounting for patient-to-patient variations in
uterine morphology, and thereby increase the safety
and efficacy of the ablation treatment.” Id. at 37, 52–
54 (citing Ex. 1002 ¶ 176). Petitioner further argues
that “it would have been common sense to the skilled
artisan at the time that information regarding
internal morphology would be useful when operating
a surgical device within a confined space such as the
uterus without direct observation.” Id. at 54 (citing Ex.
1002 ¶ 176).
3. Patent Owner’s Responsive Contentions
In response, Patent Owner argues, inter alia, that
Petitioner has not explained sufficiently why a person
of ordinary skill in the art would have combined the
prior art teachings to arrive at the challenged claims
as a whole. See Prelim. Resp. 14–15, 39, 60. Patent
Owner argues, for example, that “Petitioner relies on
a combination of three prior art references for the
‘deflecting mechanism’ limitations of claims 1 and 11,”
but “fails to provide a rationale (or provides only
insufficient conclusory assertions) for combining these
references.” Id. at 29.
Patent Owner also asserts that Petitioner has failed
to show why or how incorporating Nady-Mohamed’s
deflecting mechanism into Yoon’s embodiment 1110
would have improved contact between Yoon’s
expandable applicator head and the uterine wall as
Petitioner contends. Id. at 31–32. Patent Owner
further argues that “the straight, rigid ribs 53 of NadyMohamed are not ‘flexures.’” Id. at 31.

537
Patent Owner additionally contests Petitioner’s
rationale “for combining Ortiz’s struts 82 with NadyMohamed’s deflecting mechanism.” Id. at 32–33.
Patent Owner argues that, even if the references are,
as Petitioner contends, in the same field of endeavor,
that fact alone is insufficient to show a rationale for
combining the references. Id. at 33. Patent Owner
characterizes Petitioner’s further argument that “the
‘flexible construction’ of Ortiz’s struts 82 would
‘improve the ability of [Nady-Mohamed’s] device to
accommodate different uterine morphologies’” as
conclusory and lacking “any factual support or
reasoning as to how Ortiz’s struts 82 could improve
Nady-Mohamed’s ability to accommodate different
uterine morphologies if used as inner flexures.” Id.
(quoting Pet. 51).
Patent Owner asserts that “Nady-Mohamed’s arms
13 and 14 are described as ‘preformed to their
operative extended shape’ and ‘attain their natural
shape’ in the extended position—i.e., NadyMohamed’s arms 13 and 14 are intended to expand to
their predetermined shape regardless of whether
Ortiz’s struts 82 are used.” Id. at 33–34 (quoting Ex.
1009, 3:55–58, 4:3–6). Patent Owner additionally
asserts that “Petitioner also has not provided any
evidence that a person of ordinary skill would have
recognized the alleged benefit of the Ortiz struts in the
context of the claimed invention (i.e., to accommodate
different uterine morphologies) without hindsight.” Id.
at 34.
With respect to “an indicator mechanism operably
coupled to the inner sleeve . . . configured to indicate a
dimension of the uterus,” Patent Owner asserts that
Jing’s transverse-dimension-measurement device is a
stand-alone-apparatus with dovetail-type contacts

538
that must extend across the full width of the uterus.
Id. at 39–41 (Ex. 1011, 5:9–13). As such, Patent Owner
argues, Jing is “inapposite to the devices described in
Yoon, Nady-Mohamed, and Ortiz,” and would not
satisfy the “operably coupled to the inner sleeve”
aspect of the claim limitation if coupled to NadyMohamed’s outer sleeve to measure the width of the
uterine cavity. Id. Patent Owner further asserts that
Petitioner fails to explain sufficiently why or how a
person of ordinary skill in the art would have used
Jing’s apparatus in combination with Yoon’s
expandable member 1034. Id. at 59–60.
4. Analysis
An analysis under 35 U.S.C. § 103(a) requires more
than “mere conclusory statements; instead, there
must be some articulated reasoning with some
rational underpinning to support the legal conclusion
of obviousness.” KSR, 550 U.S. at 418 (quoting In re
Kahn, 441 F.3d 977, 988 (Fed. Cir. 2006)). Upon
consideration of the Petition and the Preliminary
Response, we agree with, and adopt, Patent Owner’s
argument, as summarized above, that the reasons
advanced by Petitioner for combining elements of
Yoon, Nady-Mohamed, Ortiz, and Jing to make the
claimed invention are conclusory and insufficient. We
provide additional analysis below.
Petitioner primarily relies on Nady-Mohamed for
the
inner-sleeve-slidably-disposed-within-an-outersleeve requirement.3 In reference to the embodiment
Petitioner also appears to contend that Yoon’s instrument
1110 as depicted in Yoon’s Figures 25–27 teaches an inner sleeve
slidably disposed within an outer sleeve. See Pet. 22–23.
Petitioner, however, does not identify the elements of Yoon’s
instrument 1110 that allegedly satisfy the claim requirements.
3

539
depicted in Nady-Mohamed’s Figure 6, Petitioner
identifies rod 50 of Nady-Mohamed as corresponding
to the “inner sleeve” and Nady-Mohamed’s plunger 11
as corresponding to the “outer sleeve.” Pet. 23–24
(citing Ex. 1009, 5:14–18, Fig. 6; Ex. 1002 ¶ 183).
While the identified elements would satisfy the “inner
sleeve” and “outer sleeve” requirements, we
determine, as discussed below, that Petitioner’s
asserted reasons for modifying Yoon’s instrument
1110 to incorporate these and other elements are
insufficient to support a legal conclusion of
obviousness. See id. at 24.
In Yoon’s instrument 1110 as depicted in Figures
25–27, cylinder 1196 is rotated to retract collar 1120
relative to spine 1183, which, when uncovered,
expands automatically to deploy expandable portion
1034 via legs 1192. Ex. 1007, 28:41–46, Figs. 25–27. In
the expanded position, legs 1192 extend angularly
outward, and expandable portion 1134 forms an
enlargement or protrusion between end wall 1126 and
collar forward edge 1136. Id. at 28:46–50. Fluid can be
supplied to expandable portion 1134 to further shape
or maintain the shape of or to increase the size of
expandable portion 1134 in the expanded position. Id.
at 28:50–54.
Petitioner argues that Nady-Mohamed’s mechanical
expansion elements, including the slidable sleeves, are
designed for engaging the uterine walls, but this
argument does not explain sufficiently how the
slidable sleeves contribute to this design, or why a
skilled person would have substituted Yoon’s rotatable
Indeed, Petitioner’s declarant, Dr. Pearce, testifies that “Yoon
does not expressly describe an inner sleeve slidably disposed
within the outer sleeve as recited in the claim.” See Ex. 1002
¶ 181.

540
cylinder/collar with Nady-Mohamed’s slidable sleeves.
See Pet. 24 (citing Ex. 1002 ¶¶ 173, 184). Dr. Pearce’s
testimony is similarly conclusory. For example, Dr.
Pearce testifies:
[U]se of the mechanical expansion elements
taught by Nady-Mohamed, including the inner
sleeve slidable within an outer sleeve, would have
been preferable over the fluid expansion media
disclosed in Yoon because it would have simplified
the device design and obviated potential safety
issues such as fluid leakage or contamination.
Such a combination would result in a device
where an inner sleeve slidably and coaxially
disposed within an outer sleeve as taught by
Nady-Mohamed would be used to deploy the
expandable member of Yoon within the uterus.
Ex. 1002 ¶ 184. Dr. Pearce’s testimony fails to explain
sufficiently why using an inner sleeve slidably
disposed within an outer sleeve would have
“simplified”
Yoon’s
rotatable
cylinder/collar
deployment mechanism. Dr. Pearce’s testimony also
fails to explain sufficiently why substituting NadyMohamed’s slidable sleeves for Yoon’s rotatable
cylinder/collar would have obviated using fluid
expansion media to further shape or maintain the
shape of or to increase the size of expandable portion
1134 in the expanded position (as disclosed in Yoon).
Petitioner also relies on Nady-Mohamed for
“external flexures being coupled to the outer sleeve”
and “internal flexures being coupled to the inner
sleeve.” Specifically, Petitioner contends that NadyMohamed’s arms 13, 14 and ribs 53 correspond,
respectively, to the required “external flexures” and
“internal flexures.” Pet. 31–32. We agree with Patent
Owner, however, that ribs 53 as disclosed in Nady-

541
Mohamed are “rigid”; they are not flexible or bendable,
and, thus, do not constitute “flexures” under a proper
claim construction. See supra Section II.B.2; Prelim.
Resp. 31.
Alternatively, Petitioner argues that Ortiz remedies
the lack of “internal flexures” in Yoon and NadyMohamed. Pet. 32. Petitioner relies on Dr. Pearce’s
testimony that substituting Nady-Mohamed’s rigid
pivoting ribs 53 with “flexible reinforcing ribs capable
of achieving some degree of curvature,” such as flexible
struts 82 of Ortiz, would have been obvious as “a
simple substitution of one known element for
another.” Pet. 33 (citing Ex. 1002 ¶ 207).
We are not persuaded that substituting NadyMohamed’s ribs 53 with Ortiz’s struts 82 would have
amounted to a simple substitution of one known
element for another. The functions of the two elements
are significantly different. The function of NadyMohamed’s ribs 53 is to add rigidity to flexible arms
13, 14 in response to a collapsing force, while the
function of Ortiz’s struts 82 is to provide for shape
control of outer strips 74 and platform 70 in response
to an expanding force (pulling or pushing of outer
strips 74 by retraction or advancement of actuator
tube 90). Compare Ex. 1009, 5:12–43, with Ex. 1006,
5:28–6:6. The different known functions of ribs 53
(Nady-Mohammed) and struts 82 (Ortiz) are in
keeping with the different expansion mechanisms that
they complement. Flexible arms 13, 14 of NadyMohamed are preformed such that they spring
naturally into their extended position when
unrestrained (Ex. 1009, 3:55–4:6), while Ortiz’s outer
strips 74 do not expand unless pulled or pushed by
retraction or advancement of actuator tube 90 (Ex.
1006, 5:28–67). We are not persuaded, therefore, that

542
Ortiz teaches or suggests flexible reinforcing ribs as
Dr. Pearce asserts, or that a skilled person would have
combined the teachings of Nady-Mohamed and Ortiz
as Petitioner contends.
Petitioner, moreover, has not provided a sufficient
rationale for combining the teachings of Jing with
those of Yoon, Nady-Mohamed, and Ortiz. Petitioner’s
argument that dimension information provided by
Jing’s measurement device would assist a physician in
accounting for patient-to-patient variations in uterine
morphology does not explain sufficiently why a person
of ordinary skill in the art would have incorporated
Jing’s measurement device into Yoon’s ablation
device, rather than simply use Jing’s device separately
to obtain the information. We are unpersuaded by Dr.
Pearce’s testimony that “it would have been common
sense to the skilled artisan at the time that
information regarding internal morphology would be
useful when operating a surgical device within a
confined space such as the uterus without direct
observation.” See Ex. 1002 ¶ 176 (emphasis added);
Arendi S.A.R.L. v. Apple Inc., Appeal No. 2015-2073,
2016 WL 4205964, at *5 (Fed. Cir. Aug. 10, 2016)
(stating that “‘common sense’ . . . cannot be used as a
wholesale substitute for reasoned analysis and
evidentiary support”). Dr. Pearce’s testimony does not
contain sufficient reasoning or evidentiary support to
explain why obtaining a transverse dimension of the
uterus while concurrently operating Yoon’s ablation
device would have been useful.
For these reasons, we determine that Petitioner has
not established a reasonable likelihood of prevailing
on its challenges to independent claims 1 and 11 as
obvious over Yoon, Nady-Mohamed, Ortiz, and Jing.
As Petitioner’s arguments and evidence with respect

543
to dependent claims 2–10 and 12–15 do not remedy the
deficiencies in the arguments and evidence with
respect to the independent claims, discussed above, we
also determine that Petitioner has not established a
reasonable likelihood of prevailing on its challenges to
dependent claims 2–10 and 12–15.
III. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has not established a reasonable likelihood
of prevailing on its challenges to: claims 1–7, 10–13,
and 15 as obvious over Yoon, Nady-Mohamed, Ortiz,
and Jing; and claims 8, 9, and 14 as over Yoon, NadyMohamed, Ortiz, Jing, and Lichtman.
IV. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that Petitioner’s Petition for an inter
partes review of claims 1–15 of the ’348 Patent is
denied, and no inter partes review will be instituted
pursuant to 35 U.S.C. § 314 as to any claim of the ’348
Patent on any of the grounds of unpatentability
alleged by Petitioner in the Petition.

544
PETITIONER:
Michael T. Rosato
Matthew A. Argenti
Steven W. Parmelee
WILSON SONSINI GOODRICH & ROSATI
mrosato@wsgr.com
margenti@wsgr.com
sparmelee@wsgr.com
PATENT OWNER:
Jennifer A. Sklenar
Alissa H. Faris
ARNOLD & PORTER LLP
Jennifer.Sklenar@aporter.com
Alissa.Faris@aporter.com

545
Trials@uspto.gov
Tel: 571-272-7822

Paper 8
Entered: September 12, 2016

UNITED STATES PATENT AND
TRADEMARK OFFICE
————
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
————
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC.,
Patent Owner.
————
Case IPR2016-00685
Patent 9,095,348 B2
————
Before WILLIAM V. SAINDON, RICHARD E. RICE,
and NEIL T. POWELL, Administrative Patent Judges.
RICE, Administrative Patent Judge.
————
DECISION
Denying Institution of Inter Partes Review
37 C.F.R. § 42.108
————
I. INTRODUCTION
A. Background
Minerva Surgical, Inc. (“Petitioner”) filed a Petition
(Paper 3, “Pet.”) requesting an inter partes review of
claims 1–15 (“the challenged claims”) of U.S. Patent
No. 9,095,348 B2 (Ex. 1001, “the ’348 Patent”).

546
Petitioner supported the Petition with a Declaration
from John Anthony Pearce, Ph.D. (Ex. 1002). Hologic,
Inc. (“Patent Owner”) filed a Preliminary Response
(Paper 7, “Prelim. Resp.”).
Under 35 U.S.C. § 314, an inter partes review may
not be instituted “unless . . . there is a reasonable
likelihood that the petitioner would prevail with
respect to at least 1 of the claims challenged in the
petition.” 35 U.S.C. § 314(a). Upon considering the
Petition and the Preliminary Response, we determine
that Petitioner has not shown a reasonable likelihood
that it would prevail with respect to at least one of the
challenged claims. Accordingly, we do not institute
inter partes review.
B. Related Proceedings
We are informed that Petitioner is named as a
defendant in a federal district court case involving the
’348 Patent (Case No. 1:15-cv-01031-SLR pending in
the U.S. District Court for the District of Delaware).
Pet. 14. We also are informed that Petitioner has filed
a second Petition for inter partes review of the ’348
Patent (IPR2016-00680). Id.
C. The ’348 Patent
The ’348 Patent, titled “Moisture Transport System
for Contact Electrocoagulation,” issued from an
application filed August 8, 2013, and claims priority to
May 8, 1998. Ex. 1001, at (54), (21), (22), (60), 1:6–13.
The ’348 Patent relates to an apparatus for ablating
the interior linings of body organs such as the uterus.
Id. at 1:19–21. Ablation of the interior lining of a body
organ, the ’348 Patent explains, “involves heating the
organ lining to temperatures which destroy the cells of
the lining or coagulate tissue proteins for hemostasis.”
Id. at 1:26–28. Ablation may be performed, for

547
example, to treat chronic bleeding of the endometrial
layer of the uterus. Id. at 1:28–30. The ’348 Patent
states that conventional methods of effecting ablation
include “application of RF energy [i.e., radio frequency
energy] to the tissue to be ablated.” Id. at 1:31–35.
Problems addressed by the ’348 Patent include the
need for a device that eliminates steam and liquid
buildup at the ablation site and that allows control of
the depth of ablation in the treated tissue. Id. at 1:48–
2:30.
Figure 21 of the ’348 Patent, which is reproduced
below, illustrates ablation device 100:

Figure 21 is a side elevation view of ablation device
100 showing sheath 104, tubing 108, handle 106, and
RF applicator head 102 slidably disposed within
sheath 104. Id. at 11:59–62, 12:2–5. After insertion of
the device into the uterine cavity, manipulation of
handle 106 causes the applicator head to extend from
the distal end of the sheath and to expand into contact
with body tissue. Id. at 11:63–12:5. The ablation
device can be used to measure the width of the uterus,
and gauge 146 displays the measured width. Id. at
14:33–36. The measured width is entered into RF
generator system 250 and used to calculate the

548
ablation power. Id. at 18:37–39. Vacuum source 252 is
connected to inner hypotube 122 (discussed below) via
suction port 210. Id. at 18:40–41.
As illustrated in Figure 23 of the ’348 Patent, which
is reproduced below, applicator head 102 extends from
the distal end of tubing 108. Id. at 12:2–5.

Figure 23 illustrates applicator head 102 in the
expanded or deployed state.1 See id. at Fig. 23.
Applicator head 102 includes: external electrode array
102a, which is formed of a stretchable metallized
fabric mesh; an internal deflecting mechanism 102b,
which is used to expand and tension the electrode
array for positioning into contact with uterine tissue;
and non-conductive suturing threads 148, which
extend from hypotube 122 for use in measuring the
width of the uterus. Id. at 12:5–12, 14:33–39.
The deployment structure for deflecting mechanism
102b includes external hypotube 120, which extends
from tubing 108, and internal hypotube 122, which is
slidably and co-axially disposed within hypotube 120.
Id. at 13:8–12. Outer flexures 124 extend laterally and
The ’348 Patent states that, for clarity, sheath 104 is not
shown in Figure 23. Id. at 12:2–3.
1

549
longitudinally from tubing 108 on opposite sides of
external hypotube 120. Id. at 13:12–13. Internal
flexures 136 extend laterally and longitudinally from
the exterior surface of internal hypotube 122. Id. at
13:56–58. Each internal flexure 136 is connected at its
distal end to one of the outer flexures 124, and a
transverse ribbon 138 extends between the distal
portions of the internal flexures 136. Id. at 13:58–61.
As described in the ’348 Patent,
during use distal and proximal grips 142, 144
forming handle 106 are squeezed towards one
another to withdraw the sheath and deploy the
applicator head. This action results in relative
rearward motion of the hypotube 120 and relative
forward motion of the hypotube 122. The relative
motion between the hypotubes causes deflection
in flexures 124, 136 which deploys and tensions
the electrode array 102a.
Id. at 14:25–31.
Deflecting mechanism 102b and its deployment
structure are enclosed within electrode array 102a. Id.
at 13:8–9. Figure 25A of the ’348 Patent is a
perspective view of electrode array 102a in the
deployed or expanded state. Id. at 3:52–53, 12:53–55.
Figure 25A is reproduced below.

550

As shown in Figure 25A, insulating regions 110 are
formed on the applicator head to divide the mesh into
electrodes 118a–118d. Id. at 12:59–13:7. As power is
supplied to the electrodes, the tissue is heated,
releasing moisture. Id. at 18:44–47. Moisture is
withdrawn from the uterine cavity through internal
hypotube 122, which is connected to vacuum source
252. Id. at 18:47–49. Apertures formed in outer
flexures 124 facilitate moisture withdrawal by
preventing trapping of moisture between the flexures
and the lateral walls of the uterus. Id. at 18:49–52.
Handle 106 comprises distal and proximal grip
sections 142, 144, which are pivotally attached to one
another at a pivot pin. Id. at 16:13–16, Figs. 21– 22.
Proximal grip section 144 is coupled to hypotube 122
via yoke 168, overload spring 170, and spring stop 172.
Id. at 16:17–19, 17:38–40, Figs. 34, 37A, 37B. Distal
grip section 142 is coupled to external hypotube 120
via male and female couplers 174, 176. Id. at 16:20–
22, Figs. 32A, 32B, 34. Figure 34 of the ’348 Patent is
reproduced below.

551

Figure 34 is a side elevation view of handle 106 as
depicted in Figure 21 (reproduced above). Id. at 4:19–
21.
As the distal and proximal grips are moved towards
one another, sheath 104 is withdrawn from array 102a
until female coupler 176 contacts and bears against
frame member 178. Id. at 17:54–59, Fig. 37A, 37B.
“Continued motion between the grips causes a relative
rearward motion in the frame which causes the same
rearward relative motion in external hypotube 120.”
Id. at 17:59–61. “An opposing force is developed in
yoke 168, which causes a relative forward motion in
hypotube 122.” Id. at 17:61–63, Figs. 37A, 37B. “The
relative motion between the hypotubes causes
deflection in flexures 124, 136 which deflect in a
manner that deploys and tensions the electrode
array.” Id. at 17:63–66.
D. Illustrative Claims
Claims 1 and 11 are independent. Claims 2–10 and
12 depend, directly or indirectly, from claim 1; claims
13–15 depend directly from claim 11. Claims 1 and 11

552
are illustrative of the claimed subject matter, and are
reproduced below:
1. A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve
slidably and coaxially disposed within the outer
sleeve;
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue
of the uterus;
a handle coupled to the proximal portion of the
elongate member, wherein the handle comprises
a frame, a proximal grip and a distal grip
pivotally attached to one another at a pivot point
and operably coupled to the applicator head so
that when the proximal grip and the distal grip
are moved closer together, the applicator head
transitions from the contracted state to the
expanded state;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured

553
so that translating the inner sleeve relative to the
frame causes the applicator head to transition
from the contracted state to the expanded state;
and
an indicator mechanism operably coupled to the
inner sleeve, the indicator mechanism configured
to indicate a dimension of the uterus.
Id. at 19:9–42.
11. A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve
slidably and coaxially disposed within the outer
sleeve;
a handle coupled to the proximal portion;
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue
of the uterus;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured
so that translating one of the inner and outer

554
sleeves relative to the other causes the applicator
head to transition from the contracted state to the
expanded state;
an indicator mechanism operably coupled to the
inner sleeve, the indicator mechanism configured
to indicate a dimension of the uterus; and
wherein when the device is operably coupled to a
generator to deliver current to the electrodes, the
device is configured to electronically transmit the
dimension of the uterus to the generator.
Id. at 20:17–47.
E. The Asserted References
Petitioner relies upon the following references (Pet.
14):

Edwards
Ortiz
Lichtman

Patent No./
Pub. No.
US 6,024,743
US 5,358,496
US 5,620,459

Jing

CN 1060594A

Reference

Date
Feb. 15, 2000
Oct. 25, 1994
Apr. 15, 1997
Published
Apr. 29, 1992

Exhibit
No.
Ex. 1005
Ex. 1006
Ex. 1008
Exs. 1010,
1011
(translation)

F. The Asserted Grounds
Petitioner challenges claims 1–15 of the ’348 Patent
on the following grounds (Pet. 14):

555
References

Basis

Claim(s)
Challenged

Edwards, Ortiz, Lichtman,
and Jing

§ 103(a)

1–15

II. ANALYSIS
We turn now to Petitioner’s asserted grounds of
unpatentability to determine whether Petitioner has
met the threshold standard of 35 U.S.C. § 314(a) for
instituting review.
A. Level of Skill in the Art
Dr. Pearce testifies that a person of ordinary skill in
the art
would include someone who had, through
education or practical experience, the equivalent
of a bachelor’s degree in biomedical engineering,
electrical engineering, mechanical engineering, or
a related field and at least an additional two to
three years of work experience developing or
implementing electrosurgical devices.
Ex. 1002 ¶ 47. Patent Owner does not provide evidence
or argument on the level of ordinary skill. Prelim.
Resp. 10 n.3. We adopt Dr. Pearce’s definition for
purposes of this Decision.
B. Claim Construction
In an inter partes review, the Board gives claim
terms in an unexpired patent their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R.
§ 42.100(b); see Cuozzo Speed Techs., LLC v. Lee, 136
S. Ct. 2131, 2144–46 (2016). Under that standard, a
claim term generally is given its ordinary and
customary meaning, as would be understood by one of

556
ordinary skill in the art in the context of the entire
disclosure. See In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007). While our claim
interpretation cannot be divorced from the
specification and the record evidence, see Microsoft
Corp. v. Proxyconn, Inc., 789 F.3d 1292, 1298 (Fed. Cir.
2015) (quoting In re NTP, Inc., 654 F.3d 1279, 1288
(Fed. Cir. 2011)), we must be careful not to import
limitations from the specification that are not part of
the claim language. See SuperGuide Corp. v. DirecTV
Enters., Inc., 358 F.3d 870, 875 (Fed. Cir. 2004). Any
special definition for a claim term must be set forth in
the
specification
with
reasonable
clarity,
deliberateness, and precision. See In re Paulsen, 30
F.3d 1475, 1480 (Fed. Cir. 1994).
Petitioner proposes express constructions for two
claim terms, “frame” and “flexure.” Pet. 15–17. Patent
Owner does not propose an express construction for
any claim term. Prelim. Resp. 8–9.
1. “frame”
Claim 1 recites “a handle coupled to the proximal
portion of the elongate member, wherein the handle
comprises a frame” (emphasis added). Petitioner
proposes to construe “frame” “to include a structure
coupled (e.g., removably or continuously) to a handle
grip, that surrounds or encloses another component
(e.g., inner sleeve).” Pet. 16. Petitioner asserts that
“[a]lthough ‘frame’ is not specifically defined, the
specification does describe a ‘frame member 178’
mounted on the proximal grip section and enclosing
various components of the handle and expansion
mechanism including the ‘yoke 168,’ ‘spring stop 172,’
‘compression spring 170,’ and ‘hypotube 122.’” Id. at 15
(citing Ex. 1001, 4:28–36, 17:37–53, Fig. 34; Ex. 1002
¶ 52). Petitioner also asserts that this construction “is

557
consistent with the plain and ordinary meaning of the
word ‘frame’ as a structure that surrounds or encloses
something.” Id. at 15–16 (citing Ex. 1013, 4; Ex. 1014,
3).
On this record, we agree that the Specification uses
“frame” in accordance with its ordinary meaning. See,
e.g., Ex. 1001, 17:37–49 (referring to “frame member
178” and “the frame”); Ex. 1013, 4; Ex. 1014, 3. We do
not agree with Petitioner’s proposed claim
construction, however, because it encompasses only
one (apparently, the narrower) of the two dictionary
definitions of “frame” cited in the Petition. See Pet. 15–
16 (citing Ex. 1013, 4 (“an enclosing structure or
case”); Ex. 1014, 3(“an arrangement of structural parts
that gives form or support”)). Petitioner has not
explained sufficiently why the broadest reasonable
claim construction should not encompass both of the
dictionary definitions.
We determine that the broadest reasonable
interpretation consistent with the Specification of
“frame” encompasses: an arrangement of structural
parts that gives form or support; and a structure
coupled (e.g., removably or continuously) to a handle
grip, that surrounds or encloses another component
(e.g., inner sleeve).
2. flexures
Claim 1 recites “a deflecting mechanism including
flexures disposed within the applicator head”
(emphasis added”). Petitioner argues that the term
“flexure” “should be construed to include a component
designed to be bent or curved.” Id. at 16–17. Petitioner
asserts that its proposed claim construction is
consistent with the use of “flexure” in the Specification
and the term’s ordinary meaning. Id. at 16 (citing Ex.

558
1001, 13:65–67, 13:56–14:31, Figs. 23, 30; Ex. 1002
¶¶ 54–56; Ex. 1013, 3).
We do not agree with Petitioner’s proposed claim
construction because it is not consistent with the
Specification’s description of flexures 124, 136 as
strips that are capable of being bent or curved. See,
e.g., Ex. 1001, 4:1–9, 13:8–14:31, Figs. 23, 28–30.
Figures 23 and 28, for example, depict flexures 124 as
strips that have been bent or curved as the result of
relative motion between hypotubes 120 and 122. Id. at
13:8–15, 14:29–30, Figs. 23, 28. Indeed, Petitioner’s
declarant, Dr. Pearce, testifies that “a person of skill
in the art would understand the term ‘flexure’ to refer
to a component capable of being bent or curved.” Ex.
1002 ¶ 56.
On this record, we determine that the broadest
reasonable interpretation consistent with the
Specification of “flexures” is strips that are capable of
being bent or curved. We note that a distinction with
Petitioner’s proposed construction is that “designed to
be bent,” for example, could mean a structure that has
been bent but is no longer bendable or a structure that
is bendable. “Capable of being bent,” on the other
hand, means that the structure is further bendable.
C. Asserted Obviousness
A claim is unpatentable for obviousness under 35
U.S.C. § 103(a) if the differences between the subject
matter sought to be patented and the prior art are
such that the subject matter as a whole would have
been obvious at the time the invention was made to a
person having ordinary skill in the art (“POSA”) to
which the subject matter pertains. See KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). A patent claim
composed of several elements, however, is not proved

559
obvious merely by demonstrating that each of its
elements was known, independently, in the prior art.
Id. at 418. In analyzing the obviousness of a
combination of prior art elements, it can be important
to identify a reason that would have prompted one of
skill in the art to combine the elements in the way the
claimed invention does. Id. A precise teaching directed
to the specific subject matter of a challenged claim is
not necessary to establish obviousness. Id. Rather,
“any need or problem known in the field of endeavor at
the time of invention and addressed by the patent can
provide a reason for combining the elements in the
manner claimed.” Id. at 420. The question of
obviousness is resolved on the basis of underlying
factual determinations, including: (1) the scope and
content of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level
of skill in the art; and (4) objective evidence of
nonobviousness, i.e., secondary considerations, when
in evidence. Graham v. John Deere Co., 383 U.S. 1, 17–
18 (1966).
In this case, Petitioner challenges claims 1–15 as
unpatentable for obviousness over Edwards, Ortiz,
Lichtman, and Jing. Pet. 14. For the reasons discussed
below, Petitioner has not shown a reasonable
likelihood that it would prevail with respect to any of
the challenged claims.
1. Overview of Asserted References
a. Edwards
Edwards “relates generally to a method and
apparatus to controllably create cell necrosis of at
least a portion of the uterus, and more particularly to
a [a] method and apparatus to create selective cell
necrosis of target sites of the uterus.” Ex. 1005, 1:21–

560
24. Cell necrosis apparatus 10 includes expandable
member 12, which is introduced into the uterus
through introducer sleeve 14 “in a folded, or nondistended configuration.” Id. at 5:4–5, 6:1–4.
Following introduction, sleeve 14 is withdrawn, and
expandable member 12 is expanded. Id. at 6:4–5.
Figure 1B of Edwards is reproduced below.

Figure 1B is a perspective view of cell necrosis
apparatus 10 in a non-deployed position as introducer
sleeve 14 is withdrawn. Id. at 3:22–24.
Expandable member 12 can be expanded “either
mechanically, with the introduction of a fluid or
gaseous expanding medium, such as [an] electrolytic
solution, or a combination of both.” Id. at 6:4–8. Figure
1C is reproduced below.

561

Figure 1C is a perspective view of cell necrosis
apparatus 10 in a deployed position showing
expandable member 12 expanded. Id. at 3:25–26.
“Electrolytic solution is introduced into expandable
member 12, causing it to become distended and be selfretained in the uterus.” Id. at 6:10–12. In the
treatment phase, “[c]ell necrosis apparatus 10
automatically conforms to the interior of the uterus.”
Id. at 6:33–34. Edwards teaches using ultrasound to
create a map of the interior of the uterus:
The amount of cell necrosis can vary. However, it
is desirable to ablate about 2 to 3 mm, with
approximately 1 mm of the myometrium.
Ultrasound can be used to create a map of the
interior of the uterus. This information is input to
a
controller.
Individual
electrodes
are
multiplexed and volumetrically controlled. If
desired, the area of cell necrosis can be
substantially the same for each cell necrosis
event.
Id. at 6:48–54.
Figure 4 of Edwards is reproduced below.

562

Figure 4 is a cross-sectional view of an embodiment of
cell necrosis apparatus 10 in which expandable
member 12 is substantially surrounded by conforming
member 20. Id. at 7:4–10. “Conforming member 20
receives electrolytic solution from expandable member
12 . . . through a plurality of apertures 22 formed in
expandable member 12.” Id. at 7:10–13. Frame 19,
with arms 19’, is used to assist in opening expandable
member 12. Id. at 7:19–21. Edwards discloses that,
“[i]n one embodiment, cell necrosis apparatus 10
conforms lightly with the interior of the uterus so that
all, or almost all, of the endometrium is in contact with
a conductive surface 24 of conforming member 20.” Id.
at 7:37–40.
b. Ortiz
Ortiz relates to an endoscopic tissue manipulator
that can be inserted through an endoscopic tube to
enable a surgeon to manipulate tissue inside a body
cavity. Ex. 1006, 1:10–12. A preferred embodiment
includes a proximal handle assembly and a distal
expandable platform 70. Id. at 4:37–39. Figure 3 of
Ortiz is reproduced below:

563

As shown in Figure 3, platform 70 consists of a
plurality of flexible, interconnected strips adapted to
expand laterally outward to form a pair of fingers 72.
Id. at 4:52–55. Each of fingers 72 comprises outer strip
74 and inner strip 76. Id. at 4:55–58. Outer strip 74 is
attached to the distal end of actuator tube 90, and
inner strip 76 is attached to the distal end of shaft or
push rod 100 inside of actuator tube 90. Id. at 4:59–63.
“[W]hen actuator tube 90 is retracted, i.e., moved
proximally relative to the support shaft 100, the
fingers 72 are spread apart and the platform 70 is
expanded into a tulip-shaped configuration.” Id. at
5:28–31. “The outer strips 74 are pulled in the
proximal direction by the actuator tube 90 and the
guide tube 86 is moved proximally along the inner
strips 76 by the struts 82.” Id. at 5:32–34. Figure 7 of
Ortiz is reproduced below.

564

Figure 7 depicts a longitudinal cross section
illustrating platform 70 in the tulip-shaped
configuration. Id. at 3:29–30, 4:10–11. As shown in
Figure 7, each of fingers 72 comprises flexible strut 82,
having its distal end secured to outer strip 74 and its
proximal end attached to connector sleeve 84, which is
slidably mounted on inner strip 76. Id. at 4:63–5:1.
Connector sleeve 84 is located within guide tube 86,
which is slidably received in the distal end of actuator
tube 90. Id. at 5:1–4. Struts 82 provide for shape
control of platform 70 in its expanded configuration.
Id. at 6:1–2. “The expanded platform 70 has a
generally planar configuration which provides two flat
tissue manipulating surfaces on its opposite sides.” Id.
at 8:36–39.
c. Lichtman
Lichtman discloses handle mechanisms for surgical
instruments
employing
movable
jaws,
and
mechanisms for moving the jaws, typically involving
coaxial telescoping elements. Ex. 1008, 5:19–21, 40–
42. Figure 1 of Lichtman is reproduced below.

565

Figure 1 shows a side view of a preferred embodiment
that includes unitary jaw piece 2, outer hollow shaft 8,
and handle assembly 12 including stationary handle
member 16 and movable handle member 14. Id. at
6:13–22.
Figure 9 of Lichtman is reproduced below.

Figure 9 is a partially exploded view showing outer
shaft 8, inner shaft 10, and movable handle member
14, which is rotatable about pivot pin 18. Id. at 4:40–
43, 6:15–21. Outer shaft 8, which coaxially surrounds

566
and is free to slide axially relative to inner tube 10, is
rigidly joined to gear rack tube 36. Id. at 6:31–33.
d. Jing
Jing relates to a computer-controlled apparatus for
measuring and displaying data of the morphology of a
woman’s uterine cavity. Ex. 1011, 3:5–7, 20–23, 4:25–
30.2 “An object of the present invention is to provide a
computer-controlled measurement apparatus for
measuring and displaying data of the morphology of
the uterine cavity, thereby increasing the success rate
of the IUD technique and facilitating the modification
of IUDs.” Id. at 3:20–23. Figure 2 of Jing is reproduced
below.

Figure 2 illustrates measuring rod 3 and dovetail-type
contacts 22, 23. Id. at 5:9–13. Jing discloses:
When a transverse dimension of the uterine
cavity is to be measured, the measurement push
button may be pushed by hand, such that two
dovetail-type contacts (22, 23) of the transverse
dimension measuring rod protrude from throughholes (10) at two sides of the measurement sleeve
and expend [sic] to the transverse dimension
2

We cite to the certified translation of Jing (Ex. 1011).

567
being measured.
Id.
2. Petitioner’s Contentions with Respect to
Claims 1 and 11
Petitioner argues that “Edwards on its own fully
discloses” the “applicator head” limitation of claims 1
and 11. Pet. 26. While conceding that “Edwards does
not specifically describe an inner sleeve slidably and
coaxially disposed within an outer sleeve,” as required
by the “elongate member” limitation of claims 1 and
11, Petitioner contends that “these aspects are fully
disclosed by Ortiz.” Id. at 23 (citing Ex. 1002 ¶ 77).
Petitioner asserts that “use of the mechanical
expansion elements taught by Ortiz, including the
inner sleeve slidable within an outer sleeve, would
have been preferable over the fluid or gaseous
expansion media disclosed in Edwards because it
would have simplified the device design and obviated
potential safety issues such as fluid leakage or
contamination.” Id. at 25 (citing Ex. 1002 ¶¶ 64, 82);
see also id. at 53 (arguing that “a skilled artisan would
also have recognized that an endometrial ablation
device as in Edwards would benefit from improved
contact between the expandable applicator head and
the uterine wall”) (citing Ex. 1002 ¶ 63).
With respect to the “deflecting mechanism”
limitation requiring “external flexures being coupled
to the outer sleeve” and “internal flexures being
coupled to the inner sleeve,” Petitioner again relies on
Ortiz. Id. at 33 (citing Ex. 1002 ¶ 103). Petitioner
argues that Figure 7 of Ortiz discloses first and second
outer flexures (“outer strip 74”) and first and second
inner flexures (“flexible strut 82”). Id. (citing Ex. 1002
¶ 103). Petitioner asserts that “Ortiz’s deflecting

568
mechanism with flexures would have been a
reasonable design choice enabling improved contact
with the uterine wall.” Id. at 35 (citing Ex. 1002 ¶¶ 62,
108); see also id at 53 (“It would have been apparent to
the skilled artisan that the ‘plurality of flexible,
interconnected strips” and “flexible struts” taught by
Ortiz would be well matched to the shape of the uterus
and well suited for use as an expansion device in an
endometrial ablation device.”) (citing Ex. 1006 at 4:34–
42, 52–55; Ex. 1002 ¶ 63). Petitioner also argues that
“the combination of Edwards and Ortiz would have the
added benefits of simplifying the device design by
removing the need for fluid or gaseous expansion
medium.” Id. at 36 (citing Ex. 1002 ¶¶ 63–64, 108).
Petitioner contends that “Ortiz also discloses that
translation of the inner sleeve (shaft 100) relative to a
frame causes an applicator head to transition from a
contracted to an expanded state,” as required by claim
1.3 Id. at 34 (citing Ex. 1002 ¶ 105). Petitioner argues:
Ortiz discloses that “[b]y pulling the finger slide
80 proximally, as shown in FIG. 6, the actuator
tube 90 is retracted relative to the shaft 100 to
expand the platform 70 into its tulip-shaped
configuration (FIG. 7).” Id. at 8:10-19. Since the
finger slide 80 is secured to the tube 90, the shaft
100 also moves relative to the finger slide 80. Ex.
1002 ¶ 105.

We note that the claims 1 and 11 use different language to
define the mechanism causing the applicator head to transition
from a contracted state to an expanded state. Claim 1 recites
“translating the inner sleeve relative to the frame,” while claim
11 recites “translating one of the inner and outer sleeves relative
to the other.”
3

569
Id. at 34; see also id. at 51–52 (advancing similar
arguments).4 Petitioner identifies Ortiz’s shaft 100 as
corresponding to the “inner sleeve” and Lichtman’s
gear rack tube 36 as corresponding to the “frame.” Id.
at 34–35.
With respect to the requirement of claims 1 and 11
for an indicator mechanism configured to indicate a
dimension of the uterus, Petitioner relies on Jing’s
device for measuring a transverse dimension of the
uterine cavity. Id. at 36–38. Petitioner contends that
incorporating Jing’s measurement apparatus into the
ablation device taught by Edwards would have
allowed “measurement of a dimension of the uterus
and thus the mapping expressly contemplated by
Edwards.” Id. at 37 (citing Ex. 1002 ¶¶ 111–112).
Petitioner further contends that “[a] person of
ordinary skill would have had reason to apply Jing’s
indicator mechanism to provide low cost dimension
information.” Id. at 38 (citing Ex. 1002 ¶¶ 70, 112).
Claim 11 additionally requires “when the device is
operably coupled to a generator to deliver current to
the electrodes, the device is configured to
electronically transmit the dimension of the uterus to
the generator.” Petitioner concedes that “Jing does not
specifically describe whether the components
receiving the dimension information would include a
generator configured to deliver current to electrodes.”
Petitioner similarly argues that Ortiz discloses “translating
one of the inner and outer sleeves relative to the other,” as
required by claim 11. Id. at 39 (“As Dr. Pearce explains, this
limitation is disclosed by Ortiz, which teaches that ‘[b]y pulling
the finger slide 80 proximally, as shown in FIG. 6, the actuator
tube 90 is retracted relative to the shaft 100 to expand the
platform 70 into its tulip-shaped configuration (FIG. 7).’”) (citing
Ex. 1006 at 8:10–19; Ex. 1002 ¶ 155).
4

570
Id. at 39. Petitioner contends that “these aspects of the
limitation are disclosed by Edwards.” Id. (citing Ex.
1005, 11:34–35; Ex. 1002 ¶ 137). Petitioner argues
that “addition of the dimension measuring
components disclosed in Jing to the RF ablation device
disclosed in Edwards would have been obvious”
because “[a] person of ordinary skill in the art would
have been motivated to combine Jing and Edwards in
this manner in order to obtain automatic transmission
of data useful for controlling the generator without
requiring manual data entry, thus improving
convenience.” Id. at 40 (citing Ex. 1002 ¶ 140).
3. Patent Owner’s Responsive Contentions
In response, Patent Owner argues, inter alia, that
Petitioner has not explained sufficiently why a person
of ordinary skill in the art would have combined the
prior art teachings to arrive at the challenged claims
as a whole. See Prelim. Resp. 3, 14, 57. Patent Owner
asserts, for example, that Petitioner’s “arguments are
legally insufficient, contrary to the teachings of the
prior art references, and lack any articulated
reasoning with rational underpinning.” Id. at 3.
More specifically, regarding Petitioner’s asserted
reasons for combining teachings of Edwards and Ortiz,
Patent Owner argues that “Petitioner fails to explain
how or why Ortiz’s distal platform 70 improves contact
with the uterine wall relative to Edwards’s expandable
member 12.” Id. at 36–37. Patent Owner also
challenges Petitioner’s argument that “Ortiz’s distal
platform 70 would have ‘simplif[ied] the device design
by removing the need for fluid or gaseous expansion
medium.’” Id. at 37 (citing Pet. 36). According to
Patent Owner, Petitioner baselessly assumes that any
combination of Ortiz with Edwards would involve a
complete
replacement
of
the
fluid-actuated

571
components of Edwards with the mechanical
components of Ortiz. Id. Patent Owner asserts that,
contrary to Petitioner’s assumption, “Edwards
describes the use of mechanical components to ‘assist’
in the expansion of the fluid-actuated components.” Id.
Patent Owner further asserts:
Moreover, even if the fluid-actuated components
of Edwards were completely replaced by the
mechanism of Ortiz, that would not simplify the
device design. Ortiz’s actuation mechanism
requires multiple components (some fixed, some
slidable), a specific handle mechanism, and a
multitude of interconnected struts.
Id. at 37–38.
With respect to the limitation of claim 1 requiring a
deflecting mechanism capable of “translating the
inner sleeve relative to the frame,” Patent Owner
disputes Petitioner’s contention that Ortiz’s shaft 100
(the asserted “inner sleeve”) is capable of translating
relative to a frame. Patent Owner asserts:
Petitioner concedes that Ortiz describes
movement of actuator tube 90 relative to fixed
shaft 100. (Petition at 34; see Ortiz col. 5:28–38
(“[W]hen actuator tube 90 is retracted, i.e., moved
proximally relative to the support shaft 100, the
fingers 72 are spread apart and the platform 70 is
expanded into a tulip-shaped configuration.”).)
Petitioner’s argument confirms that Ortiz
contains an outer tube and frame that translates
relative to a fixed inner shaft. This is different
than the claimed requirement that the inner tube
translates relative to a fixed frame.
Id. at 33–34.

572
With respect to the requirement of claims 1 and 11
for an indicator mechanism configured to indicate a
dimension of the uterus, Patent Owner asserts that a
person of ordinary skill in the art would not have
combined Jing with Edwards. Id. at 41. Patent Owner
argues, for example, that “Jing’s apparatus is not . . .
a low cost replacement for Edwards’s ultrasound [as
Petitioner contends], but rather an unnecessary
additional structure that would only add to the
manufacturing costs.” Id.
Patent Owner also disputes Petitioner’s arguments
with respect to the additional limitation of claim 11
that “when the device is operably coupled to a
generator to deliver current to the electrodes, the
device is configured to electronically transmit the
dimension of the uterus to the generator.” Patent
Owner argues that “the width dimension provided by
the Jing device is not relevant to Edwards’s
operation.” Id. at 42 (citing Ex. 1005, 6:30–47); see also
id. at 43 (“There is no evidence that the ‘map’
described in Edwards relates to a dimension of the
uterus (e.g., the width), as Petitioner asserts.”).
4. Analysis
Upon consideration of the Petition and the
Preliminary Response, we agree with, and adopt,
Patent Owner’s arguments, as summarized above,
that the reasons advanced by Petitioner for combining
elements of Edwards, Ortiz, Lichtman, and Jing to
make the claimed invention are conclusory and
insufficient, and that the asserted combination does
not teach or suggest all of the claimed features. We
provide additional analysis below.
As discussed above, Petitioner relies on Edwards for
the “applicator head” limitation of claims 1 and 11. See

573
Pet. 26. Edwards’s applicator head includes
expandable member 12, into which electrolytic
solution is introduced for use in ablation treatment of
the uterus. See Ex. 1005, 6:10–12, 6:33–41, 7:4–18.
Petitioner’s argument that using Ortiz’s mechanical
expansion elements to expand Edwards’s applicator
head would have simplified the device design by
removing the need for a fluid or gaseous expansion
medium is unpersuasive because it does not take into
account that electrolytic solution is used in Edwards’s
applicator head, not just for expansion, but also for
ablation treatment. As such, Petitioner does not
explain why using Ortiz’s mechanical expansion
elements for expansion of Edwards’s applicator head,
while continuing to use electrolytic solution in the
applicator head for ablation treatment, would have
resulted in any simplification or benefit. Dr. Pearce’s
testimony that replacing the use of fluid or gaseous
media with Ortiz’s mechanical expansion elements
would have obviated potential safety issues, such as
fluid leakage or contamination, similarly fails to
account for the use of electrolytic solution in
Edwards’s applicator head for ablation treatment and
is, therefore, unpersuasive. See Ex. 1002 ¶ 64.
Dr. Pearce’s testimony that incorporating Ortiz’s
expansion elements would have improved contact
between Edwards’s applicator head and the uterine
walls is also unpersuasive. See Ex. 1002 ¶ 63. In
particular, Dr. Pearce does not explain sufficiently
why replacing the two rigid arms extending outward
toward the walls of the uterus (as depicted in Figure 4
of Edwards) with the asserted flexures taught by Ortiz
would have improved the ability of the device to
conform to the shape of the uterus. See id. For
example, Dr. Pearce’s testimony does not address or

574
explain the disclosure in Edwards that “[c]ell necrosis
apparatus 10 automatically conforms to the interior of
the uterus.” See Ex. 1005, 6:33–41; see also id. at 7:37–
40 (disclosing that, in one embodiment, “cell necrosis
apparatus 10 conforms lightly with the interior of the
uterus so that all, or almost all, of the endometrium is
in contact with a conductive surface 24 of conforming
member 20”).
We also are not persuaded by Petitioner’s argument
that Ortiz teaches or suggests the requirement of
claim 1 for a deflecting mechanism capable of
“translating the inner sleeve relative to the frame.”
See Pet. 34 (citing Ex. 1002 ¶105). Petitioner identifies
Ortiz’s shaft 100 as corresponding to the “inner sleeve”
and Lichtman’s gear rack tube 36 as corresponding to
the “frame.” Id. at 34–35. As disclosed in Ortiz,
however, shaft 100 does not move. For example, Ortiz
discloses that “when actuator tube 90 is retracted, i.e.,
moved proximally relative to the support shaft 100,
the fingers 72 are spread apart and the platform 70 is
expanded into a tulip-shaped configuration.” Ex. 1006,
5:28–31, Fig. 4. Similarly, Ortiz discloses: “By pulling
the finger slide 80 proximally, as shown in FIG. 6, the
actuator tube 90 is retracted relative to the shaft 100
to expand the platform 70 into its tulip-shaped
configuration (FIG. 7).” Id. at 8:10–14. Petitioner and
Dr. Pearce have not explained sufficiently how Ortiz’s
shaft 100, which does not move, is capable of
translating relative to Lichtman’s gear rack tube 36 in
the asserted combination.
Further, Petitioner has not provided a sufficient
rationale for combining the teachings of Jing with
those of Edwards, Ortiz, and Lichtman to teach or
suggest either: (1) an indicator mechanism configured
to indicate a dimension of the uterus, as required by

575
claims 1 and 11; or (2) the additional limitation of
claim 11 that “when the device is operably coupled to
a generator to deliver current to the electrodes, the
device is configured to electronically transmit the
dimension of the uterus to the generator.” Petitioner
argues that incorporating Jing’s device into an
endometrial ablation device as described by Edwards
“would allow measurement of a dimension of the
uterus and thus the mapping expressly contemplated
by Edwards.” Pet. 37 (citing Ex. 1002 ¶¶ 111–112).
Petitioner also argues:
Edwards expressly discloses the use of ultrasound
“to create a map of the interior of the uterus” that
is used to determine the appropriate parameters
of the ablation treatment. Ex. 1005 at 6:50–54. A
person of ordinary skill would have had reason to
apply Jing’s indicator mechanism to provide low
cost dimension information. Ex. 1002 ¶¶ 70, 112.
Id. at 38. These arguments are conclusory, and the
cited testimony from Dr. Pearce does not shed further
light on why a skilled person would have combined the
teachings of Jing and Edwards. See Ex. 1002 ¶¶ 70,
111–112. In particular, the record does not explain
sufficiently why a person of ordinary skill in the art
would have considered measurement of a dimension of
the uterus (e.g., a transverse dimension), as taught by
Jing, to constitute “the mapping expressly
contemplated by Edwards,” as Petitioner argues.
For these reasons, we determine that Petitioner has
not established a reasonable likelihood of prevailing
on its challenges to independent claims 1 and 11 as
obvious over Edwards, Ortiz, Lichtman, and Jing. As
Petitioner’s arguments and evidence with respect to
dependent claims 2–10 and 12–15 do not remedy the
deficiencies in the arguments and evidence with

576
respect to the independent claims, discussed above, we
also determine that Petitioner has not established a
reasonable likelihood of prevailing on its challenges to
dependent claims 2–10 and 12–15.
III. CONCLUSION
For the foregoing reasons, we determine that
Petitioner has not established a reasonable likelihood
of prevailing on its challenges to: claims 1–15 as
obvious over Edwards, Ortiz, Lichtman, and Jing.
IV. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that Petitioner’s Petition for an inter
partes review of claims 1–15 of the ’348 Patent is
denied, and no inter partes review will be instituted
pursuant to 35 U.S.C. § 314 as to any claim of the ’348
Patent on any of the grounds of unpatentability
alleged by Petitioner in the Petition.

577
PETITIONER:
Michael T. Rosato
Matthew A. Argenti
Steven W. Parmelee
WILSON SONSINI GOODRICH & ROSATI
mrosato@wsgr.com
margenti@wsgr.com
sparmelee@wsgr.com
PATENT OWNER:
Jennifer A. Sklenar
Alissa H. Faris
ARNOLD & PORTER LLP
Jennifer.Sklenar@aporter.com
Alissa.Faris@aporter.com

578
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
1:15-cv-1031
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
vs.
MINERVA SURGICAL, INC.,
Defendant.
————
MEMORANDUM AND ORDER
————
This matter is before the Court on defendant
Minerva Surgical Inc.’s (“Minerva”) renewed motion
for judgment as a matter of law of no patent damages
or, in the alternative, for a new trial for reasonable
royalty (D.I. 521); Minerva’s motion for a new trial for
Lanham Act and breach of contract claims (D.I. 523);
Minerva’s motion for an injunction under the
Delaware Deceptive Trade Practices Act, 6 Del. C.
§ 2532 (D.I. 525); plaintiffs Hologic, Inc.’s and CYTYC
Surgical Products, LLC’s (collectively, “Hologic”)
motion for attorney fees and related nontaxable costs
(D.I. 528); Hologic’s motion for enhanced damages
(D.I. 530); Hologic’s motion for a permanent injunction
(D.I. 532); and Hologic’s motion for an accounting,
supplemental damages, ongoing royalties, prejudgment interest, and post-judgment interest (D.I.
534).
I.

BACKGROUND

In this patent infringement action, Hologic alleged
that Minerva infringed its patents involving a system

579
and method to detect uterine perforations during
uterine ablation. Hologic alleged that Minerva
infringed U.S. Patent No. 6,872,183 (“the ’183
Patent”), titled “System and Method for Detecting
Perforations in a Body Cavity,” filed May 24, 2004, and
issued March 29, 2005, and U.S. Patent No. 9,095,348
(“the ’348 Patent”), titled “Moisture Transport System
for Contact Electrocoagulation,” filed August 8, 2013,
and issued August 4, 2015 (collectively “the Patentsin-Suit”). The ’183 patent involves method claims and
the asserted claim of the ’348 patent is a system or
apparatus claim.
Prior to trial, the Court addressed cross-motions for
summary judgment on invalidity and infringement
and Hologic’s motion for summary judgment on the
issue of assignor estoppel. Minerva asserted the
patent claims at issue were invalid for lack of written
description and enablement. The Court found
Minerva’s invalidity defenses were barred by assignor
estoppel.1 The Court also stated that even if Minerva
1

The determination of estoppel was based on undisputed
evidence that:
[the inventor of the ’183 and ’348 patents, Csaba] Truckai
founded Minerva. He used his expertise to research, develop,
test, manufacture, and obtain regulatory approval for the
Minerva EAS. It is undisputed that Truckai’s job
responsibilities as Minerva’s President and CEO included
bringing the accused product to market to directly compete
with Hologic. Hologic contends the accused product
incorporates the same patented technology that Truckai’s
company sold to Hologic. It is undisputed that Truckai, an
inventor on each of the Patents-in-Suit, executed broad
assignments of his inventions to NovaCept, which was then
sold to Hologic’s predecessor for $325 million dollars.
D.I. 407, Memorandum and Order at 18). Hologic argued in
essence “that—more than 19 years after Mr. Truckai executed his
initial patent assignment—Minerva and Truckai attempt[ed] to

580
was not estopped from asserting the defense, its
arguments lacked merit in that Minerva’s Section 112
arguments rested on a flawed definition of the claims
that ignored the Court’s claim constructions, and
Hologic had shown that the ’183 and ’348 patent
disclosures adequately described the claims as
construed by the Court (D.I. 407, at 25-26). The Court
further found as a matter of law that, under the
Court’s claim construction, Hologic had shown that
Minerva’s accused product infringed the asserted
claims of the patents. Id. at 26.
The action proceeded to trial on the patent issues of
damages and willfulness and on Minerva’s
counterclaims for false advertising and breach of
contract. Those matters were tried to a jury from July
16, 2018, to July 27, 2018. The jury found Hologic was
entitled to damages for lost profits in the amount of
$4,200,529.75, and for royalties not included in lost
profits in the amount of $587,138.48.2 The jury further
found that Hologic’s infringement was not willful.
Hologic prevailed on Minerva’s counterclaims—the
jury rejected Minerva’s counterclaims for breach of
contract and false advertising under the Lanham Act
violations (D.I. 498). The Court entered judgment on
the verdict, subject to revision pursuant to any rulings
on post-trial motions, on August 13, 2018 (D.I. 520).
destroy the value of what Truckai sold to Hologic so that Minerva
[could] directly compete with Hologic using the patented
technology he already sold to Hologic.” Id. at 18-19. The Court
found that the balance of equities favored a finding of privity
between Truckai and Minerva and required the application of
assignor estoppel to Minerva’s defenses to Hologic’s patent
infringement claims (Id. at 21).
2

The jury verdict totaled $4,787,668.23, which Hologic argues
represents an effective rate of 16.1% of total Minerva handpiece
revenues.

581
In its pending motions, Hologic argues that this case
warrants enhanced damages and asks the Court to
amend the judgment by doubling Hologic’s damages
award of $3,752,550. Hologic contends Minerva’s
failure to abide by the Court’s claim construction
justifies enhancement and argues that Minerva
should have known that its proposed claim
constructions were baseless, knew that owning its own
patents was no defense to infringement of Hologic’s
patents, knew that the presence of additional features
on its device was not a defense to infringement, and
should have known that it had no invalidity defense.
Hologic also points to other allegedly egregious
conduct by Minerva such as its failure to take remedial
action, infringement after entry of judgment, its
copying of the NovaSure system, and its attempts to
conceal its infringement of the ’348 patent by adding
false statements to its operator’s manual. Hologic
further argues that Minerva’s size and financial
condition also weigh in favor of enhancement of
damages.
Minerva argues in response that a finding of
willfulness is a prerequisite to awarding enhanced
damages under Section 284. Further, it argues that
even if the Court were to consider enhancement, the
evidence would not support imposition of enhanced
damages under 35 U.S.C. § 284.
Hologic also moves for an award of supplemental
damages from the date of the last sales records
produced (April 1, 2018) to the date of judgment based
on an effective royalty rate of 16.1%. It seeks an
accounting and an ongoing royalty for post-judgment
infringing sales at the rate of 20% plus a 10%
enhancement. It also seeks prejudgment interest
calculated at the prime rate compounded quarterly

582
from the dates of infringement through the date of
judgment ($270,533) and post-judgment interest at
the legal rate under 28 U.S.C. § 1961.
Minerva opposes the motion for supplemental
damages and argues Hologic’s calculation is not
supported by any evidence. Though it concedes that
Hologic is entitled to recover prejudgment interest, it
urges the Court to apply the treasury bill rate. It does
not challenge Hologic’s right to postjudgment interest
at the legal rate.
Minerva also renews its motion for JMOL, it
contends the Court should award no damages to
Hologic, contending that none were proven at trial. It
contends the award of lost profits was improper and is
not supported by evidence. It also argues Hologic
failed to prove its reasonable royalty damages because
the jury was not instructed to apportion the damages
to reflect the infringing features of the product.
Alternatively, it moves for a new trial on reasonable
royalty.
Minerva also moves for a new trial on its Lanham
Act and breach of contract claims. It argues that
Hologic violated Federal Rule of Civil Procedure 26(e)
and withheld highly relevant evidence relating to
Minerva’s counterclaims. It also contends the Court
erred in striking and precluding testimony on the
quantum of Minerva’s harm resulting from false
advertising and an intertwined breach of a Nondisclosure Agreement. Further, it contends the Court
erred in dismissing Minerva’s state-law counterclaim
that Hologic falsely advertised the efficacy rates for its
product. It argues that the Court’s rulings made it
impossible for Minerva to fully present its case on its
complicated claims involving Hologic’s continuous
scheme to attack Minerva as a competitor with

583
misleading efficacy rates for products and “Scorched
Earth” campaign to prevent competition.
Minerva also seeks a permanent injunction under
the DTPA.3 It seeks an order enjoining Hologic from
engaging in conduct that disparages Minerva’s
Endometrial Ablation System (“Minerva’s EAS”)
through their false and misleading representations
about
Minerva’s
characteristics
and
safety.
Specifically, it moves for (1) an injunction prohibiting
Hologic from disparaging the safety of Minerva’s EAS,
including prohibiting the use of the 20-year old liver
videos that have nothing to do with Minerva’s
technology, and (2) a corrective disclosure to the
market explaining Hologic’s false and misleading use
of the videos.
In response, Hologic argues that because all of
Minerva’s counterclaims were rejected by the jury or
the Court, there is no basis for granting Minerva any
equitable relief. It contends that, although the Court
reserved ruling on an equitable remedy, that issue
became moot when the jury returned a verdict in favor
of Hologic on Minerva’s Lanham Act claim.
As a threshold matter, the Court of Appeals for the
Federal Circuit has now affirmed the finding by the
United States Patent and Trademark Office, Patent
3
Minerva stated at trial that the core of its theories “are the
same under the state law claims as they are under the Lanham
Act.” (D.I. 514, Trial Transcript (T. Tr.) at 2214) It further stated
it primarily relied on the Lanham Act, but asserted the state law
DTPA claim “in particular for injunctive relief.” (Id., T. Tr. at
2216) At the conclusion of the parties’ presentation of evidence,
the Court indicated dismissed the DTPA claim as it related to loss
damages but reserved the issue of whether Minerva was entitled
to equitable relief (i.e., an injunction) for resolution later by the
Court. (Id., Trial Tr. at 2217-18)

584
Trial and Appeal Board (“PTAB”) on inter partes
review (“IPR”) that claims 1-15 of the ’183 are invalid
as obvious. (D.I. 614-1, Ex. A, Federal Circuit Opinion)
The claims challenged in the IPR include all claims of
the ’183 patent Hologic asserted at trial. Minerva
argues that Hologic no longer has any cause of action
based on the ’183 patent, and any pending litigation
with respect to that patent is moot. Hologic argues
that the matters are not moot unless and until the
Patent Office cancels the patent.4
The Court finds the Federal Circuit’s determination
does not affect the jury verdict in this case. The jury
was asked to assess damages for infringement of the
asserted claims of both the ’183 patent and the ’348
patent, without separately apportioning damages
between the asserted claims of the two patents. The
jury’s damages determination can be adequately
supported by the finding of infringement of Claim 1 of
the ’348 patent. The infringement of the ’348 patent
apparatus claim and the ’183 patent method claims
were interrelated, but a finding that the method
claims are not valid does not affect the finding of
infringement as to the apparatus claim. In other
words, one can infringe the apparatus claim even if the
method claims are invalid.

4
The Patent Office cannot cancel claims of patents until after
appeal. Bettcher Indus., Inc. v. Bunzl USA, Inc., 661 F.3d 629,
645 (Fed. Cir. 2011). Although the PTAB has been affirmed, the
time to file petitions for rehearing, reconsideration and/or
certiorari has not expired. Nonetheless, the Court finds it
unnecessary at this point to address Hologic’s motion for
injunctive relief. It is not likely that the Federal Circuit will
reconsider its decision or that the Supreme Court will grant
certiorari. Should the decision be reversed, Hologic may again
move for an injunction.

585
Hologic’s motion for a permanent injunction against
Minerva’s continued infringement of the ’183 patent,
however, will be rendered moot by the Federal Circuit
decision.
Similarly,
Hologic’s
motions
for
supplemental and/or enhanced damages and ongoing
royalties for infringement of the ’183 patent will be
moot. Any supplemental or enhanced damages for
infringement of the ’348 patent can be awarded only
up the date of expiration of the ’348 patent.5 The
Federal Circuit’s findings as to the ’183 patent
(method claims) do not affect the Court’s findings of
assignor estoppel on the asserted claim of the ’348
patent.6
The Court held oral argument on the present
motions on February 26, 2019. The Court has
considered the record in this case, the substantial
evidence in the record, the parties’ post-trial
submissions, and the applicable law, and finds as
follows.
II.

LAW
A.

Standard of Review

The law of the regional circuit—here the Third
Circuit—governs the standards for deciding motions
for JMOL under Fed. R. Civ. P. 50(b) and new trial
under Fed. R. Civ. P. 59(a). See WBIP, LLC v. Kohler
Co., 829 F.3d 1317, 1325 (Fed. Cir. 2016); Leader
Techs., Inc. v. Facebook, Inc., 678 F.3d 1300, 1305
5
6

The ’348 Patent expired on November 19, 2018.

The PTAB did not address the assignor estoppel issue. The
Federal Circuit recently concluded “by allowing ‘a person who is
not the owner of a patent’ to file an IPR, [35 U.S.C. § 311(a)]
unambiguously dictates that assignor estoppel has no place in
IPR proceedings.” Arista Networks, Inc. v. Cisco Sys., Inc., 908
F.3d 792, 804 (Fed. Cir. 2018).

586
(Fed. Cir. 2012). Under Rule 50(b), in ruling on a
renewed motion, “the court may: (1) allow judgment on
the verdict, if the jury returned a verdict; (2) order a
new trial; or (3) direct the entry of judgment as a
matter of law.” Fed. R. Civ. P. 50(b). A judgment as a
matter of law is appropriate when “the verdict is not
supported by legally sufficient evidence.” Lightning
Lube, Inc. v. Witco Corp., 4 F.3d 1153, 1166 (3d Cir.
1993). In the Third Circuit, a “court may grant a
judgment as a matter of law contrary to the verdict
only if ‘the record is critically deficient of the minimum
quantum of evidence’ to sustain the verdict.” Acumed
LLC v. Advanced Surgical Servs., Inc., 561 F.3d 199,
211 (3d Cir. 2009) (quoting Gomez v. Allegheny Health
Servs., Inc., 71 F.3d 1079, 1083 (3d Cir.1995)).
“In considering that issue the court ‘may not weigh
the evidence, determine the credibility of witnesses, or
substitute its version of the facts for the jury’s
version.’” Id. (quoting Lightning Lube, Inc. v. Witco
Corp., 4 F.3d 1153, 1166 (3d Cir.1993)). “Entry of
judgment as a matter of law is a ‘sparingly’ invoked
remedy, granted only if, viewing the evidence in the
light most favorable to the nonmovant and giving it
the advantage of every fair and reasonable inference,
there is insufficient evidence from which a jury
reasonably could find liability.” Marra v. Phila. Hous.
Auth., 497 F.3d 286, 300 (3d Cir. 2007) (citation
omitted). A renewed post-verdict JMOL motion under
Federal Rule of Civil Procedure Rule 50(b) “may not be
made on grounds not included in the earlier [Rule
50(a)] motion.” Duro-Last, Inc. v. Custom Seal, Inc.,
321 F.3d 1098, 1105 (Fed. Cir. 2003).
Federal Rule of Civil Procedure 59(e) expressly
recognizes a court’s authority to alter or amend its
judgments. Fed. R. Civ. P. 59(e). “Consistently with

587
this original understanding, the federal courts
generally have invoked Rule 59(e) only to support
reconsideration of matters properly encompassed in a
decision on the merits[,]” and legal issues collateral to
the main cause of action. White v. New Hampshire
Dep’t of Emp’t Sec., 455 U.S. 445, 451 (1982). The
principal limitation on that discretion is that a motion
to amend “may not be granted where to do so would
undermine the jury’s fact-finding role and trample on
the defendant’s Seventh Amendment right to a jury
trial.” Robinson v. Watts Detective Agency, Inc., 685
F.2d 729, 742 (1st Cir. 1982). Specifically, Rule 59(e)
has been invoked to correct damage awards that were
improperly calculated, and to include prejudgment
interest to which a party was entitled. See Lubecki v.
Omega Logging, Inc., 674 F. Supp. 501 (W.D. Pa.
1987), aff’d, 865 F.2d 251 (3d Cir. 1988); 11 Wright and
Miller, Federal Practice and Procedure, § 2817 n. 28–
29.
The rule governing motions to alter or amend
judgment is the proper basis for bringing a request for
prejudgment interest. J.A. McDonald, Inc. v. Waste
Sys. Int’l Moretown Landfill, Inc., 247 F. Supp. 2d 542,
546 (D. Vt. 2002). The method used to calculate
amount of judgment and prejudgment interest
involves matters of law and is based on undisputed
facts, and therefore is appropriately resolved by way
of a motion to amend judgment. Commercial Assocs. v.
Tilcon Gammino, Inc., 801 F. Supp. 939, 942 (D.R.I.
1992), aff’d 998 F.2d 1092 (1st Cir. 1993).
B.

Patent Damages

“To recover lost profits, ‘a patent owner must prove
a causal relation between the infringement and its loss
of profits.’” Georgetown Rail Equip. Co. v. Holland
L.P., 867 F.3d 1229, 1240–41 (Fed. Cir. 2017) (quoting

588
Crystal Semiconductor Corp. v. TriTech Microelecs.
Int’l, Inc., 246 F.3d 1336, 1353 (Fed. Cir. 2001)
(internal quotation marks and citation omitted). The
burden is on the patentee to show a reasonable
probability that but for the infringing activity, the
patentee would have made the infringer’s sales. Id.
“‘There is no particular required method to prove but
for causation’ in patent cases.” Id. (quoting Mentor
Graphics Corp. v. EVE-USA, Inc., 851 F.3d 1275, 1284
(Fed. Cir. 2017)). A useful, but non-exclusive, method
to establish the patentee’s entitlement to lost profits is
the four-factor test articulated in Panduit Corp. v.
Stahlin Brothers Fibre Works, Inc., 575 F.2d 1152,
1156 (6th Cir. 1978). Id. “The Panduit test requires the
patentee to show: (1) ‘demand for the patented
product’; (2) ‘absence of acceptable noninfringing
substitutes’; (3) ‘manufacturing and marketing
capability to exploit the demand’; and (4) ‘the amount
of profit that . . . would have [been] made.’” Id.
(quoting Panduit, 575 F.2d at 1156).
The proper inquiry under the first Panduit factor
“asks whether demand existed in the marketplace for
the patented product, i.e., a product ‘covered by the
patent in suit or that directly competes with the
infringing device.’” Id. (quoting DePuy Spine, Inc. v.
Medtronic Sofamor Danek, Inc., 567 F.3d 1314, 1330
(Fed. Cir. 2009) (internal quotation marks and citation
omitted)). “All a patentee must do is ‘sell[ ] some item,
the profits of which have been lost due to infringing
sales.’” Id. at 1241-42 (quoting Versata Software, Inc.
v. SAP Am., Inc., 717 F.3d 1255, 1265 (Fed. Cir. 2013)
(internal quotation marks and citation omitted)).
“[T]he first Panduit factor ‘does not require any
allocation of consumer demand among the various
limitations recited in a patent claim.’” Presidio
Components, Inc. v. Am. Tech. Ceramics Corp., 702

589
F.3d 1351, 1360 (Fed. Cir. 2012) (quoting DePuy Spine,
567 F.3d at 1330). For purposes of the first Panduit
factor, products are interchangeable when “the patent
owner and the infringer sell products sufficiently
similar to compete against each other in the same
market segment.” BIC Leisure Prods., Inc. v.
Windsurfing Int’l, Inc., 1 F.3d 1214, 1219 (Fed. Cir.
1993).
With respect to the second Panduit factor—absence
of acceptable noninfringing substitutes—a patentee
need not negate every possibility, absent the
infringement, that the purchaser might not have
purchased a product other than its own. Presidio
Components, 702 F.3d at 1360 (quoting Rite-Hite Corp.
v. Kelley Co., 56 F.3d 1538, 1545 (Fed. Cir. 1995). The
patentee need only show that there was a reasonable
probability that the sales would have been made “but
for” the infringement. Id.
The Federal Circuit has held that a patent owner
may satisfy the second Panduit element by
substituting proof of its market share for proof of the
absence of acceptable substitutes. BIC Leisure Prods.,
1 F.3d at 1219; see, e.g., Akamai Techs., Inc. v.
Limelight Networks, Inc., 805 F.3d 1368, 1380 (Fed.
Cir. 2015) (affirming analysis based on “market share”
approach). This market share approach allows a
patentee to recover lost profits, despite the presence of
acceptable, noninfringing substitutes, because it
nevertheless can prove with reasonable probability
sales it would have made “but for” the infringement.
Id. Panduit’s second factor, properly applied, ensures
that any proffered alternative competes in the same
market for the same customers as the infringer’s
product. Id. Similarity of products is necessary in
order for market share proof to show correctly

590
satisfaction of Panduit’s second factor. Id. Consistent
with Federal Circuit precedent, a patentee can
reconstruct the ‘but for’ market by segmenting the
market and determining lost profits based on its
market share, assuming the patent owner and the
infringer compete in the same market. Bic Leisure, at
1219; see also Ericsson, Inc. v. Harris Corp., 352 F.3d
1369, 1378 (Fed. Cir. 2003).
C.

Interest

“Prejudgment interest on a damages award for
patent infringement ‘is the rule’ under 35 U.S.C.
§ 284[.]” Sensonics, Inc. v. Aerosonic Corp., 81 F.3d
1566, 1574 (Fed. Cir. 1996). The purpose of
prejudgment interest is “to ensure that the patent
owner is placed in as good a position as he would have
been had the infringer entered into a reasonable
royalty agreement.” Gen. Motors Corp. v. Devex Corp.,
461 U.S. 648, 655 (1983). An award of interest from
the time that the royalty payments would have been
received merely serves to make the patent owner
whole, since his damages consist not only of the value
of the royalty payments but also of the foregone use of
the money between the time of infringement and the
date of the judgment. Id. at 655-56. “The rate of
prejudgment interest and whether it should be
compounded or uncompounded are matters left largely
to the discretion of the district court” and “must be
guided by the purpose of prejudgment interest, which
is to ensure that the patent owner is placed in as good
a position as he would have been had the infringer
entered into a reasonable royalty agreement.” Bio-Rad
Labs., Inc. v. Nicolet Instrument Corp., 807 F.2d 964,
969 (Fed. Cir. 1986) (internal quotation marks and
citations omitted).

591
Regarding the rate at which prejudgment interest is
calculated, the district court has the discretion to
determine whether to use the prime rate, the prime
rate plus a percentage, the U.S. Treasury rate (“T-bill
rate”), a state statutory rate, the corporate bond rate,
or whatever rate the court deems appropriate under
the circumstances. See generally Allen Archery, Inc. v.
Browning Manuf. Co., 898 F.2d 787, 789 (Fed. Cir.
1990). “A case survey indicates that the prime rate is
often selected by courts where the patentee is a large,
established and credit-worthy corporation.” The
Boeing Co. v. United States, 86 Fed. Cl. 303, 323 & n.22
(Fed. Ct. Cl. 2009) (citing cases). The selection of the
prime rate makes even more sense if it is consistent
with the interest rate charged to the patent holder for
short-term, unsecured borrowing, i.e., its cost of
capital. Id. Similarly, courts most often compound
interest, reflecting, in this regard, not only the
expectation of a prudent, commercially reasonable
investor, but also the way that post-judgment interest
is calculated under 28 U.S.C. § 1961(c)(3). Id. In
making a determination regarding the frequency of
compounding, i.e. annually, semi-annually, quarterly,
etc., courts consider how often the licensee would have
made payments in accordance with the hypothetical
negotiation. See Boeing, 86 Fed. Cl. at 323; see
Datascope, 879 F.2d at 829 (finding no error in
compounding annually); Brunswick Corp. v. United
States, 36 Fed. Cl. 204, 219 (Fed. Cl. 1996), aff’d, 152
F.3d 946 (Fed. Cir. 1998) (stating that compounding
interest annually is more likely to place the patentee
in the same financial position it otherwise would have
held had royalties been timely paid “and has expressly
been approved of by the Federal Circuit”). Interest
compensates the patent owner for the use of its money
between the date of injury and the date of judgment.

592
Oiness v. Walgreen Co., 88 F.3d 1025, 1033 (Fed. Cir.
1996). In a patent case, “[g]enerally, the interest rate
should be fixed as of the date of infringement, with
interest then being awarded from that date to the date
[the judgment is actually paid.]” Exmark Mfg. Co. Inc.
v. Briggs & Stratton Power Prod. Grp., LLC, No.
8:10CV187, 2016 WL 6246590, at *2 (D. Neb. May 11,
2016).
An award of prejudgment interest at the T-bill rate
of 28 U.S.C. § 1961 has been held to adequately
compensate a patentee. Datascope Corp., 879 F.2d at
829; see also Cornell Univ. v. Hewlett–Packard Co., No.
01–cv–1974, 2009 WL 1405208, at *3 (N.D.N.Y. May
15, 2009) (Rader, Fed. Cir. C.J.) (“[T]he T-bill rate has
been accepted and employed by many courts in patent
cases as a reasonable method of placing a patent
owner in a position equivalent to where it would have
been had there been no infringement”); Enzo Biochem,
Inc. v. Applera Corp., No. 3:04cv929 (JBA), 2014 WL
29126, at *2 (D. Conn. Jan. 3, 2014) (limiting
prejudgment interest to the Treasury rate to ensure
that the plaintiff did not receive “excessive
compensation,” noting that the plaintiff should not be
“financially rewarded” for its delay); Century Wrecker
Corp. v. E.R. Buske Mfg. Co., 913 F. Supp. 1256, 1283
(N.D. Iowa 1996) (applying the Treasury rate rather
than the prime or corporate borrowing rate as
reflective of the six-year delay in filing suit).
Prejudgment interest is awarded for compensatory
and not punitive purposes. Oiness, 88 F.3d at 1033.
Thus, “the merits of the infringer’s challenges to the
patent are immaterial in determining the amount of
prejudgment interest.” Bio-Rad Labs., Inc. v. Nicolet
Instrument Corp., 807 F.2d 964, 969 (Fed. Cir. 1986).

593
Post judgment interest should accrue at the
statutory rate as specified in 28 U.S.C. § 1961(a).
Amgen Inc. v. Hospira, Inc., 336 F.Supp.3d 333, at 364
(D.Del. 2018). Section 1961(a) provides, “Interest shall
be allowed on any money judgment in a civil case
recovered in a district court. . . . Such interest shall be
calculated from the date of the entry of the
judgment . . . .” 28 U.S.C. § 1961(a). Section 1961(a)
does not provide for interest until a money judgment
fixing the amount owed to the prevailing party. Eaves
v. Cty. of Cape May, 239 F.3d 527, 534 (3d Cir. 2001).
“The statute does not, by its terms, mandate that the
judgment from which interest is calculated must be a
final judgment.” In re Lower Lake Erie Iron Ore
Antitrust Litig., 998 F.2d 1144, 1177-78 (3d Cir. 1993);
see also Skretvedt v. E.I. DuPont De Nemours, 372 F.3d
193, 216 (3d Cir. 2004) (“The fact that the December
13, 2001, judgment was not a final order for purposes
of appeal would not otherwise prevent postjudgment
interest from running under § 1961 . . . .”).
D.

Delaware Deceptive Trade Practices Act
(“DTPA”)

The DTPA prohibits “disparage[ment] of the goods,
services or business of another by false or misleading
representations of fact,” committed “in the course of a
business, vocation, or occupation or that generally
“creates a likelihood of confusion or of misunderstanding.” 6 Del. C. §§ 2532(a)(8) & (a)(12). “The DTPA
has a lower burden of proof than the Lanham Act since
‘a complainant need not prove competition between
the parties or actual confusion or misunderstanding’
to prevail in an action under the DTPA, 6 Del. C.
§ 2532(b).” Keurig, Inc. v. Strum Foods, Inc., 769 F.
Supp. 2d 699, 712 (D. Del. 2011). The Act is intended
to address unfair or deceptive trade practices that

594
interfere with the promotion and conduct of another’s
business. Wright v. Portfolio Recovery Affiliates, No.
CIV.A. 09-612-GMS, 2011 WL 1226115, at *5 (D. Del.
Mar. 30, 2011). The elements of a false advertising
claim under the Lanham Act are: 1) that the defendant
has made false or misleading statements as to his own
product [or another’s]; 2) that there is actual deception
or at least a tendency to deceive a substantial portion
of the intended audience; 3) that the deception is
material in that it is likely to influence purchasing
decisions; 4) that the advertised goods traveled in
interstate commerce; and 5) that there is a likelihood
of injury to the plaintiff in terms of declining sales, loss
of good will, etc. CollegeSource, Inc. v. AcademyOne,
Inc., 597 F. App’x 116, 131 (3d Cir. 2015).
E.

Enhanced Damages

“[A]n award of enhanced damages requires a
showing of willful infringement.” In re Seagate Tech.,
LLC, 497 F.3d 1360, 1368 (Fed. Cir. 2007) (en banc)
(emphasis added); accord i4i Ltd. P’ship v. Microsoft
Corp., 598 F.3d 831, 858 (Fed. Cir. 2010). “Awards of
enhanced damages” are reserved for “egregious
infringement behavior” the [Supreme] Court has
“variously described . . . as willful, wanton, malicious,
bad-faith, deliberate, consciously wrongful, flagrant,
or—indeed—characteristic of a pirate.” Halo Elecs.,
Inc. v. Pulse Elecs., Inc., — U.S. —, —, 136 S. Ct. 1923,
1932 (2016). In other words, reprehensible conduct
undertaken with knowledge of its wrongfulness. See
id. at 1930-32. Willfulness “is a classical jury question
of intent. When trial is had to a jury, the issue should
be decided by the jury.” WBIP, LLC v. Kohler Co., 829
F.3d 1317, 1341 (Fed. Cir. 2016).

595
F.

Attorney Fees, Nontaxable Expenses and
Costs

Section 285 provides, in its entirety, “[t]he court in
exceptional cases may award reasonable attorney fees
to the prevailing party.” 35 U.S.C. § 285. “When
deciding whether to award attorney fees under § 285,
a district court engages in a two-step inquiry.”
MarcTec, LLC v. Johnson & Johnson, 664 F.3d 907,
915 (Fed. Cir. 2012). The court first determines
whether the case is exceptional and, if so, whether an
award of attorney fees is justified. Id. at 915-16. The
Supreme Court defines “an ‘exceptional’ case [as]
simply one that stands out from others with respect to
the substantive strength of a party’s litigating position
(considering both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.” Octane Fitness LLC v. Icon Health
& Fitness, Inc., 572 U.S. 545, 554 (2014). An
“exceptional” case is “‘uncommon,’ ‘rare,’ or ‘not
ordinary[.]’” Id. at 553. District courts may “consider a
‘nonexclusive’ list of ‘factors,’ including ‘frivolousness,
motivation, objective unreasonableness (both in the
factual and legal components of the case) and the need
in particular circumstances to advance considerations
of compensation and deterrence.’” Id. at 554 n.6
(quoting Fogerty v. Fantasy, Inc., 510 U.S. 517, 534
n.19 (1994)).
III. DISCUSSION
A.

Minerva’s Motions
1.

Renewed Motion for JMOL or,
Alternatively, a New Trial (D.I. 521)

The Court finds Minerva’s motion for JMOL should
be denied. The Court finds the evidence at trial
supports the jury’s determination of damages.

596
Hologic’s damages expert, Mr. Christopher Barry
presented substantial evidence of NovaSure sales.
Since the parties stipulated that the NovaSure system
embodies the asserted claims, NovaSure system sales
alone established “demand for the patented product”
under the first Panduit factor. Hologic need not show
that the Minerva and NovaSure systems are identical.
The jury was instructed that the treatments must be
“sufficiently similar” to be viable alternatives in the
same market (D.I. 496, Revised Initial Jury
Instructions, Instruction No. 18). The jury was also
instructed that “the amount of sales that Hologic lost
may be shown by proving its share of the relevant
market.” Id. The record shows that Hologic’s damages
expert testified that he considered “alternative
treatments”—such as birth control pills, IUDs, and
hysterectomy—for his market share analysis but
concluded those other treatments had different
characteristics, belonged to a different market
segment, and should not be included in the market
share allocation (D.I. 509, Trial Transcript (T. Tr.) at
1053-60). Mr. Berry’s analysis conformed to Federal
Circuit precedent. The experts identified the pertinent
market for analyzing a market share allocation was
global endometrial ablation (“GEA”) devices because
hysterectomy, IUDs, and birth control pills are not
sufficiently similar to GEA devices (D.I. 509, T. Tr. at
1056-57). The Court finds Hologic properly identified
the market. Minerva’s arguments against Mr. Barry’s
market share allocation merely goes to the weight of
the evidence, which is a determination left to the jury.
The Court finds Minerva’s argument that the jury
failed to apportion the damages to reflect the
infringing features of the product is unavailing. The
jury was instructed “where there are multiple
components in the accused product, patent royalty

597
damages must only reflect the value attributable to
the infringing features of the accused product, here
Minerva’s EAS.” D.I. 496, Revised Initial Instructions,
Instruction No. 21A. The Court presumes the jury
followed that instruction.
There is evidence in the record that supports the
jury’s calculation. The jury apparently credited some
testimony from both experts, which it was entitled to
do. It was ultimately up to the jury, however, to weigh
the credibility of the parties’ opposing theories and
evidence. The Court declines to overturn a jury’s
determination as to the amount of a damages award
when, as in this case, that verdict was supported by
substantial evidence.
The Court finds Minerva’s alternative motion for a
new trial on reasonable royalties should also be
denied. There is evidence in the record that supports
the jury’s royalty award. To the extent Minerva argues
that the verdict form is internally inconsistent, that
issue should have been raised at trial. Moreover, the
Court finds the verdict form is not inconsistent. The
award falls within the range of royalties the parties
argued at trial. Because the verdict form did not ask
the jury to specify its methodology or calculations, the
Court cannot divine the method the jury used. Let it
suffice to say that there are several ways it could
legitimately arrived at the figure. The jury apparently
credited Hologic’s evidence as to comparable licenses
and found that Minerva had not rebutted it. Evidence
of gross profit premium also supported the jury’s
verdict.

598
2.

Motion for a New Trial for Lanham Act
and Breach of Contract Claims (D.I. 523)

The Court finds Minerva’s motion for a new trial on
its counterclaims should be denied. Though Minerva
contends FDA correspondence that was allegedly
withheld in discovery definitively demonstrates that
Hologic’s advertising for NovaSure was improper, the
Court stands by its determination that the FDA
correspondence was not relevant to Minerva’s Lanham
Act claims. Further, the Court stands by its other
evidentiary rulings. The Court found there was
sufficient evidence on the Lanham Act and breach of
contract claims to get the claims to the jury and the
jury decided against Minerva. The Court will not
disturb the jury’s determination.
3.

Motion for an Injunction (D.I. 525)

The Court finds an injunction under the DTPA
would be inappropriate in light of the jury’s finding
that there was no false advertising under the Lanham
Act. The elements of claims for relief under the federal
and state laws are sufficiently similar that the Court
finds the jury’s verdict is conclusive as to the state law
claim as well as the federal claim. The same conduct
is involved in both claims. Further, the Court finds,
even if Minerva’s DTPA claim had not been resolved
by the jury, Minerva has not shown the irreparable
harm necessary to justify injunctive relief. There is
insufficient evidence of a systematic problem that
would warrant an injunction in any event. The
evidence at trial established that the alleged wrongful
conduct was not pervasive.

599
B.

Hologic’s Motions
1.

Motion for Attorney Fees and Related
Nontaxable Costs (D.I. 528)

The Court finds that this is not a case so exceptional
as to justify an award of such fees and expenses under
35 U.S.C. § 285. Although this patent case was hotly
contested and involved numerous disputes between
the parties, the record does not show that the either
party adopted unreasonable or frivolous litigation
positions, litigated in an unreasonable manner, or
acted in bad faith. Such zealous representation is the
rule, not the exception, in most patent cases.
2.

Hologic’s Motion for Enhanced Damages
(D.I. 530)

The Court finds Hologic’s motion for enhanced
damages for infringement of the ’183 patent is moot in
view of the Federal Circuit finding of invalidity. With
respect to the ’348 patent, the Court finds the damages
are adequate to compensate Hologic for infringement
through the life of the patent.
3.

Hologic’s Motion for
Injunction (D.I. 532)

a

Permanent

This motion relates only to the ’183 patent and is
moot.
4.

Hologic’s Motion for an Accounting,
Supplemental
Damages,
Ongoing
Royalties, Prejudgment Interest, and
Postjudgment Interest (D.I. 534)

Hologic seeks calculation of supplemental damages
from April 1, 2018 to the August 13, 2018, date of
judgment. It argues that the 16.1% “effective rate,”
which combines both the lost profits and the
reasonable royalty awarded by the jury, should be

600
used to calculate the supplemental damages. Minerva
contends that rate is not supported by the evidence
and argues that supplemental damages cannot be
calculated. It argues that lost profits and reasonable
royalty are two distinct damages theories and are
calculated and proven in different ways.
Because the Court rejects Minerva’s contention that
the jury’s verdict is not supported by the evidence, its
argument that the jury’s determination is wholly
speculative is unavailing. The parties apparently
agree that the jury determined the reasonable royalty
rate was 8% for infringing products sold but not part
of Hologic’s lost profits. The jury declined to accept
Minerva’s contention that damages should be limited
to only a reasonable royalty rate and not lost profits
(D.I. 498, Jury Verdict at 1, § I.1.b). Hologic’s damages
expert testified that 78.6% of the products sold by
Minerva represent Hologic’s lost sales. Without
evidence to the contrary, it is only reasonable to
assume the same proportion of lost sales continued
through the life of the ’348 patent. The Court finds
Hologic’s proposal of 16.1% as a combined lost profit
and reasonable royalty rate is reasonable.
Accordingly, the Court finds Hologic is entitled to
recover a reasonable running royalty from the lastproduced date of sales (April 1, 2018) to the date the
’348 patent expired (November 19, 2018). The record
contains some evidence of Minerva’s sales to the date
of judgment, but not to the date of the expiration of the
’348 patent. The Court finds Hologic is entitled to
recover a 16.1% royalty for infringing sales that are
not reflected in the jury verdict and the Court will
order an accounting of such sales. The Court finds,
however, that no enhanced royalty for infringing sales
post-verdict should be awarded. Hologic has not shown
that enhanced damages are warranted.

601
With respect to prejudgment interest, Hologic seeks
prejudgment interest in the amount of $270,533,
which represents interest calculated at the prime rate
compounded quarterly from the date of infringement
through the date of judgment. Minerva concedes
Hologic is entitled to recover prejudgment interest but
argues the Treasury bill (“T-bill”) rate will provide
adequate compensation to Hologic. The Court agrees
with Hologic and finds prejudgment interest at the
prime rate, compounded quarterly, from and after
August of 2015 to the date of judgment is appropriate
(D.I. 536, Declaration of Christopher C. Barry at 8-10;
Schedule D). Accordingly, Hologic will be awarded
$270,533 in prejudgment interest. There is no dispute
that Hologic is also entitled to postjudgment interest
and Hologic will also be awarded postjudgment at the
legal rate from and after August 13, 2018. Accordingly,
IT IS ORDERED:
1. Defendant’s renewed motion for judgment as a
matter of law (D.I. 521) is denied.
2. Defendant’s motion for a new trial (D.I. 523) is
denied.
3. Defendant’s motion for an injunction under the
Deceptive Trade Practices Act (D.I. 525) is denied.
4. Plaintiffs’ motion for attorney fees (D.I. 528) is
denied.
5. Plaintiffs’ motion for enhanced damages (D.I.
530) is denied.
6. Plaintiffs’ motion (D.I. 532) for a permanent
injunction and accounting is denied as moot.
7. Plaintiffs’
motion
for
an
accounting,
supplemental
damages,
ongoing
royalties,
prejudgment interest, and postjudgment interest (D.I.

602
534) is granted in part and denied in part as set forth
in this order.
8. Defendant shall submit an accounting of
infringing sales from April 1, 2018, to November 19,
2018, within two weeks of the date of this order.
9. The parties shall each submit a proposed final
judgment to the Court within three weeks of the date
of this order, in conformity with this Memorandum
and Order.
10. A final judgment in accordance with this
Memorandum and Order will thereafter issue.
Dated this 1st day of May 2019.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

603
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civ. No. 15-1031-JFB
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
vs.
MINERVA SURGICAL, INC.,
Defendant.
————
FINAL JUDGMENT
————
Pursuant to the Memorandum and Order entered
on May 2, 2019 (D.I. 616) and the Jury Verdict (D.I
498),
1. Judgment is entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc. and CYTYC
Surgical Products, LLC, and against defendant/
counterclaimant Minerva, Inc., on plaintiffs/
counterclaim defendants claim for infringement of
U. S. Patent No. 9,9095,348 in the amount of
$4,787,668.23; plus prejudgment interest in the
amount of $270,533, plus postjudgment interest at
the statutory rate of 2.44% under 35 U.S.C. § 1961(a).
2. Judgment is entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc. and CYTYC
Surgical Products, LLC, and against defendant/
counterclaimant Minerva, Inc., on plaintiffs’/
counterclaim defendants’ claim for infringement of
U. S. Patent No. 9,9095,348 in the amount of
$1,629,304.08 in supplemental damages for
Minerva’s infringing sales from April 1, 2018,

604
through August 13, 2018, plus prejudgment interest
on that amount at the prime rate compounded
quarterly from the date of infringement to August 13,
2018, (D.I. 520), plus postjudgment interest
thereafter at the legal rate under 28 U.S.C. § 1961
until such time as the judgment is paid.
3. Judgment is entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc. and CYTYC
Surgical Products, LLC, and against defendant/
counterclaimant Minerva, Inc. on defendant/
counterclaimant Minerva’s counterclaims.
4. Defendant/counterclaimant
counterclaims are hereby dismissed.

Minerva’s

IT IS SO ORDERED.
DATED this 31st day of May 2019.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

605
BUSINESS WIRE
A Berkshire Hathaway Company
LOGO
Cytyc to Acquire Novacept in $325 Million Cash
Transaction; Expands Women’s Health Franchise
March 01, 2004 06:00 AM Eastern Standard Time
BOXBOROUGH, Mass.--(BUSINESS WIRE)--March 1,
2004--Cytyc Corporation (Nasdaq:CYTC), the market
leader in cervical cancer screening. today announced
that it has entered into a definitive merger agreement
with Novacept, a privately-held company that manufactures and markets the NovaSure(TM) System.
NovaSure is an innovative endometrial ablation
device to treat menorrhagia, or excessive menstrual
bleeding. It is estimated that in the United States
alone, one in five women between the ages of 35¬55
suffers from excessive menstrual bleeding.
Under the terms of the agreement, Cytyc will acquire
all of the outstanding shares and options of Novacept
in exchange for approximately $325 million in cash, or
$311 million net of Novacept’s cash balance. Morgan
Stanley is acting as financial advisor to Cytyc and has
provided a commitment for up to $250 million in senior
bank financing. The balance of the purchase price
will be paid with Cytyc’s available cash. Cytyc is also
exploring other financing options. Cytyc expects the
acquisition to break-even in 2004 and to be accretive
to Cytyc’s 2005 earnings. In addition, the transaction
is expected to result in a one-time charge of approximately $20 million, largely for in-process R&D. The
transaction is expected to close by the end of the first
quarter of 2004 and will be subject to the satisfaction
of customary closing conditions and clearance under
the Hart-Scott Rodino Antitrust Improvements Act.

606
Patrick J. Sullivan, Cytyc’s chairman, president,
and chief executive officer, said, “We believe this is
a great strategic opportunity for Cytyc for several
reasons: First, it builds on our reputation and leadership position in providing innovative medical devices
for women’s health. We believe Novacept is a rapidly
growing company in this space with the “best in class”
device for treating women for this condition. Second,
this acquisition significantly increases our sales and
marketing resources to OBGYN physicians. We have
approximately 100 physician sales representatives
currently calling on OBGYNs. As a result of this
acquisition and our 2004 growth plans, our OBGYN
salesforce will double to increase our competitive position for the ThinPrep(R) Pap Test and ThinPrep(R)
Imaging System as well as to marke and sell the
Novacept product to our existing OBGYN customer
base. This product will also leverage our international
infrastructure. And third, we believe this acquisition
will put us on a strong and diversified financial growth
trajectory on both the top and bottom line and will
position us to become a worldwide leader in providing
innovative products for women’s health.”
Mr. Sullivan continued, “We are excited about the
Novacept opportunity because we believe its patented,
innovative technology for the treatment of menorrhagia offers a unique clinical solution to women who
suffer from this condition. Novacept launched its
NovaSure System in January 2002 and generated
$38.4 million in annual sales in 2003, up from $8.3
million in sales in 2002. Reimbursement is well
established nationwide. The company is cash flow
positive and was profitable for the second half of 2003.”
“We are very proud of our product and our accomplishments to date,” said David Clapper, Novacept’s

607
president and chief executive officer. “This merger
represents an ideal fit. Our specialized expertise in
this emerging market, combined with Cytyc’s substantial
resources and proven track record, will accelerate
adoption of this important new technology, which will
significantly benefit physicians and their patients.
Our team is very excited to become part of Cytyc.”
Piper Jaffray acted as advisor to Novacept for this
transaction.
It is estimated that as many as 7 million premenopausal women between the ages of 35-55 suffer
from menorrhagia and 2.5 million women seek treatment for this condition each year. Current treatment
options include hormone therapy, xystemommy, and
endometrial ablation. Published studies have demonstrated the clinical efficacy of the NovaSure System
and the potential cost- effectiveness of endometrial
ablation compared to hysterectomy.
Mr. Sullivan concluded, “We believe this is a great
strategic opportunity for Cytyc to build on our
OBGYNfranohine. We will maintain the existing
NovaSure sales force, which will be integrated into
Cytyc’s current sales organization. We plan to operate
Novacept’s Research and Development and Operations organizations as separate entities in Palo Alto
and to continue to expand Novacept’s manufacturing
operation in Costa Rica. We look forward to working
closely with the Novacept team to become the worldwide market leader in providing innovative products
for women’s health.”
Cytyc management will discuss the acquisition and
update earnings guidance during a conference call on
March 1, at 9:00 a.m. (Eastern). Investors may access
the call by dialing 877-692-2086 or 973-582- 2749. A
live webcast of the call may be accessed at Cytyc’s

608
website, http://ir.cytyc.com, and the event will be
available for replay at this site approximately two
hours following the call until March 15, 2004. In
addition, a telephonic replay of the call will be
available through March 15, 2004, by dialing 877- 5194471 (Reservation 4564738). International callers may
call 973-341-3080; reservation number is the same.
About Cytyc Corporation
Cytyc Corporation designs, develops, manufactures,
and markets the ThinPrep(R) System for use in
medical diagnostic applications primarily focused on
women’s health. The ThinPrep System is widely used
for cervical cancer screening and is the platform from
which the Company has launched its expansion into
breast cancer risk assessment with the FirstCyte(R)
Breast Test. The ThinPrep System consists of
the ThinPrep(R) 2000 Processor, ThinPrep(R) 3000
Processor, ThinPrep(R) Imaging System, and related
reagents, filters, and other supplies. Cytyc is traded on
The Nasdaq Stock Market under the symbol CYTC.
Cytyc, ThinPrep, and FirstCyte are registered trademarks of Cytyc Corporation.
NovaSure is a trademark of Novacept.
About Novacept
Novacept designs, develops and sells medical devices for the treatment of excessive menstrual bleeding, a condition that affects one in five pre-menopausal
women. Novacept sells the NovaSure Impedance Controlled Endometrial Ablation System, or the NovaSure
System, which consists of a single-use device and a
controller that deliver radiofrequency, or RF, energy
to the uterus. The NovaSure System allows physicians
to treat women with excessive menstrual bleeding in a

609
minimally invasive manner to eliminate or reduce
their bleeding to normal levels In September 2001, the
Food and Drug Administration (FDA) granted premarket approval for the NovaSure System to treat
excessive menstrual bleeding due to benign causes
in women for whom childbearing is complete. The
product was commercially launched in the United
States in early 2002. Since market introduction the
company estimates that it has sold over 45,000 disposable devices, primarily to hospitals and outpatient
surgery centers in the United States.
Forward-looking statements in this press release
are made pursuant to the provisions of Section 21 E of
the Securities Exchange Act of 1934. Investors are
cautioned that statements in this press release which
are not strictly historical statements, including, without limitation, statements relating to the Company’s
financial condition, operating results and future economic performance, and management’s expectations
regarding future growth opportunities, product acceptance and business strategy, constitute forwardlooking statements. These statements are based on
current expectations, forecasts and assumptions that
are subject to risks and uncertainties, which could
cause actual outcomes and results to differ materially
from those statements. Risks and uncertainties include,
among others, dependence on key personnel and
proprietary technology, uncertainty of product development efforts, product acceptance, management of
growth, risks associated with competition and competitive pricing pressures, risks associated with the FDA
regulatory approval processes and any healthcare
reimbursement policies, risks associated with litigation, and other risks detailed in the Company’s filings
with the Securities and Exchange Commission, including under the heading “Certain Factors Which May

610
Affect Future Results” in its 2003 Annual Report on
Form 10-K filed with the Commission. The Company
cautions readers not to place undue reliance on such
forward-looking statements, which speak only as of
the date they were made. The Company disclaims any
to publicly update or revise any such statements to
reflect any change in Company expectations or events,
conditions, or circumstances on which any such statements may be based, or that may affect the likelihood
that actual results will differ from those set forth in
the forward-looking statements.
Contacts
Cytyc Corporation
Patrick J Sullivan, Chairman, President, & CEO
Anne Rivers, Investor Relations
Jeff Keene, Healthcare Media
978-266-3010
www.cytyc.com

611
AGREEMENT AND PLAN OF MERGER
This Agreement and Plan of Merger (this “Agreement”) is made and entered into as of March 1, 2004
(the “Agreement Date”), by and among (i) Cytyc Corporation, a Delaware corporation (the “Parent”), (ii)
Radio Acquisition Corp., a California corporation
and a wholly owned Subsidiary of Parent (“Merger
Sub”), (iii) Novacept, a California corporation (the
“Company”), and (iv) for the limited purposes of agreeing to perform the duties specified in Section 2.5,
David Clapper and Edward Unkart, acting jointly as
the Shareholder Representative referred to herein.
Capitalized terms used herein without definition shall
have the respective meanings set forth in Section 10.2
hereof.
WHEREAS, Merger Sub will merge with the Company (the “Merger”), upon the terms and subject to the
conditions set forth in this Agreement and in accordance with the provisions of the California Corporations Code (“California Law”);
WHEREAS, the board of directors of the Company
(the “Company Board”) has approved and adopted this
Agreement and the consummation of the transactions
contemplated hereby, and has determined to submit
this Agreement and the performance of the transactions contemplated hereby to the holders (the “Company Shareholders”), of the shares of the Company’s
Common Stock, par value $0.001 per share (the “Company Common Stock”), and Preferred Stock, par value
$0.001 per share (the “Company Preferred Stock”), for
their approval in accordance with California Law; and
WHEREAS, the Company Board has carefully considered the terms of this Agreement and has determined
that the terms and conditions of the transactions con-

612
templated hereby, including the Merger, are fair and
in the best interests of, and are advisable to, the Company and the Company Shareholders, and the Company Board has recommended that the Company
Shareholders vote for the approval of this Agreement
and the transactions contemplated hereby.
NOW, THEREFORE, in consideration of the foregoing
and the mutual covenants and agreements herein contained and intending to be legally bound hereby,
Parent, Merger Sub, the Company and, for the limited
purposes of agreeing to perform the duties specified in
Section 2.5, the Shareholder Representative hereby
agree as follows:
ARTICLE 1
THE MERGER
1.1 The Merger.
(a) Merger. Subject to the other terms and
conditions of this Agreement, including those set
forth in Article 7 hereof, and in accordance with
California Law, at the Effective Time, Merger Sub
shall be merged with and into the Company, and as a
result of the Merger, the separate corporate existence
of Merger Sub shall cease and the Company shall
continue as the surviving corporation of the Merger
(the “Surviving Corporation”).
(b) Closing; Effective Time. Subject to the
fulfillment or waiver of all of the conditions contained
in Article 7, as soon as is reasonably practicable following the satisfaction or waiver of all of the conditions
contained in Article 7, or at such other date and time
as theparties hereto may agree upon, a closing (the
“Closing”) will be held at the offices of Bingham
McCutchen LLP in East Palo Alto, California (or such
other place as the parties may agree). The date on

613
which the Closing is actually held is referred to herein
as the “Closing Date.” On the Closing Date, Parent,
Merger Sub and the Company shall cause the Merger
to be consummated by filing an agreement of merger
with the California Secretary of State, substantially in
the form attached hereto as Exhibit A, and with such
changes as may be made after review by the California
Secretary of State (the “Merger Document”). The term
“Effective Time” means the date and time of the filing
of the Merger Document with the California Secretary
of State (or such later time as may be agreed by each
of the parties hereto and specified in the Merger
Document in accordance with California Law). In the
event of a conflict between the Merger Document and
this Agreement, the terms of this Agreement shall
govern.
1.2 Effect of the Merger. At the Effective Time,
the effect of the Merger shall be as provided in the
Merger Document and as provided by the applicable
provisions of California Law. Without limiting the
generality of the foregoing, and subject thereto, upon
the consummation of the Merger, all the property
(including, but not limited to, Intellectual Property
and licenses to Intellectual Property), rights, privileges, powers and franchises of the Company and the
Merger Sub shall vest in the Surviving Corporation,
and all debts, liabilities, obligations, restrictions,
disabilities and duties of each of those corporations
shall become the debts, liabilities, obligations,
restrictions, disabilities and duties of the Surviving
Corporation.
1.3 Charter; Bylaws.
(a) At the Effective Time, the Articles of
Incorporation of the Surviving Corporation (the “Surviving Corporation Charter”) shall be the Articles of

614
Incorporation of the Company, as amended by the
Merger Document.
(b) At the Effective Time, the bylaws of
the Surviving Corporation shall be the bylaws of
Merger Sub, as in effect immediately prior to the
Effective Time, until thereafter amended as provided
by California Law, the Surviving Corporation Charter
and such bylaws.
1.4 Directors and Officers. The directors of
Merger Sub immediately prior to the Effective Time
shall be the initial directors of the Surviving Corporation, each to hold office in accordance with the Surviving Corporation Charter and the bylaws of the
Surviving Corporation, and until their respective
successors are duly elected and qualified or until their
earlier death, disability, resignation or removal. The
officers of Merger Sub immediately prior to the Effective Time shall be the initial officers of the Surviving
Corporation, in each case until their respective successors are duly elected or appointed and qualified or
until their earlier death, disability, resignation or
removal.
1.5 Closing Date Consideration; Initial Escrow
Amount; Representative Reimbursement Amount.
(a) The consideration to be paid by Parent to
the Participating Rights Holders at the Closing in
connection with the Merger shall be the amount of the
Closing Payment Amount in cash allocated to each of
such Participating Rights Holders pursuant to Section
2.1.
(b) Notwithstanding the foregoing, a portion
of the Closing Payment Amount payable to the Participating Rights Holders equal to $27,500,000 (the
“Initial Escrow Amount”), shall not be paid to the

615
Participating Rights Holders at the Closing, but shall
instead be deposited with Sovereign Bank or such
other escrow agent as shall be mutually agreed-upon
by Parent and the Company (the “Escrow Agent”), to
be held in trust by the Escrow Agent pursuant to an
Escrow Agreement, substantially in the form of the
attached Exhibit B, and with such changes as may be
reasonably requested by the Escrow Agent (the
“Escrow Agreement”), and distributed in accordance
therewith. At the Closing, Parent, the Shareholder
Representative and the Escrow Agent will execute and
deliver the Escrow Agreement.
(c) In addition, a portion of the Closing
Payment Amount otherwise payable to the Participating Rights Holders equal to $250,000 (the “Representative Reimbursement Amount”), shall not be paid
to the Participating Rights Holders at the Closing, but
shall instead be deposited in cash with the Shareholder Representative, to be held by the Shareholder
Representative for the payment of expenses incurred
by the Shareholder Representative in performing its
duties pursuant to this Agreement. Any of the
Representative Reimbursement Amount originally
deposited with the Shareholder Representative at the
Closing that has not been consumed by the Shareholder Representative pursuant to the terms of this
Agreement on or prior to the end of the period in which
Parent, the Surviving Corporation and their Affiliates
may make claims for indemnification pursuant to
Section 9.2 or, if later, the date on which all indemnification claims of Parent, the Surviving Corporation
or any of their Affiliates outstanding at the end of
such period have been discharged in full, shall be
distributed by the Shareholder Representative to the
Escrow Agent for further distribution by the Escrow
Agent to the Participating Rights Holders pro rata

616
based on their respective rights to participate in
receipt of the remaining Escrowed Funds, if any. Notwithstanding the delivery of any remaining portion of
the Representative Reimbursement Amount to the
Escrow Agent, such remaining portion shall not be
deemed part of the Initial Escrow Amount or part of
the Escrowed Funds and shall not be available to
satisfy indemnification or other obligations to Parent
hereunder.
ARTICLE 2
CONVERSION OF SECURITIES;
EXCHANGE OF CERTIFICATES; PAYMENTS
2.1 Conversion of Securities.
(a) Common Stock. Each share of the Company Common Stock issued and outstanding immediately prior to the Effective Time and held by Participating Rights Holders will be converted at the Effective Time into the right to receive from Parent, in cash,
an amount equal to the Per Share Common Closing
Payment. All such shares of Company Common Stock,
when so converted, shall no longer be outstanding and
shall automatically be cancelled and retired and shall
cease to exist, and each holder of a certificate representing any such shares of Company Common Stock
shall cease to have any rights with respect thereto,
except the right to receive the Per Share Common
Closing Payment upon the surrender of such certificate in accordance with Section 2.2 and this Section
2.1. Notwithstanding the foregoing, portions of the
Closing Payment Amount attributable to the Company Common Stock shall be deposited in escrow and
a portion of the Closing Payment Amount shall be
paid to the Shareholder Representative as the
Representative Reimbursement Amount in accordance with Section 1.5.

617
(b) Preferred Stock. Each share of each series,
if any, of Company Preferred Stock issued and outstanding immediately prior to the Effective Time and
held by Participating Rights Holders will be converted
at the Effective Time into the right to receive, in cash,
an amount equal to the Per Share Preferred Closing
Payment associated with such series of Company
Preferred Stock. All shares of Company Preferred
Stock, when so converted, shall no longer be outstanding and shall automatically be cancelled and retired
and shall cease to exist, and each holder of a certificate
representing any such shares of Company Preferred
Stock shall cease to have any rights with respect
thereto, except the right to receive the Per Share
Preferred Closing Payment associated with the
applicable class of Company Preferred Stock upon the
surrender of such certificate in accordance with
Section 2.2 and this Section 2.1. Notwithstanding the
foregoing, portions of the Closing Payment Amount
attributable to the Company Preferred Stock shall be
deposited in escrow and a portion of the Closing
Payment Amount shall be paid to the Shareholder
Representative as the Representative Reimbursement
Amount in accordance with Section 1.5. For avoidance
of doubt, shares of Company Preferred Stock converted into Company Common Stock immediately
prior to the Effective Time in connection with the
Merger shall not be entitled to consideration under
this Section 2.1(b), but instead shall be entitled to
consideration on an as-converted basis as Company
Common Stock pursuant to Section 2.1(a).
(c)

Exchange of Options and Warrants.

(i) Options. Each option to purchase Company Common Stock issued under the Company’s 1997
Stock Option Plan (the “Company Option Plan”) or

618
otherwise listed in Section 3.2(c) of the Company Disclosure Schedule, whether or not exercisable, whether
or not vested, and whether or not performance-based,
which is outstanding at the Effective Time (each a
“Company Option”), shall not be assumed by the
Surviving Corporation or Parent, but shall instead be
converted at the Effective Time into the right to
receive payment as of the Closing of an amount in cash
equal to the excess, if any, of the aggregate Per Share
Common Closing Payment that would be payable with
respect to all shares of Company Common Stock that
would be issuable upon exercise of such Company
Option (regardless of whether or not any such
Company Option is then “vested” or exercisable) (the
“Option Shares”) over the aggregate exercise price per
share otherwise payable by the holder thereof to
acquire such Option Shares. Notwithstanding the
foregoing, portions of the Closing Payment Amount
attributable to the Company Options shall be deposited in escrow and a portion of the Closing Payment
Amount shall be paid to the Shareholder Representative as the Representative Reimbursement Amount in
accordance with Section 1.5.
(ii) Warrants. Any unexercised rights,
warrants or options that are not described in Section
2.1(c)(i) above to purchase shares of Company Common Stock or Company Preferred Stock and that are
outstanding immediately prior to the Effective Time
(each a “Company Warrant”) and are tendered to
Parent for payment at the Closing in compliance with
Section 2.2(a) shall be discharged by Parent out of the
aggregate merger consideration for an amount equal
to the excess, if any, of the aggregate Per Share
Common Closing Payment that would be payable with
respect to all shares of Company Common Stock that
would be issuable upon exercise of such Company

619
Warrant (the “Warrant Shares”) over the aggregate
exercise price otherwise payable by the holder to
acquire such Warrant Shares. For the purposes of the
calculating the portion of the Closing Payment
Amount to be paid to the holder of a Company Warrant
to purchase Company Preferred Stock, such Company
Warrant shall be deemed exercisable for that number
of shares of Company Common Stock equal to the
number of shares of Company Preferred Stock for
which such Company Warrant may be exercised
multiplied by the applicable conversion rate for the
series of Company Preferred Stock specified in such
Company Warrant. In addition, the per share exercise
price for such Company Warrant shall be deemed to
be the per share exercise price specified in the
Company Warrant divided by the applicable conversion rate for the series of Preferred Stock specified in
such Company Warrant. For avoidance of doubt, the
intent of the foregoing provisions regarding Company
Warrants exercisable for Company Preferred Stock is
the effect the exchange of such Company Warrants for
a portion of the aggregate merger consideration on an
as-converted to Company Common Stock basis.
Notwithstanding the foregoing, portions of the Closing
Payment Amount attributable to the Company
Warrants shall be deposited in escrow and a portion
of the Closing Payment Amount shall be paid to the
Shareholder Representative as the Representative
Reimbursement Amount in accordance with Section
1.5.
(d) Treasury Stock. Each share of Company
Common Stock or Company Preferred Stock held in
the treasury of the Company or held by any Subsidiary
of the Company immediately prior to the Effective
Time shall be cancelled and extinguished at the

620
Effective Time without any conversion thereof and no
payment shall be made with respect thereto.
(e) Stock Held by Parent. Each share of
Company Common Stock or Company Preferred Stock
held by Parent or any Affiliate of Parent shall be cancelled and extinguished at the Effective Time without
any conversion thereof and no payment shall be made
with respect thereto.
(f) Stock of Merger Sub. Each share of common
stock of Merger Sub issued and outstanding immediately prior to the Effective Time shall be converted
into one (1) validly issued fully paid and nonassessable
share of common stock of the Surviving Corporation.
2.2 Exchange of Certificates and Instruments for
Closing Payment Amount.
(a)

Exchange Procedures.

(i) Within a reasonable period of time prior
to the Closing, Parent will deliver to the Company
forms of the transmittal materials which Parent will
reasonably require from those Participating Rights
Holders entitled to receive a portion of the Closing
Payment Amount in respect of their shares of Company Common Stock or Company Preferred Stock, or
in respect of their Company Options or Company
Warrants, which materials may include any certifications Parent may request with respect to compliance
with any withholding obligations of Parent or the
Surviving Corporation under the Code. The Company
will distribute such materials to eligible Participating
Rights Holders. As promptly as practicable following
the Effective Time, Parent will deliver to each Participating Rights Holder who has completed such
transmittal materials and returned them to Parent at
or prior to the Closing, together with the certificate or

621
certificates representing outstanding shares of Company Common Stock or Company Preferred Stock (the
“Certificates”), or certificates or instruments representing outstanding Company Options or Company
Warrants (“Derivative Instruments”), a check (or, at
the election of the Shareholder Representative, a wire
transfer to the extent that the aggregate amount
owed to any such holder is in excess of $1,000,000)
representing that portion of the Closing Payment
Amount that such Participating Rights Holder is
entitled to receive in cash. The (i) delivery of such
checks (or wire transfers, as applicable) by Parent to
the Participating Rights Holders and (ii) deposit of
the Initial Escrow Amount with the Escrow Agent and
(iii) delivery of the Representative Reimbursement
Amount to the Shareholder Representative shall be
deemed, for all purposes, to have satisfied in full
Parent’s Closing Payment Amount obligations to such
Participating Rights Holders and Parent shall have no
further obligation for such payments. Parent shall not
be required to pay any amount of the Closing Payment
Amount to a particular Participating Rights Holder
until receipt from such Participating Rights Holder of
properly completed and executed transmittal materials in the form prepared by Parent. Parent shall be
entitled to rely entirely on the information contained
in the Capitalization Certificate and any transmittal
materials delivered hereunder for purposes of satisfying Parent’s obligation to deliver the Closing Payment
Amount.
(ii) As promptly as practicable after the
Effective Time, Parent will send to each Participating
Rights Holder who does not submit completed transmittal materials to Parent at or before the Closing, as
permitted by Section 2.2(a)(i) above, transmittal materials for use in exchanging his, her or its Certificates

622
or Derivative Instruments for the applicable portion of
the Closing Payment Amount into which such shares
of Company Common Stock or Company Preferred
Stock (other than any Dissenting Shares) or Company
Options or Company Warrants, have been converted.
Until surrendered as contemplated by this Section
2.2, each Certificate or Derivative Instrument shall
be deemed at any time after the Effective Time to
represent only the right to receive upon such surrender the applicable portion of the Closing Payment
Amount payable pursuant to Section 2.1. Upon receipt
of the completed transmittal materials and the
applicable Certificates and Derivative Instruments
from a Participating Rights Holder, Parent will deliver
to such Participating Rights Holder a check (or, at the
election of the Shareholder Representative, a wire
transfer to the extent that the aggregate amount owed
to any such holder at the Closing is in excess of
$1,000,000) representing that portion of the Closing
Payment Amount that such Participating Rights
Holder is entitled to receive in cash.
(b) No Further Rights in Certificates or Derivative Instruments. After the Effective Time, holders of
Company Common Stock, Company Preferred Stock,
Company Options or Company Warrants outstanding
immediately prior to the Effective Time will cease
to be, and will have no rights as, shareholders or
rightsholders of the Company or the Surviving Corporation, other than (i) in the case of Company Common
Stock and Company Preferred Stock (other than
Dissenting Shares), and Company Options and Company Warrants, the rights to receive the applicable
portion of the Closing Payment Amount; (ii) in the case
of Dissenting Shares, the rights afforded to the holders
thereof under Sections 1300-1312 of California Law,

623
as applicable, and (iii) rights under this Agreement
and the Escrow Agreement.
(c) No Liability. Neither Parent, the Surviving
Corporation nor the Company shall be liable to
any holder of Company Common Stock, Company Preferred Stock, Company Options or Company Warrants
for any portion of the Closing Payment Amount delivered to an appropriate public official pursuant to any
abandoned property, escheat or similar law.
(d) Withholding Rights. Each of the Surviving
Corporation and Parent shall be entitled to deduct and
withhold from the consideration otherwise payable
pursuant to this Agreement to any holder of Company
Common Stock, Company Preferred Stock, Company
Options or Company Warrants such amounts as it is
required to deduct and withhold with respect to the
making of such payment under the Code, or any
provision of state, local or foreign Tax Law. To the
extent that amounts are so withheld by the Surviving
Corporation or Parent, as the case may be, such
withheld amounts shall be treated for all purposes of
this Agreement as having been paid to such holder in
respect of which such deduction and withholding was
made by the Surviving Corporation or Parent, as the
case may be.
(e) Lost Instrument or Certificate Procedure.
If a Certificate or Derivative Instrument held by a
Participating Rights Holder has been lost, destroyed
or mutilated, in lieu of receipt of the original instrument, the Parent will accept from such Participating
Rights Holder a lost certificate affidavit in a form
reasonably satisfactory to Parent attesting that such
loss, destruction or mutilation has occurred and
agreeing to indemnify and hold harmless the Parent
for any losses in connection therewith.

624
2.3 Stock Transfer Books. At the Effective Time,
the stock transfer books of the Company shall be
closed and there shall be no further registration of
transfers of Company Common Stock or Company
Preferred Stock thereafter on the records of the
Company. From and after the Effective Time, the
holders of certificates representing such shares
outstanding immediately prior to the Effective Time
shall cease to have any rights with respect to such
shares except as otherwise provided herein or by any
applicable laws.
2.4 Dissenting Shares.
(a) Notwithstanding any provision of this
Agreement to the contrary, shares of Company Common Stock or Company Preferred Stock that are
outstanding immediately prior to the Effective Time
and which are held by shareholders who shall have not
voted in favor of the Merger or consented thereto in
writing and who shall have exercised dissenters’
rights or rights of appraisal for such shares of Company Common Stock or Company Preferred Stock in
accordance with California Law, if any, and who, as of
the Effective Time, have not effectively withdrawn
or lost such dissenters’ rights (collectively, the “Dissenting Shares”), shall not be converted into or
represent the right to receive any portion of the
amounts to be paid pursuant to Section 2.1, but the
holders thereof shall only be entitled to such rights as
are granted by California Law, if any. All Dissenting
Shares held by shareholders who shall have failed to
perfect or who effectively shall have withdrawn or lost
their dissenters’ rights shall thereupon be deemed to
have been converted into and to have become
exchangeable for, as of the later of the Effective Time
or the occurrence of such event, the right to receive an

625
appropriate portion of the amounts to be paid
pursuant to Section 2.1, without any interest thereon,
upon surrender, in the manner provided in Section 2.2,
of the Certificates that formerly evidenced such
shares.
(b) The Company shall give Parent (i) prompt
notice of any demands for fair value of shares of
Company Common Stock or Company Preferred Stock
received by the Company, withdrawals of such
demands, and any other instruments served pursuant
to California Law, if any, and received by the Company, and (ii) the opportunity to direct all negotiations
and proceedings with respect to demands for fair value
under California Law, if any. The Company shall not,
except with the prior written consent of Parent, make
any payment with respect to any demands for the fair
value of shares of Company Common Stock or
Company Preferred Stock or settle or offer to settle
any such demands other than by operation of law or
pursuant to a final order of a court of competent
jurisdiction.
2.5 Shareholder Representative.
(a) Appointment of Shareholder Representative. By virtue of the adoption of this Agreement and
the approval of the Merger by the Company Shareholders, each Participating Rights Holder (regardless
of whether or not such Participating Rights Holder
votes in favor of the adoption of the Agreement and the
approval of the Merger, whether at a meeting or by
written consent in lieu thereof) shall be deemed to
have appointed, effective from and after the Effective
Time of the Merger, David Clapper and Edward
Unkart (each a “Joint Representative”) to act jointly
as the Shareholder Representative under this Agreement in accordance with the terms of this Section 2.5

626
and the Escrow Agreement. For clarity, each Joint
Representative, acting jointly, shall be deemed the
Shareholder Representative, and all actions required
or permitted to be approved by the Shareholder
Representative shall be deemed approved when
approved by both Joint Representatives. If either
David Clapper or Edward Unkart resigns, is removed
or is no longer able to perform duties as a Joint
Representative, the remaining Joint Representative
shall continue as a sole Shareholder Representative,
with the authority to act alone and to exercise all
powers of the Shareholder Representative without the
approval or joint action of another person. In the event
that both David Clapper and Edward Unkart have
resigned, are removed or are no longer able to perform
duties as Joint Representative or as sole Shareholder
Representative, as the case may be, a successor
Shareholder Representative shall be selected from the
following list, in the order specified, to serve as the
sole Shareholder Representative, with power to act
alone as the Shareholder Representative: (1) Michael
Kaplan, (2) Barclay Phillips and (3) Ross Jaffee.
Notwithstanding anything to the contrary in this
Agreement or the Escrow Agreement: (i) unless
removed, with the consent of the next enumerated
successor named in the foregoing list, an outgoing
sole Shareholder Representative may designate a
successor Shareholder Representative different than
such enumerated successor; (ii) if no enumerated
successors remain in the foregoing list, an outgoing
sole Shareholder Representative, unless removed,
may designate a successor without the consent of
any other person or Participating Rights Holder;
provided, such outgoing Shareholder Representative
shall use commercially reasonable efforts to provide
notice of the name and address of such successor to the

627
Participating Rights Holders representing at least
three-fourths of the Escrowed Funds then in possession of the Escrow Agent. Notwithstanding the foregoing, or anything else to the contrary in the Agreement
or the Escrow Agreement, the Participating Rights
Holders entitled to a majority in amount of the
Escrowed Funds then in the possession of the Escrow
Agent may by written action remove a Joint Representative or sole Shareholder Representative or
appoint a new Shareholder Representative, whether
or not named above, or may change the order of
succession specified above. Any person appointed to
replace a former Joint Representative or sole Shareholder Representative shall execute a statement
agreeing to perform the duties set forth in this Section
2.5 and such appointment shall become effective upon
delivery of such statement to the Parent and the
Surviving Corporation.
(b) Authority After the Effective Time. From
and after the Effective Time, the Shareholder Representative shall be authorized to:
(i) take all actions required by, and exercise all rights granted to, the Shareholder Representative in this Agreement or the Escrow Agreement;
(ii) receive all notices or other documents
given or to be given to the Shareholder Representative
by Parent pursuant to this Agreement or the Escrow
Agreement;
(iii) negotiate, undertake, compromise,
defend, resolve and settle any suit, proceeding or dispute under this Agreement or the Escrow Agreement;
(iv) execute and deliver all agreements,
certificates and documents required by the Shareholder Representative in connection with any of the

628
transactions contemplated by this Agreement (including executing and delivering the Escrow Agreement);
(v) engage special counsel, accountants
and other advisors and incur such other expenses in
connection with any of the transactions contemplated
by this Agreement or the Escrow Agreement;
(vi) apply the Representative Reimbursement Amount to the payment of (or reimbursement of
the Shareholder Representative for) expenses and
liabilities which the Shareholder Representative may
incur pursuant to this Section 2.5; and
(vii) take such other action as is necessary
on behalf of the Participating Rights Holders as is
necessary in connection with this Agreement, the
Escrow Agreement and the transactions contemplated
hereby, including:
(A) taking any actions required or
permitted under the Escrow Agreement; and
(B) all such other matters as the
Shareholder Representative may deem necessary or
appropriate to carry out the intents and purposes of
this Agreement and the Escrow Agreement.
(c) Reimbursement of Expenses. The Shareholder Representative shall be entitled to receive
reimbursement from any Representative Reimbursement Amounts retained on behalf of the Shareholder
Representative and then, immediately prior to its
distribution to the Participating Rights Holders,
against the consideration held as Escrowed Funds
pursuant to the Escrow Agreement, for any and all
expenses, charges and liabilities, including reasonable
attorneys’ fees, incurred by the Shareholder Representative in the performance or discharge of its rights

629
and obligations under this Agreement (the “SR
Expenses”).
(d) Release from Liability; Indemnification;
Authority of Shareholder Representative. By virtue of
the adoption of this Agreement and the approval of the
Merger by the Company Shareholders, each Participating Rights Holder shall be deemed to hereby
release the Shareholder Representative from, and
each Participating Rights Holder shall be deemed to
have agreed to indemnify the Shareholder Representative against, liability for any action taken or not
taken by him, her or it in his, her or its capacity as
such agent, except for the liability of the Shareholder
Representative to a Participating Rights Holder for
loss which such holder may suffer from fraud
committed by the Shareholder Representative in
carrying out his, her or its duties hereunder. By virtue
of the adoption of this Agreement and the approval of
the Merger by the Company Shareholders, each
Participating Rights Holder (regardless of whether or
not such Participating Rights Holder votes in favor of
the adoption of the Agreement and the approval of the
Merger, whether at a meeting or by written consent in
lieu thereof) shall be deemed to have appointed, as of
the Agreement Date, the Shareholder Representative
as his, her or its true and lawful agent and attorneyin-fact to enter into any agreement in connection
with the transactions contemplated by this Agreement, to exercise all or any of the powers, authority
and discretion conferred on him under any such
agreement, to give and receive notices on their behalf
and to be his, her or its exclusive representative with
respect to any matter, suit, claim, action or proceeding
arising with respect to any transaction contemplated
by any such agreement, including, without limitation,
the defense, settlement or compromise of any claim,

630
action or proceeding for which Parent or the Surviving
Corporation may be entitled to indemnification. All
actions, decisions and instructions of the Shareholder
Representative shall be conclusive and binding upon
all of the Participating Rights Holders.
(e) Acceptance. By virtue of his approval and
execution of this Agreement, the Shareholder Representative hereby agrees to act as, and to undertake the
duties and responsibilities of, the Shareholder Representative as set forth in this Section 2.5.
ARTICLE 3
REPRESENTATIONS AND WARRANTIES
OF THE COMPANY
Except for representations and warranties that
speak as of a particular date, which representations
and warranties are made only as of such particular
date, the Company hereby represents and warrants to
Parent as follows as of each of (a) the Agreement Date
and (b) the Closing Date, subject in each case to such
exceptions as are set forth in the attached Disclosure
Schedule of the Company (the “Company Disclosure
Schedule”). Notwithstanding any other provision of
this Agreement or the Company Disclosure Schedule,
each exception set forth in the Company Disclosure
Schedule will be deemed to qualify only each representation and warranty set forth in this Agreement (i)
that is specifically identified (by cross-reference or
otherwise) in the Company Disclosure Schedule as
being qualified by such exception, or (ii) with respect
to which the relevance of such exception is reasonably
apparent on the face of the disclosure of such exception
set forth in the Company Disclosure Schedule. The
Company Disclosure Schedule shall be organized by
section number (e.g., 3.1, 3.2 and 3.3) and may be
organized by subsection number at the election of the

631
Company (e.g., 3.2(b), 3.9(d) and 3.10(a)), but any
disclosure made in any subsection shall be effective as
disclosure for the entire section, unless disclosure by
subsection is specifically required by the applicable
section. Cross-references by section number shall be
effective, and cross-references by subsection number
shall not be required.
3.1 Organization, Good Standing and Qualification. The Company is a corporation duly organized,
validly existing and in good standing under the laws
of the State of California. The Company is duly
qualified to transact business and is in good standing
in each jurisdiction in which the failure to so qualify
has resulted in or could be reasonably expected to
result in a Material Adverse Effect on the Company.
The Company has all requisite corporate power and
authority to own and operate its properties and assets,
to execute and deliver this Agreement, to perform its
obligations under the provisions of this Agreement,
and to carry on its Principal Business as presently
conducted and as the Company currently proposes it
be conducted.
3.2 Capitalization and Voting Rights.
(a) The authorized capital of the Company
consists of:
(i) Preferred Stock. 25,245,152 shares of
Company Preferred Stock, of which 133,334 shares
have been designated Series A Preferred Stock,
200,000 shares have been designated Series B
Preferred Stock, 230,000 shares have been designated
Series C Preferred Stock, 1,000,000 shares have been
designated Series D Preferred Stock, 1,500,000 shares
have been designated Series D-1 Preferred Stock,
681,818 shares have been designated Series E

632
Preferred Stock, 3,500,000 shares have been
designated Series F Preferred Stock, 3,000,000 shares
have been designated Series F-1 Preferred Stock,
6,000,000 shares have been designated Series G
Preferred Stock, and 9,000,000 shares have been
designated Series H Preferred Stock. The respective
rights, restrictions, privileges and preferences of the
Company Preferred Stock are as stated in the
Restated Articles.
(ii) Common Stock. 100,000,000 shares of
Company Common Stock.
(b) As of the Agreement Date, the number of
shares of each series of Company Preferred Stock and
of Company Common Stock issued and outstanding is
set forth on Section 3.2(b) of the Company Disclosure
Schedule.
(c) Except as set forth in Sections 3.2(c) or
3.2(f) of the Company Disclosure Schedule, as of the
Agreement Date, there are not outstanding any
options, warrants, instruments, rights (including conversion or preemptive rights and rights of first
refusal), proxy or stockholder agreements, or other
agreements or instruments of any kind, including
convertible debt instruments, for the purchase or
acquisition from the Company of any of its Securities.
The Company is not a party or subject to any
agreement or understanding and, to the Company’s
knowledge, there is no agreement or understanding
between any other persons, that affects or relates to
the voting or giving of written consents with respect to
any Security or by a director of the Company.
(d) All of the issued and outstanding shares of
the Company Common Stock and Company Preferred
Stock (i) have been duly authorized and validly issued

633
and are fully paid and nonassessable, and (ii) were
issued in compliance with all applicable state and
federal laws concerning the issuance of securities.
(e) Except as set forth in the Disclosure
Schedule, each series of Company Preferred Stock is
presently convertible into Company Common Stock on
a one-for-one basis and the consummation of the transactions contemplated hereunder will not result in any
anti-dilution adjustment or other similar adjustment
to the outstanding shares of Company Preferred
Stock.
(f) Section 3.2(f) of the Company Disclosure
Schedule sets forth the name and address of each
Securityholder and the Securities beneficially owned
by each Securityholder, and, in the case of options,
warrants, instruments and other rights to acquire
capital stock of the Company, (i) the per-share exercise
price payable therefor, (ii) the number of shares of
the Company’s capital stock each option, warrant,
instrument or other right are vested or exercisable as
of the Agreement Date, (iii) whether the holder of such
option, warrant, instrument or other right is an
employee of the Company, (iv) whether such option,
warrant, instrument or other right will survive the
Effective Time, if not exercised prior thereto, and (v)
whether or not any such options, warrants, instruments or other rights are intended to be “incentive
stock options” as such term is defined in the Code.
3.3 Subsidiaries. Except as set forth in Section 3.3
of the Company Disclosure Schedule, the Company
has no Subsidiaries. The Company does not presently
own or control, directly or indirectly, any interest in
any other corporation, association, partnership, limited liability company or other business entity. The

634
Company is not a participant in any joint venture or
similar arrangement.
3.4 Authorization; Binding Obligations; Governmental Consents.
(a) Subject to the Shareholder Approval, all
corporate action on the part of the Company, its
officers, directors and shareholders necessary for the
authorization, execution and delivery of this Agreement and the performance of all obligations of the
Company hereunder have been taken prior to the
Agreement Date. This Agreement is the valid and
legally binding obligation of the Company, enforceable
in accordance with its terms, except (i) as limited by
applicable bankruptcy, insolvency, reorganization,
moratorium, and other laws of general application
affecting enforcement of creditors’ rights, and (ii) as
limited by laws relating to the availability of specific
performance, injunctive relief, or other equitable
remedies.
(b) No consent, approval, permit, order or
authorization of, or registration, qualification, designation, declaration or filing with, any Governmental
Authority on the part of or with respect to the Company is required in connection with the execution
and delivery of this Agreement and the consummation
of the transactions contemplated hereby, except the
filing of the Merger Document with the California
Secretary of State and pre-merger notification filings
under the HSR Act with the U.S. Department of
Justice and Federal Trade Commission.
3.5 Financial Statements.
(a) The Company has made available to the
Parent or its counsel, and included in the Company
Disclosure Schedule are, the Financial Statements.

635
The Financial Statements are complete and correct in
all material respects and have been prepared in
accordance with GAAP, except that the unaudited
financial statements do not contain footnotes required
by GAAP. The Financial Statements fairly present the
financial condition of the Company on a consolidated
basis as of the dates and during the periods indicated
therein, subject, in the case of the unaudited financial
statements, to normal year-end audit adjustments
which are neither individually nor in the aggregate
material. The Company maintains a standard system
of accounting established and administered in accordance with GAAP.
(b) Except for Indebtedness reflected in the
Financial Statements, the Company and its Subsidiaries have no Indebtedness outstanding at the date
hereof. The Company and its Subsidiaries are not in
default with respect to any outstanding Indebtedness
or any instrument relating thereto, nor is there any
event which, with the passage of time or giving of
notice, or both, would result in a default, and no such
Indebtedness or any instrument or agreement relating
thereto purports to limit the issuance of any Securities
by the Company or the operation of the business of
the Company. Complete and correct copies of all
instruments (including all amendments, supplements,
waivers and consents) relating to any Indebtedness of
the Company or its Subsidiaries have been furnished
to the Parent or its counsel.
3.6 Liabilities. The Company and its Subsidiaries
have no liabilities or, to the knowledge of the Company, contingent liabilities not disclosed in the Financial Statements, except current liabilities incurred in
the ordinary course of business consistent with past
practice subsequent to the date of the latest balance

636
sheet included in the Financial Statements and
liabilities that, individually or in the aggregate, have
not resulted in or could not reasonably be expected to
result in a Material Adverse Effect on the Company.
3.7 Minute Book. The minute books of the
Company and its Subsidiaries made available to the
Parent or its counsel contain minutes of all meetings
and copies of all other actions taken by written consent
in lieu of a meeting of the directors or shareholders of
the Company and its Subsidiaries since the time of
incorporation and reflect all transactions referred to in
such minutes accurately in all material respects.
3.8 Litigation. Except as set forth in Section 3.8
of the Company Disclosure Schedule, there is no
action, suit or proceeding pending or, to the knowledge
of the Company, currently threatened and, to the
knowledge of the Company, there is no pending or
currently threatened investigation pertaining to any
potential action, suit or proceeding against the
Company and its Subsidiaries or any of its officers or
directors. The foregoing includes, without limitation,
actions, suits and proceedings pending or, to the
knowledge of the Company, threatened involving the
prior employment of any of the employees of the
Company or its Subsidiaries, their use in connection
with the Company’s business of any information or
techniques allegedly proprietary to any of their former
employers, or their obligations under any agreements
with prior employers. The Company has not received
any communication from any third party that could
reasonably lead the Company to believe that any such
action, suit, proceeding or investigation is forthcoming. The Company and its Subsidiaries are not a party
or subject to the provisions of any order, writ,
injunction, judgment or decree of any court or govern-

637
ment agency or instrumentality. There is no action,
suit, or proceeding by the Company or any of its
Subsidiaries currently pending or that the Company
or any of its Subsidiaries intends to initiate or is
investigating whether to initiate.
3.9 Intellectual Property.
(a) Section 3.9(a) of the Company Disclosure
Schedule sets forth a complete and accurate list of (i)
all registered Intellectual Property owned, licensed or
used by the Company or any of its Subsidiaries, all
applications therefor, and all written licenses and
assignments (excluding assignments of patent applications by inventors to the Company) to which the
Company or any of its Subsidiaries is a party, and (ii)
all licenses relating to technology, know-how and
processes which the Company or any of its Subsidiaries has licensed or authorized for use by others.
(b) To the knowledge of the Company, the
operation of the Principal Business of the Company
and its Subsidiaries as presently conducted and as the
Company and its Subsidiaries currently propose it be
conducted does not interfere with, conflict with,
infringe upon, misappropriate or otherwise violate the
Intellectual Property rights of any third party. Section
3.9(b) of the Company Disclosure Schedule sets forth
a complete and accurate list of third party Intellectual
Property rights for which the Company or one of its
Subsidiaries has sought a legal opinion regarding any
potential interference with, conflict with infringement
upon, misappropriation of or other violation of such
third party Intellectual Property rights by the Company or its Subsidiaries. After informally applying a
similar standard to all other third party Intellectual
Property rights of which the Company has knowledge,
the Company has determined not to seek opinions of

638
counsel regarding such other third party Intellectual
Property.
(c) The Company is the sole owner of the
entire right, title and interest in and to all Company
Owned Intellectual Property and has sufficient title,
ownership or interest in and to, or has a valid license
or other legal right under the Company Licensed
Intellectual Property used in or necessary to the
operation of its Principal Business as presently conducted and as the Company currently proposes it be
conducted, subject to the terms of the license agreements governing the Company Licensed Intellectual
Property.
(d) Except as set forth in Section 3.9(d) of the
Company Disclosure Schedule, there are no outstanding options, licenses, or agreements of any kind
relating to the Company Owned Intellectual Property
and neither the Company nor any of its Subsidiaries
has granted any license or other right to any third
party with respect to the Company Licensed Intellectual Property or Company Owned Intellectual Property. Except as set forth in Section 3.9(d) of the
Company Disclosure Schedule, neither the Company
nor its Subsidiaries are bound by or a party to any
options, licenses or agreements of any kind with
respect to the patents, trademarks, service marks,
trade names, copyrights, trade secrets, licenses,
information, proprietary rights and processes of any
other person.
(e) The Company has no present knowledge
from which it could reasonably conclude that the
Company Owned Intellectual Property and any Intellectual Property licensed to the Company under the
Company Licensed Intellectual Property, are invalid
or unenforceable, and the same have not been

639
adjudged invalid or unenforceable in whole or in part.
To the knowledge of the Company, the Company
Owned Intellectual Property and the Company
Licensed Intellectual Property constitute all of the
Intellectual Property necessary for the operation of the
Principal Business of the Company and its Subsidiaries as presently conducted and as the Company and its
Subsidiaries currently propose it be conducted. To the
knowledge of the Company, the Company has complied with all of its obligations of confidentiality in
respect of the claimed trade secrets or proprietary
information of others and knows of no violation of such
obligations of confidentiality as are owed to it.
(f) Except as set forth in Section 3.9(f) of the
Company Disclosure Schedule, no claims or actions
have been asserted, are pending or, to the knowledge
of the Company, threatened against the Company or
any of its Subsidiaries (i) based upon or challenging or
seeking to deny or restrict the ownership by or license
rights of the Company or any of its Subsidiaries of any
of the Company Owned Intellectual Property or
Company Licensed Intellectual Property, (ii) alleging
that any services provided by, processes used by, or
products manufactured or sold by the Company or any
of its Subsidiaries or the operation of the Principal
Business of the Company and its Subsidiaries as presently conducted and as the Company and its Subsidiaries currently propose it be conducted, interferes
with, conflicts with, infringes upon, misappropriates
or otherwise violates any Intellectual Property right of
any third party, or (iii) alleging that the Company
Licensed Intellectual Property is being licensed or
sublicensed in conflict with the terms of any license or
other agreement, and, the Company has not received
any communication from any third party that could
reasonably lead the Company to believe that such a

640
claim or action is forthcoming and, to the knowledge of
the Company, there is no reasonable basis for such a
claim or action. The Company and its Subsidiaries
have not received any offers of licenses to patents that
may cover any of the Company Products.
(g) As of the Agreement Date, to the
knowledge of the Company, no person is engaging or
has engaged in any activity that infringes or
misappropriates the Company Owned Intellectual
Property or Company Licensed Intellectual Property.
Neither the Company nor any of its Subsidiaries has
ever delivered any communication to any party (each,
a “Notified Party”) that could reasonably lead any such
Notified Party to believe that the Company or its
Subsidiaries allege that any services provided by,
processes used by, or products manufactured or sold
by such Notified Party, or the operation of such Notified Party’s actual or proposed business, interferes
with, conflicts with, infringes upon, misappropriates
or otherwise violates any Company Owned Intellectual Property or Company Licensed Intellectual Property. The execution, delivery and performance of this
Agreement and the consummation of the transactions
contemplated by this Agreement by the Company will
not breach, violate or conflict with any instrument or
agreement concerning the Company Owned Intellectual Property, will not cause the forfeiture or termination or give rise to a right of forfeiture or termination
of any of the Company Owned Intellectual Property or
materially impair the right of the Parent to license or
dispose of, or to bring any action for the infringement
of, any material Company Owned Intellectual Property.
(h) The Company has made available to the
Parent or its counsel correct and complete copies of all
the licenses of the Company Licensed Intellectual

641
Property, other than licenses of commercial off-theshelf computer software. With respect to each such
license:
(i) such license is valid and binding and in
full force and effect and represents the entire agreement between the respective licensor and licensee
with respect to the subject matter of such license;
(ii) such license will not cease to be valid
and binding and in full force and effect on terms
identical in all material respects to those currently in
effect as a result of the consummation of the transactions contemplated by this Agreement, nor will the
consummation of the transactions contemplated by
this Agreement constitute a material breach or default
under such license or otherwise so as to give the
licensor or any other person a right to terminate such
license;
(iii) neither the Company nor any of its
Subsidiaries has (A) received any notice of termination
or cancellation under such license, (B) received any
notice of breach or default under such license, which
breach has not been cured, or (C) granted to any other
third party any rights, adverse or otherwise, under
such license that would constitute a material breach of
such license; and
(iv) neither the Company nor, to the
knowledge of the Company, any other party to such
license (including any Subsidiaries of the Company) is
in material breach or default thereof, and, to the
knowledge of the Company, no event has occurred
that, with notice or lapse of time, would constitute
such a material breach or default or permit termination, modification or acceleration under such license.

642
(i) Except as set forth in Section 3.9(i) of the
Company Disclosure Schedule, neither the Company
nor any of its Subsidiaries has knowledge that any of
its respective employees, officers, directors, agents or
consultants is (i) subject to confidentiality restrictions
in favor of any third person the breach of which could
subject the Company or any of its Subsidiaries to any
liability, or (ii) obligated under any contract (including
licenses, covenants or commitments of any nature) or
other agreement, or subject to any judgment, decree or
order of any court or administrative agency, that
would interfere with their duties to the Company or
any of its Subsidiaries, as applicable, or that would
conflict with the Principal Business of the Company
and its Subsidiaries as the Company and its
Subsidiaries currently propose it be conducted. Each
employee and consultant to the Company and any of
Subsidiaries of the Company has executed a proprietary information and inventions agreement in
substantially the form of Exhibit C attached hereto.
No current or former employee or officer of or
consultant to the Company or any of its Subsidiaries
that has contributed to the development of registered
Company Owned Intellectual Property has excluded
works or inventions made prior to his or her employment or relationship with the Company or any of its
Subsidiaries from his or her assignment of inventions
to the Company pursuant to such employee’s, officer’s
or consultant’s proprietary information and inventions
agreement. Each of the Company and its Subsidiaries
has taken reasonable steps in accordance with normal
industry practice to maintain the confidentiality of its
trade secrets and other confidential Intellectual
Property.

(j)

643
To the knowledge of the Company:

(i) there has been no misappropriation of
any material trade secrets or other material confidential Company Owned Intellectual Property by any
person;
(ii) no employee, independent contractor or
agent of the Company or any of its Subsidiaries has
misappropriated any trade secrets of any other person
in the course of such performance as an employee,
independent contractor or agent; and
(iii) no employee, independent contractor
or agent of the Company or any of its Subsidiaries is
in material default or breach of any term of any
employment agreement, non-disclosure agreement,
assignment of invention agreement or similar agreement or contract relating in any way to the protection,
ownership, development, use or transfer of Company
Owned Intellectual Property.
(k) To the Company’s knowledge, neither the
execution nor delivery of this Agreement, nor the
carrying on of the Principal Business by the employees
of and consultants to the Company or any of its
Subsidiaries, as the case may be, nor the conduct of
Principal Business of the Company and its Subsidiaries as presently conducted or as the Company and its
Subsidiaries currently propose it be conducted, would,
to the knowledge of the Company, conflict with or
result in a breach of the terms, conditions or provisions
of, or constitute a default under, any contract, covenant or instrument under which any of such employees or consultants is now obligated. Except to the
extent already assigned to the Company or any of its
Subsidiaries, neither the Company nor any of its
Subsidiaries believes that it is or will be necessary to

644
utilize any inventions or proprietary information of
any of its respective employees (or people it currently
intends to hire) made prior to their employment by the
Company or any of its Subsidiaries, as the case may
be.
3.10 Compliance with Other Instruments.
Neither the Company nor any of its Subsidiaries are
in violation or default of any provision of its Articles of
Incorporation (or equivalent document) or bylaws (or
equivalent document) or, to the Company’s knowledge,
of any provision of any federal or state statute, rule or
regulation applicable to the Company or any of its
Subsidiaries (excluding Environmental Laws, which
are covered by Section 3.15, laws and regulations
relating to Company Products, FDA matters and
similar laws and regulations, which are covered by
Section 3.14 and Section 3.21, laws and regulations
relating to Company Benefit Plans, which are covered
by Section 3.20, and Tax Law, which is covered by
Section 3.24). Neither the Company nor any of its
Subsidiaries are in violation or default of any
mortgage, indenture, contract, agreement, instrument, judgment, order, writ, decree or contract to
which it is a party or by which it is bound that has
resulted in or could reasonably be expected to result in
a material financial penalty or loss to the Company or
would otherwise result in a Material Adverse Effect
on the Company. The execution, delivery and performance of this Agreement by the Company and the
consummation of the Merger, (i) will not result in any
violation or default described in the preceding two
sentences, (ii) result in the creation of any mortgage,
pledge, lien, charge or encumbrance upon any of the
properties or assets of the Company or any of its
Subsidiaries, or (iii) result in the suspension, revocation, impairment, forfeiture, or non-renewal of any

645
material permit, license, authorization or approval
applicable to the Principal Business, operations or any
of the assets or properties of the Company or any of its
Subsidiaries.
3.11 Agreements; Actions.
(a) Except as set forth in Section 3.11(a) of the
Company Disclosure Schedule, there are no agreements, understandings or proposed transactions
between the Company and any of its officers, directors,
Affiliates, or any Affiliate thereof, or between any
Subsidiary of the Company and any of its officers,
directors or Affiliates.
(b) Section 3.11(b) of the Company Disclosure
Schedule sets forth all agreements, understandings,
instruments, contracts, proposed transactions, judgments, orders, writs or decrees to which the Company
or any of its Subsidiaries is a party or by which it is
bound that involve (i) obligations (contingent or
otherwise) of, or payments to, the Company or any of
its Subsidiaries in excess of $50,000, or that may not
be extinguished on thirty (30) days’ notice or less
(other than open purchase orders and invoices for the
purchase or sale of goods or services entered into in
the ordinary course of business), (ii) the license,
assignment or transfer of any patent, copyright, trade
secret or other proprietary right to or from the Company or any of its Subsidiaries (other than licenses to
the Company arising from the purchase of commercial
“off the shelf’ or other standard products), (iii) the
manufacture, marketing, sale or distribution of any
products of the Company or any of its Subsidiaries in
any jurisdiction, or any restrictions on the Company’s
or any of its Subsidiaries’ exclusive rights to develop,
manufacture, assemble, distribute, market and sell its
products, (iv) indemnification by the Company or any

646
of its Subsidiaries with respect to infringements of
proprietary rights (other than indemnification obligations arising from purchase, sale, marketing, supply,
manufacturing, or license agreements or similar
agreements entered into in the ordinary course of
business), (v) any supply agreements, or (vi) other
agreements that are otherwise material to the
Principal Business of the Company.
(c) The Company has delivered or has caused
to be delivered to the Parent or its counsel (including
in connection with the delivery of the Company’s
compiled response to the Parent’s due diligence
request list, which compiled response was delivered to
the Parent and its counsel at the offices of the
Company’s counsel by making such compiled response
available for Parent and its counsel to review and
remove from such offices) correct and complete copies
of each contract, agreement or other arrangement
listed in Section 3.11 of the Company Disclosure
Schedule, as such contracts, agreements and arrangements are amended to date. Each such contract,
agreement or other arrangement is a valid, binding
and enforceable obligation of the Company or any of
its Subsidiaries, as applicable, and, to the knowledge
of the Company, of the other party or parties thereto,
and is in full force and effect. Except as set forth in
Section 3.11(c) of the Company Disclosure Schedule,
neither the Company nor any of its Subsidiaries nor,
to the knowledge of the Company, the other party or
parties thereto, is in breach or non-compliance, or, to
the knowledge of the Company, is considered to be in
breach or non-compliance by the other party thereto,
of any term of any such contract, agreement or other
arrangement, except for breach or non-compliance
that has not and could not be reasonably expected to
result in a Material Adverse Effect on the Company or

647
result in provide any other party thereto with the right
to impose a material financial penalty on the
Company. Except as set forth in Section 3.11(c) of the
Company Disclosure Schedule, neither the Company
nor any of its Subsidiaries has received notice of any
default or threat thereof with respect to any such
contract, agreement or other arrangement and neither
the Company nor any of its Subsidiaries has a
reasonable basis for suspecting that any such default
exists or will be forthcoming. Subject to obtaining any
necessary consents by the other party or parties to any
such contract, agreement or other arrangement (as
further set forth in Section 3.11(c) of the Company
Disclosure Schedule), no contract, agreement or other
arrangement listed in Section 3.11 of the Company
Disclosure Schedule includes or incorporates any
provision the effect of which would be to enlarge or
accelerate any obligations of the Company or any of its
Subsidiaries or give additional rights to any other
party thereto, or terminate or lapse by reason of, the
transactions contemplated by this Agreement.
(d) For the purposes of Section 3.11(b), all
liabilities, agreements, understandings, instruments,
contracts and proposed transactions involving the
same person (including persons the Company or any
of its Subsidiaries has reason to believe are affiliated
therewith) shall be aggregated for the purpose of
meeting the individual minimum dollar amounts of
such subsections.
3.12 Related-Party Transactions. No employee,
officer, or director of or consultant to the Company or
any of its Subsidiaries, as the case may be, or member
of his or her immediate family is indebted to the
Company or any of its Subsidiaries, nor is the Company or any of its Subsidiaries indebted (or committed

648
to make loans or extend or guarantee credit) to any of
them other than (a) for payment of salary or fees (in
the case of consultants) for services rendered, (b)
reimbursement for reasonable expenses incurred on
behalf of the Company or any of its Subsidiaries, and
(c) for other standard employee benefits made generally available to all employees (including stock options
outstanding under any stock option plan approved by
the Company Board or the board of directors of any of
the Company’s Subsidiaries, as the case may be). To
the knowledge of the Company, none of such persons
has any direct or indirect ownership interest in any
firm or corporation with which the Company or any of
its Subsidiaries is affiliated or with which the
Company or any of its Subsidiaries has a business
relationship, or any firm or corporation that competes
with the Company or any of its Subsidiaries, except
that employees, officers or directors of the Company
or any of its Subsidiaries and members of their
immediate families may own stock in publicly-traded
companies that may compete with the Company or any
of its Subsidiaries. No member of the immediate
family of any officer or director of the Company is
directly or indirectly interested in any material contract with the Company. No member of the immediate
family of any officer or director of any Subsidiary of
the Company is directly or indirectly interested in any
material contract with such Subsidiary. Except as may
be disclosed in the Financial Statements, neither the
Company nor any of its Subsidiaries is a guarantor or
indemnitor of any Indebtedness of any other person.
3.13 Changes. Except as reflected in the Financial Statements provided to the Parent, since the end
of the latest completed fiscal year of the Company,
there has not been:

649
(a) Any change in the assets, liabilities,
financial condition or operations of the Company
or any of its Subsidiaries from that reflected in the
Financial Statements, other than changes in the ordinary course of business consistent with past practice,
none of which individually or in the aggregate has
resulted in or could reasonably be expected to result in
a Material Adverse Effect on the Company;
(b) Any resignation or termination of any
executive officer of the Company or of any of its
Subsidiaries;
(c) Any material change, except in the
ordinary course of business consistent with past
practice, in the contingent obligations of the Company
or any of its Subsidiaries by way of guaranty,
endorsement, indemnity, warranty or otherwise;
(d) Any damage, destruction or loss, whether
or not covered by insurance, which has resulted in or
could reasonably be expected to result in a Material
Adverse Effect on the Company;
(e) Any waiver by the Company or any of its
Subsidiaries of a right or of a debt owed to it (i) by a
director, officer or employee or the Company or any
Subsidiary of the Company or (ii) in excess of
$100,000;
(f) Any direct or indirect loans made by the
Company to any shareholder, employee, officer or
director of the Company, or a Subsidiary of the
Company to any shareholder, employee, officer or
director of such Subsidiary, other than advances made
in the ordinary course of business consistent with past
practice;

650
(g) Any material change in any compensation
arrangement or agreement with any employee, officer,
director or shareholder of the Company or any of its
Subsidiaries;
(h) Any declaration or payment of any
dividend or other distribution of the assets of the
Company or any of its Subsidiaries, or any repurchase
of any shares of outstanding capital stock of the
Company;
(i)

Any labor organization activity;

(j) Any Indebtedness, obligation or liability
incurred, assumed or guaranteed by the Company or
any of its Subsidiaries, except those for immaterial
amounts and for current liabilities incurred in the
ordinary course of business consistent with past
practice;
(k) Any sale, assignment, transfer or license of
any patents, trademarks, copyrights, trade secrets or
other intangible assets of the Company or any of its
Subsidiaries;
(l) Any change in any material agreement to
which the Company or any of its Subsidiaries is a
party or by which it is bound which has resulted in or
could reasonably be expected to result in a Material
Adverse Effect on the Company;
(m) Any change in the manner, method or
policies employed by the Company or its Subsidiaries
in the collection of its accounts receivable; or
(n) Any other event or condition of any
character that, either individually or cumulatively,
has resulted in or could reasonably be expected to
result in a Material Adverse Effect on the Company.

651
3.14 Compliance with Laws; Permits. Neither the
Company nor any of its Subsidiaries is in violation of
any applicable statute, rule, regulation, order,
judgment, decree, writ or restriction of any domestic
or foreign government or any instrumentality or
agency thereof in respect of the Company Products,
the conduct of its business or the ownership of its
properties, including, without limitation, the Health
Insurance Portability and Accountability Act of 1996,
104 P.L. 191, Subtitle F, and regulations from time to
time promulgated thereunder (“HIPAA”) and all other
laws, statutes, rules or regulations related to the
delivery of health care or health care services or the
payment for health care or health care services,
including any laws relating to Medicare fraud and
abuse or similar state laws and regulations relating to
reimbursement for medical procedures. The Company
and each of its Subsidiaries has all franchises,
permits, licenses and any similar authority (the
“Permits”) necessary for the conduct of its business as
now being conducted by it. No suspension or
cancellation of any of the Permits is pending or, to the
knowledge of the Company, threatened.
3.15 Environmental, Zoning and Safety Laws.
Except as set forth in Section 3.15 of the Company
Disclosure Schedule, (a) neither the activities carried
on by the Company or any of its Subsidiaries at the
facilities, offices or properties leased by the Company
or any of its Subsidiaries, as the case may be, nor, to
the knowledge of the Company, the premises occupied
by the Company or any of its Subsidiaries, are in
violation of any Environmental Laws, or any other
zoning, health or safety law or regulation, the violation
of which has resulted in or could reasonably be
expected to result in a Material Adverse Effect on the
Company; (b) neither the Company nor any of its

652
Subsidiaries nor, to the knowledge of the Company,
any owner of any real property currently occupied by
the Company or any of its Subsidiaries, has received
written notice from any Governmental Authority that
it is in violation, or alleged violation, of, or has any
liability or threatened liability under, any Environmental Laws; (c) none of the properties currently or
formerly owned, leased or operated by the Company
or any of its Subsidiaries (including, without limitation, soils and surface and ground waters) are
contaminated with any Hazardous Substance, except
to the extent as would not be reasonably likely to
result in material liability to the Company or any of
its Subsidiaries; (d) neither the Company nor any of
its Subsidiaries is liable for any off-site contamination
by Hazardous Substances, except to the extent as
would not be reasonably likely to result in material
liability to the Company or any of its Subsidiaries; (e)
the Company and each of its Subsidiaries has all
material Environmental Permits necessary for the
conduct of its business as now being conducted by
it; (g) the Company and each of its Subsidiaries has
always been and is in compliance in all material
respects with its Environmental Permits; and (h)
neither the execution of this Agreement nor the
consummation of the transactions contemplated
hereby will require the Company or any Subsidiary to
perform any investigation, remediation or other action
with respect to Hazardous Substances, or to provide
any notice to or consent of Governmental Authorities
or third parties, pursuant to any applicable Environmental Law or Environmental Permit.
3.16 Manufacturing and Marketing Rights.
Neither the Company nor any of its Subsidiaries has
granted rights to manufacture, produce, assemble,
license, market, or sell its products to any other person

653
and is not bound by any agreement that affects the
Company’s, or any of its Subsidiaries’, exclusive right
to develop, manufacture, assemble, distribute, market
or sell its products.
3.17 Disclosure. Neither this Agreement (including all the exhibits and schedules hereto), nor any
other statements or certificates made or delivered in
connection herewith or therewith, contains any untrue
statement of a material fact or omits to state a
material fact necessary to make the statements herein
or therein not misleading in light of the circumstances
under which they were made.
3.18 First Offer Rights. Except as set forth in
Section 3.18 of the Company Disclosure Schedule,
neither the Company nor any of its Subsidiaries has
granted or agreed to grant any right of first offer with
respect to any acquisition of all or substantially all of
the capital stock or assets of the Company to any
person. Notwithstanding anything to the contrary in
this Agreement or the Company Disclosure Schedule,
the execution and delivery by the Company of this
Agreement and the consummation of the transactions
contemplated hereby have not resulted, and will not
result, in a violation or breach of any agreements
identified in Section 3.18 of the Company Disclosure
Schedule.
3.19 Insurance. The Company and each of its
Subsidiaries has in full force and effect fire and
casualty insurance policies, with extended coverage,
sufficient in amount (subject to reasonable deductibles) to allow the Company or such Subsidiary to
replace any of its properties that might be damaged or
destroyed. The Company and each of its Subsidiaries
has in full force and effect insurance, including but not
limited to products liability, commercial general and

654
excess liability and errors and omissions insurance, in
the amounts set forth in Section 3.19 of the Company
Disclosure Schedule. Neither the Company nor any of
the Company’s Subsidiaries is in default with respect
to its obligations under any insurance policy
maintained by it, and neither the Company nor any of
the Company’s Subsidiaries has been denied
insurance coverage.
3.20 Employee Benefit Plans.
(a) Identification of Plans. Except as disclosed
in Section 3.20(a) of the Company Disclosure Schedule, neither the Company nor any of its Subsidiaries
currently maintains or contributes to, or has any
outstanding liability to or in respect of or obligation
under, any pension, profit-sharing, deferred compensation, bonus, stock option, employment, share appreciation right, severance, group or individual health,
dental, medical, life insurance, survivor benefit, or
similar plan, policy, arrangement or agreement,
whether formal or informal, written or oral, for the
benefit of any current or former director, officer or
employee of or consultant to the Company or any of its
Subsidiaries, as applicable. Each of the arrangements
set forth in Section 3.20(a) of the Company Disclosure
Schedule is herein referred to as an “Employee Benefit
Plan”.
(b) Delivery of Documents. The Company has
heretofore delivered to Parent or its counsel true,
correct and complete copies of each Employee Benefit
Plan and, with respect to each such Employee Benefit
Plan, true, correct and complete copies of (i) any
associated trust, custodial, insurance or service
agreements, (ii) any annual report, actuarial report,
or disclosure materials (including specifically any
summary plan descriptions) submitted to any gov-

655
ernmental agency or distributed to participants or
beneficiaries thereunder in the current or any of the
three (3) preceding calendar years, and (iii) the most
recently received IRS determination letters, if any,
and any governmental advisory opinions, rulings,
compliance statements, closing agreements or similar
materials specific to such Employee Benefit Plan.
(c) Compliance with Terms and Law. Each
Employee Benefit Plan is and has heretofore been
maintained and operated in material compliance with
the terms of such Employee Benefit Plan and in
material compliance with the requirements prescribed
(whether as a matter of substantive law or as necessary to secure favorable tax treatment) by any and all
applicable statutes, governmental or court orders, or
governmental rules or regulations in effect from time
to time, including ERISA and the Code, and applicable
to such Employee Benefit Plan. Each Employee
Benefit Plan which is intended to qualify under
Section 401(a) of the Code and each trust or other
entity intended to qualify as a “voluntary employee
benefit association” within the meaning of Section
501(c)(9) of the Code and associated with any
Employee Benefit Plan is expressly identified as such
in Section 3.20(c) of the Company Disclosure Schedule
and has been determined to be so qualified by the IRS
(or, in the case of a 401(a) plan based upon a master
and prototype or volume submitter form, the sponsor
of such form has received a current advisory opinion
as to the form upon which the Company is entitled to
rely under applicable IRS procedures) and, to the
knowledge of the Company, nothing has occurred as to
each which has resulted or is likely to result in the
revocation of such qualification determination or
which requires or could require action under the

656
compliance resolution programs of the IRS to preserve
such qualification.
(d) Absence of Certain Events and Arrangements. Except as set forth in Section 3.20(d) of the
Company Disclosure Schedule:
(i) there is no pending or, to the knowledge
of the Company, threatened legal action, proceeding or
investigation, other than routine claims for benefits,
concerning any Employee Benefit Plan or, to the
knowledge of the Company, any fiduciary or service
provider thereof and, to the knowledge of the
Company, there is no basis for any such legal action or
proceeding;
(ii) no liability (contingent or otherwise) to
the PBGC or any multi-employer plan has been
incurred by the Company or any of its ERISA Affiliates
or Subsidiaries (other than insurance premiums
satisfied in due course);
(iii) no reportable event, or event or condition which presents a material risk of termination by
the PBGC, has occurred with respect to any Employee
Benefit Plan, or any retirement plan of an ERISA
Affiliate or Subsidiary of the Company, which is subject to Title IV of ERISA;
(iv) no Employee Benefit Plan nor any
party in interest with respect thereof has, to the
knowledge of the Company, engaged in a prohibited
transaction which could subject the Company or any
of its Subsidiaries directly or indirectly to liability
under Section 409 or 502(i) of ERISA or Section 4975
of the Code;
(iv) no Employee Benefit Plan provides
health benefits subsequent to termination of employ-

657
ment to employees or their beneficiaries except to the
extent required by applicable state laws and Title I,
Part 6 of ERISA;
(v) neither the Company nor any of its
Subsidiaries has announced its intention to modify or
terminate any Employee Benefit Plan or adopt any
arrangement or program which, once established,
would come within the definition of an Employee
Benefit Plan; and
(vi) neither the Company nor any of
its Subsidiaries has undertaken to maintain any
Employee Benefit Plan for any period of time and each
such Employee Benefit Plan is terminable at the sole
discretion of the sponsor thereof, subject only to such
constraints as may be imposed by applicable law and
the ordinary costs of termination and cancellation of
the applicable contracts.
(e) Funding of Certain Plans. With respect to
each Employee Benefit Plan for which a separate fund
of assets is or is required to be maintained, full and
timely payment has been made of all amounts
required of the Company or any of its Subsidiaries, as
the case may be, under the terms of each such
Employee Benefit Plan or applicable law, as applied
through the Closing Date, the consummation of the
Merger or a short-form merger, and no accumulated
funding deficiency (as defined in Section 302 of ERISA
and Section 412 of the Code), whether or not waived,
exists with respect to any such Employee Benefit Plan.
The current value of the assets of each such Employee
Benefit Plan, as of the end of the most recently ended
plan year of that Employee Benefit Plan, equals or
exceeds the current value of all accrued benefits
liabilities under that Employee Benefit Plan.

658
(f) Effect of Transactions. The execution of this
Agreement and the consummation of the transactions
contemplated by this Agreement, including the Merger, will not, by themselves or in combination in any
other event (regardless of whether that other event
has or will occur), result in any payment (whether of
severance pay or otherwise) becoming due from or
under any Employee Benefit Plan (including any
employment agreement) to any current or former
director, officer or employee of or consultant to the
Company or any of its Subsidiaries or result in the
vesting, acceleration of payment or increases in the
amount of any benefit payable to or in respect of any
such current or former director, officer or employee of
or consultant to the Company.
(g) Multi-employer Plans. No Employee Benefit Plan is a multi-employer plan.
(h) Definitions. For purposes of this Section,
“multi-employer plan”, “party in interest”, “current
value”, “reportable event” and “benefit liability” have
the same meaning assigned such terms under Sections
3(37), 4043(b) or 4001(a) of ERISA, and “ERISA Affiliate” means any entity which under Section 414(b), (c),
(m) or (o) of the Code is treated as a single employer
with the Company, determined, however, without
regard to this Agreement.
3.21 FDA and Regulatory Matters; Clinical Trials.
(a) With respect to the Company Products, (i)
(A) the Company and each of its Subsidiaries has
obtained all necessary and applicable approvals,
clearances, authorizations, licenses and registrations
required by United States or foreign governments or
government agencies, including, without limitation,
the CE Mark, to permit the design, development, pre-

659
clinical and clinical testing, manufacture, labeling,
sale, distribution and promotion of the Company
Products in jurisdictions where it currently conducts
such activities (the “Activities to Date”) with respect
to each Company Product (collectively, the “Company
Licenses”); (B) the Company and each of its Subsidiaries, as the case may be, is in compliance in all
material respects with all terms and conditions of each
Company License and with all applicable Laws
pertaining to the Activities to Date with respect to
each Company Product which is not required to be the
subject of a Company License; (C) the Company and
each of its Subsidiaries, as the case may be, is in
compliance with all applicable Laws regarding registration, license, certification for each site at which a
Company Product is manufactured, labeled, sold, or
distributed; and (D) to the extent that any Company
Product has been exported from the United States,
the Company or, as applicable, a Subsidiary of the
Company exporting such Company Product, has
exported such Company Product in compliance in all
material respects with applicable Law; (ii) all
manufacturing operations performed by or on behalf
of the Company or its Subsidiaries have been and are
being conducted in all material respects in compliance
with the Quality Systems regulations of the FDA and,
to the extent applicable to the Company or any of its
Subsidiaries, counterpart regulations in the European
Union and all other countries where compliance is
required; (iii) all non-clinical laboratory studies of
Company Products under development, sponsored by
the Company or any of its Subsidiaries and intended
to be used to support regulatory clearance or approval,
have been and are being conducted in compliance with
the FDA’s Good Laboratory Practice for Non-Clinical
Studies regulations (21 CFR Part 58) in the United

660
States and, to the extent applicable to the Company or
any of its Subsidiaries, counterpart regulations in the
European Union and all other countries; and (iv) the
Company and each of its Subsidiaries is in compliance
in all material respects with all applicable reporting
requirements for all Company Licenses or plant
registrations described in clause (i) above, including,
but not limited to, applicable adverse event reporting
requirements in the United States and outside of the
United States under applicable Law.
(b) The Company and each of its Subsidiaries
is in compliance in all material respects with all FDA
and non-United States equivalent agencies and similar state and local Laws applicable to the maintenance, compilation and filing of reports, including
medical device reports, with regard to the Company
Products. Section 3.21(b) of the Company Disclosure
Schedule sets forth a list of all applicable adverse
event reports related to the Company Products,
including any Medical Device Reports (as defined in
21 CFR 803). Set forth on Section 3.21(b) of the
Company Disclosure Schedule are complaint review
and analysis reports of the Company and each of its
Subsidiaries through the date hereof, including
information regarding complaints, categorized by
product and root cause analysis of closed complaints,
which reports are correct in all material respects.
(c) Except as set forth in Section 3.21(c) of the
Company Disclosure Schedule, neither the Company
nor any of its Subsidiaries has received any written
notice or other written communication from the FDA
or any other Governmental Authority (i) contesting
the pre-market clearance or approval of, the uses of or
the labeling and promotion of any of the Products, or

661
(ii) otherwise alleging any violation of any Laws by the
Company or any of its Subsidiaries.
(d) There have been no recalls, field notifications or seizures ordered or adverse regulatory
actions taken (or, to the knowledge of the Company,
threatened) by the FDA or any other Governmental
Authority with respect to any of the Company
Products, including any facilities where any Company
Products are produced, processed, packaged or stored
and neither the Company nor any of its Subsidiaries
has within the last three (3) years, either voluntarily
or at the request of any Governmental Authority,
initiated or participated in a recall of any Company
Product.
(e) The Company and each of its Subsidiaries
have conducted all of their clinical trials with
reasonable care and in accordance with all applicable
Laws and the stated protocols for such clinical trials.
(f) All filings with and submissions to the FDA
and any similar regulatory entity in any other jurisdiction made by the Company or any of its Subsidiaries
with regard to the Company Products, whether oral,
written or electronically delivered, were true, accurate
and complete in all material respects as of the date
made, and, to the extent required to be updated, have
been updated to be true, accurate and complete in all
material respects as of the date of such update, and to
the knowledge of the Company such filings, submissions and updates comply with all regulations of the
FDA or such similar regulatory entity regarding
material misstatements and omissions to state
material facts.
3.22 Brokers; Expenses. The Company and its
Subsidiaries have not incurred, nor will they incur,

662
any liability for brokerage or finders’ fees or agents’
commissions or investment bankers’ fees or any
similar charges in connection with this Agreement or
the consummation of the transactions contemplated
hereby, other than the investment bankers’ fees
payable to Piper Jaffray that will be described in the
Transaction Cost Certificate.
3.23 Consents. Except for approvals contemplated by this Agreement, including without limitation, (i) the Shareholder Approval, (ii) approvals and
consents, which, if not secured, would not result in a
material liability to the Company or its Subsidiaries
and would not result in a Material Adverse Effect on
the Company, and (iii) the other consents and
approvals set forth in Section 3.23 of the Company
Disclosure Schedule, no permit, approval, authorization or consent of any person (excluding governmental
authorities) is required in connection with the execution, delivery and performance by the Company of this
Agreement or the consummation of the transactions
contemplated hereby, including the consummation of
the Merger.
3.24

Taxes.

(a) Filing of Tax Returns and Payment of
Taxes. The Company and each of its Subsidiaries has
timely filed all material Tax Returns required to be
filed by it, each such Tax Return has been prepared in
compliance with all applicable laws and regulations,
and all such Tax Returns are true, correct and
complete in all respects. All Taxes that have become
due and payable by the Company or any of its Subsidiaries (whether or not shown on any Tax Return)
have been paid. Neither the Company nor any
Subsidiary is or will be liable for any additional Taxes
in respect of any Taxable period, or any portion

663
thereof, ending on or before the date of the unaudited
consolidated financial statements forming part of the
Financial Statements included in the Company
Disclosure Schedule in an amount that exceeds the
corresponding reserve therefor, as reflected in such
Financial Statements. Any Taxes of the Company or
any of its Subsidiaries arising after such date and at
or before the Effective Time have been or will be
incurred in the ordinary course of the business of the
Company or the applicable Subsidiary. The Company
has made available to the Parent or its counsel true,
correct and complete copies of all Tax Returns with
respect to income Taxes filed by or with respect to the
Company and/or any of its Subsidiaries with respect to
Taxable periods ended on or after December 31, 1999
(the “Recent Tax Returns”), and has made available to
the Parent or its counsel all relevant documents and
information with respect thereto, including without
limitation work papers, records, examination reports,
and statements of deficiencies proposed, assessed
against or agreed to by the Company or any of its
Subsidiaries.
(b) Deficiencies. No deficiency or adjustment
in respect of Taxes has been proposed, asserted or
assessed by any Taxation Authority against the
Company or any of its Subsidiaries. There are no outstanding refund claims with respect to any Tax or Tax
Return of the Company or any of its Subsidiaries.
(c) Liens. There are no liens for Taxes (other
than Taxes not yet due and payable) on any of the
assets of the Company or any of its Subsidiaries.
(d) Extensions to Statute of Limitations for
Assessment of Taxes. Neither the Company nor any
Subsidiary has consented to extend the time in which

664
any Tax may be assessed or collected by any Taxation
Authority.
(e) Extensions of the Time for Filing Tax
Returns. Neither the Company nor any Subsidiary has
requested or been granted an extension of the time for
filing any Tax Return that has not yet been filed.
(f) Pending Proceedings. There is no action, suit,
Taxation Authority proceeding, or audit with respect
to any Tax now in progress, pending or, to the
knowledge of the Company, threatened against or
with respect to the Company or any of its Subsidiaries.
(g) No Failures to File Tax Returns. No claim
has ever been made by a Taxation Authority in a
jurisdiction where the Company or any of its Subsidiaries does not pay Tax or file Tax Returns that the
Company or any of its Subsidiaries that does not pay
Tax or file Tax Returns in such jurisdiction is or may
be subject to Taxes assessed by such jurisdiction.
(h) Tax Attributes, Etc. The Company has
made available to Parent a report prepared by Ernst
& Young, LLP regarding the impact of Sections 382
and 383 on the Company’s net operating loss and
credit carryforwards. The Company has reviewed such
report and has no knowledge that any fact provided to
Ernst & Young LLP by the Company in connection
therewith is incorrect in any material respect.
(i) Elections. All elections with respect to
Taxes affecting the Company that were not made in
the Recent Tax Returns are described in Section
3.24(i) of the Company Disclosure Schedule.
(j) Membership in Affiliated Groups, Liability
for Taxes of Other Persons, Etc. Neither the Company
nor any of its Subsidiaries has ever been a member of

665
any affiliated group of corporations (as defined in
Section 1504(a) of the Code), other than a group
having the Company as the common parent. Neither
the Company nor any of its Subsidiaries has ever filed
or been included in a combined, consolidated or
unitary Tax Return, other than a return filed for a
group having the Company as the common parent.
Neither the Company nor any of its Subsidiaries is a
party to or bound by any Tax sharing or allocation
agreement. Neither the Company nor any of its
Subsidiaries is presently liable or has any potential
liability for Taxes of any person other than the
Company and its Subsidiaries (i) under Treasury
Regulations Section 1.1502-6 (or comparable provision
of state, local or foreign law), (ii) as transferee or
successor, or (iii) by contract or indemnity or
otherwise.
(k) Adjustments under Section 481. Neither
the Company nor any of its Subsidiaries will be
required, as a result of a change in method of accounting for any period ending on or before or including the
Effective Time, to include any adjustment under
Section 481(c) of the Code (or any similar or corresponding provision or requirement under any other
Tax Law) in Taxable income for any period ending on
or after the Effective Time.
(l) Withholding Taxes. The Company and each
of its Subsidiaries has, to the knowledge of the
Company, timely withheld and timely paid all Taxes
which are required to have been withheld and paid by
it in connection with amounts paid or owing to any
employee, independent contractor, creditor or other
person.
(m) U.S. Real Property Holding Corporation.
Neither the Company nor any of its Subsidiaries is or

666
has been a United States real property holding corporation within the meaning of Code Section 897(c)(2),
during the applicable period specified in Code Section
897(c)(1)(A)(ii).
(n) Safe Harbor Lease Property. None of the
property owned or used by the Company or any of its
Subsidiaries is subject to a Tax benefit transfer lease
executed in accordance with Section 168(0(8) of the
Internal Revenue Code of 1954, as amended by the
Economic Recovery Tax Act of 1981.
(o) Tax-Exempt Use Property. None of the
property owned by the Company or any of its
Subsidiaries is “tax-exempt use property” within the
meaning of Section 168(h) of the Code.
(p) Security for Tax-Exempt Obligations.
None of the assets of the Company or any of its
Subsidiaries directly or indirectly secures any
Indebtedness, the interest on which is tax-exempt
under Section 103(a) of the Code, and neither the
Company nor any Subsidiary is directly or indirectly
an obligor or a guarantor with respect to any such
Indebtedness.
(q) Parachute Payments, Etc. Neither the
Company nor any Subsidiary has made any payments,
is obligated to make any payments, or is a party to
any agreement that under certain circumstances could
obligate it to make any payments to an employee or
independent contractor in connection with the transactions contemplated by this Agreement, that are not
or would not be deductible under Section 280G of the
Code. Neither the Company nor any Subsidiary has
made any payments or is obligated to make any
payments that are not or would not be deductible
under Section 162(m) of the Code.

667
(r) Rulings. The Company has made available
to the Parent or its counsel copies of all rulings (if any)
issued to the Company by any Taxation Authority, and
copies of all outstanding requests for rulings that have
been submitted by the Company to any Taxation
Authority.
(s) Divisive Transactions. Neither the Company nor any Subsidiary has ever been either a
“distributing corporation” or a “controlled corporation”
in connection with a distribution of stock qualifying for
tax-free treatment, in whole or in part, pursuant to
Section 355 of the Code.
(t) Operations Outside the United States.
Neither the Company nor any of its Subsidiaries is
subject to Tax in any jurisdiction in which it does not
file Tax Returns.
3.25 Employees. The Company has no collective
bargaining agreements with any of its employees.
There is no labor union organizing activity pending or,
to the Company’s knowledge, threatened with respect
to the Company or any of its Subsidiaries. To the
Company’s knowledge, no employee of the Company or
its Subsidiaries, nor any consultant with whom the
Company or any of its Subsidiaries has contracted, is
in violation of any term of any employment contract,
proprietary information agreement or any other
agreement relating to the right of any such individual
to be employed by, or to contract with, the Company
and its Subsidiaries because of the nature of the
business to be conducted by the Company; and to the
Company’s knowledge, the continued employment by
the Company and its Subsidiaries of its present
employees, and the performance of the Company’s
contracts with its independent contractors, will not
result in any such violation. Neither the Company nor

668
any of its Subsidiaries has received any notice alleging
that any such violation has occurred. No employee of
the Company or any of its Subsidiaries has been
granted the right to continued employment by the
Company.
3.26 Obligations of Management. To the
knowledge of the Company, each officer of the Company and its Subsidiaries is currently devoting one
hundred percent (100%) of his or her business time to
the conduct of the business of the Company. To the
knowledge of the Company, no officer of the Company
or any of its Subsidiaries is planning to work less than
full time at the Company or any of its Subsidiaries in
the future.
3.27 Title to Properties and Assets; Liens, Etc.
The Company and each of its Subsidiaries has good
and valid title to all of its properties and assets,
including the properties and assets reflected in the
most recent balance sheet included in the Financial
Statements, and good title to its leasehold estates, in
each case subject to no mortgage, pledge, lien, lease,
encumbrance or charge, other than (a) those resulting
from Taxes which have not yet become delinquent, (b)
minor liens and encumbrances not materially impair
the operations of the Company, and (c) those that have
otherwise arisen in the ordinary course of business. All
facilities, machinery, equipment, fixtures, vehicles
and other properties owned, leased or used by the
Company and its Subsidiaries are reasonably fit and
usable for the purposes for which they are being used.

669
ARTICLE 4
REPRESENTATIONS AND WARRANTIES
OF PARENT AND MERGER SUB
Parent and Merger Sub, jointly and severally,
hereby represent and warrant to the Company as of
the Agreement Date, and as of the Closing Date, as
follows, subject in each case to such exceptions as are
specifically contemplated by this Agreement:
4.1 Organization, Good Standing and Qualification. Parent is a corporation duly organized, validly
existing and in good standing under the laws of the
State of Delaware. Merger Sub is a corporation duly
organized, validly existing and in good standing under
the laws of the State of California. Each of Parent and
Merger Sub has all requisite corporate power and
authority to own and operate its properties and assets,
to execute and deliver this Agreement, to carry out the
provisions of this Agreement and the Escrow
Agreement and to perform its obligations under, and
carry out the provisions of, this Agreement and the
Escrow Agreement, and to carry on its principal
business as presently conducted and as presently
proposed to be conducted. Parent is duly qualified to
transact business and is in good standing in each
jurisdiction where such qualification is required and
in which failure to so qualify would result in or could
be reasonably expected to result in a Material Adverse
Effect on Parent.
4.2 Authorization; Binding Obligations; Governmental Consents.
(a) All corporate actions on the part of Parent
and Merger Sub, and their respective officers, directors and shareholders necessary for the authorization
of this Agreement and the Escrow Agreement and the

670
performance of all obligations of Parent and Merger
Sub hereunder and thereunder have been taken. This
Agreement is and, once executed and delivered by
Parent in accordance with the terms hereof, the
Escrow Agreement will be, the valid and binding
obligations of Parent and Merger Sub, enforceable
against such parties in accordance with their respective terms, except as such enforcement may be limited
by (i) the effect of bankruptcy, insolvency, reorganization, receivership, conservatorship, arrangement,
moratorium or other laws affecting or relating to the
rights of creditors generally, or (ii) the rules governing
the availability of specific performance, injunctive
relief or other equitable remedies and general
principles of equity, regardless of whether considered
in a proceeding in law or equity.
(b) No consent, approval, order or authorization of, or registration, qualification, designation,
declaration or filing with, any federal, state or local
governmental authority on the part of Parent or
Merger Sub is required in connection with the
consummation by Parent or Merger Sub of the
transactions contemplated by this Agreement and the
Escrow Agreement except for (i) the filing of the
Merger Document with the California Secretary of
State; (ii) such filings as may be required under the
HSR Act or any applicable state or foreign antitrust,
competition, anti-takeover and similar laws; and (iii)
such other consents, authorizations, filings, approvals
and registrations which, if not obtained or made,
would not result in and could not be reasonably
expected to result in a Material Adverse Effect on
Parent and would not prevent, or materially alter or
delay any of the transactions contemplated by this
Agreement.

671
4.3 Compliance with Other Instruments. The
execution, delivery and performance of this Agreement
by Parent and Merger Sub and the execution, delivery
and performance of the Escrow Agreement by Parent
will not (a) violate the charter documents or bylaws
of Parent or Merger Sub, (b) breach or result in a
violation of any law applicable to Parent or Merger
Sub or the transactions contemplated by this Agreement or the Escrow Agreement, or (c) constitute a
material breach of the terms, conditions, provisions
of, or constitute a default under, any judgment, order,
or decree of any court or arbitrator to which Parent or
Merger Sub is a party or any material contract of
Parent.
4.4 Brokers. Parent and Merger Sub have not
incurred, nor will they incur, any liability for
brokerage or finders’ fees or agents’ commissions or
investment bankers’ fees or any similar charges in
connection with this Agreement or the consummation
of the transactions contemplated hereby, other than
investment bankers’ fees payable to Morgan Stanley.
4.5 Financing. Attached as Schedule 4.5 is a true
and correct copy of a written commitment letter from
Morgan Stanley, dated February 27, 2004 (the “MS
Commitment Letter”). The terms set forth in the MS
Commitment Letter are satisfactory in all material
respects to Parent, subject to the execution of a credit
agreement with Morgan Stanley (the “MS Credit
Agreement”). Upon consummation of the Debt Financing contemplated by Section 6.13, Parent will possess
cash sufficient to pay the respective portions of the
Closing Payment Amount it is required to pay at the
Closing in accordance with the terms of this
Agreement.

672
ARTICLE 5
CONDUCT OF BUSINESS PENDING THE
MERGER AND RELATED COVENANTS
5.1 Conduct of Business of the Company. Except
as expressly contemplated by this Agreement and
except to the extent Parent shall otherwise consent in
writing, the Company covenants and agrees that,
during the period beginning on the Agreement Date
and ending on the earlier of the termination of this
Agreement or the Effective Time, (i) the business of
the Company shall be conducted only in, and the
Company shall not take any action except in the
ordinary course of business and in a manner
consistent with past practice or as otherwise expressly
contemplated by this Agreement; (ii) the Company
shall use its best efforts to preserve intact its business
organization, (iii) the Company shall use commercially
reasonable efforts to keep available the services of the
current employees of and consultants to the Company;
and (iv) the Company shall use commercially reasonable efforts to preserve the current relationships of the
Company with customers, suppliers and other persons
with which the Company has significant business
relations. Except as expressly contemplated by this
Agreement, and without limiting the foregoing, the
Company shall not, directly or indirectly do, or propose
to do, any of the following without the written consent
of the Parent, with it being understood that each of
such clauses below shall constitute an independent
obligation of the Company, not qualified by any other
such clause, and shall be deemed to be cumulative:
(a) Charter Documents. Cause or permit any
amendments to its Restated Articles or bylaws;
(b) Dividends; Repurchases; Changes in
Capital Stock. Except as otherwise specifically con-

673
templated in this Agreement, (i) declare or pay any
dividends on, or make any other distributions
(whether in cash, stock or property) in respect of, any
of its capital stock, (ii) issue or authorize the issuance
of any other securities in respect of, in lieu of or in
substitution for shares of its capital stock, or (iii)
repurchase or otherwise acquire, directly or indirectly,
any shares of its capital stock (other than pursuant to
repurchase rights of the Company that permit the
Company to repurchase securities from the holders
thereof at the original purchase price therefor in
connection with the termination of services of such
holder as an employee of or consultant to the
Company);
(c) Stock Option Plans, Warrants, Etc. Accelerate, except with respect to grants already outstanding pursuant to the existing terms thereof or as
expressly permitted by the Company Option Plan,
amend or change the period of exercisability or vesting
of options or other rights granted under the Company
Option Plan, establish any new or additional stock
option plan, amend the Company Option Plan other
than to increase the number of shares reserved for
issuance thereunder, or grant any options, warrants
or other rights to acquire shares of Company Common
Stock or Company Preferred Stock, other than options
granted under the Company Option Plan;
(d) Material Contracts. Enter into any material contract or commitment, or violate, amend or
otherwise modify or waive any of the terms of any
agreements, understandings, instruments or contracts which are material to the business of the
Company as presently conducted and as the Company
currently proposes it be conducted other than (i)
contracts that are entered into in the ordinary course

674
of business, or (ii) contracts which are terminable by
the Company upon less than sixty (60) days’ notice
without penalty or surviving obligations. Any material
contract or commitment entered into, or extended, by
the Company after the Agreement Date shall provide
that the consummation of the transactions contemplated by this Agreement shall not result in a breach
or violation of such contract or otherwise require the
payment of any fees or expenses in connection
therewith, or give the other party the right to
accelerate any obligations of the Company thereunder
or to cause the termination of such contract.
(e) Issuance of Securities. Issue, deliver or sell
or authorize or propose the issuance, delivery or sale
of, or purchase or propose the purchase of, any shares
of its capital stock or securities or other instruments
(including notes or other evidences of Indebtedness)
convertible into, or subscriptions, rights, warrants or
options to acquire, or other agreements or commitments of any character obligating it to issue any such
shares or other convertible instruments or securities,
other than (i) shares of Company Common Stock
issuable upon exercise of Company Options that are
outstanding under the Company Option Plan, (ii)
Company Options, or (iii) shares of Company Common
Stock or Company Preferred Stock issuable upon
exercise or conversion of the derivative securities
listed in Section 3.2 of the Company Disclosure
Schedule.
(f)

Intellectual Property.

(i) Sell, license, assign or transfer any
Intellectual Property of the Company to any other
person other than the Parent, or encumber any Intellectual Property of the Company;

675
(ii) License, or otherwise acquire, any
Intellectual Property not owned by the Company or
the Parent from any third party on terms requiring
any royalty payments or imposing other obligations on
the Company; or
(iii) Cease to prosecute any current patent
applications or other material Intellectual Property or
fail to pay any patent or other Intellectual Property
maintenance fees;
(g) Marketing or Other Rights. Except as set
forth on Schedule 5.1(g) hereto, enter into or amend
any agreement pursuant to which any other party is
granted manufacturing, marketing or other development or distribution rights of any type or scope with
respect to any of the Company’s products or technology, or enter into any agreement that would limit the
ability of any of the Surviving Corporation, the Parent
or any Affiliate of the Parent to operate in a specific
area of business or specific geographic area after the
closing of the Merger.
(h) Dispositions; Obligations. Except for the
sale of the Company’s inventory in the ordinary course
of business, sell, lease, license or otherwise dispose of
or encumber any of its properties or assets which are
material, individually or in the aggregate, taken as a
whole, or, except for the incurrence of obligations in
the ordinary course of business consistent with past
practice, otherwise incur material obligations that
would become obligations of the Parent upon the
consummation of the Merger;
(i) Indebtedness. Incur any Indebtedness for
borrowed money or guarantee any such Indebtedness
or issue or sell any debt securities or guarantee any
debt securities of others;

676
(j) Insurance. Materially reduce the amount of
any material insurance coverage provided by existing
insurance policies;
(k) Termination or Waiver. Terminate or
waive any right of substantial value, other than in the
ordinary course of business;
(l)
Employee Benefit Plans; New Hires; Pay
Increases. Except as set forth in Schedule 5.1(1), adopt
or amend any employee benefit, pay or commit to pay
any special bonuses or special remuneration to any
employee or director, or, increase the salaries, bonuses
or wage rates of its employees, except for increases in
the ordinary course of business pursuant to periodic
evaluations of employees;
(m) Severance Arrangements. Except as set
forth in Schedule 5.1(m) or as otherwise explicitly
contemplated by this Agreement, adopt or approve any
severance, bonus or benefit acceleration arrangements
(whether individually or more broadly) that could be
triggered after the Agreement Date, including but not
limited to after consummation of the Merger;
(n) Lawsuits. Commence a lawsuit other than
(i) for the routine collection of bills, (ii) in such cases
where it in good faith determines that failure to commence suit would result in the material impairment of
a valuable aspect of its business, provided, that it
consults with the Parent prior to the filing of such a
suit, or (iii) with respect to this Agreement;
(o) Acquisitions. Acquire or agree to acquire by
merging or consolidating with, or by purchasing a
substantial portion of the assets of, or by any other
manner, any business or any corporation, partnership,
association or other business organization or division
thereof which are material, individually or in the

677
aggregate, to the Company’s business, taken as a
whole;
(p) Taxes. Make or change any material
election in respect of Taxes, adopt or request permission of any Taxation Authority to change any
accounting method in respect of Taxes, enter into any
closing agreement in respect of Taxes, settle any claim
or assessment in respect of Taxes, surrender or allow
to expire any right to claim a refund of Taxes, consent
to any extension or waiver of the limitation period
applicable to any claim or assessment in respect of
Taxes, or take (or permit any Subsidiary to take) any
such actions with respect to any Subsidiary;
(q) Notices. Fail to give any notices and other
information required to be given to the employees of
the Company, any collective bargaining unit representing any group of employees of the Company, or
any applicable government authority for actions to be
taken by the Company before the Closing Date under
the Worker Adjustment and Retraining Act (the
WARN Act), the National Labor Relations Act, the
Code, the Consolidated Omnibus Reconciliation Act
(COBRA), or other applicable law in connection with
the transactions provided for in this Agreement;
(r) Other Transactions. Merge or consolidate
with any entity other than the Parent, Merger Sub or
an Affiliate of the Parent, or liquidate, dissolve or
effect a recapitalization or reorganization in any form
of transaction;
(s) Confidentiality Agreements. Hire, any
employee or consultant having access to confidential
or proprietary information of the Company unless
such employee or consultant enters into, or has
entered into, a proprietary information and inventions

678
agreement with the Company in the form of Exhibit C
attached hereto or containing substantially similar
confidentiality and assignment of inventions provisions, or amend or otherwise modify, or grant a waiver
under, any such confidentiality or proprietary information agreement with any such person;
(t) Related Party Transactions. Enter into any
transaction with any director, officer, employee, significant shareholder or family member of or consultant to
any such person, corporation or other entity of which
any such person beneficially owns 10% or more of the
equity interests or has 10% or more of the voting
power, or Subsidiary or Affiliate of the Company,
except as approved by a majority of the disinterested
directors of the Company Board on terms and conditions which are fair and reasonable to the Company
and no less favorable to the Company as could be
obtained from a third party on an arms-length basis;
(u) Principal Business. Materially participate
in any business other than the Principal Business;
(v) Accounting; Accounts Receivable and
Accounts Payable. Make any change in any method of
accounting or accounting practice or policy other than
those required by GAAP, or make any change in the
Company’s practices or procedures relating to collections and accounts payable or adopt any other material changes in their business policies and procedures,
or manage the accounts payable of the Company other
than in accordance with the Company’s past practices;
(w) Other Activities. Knowingly engage in any
other activity which could reasonably be expected to
impair the ability of the Parent, the Merger Sub or the
Company to consummate the Merger;

679
(x) Subsidiaries. Permit any Subsidiary of the
Company to take any action from which the Company
would be prohibited pursuant to this Section; or
(y) General. Authorize, commit to, agree to
take, or permit to occur any of the foregoing actions.
5.2 Payment of Taxes, Etc. The Company shall,
and shall cause each of its Subsidiaries to, timely file
all of its material Tax Returns as they become due
(taking all timely filed proper extension requests into
account), all such Tax Returns to be true, correct and
complete, and the Company shall, and shall cause
each of its Subsidiaries to, timely pay and discharge as
they become due and payable all material Taxes (other
than Taxes contested in good faith by the Company or
its Subsidiaries in appropriate proceedings), assessments and other governmental charges and levies
imposed upon it or its income or any of its property
that, if unpaid, may by law become a lien or charge
upon its properties.
ARTICLE 6
ADDITIONAL AGREEMENTS
6.1 Notices; Consents; Filings. From and after the
Agreement Date, the Company shall use its best
efforts, at the Company’s expense, to obtain the consents described in Section 3.23 of the Company
Disclosure Schedule; provided, however that, without
limiting the rights of Parent and Merger Sub under
Section 7.2(h), the Company shall not be required to
pay cash in exchange for such consents except to the
extent required or contemplated by the terms of any
agreement which requires such a consent. In the event
that the Company shall fail to obtain any third party
consent necessary for the consummation of the transactions contemplated hereby, the Shareholder Repre-

680
sentative shall use commercially reasonable efforts,
and take any such actions reasonably requested by
Parent, to minimize any adverse effect upon the
Company, the Surviving Corporation and Parent,
their respective Subsidiaries, and their respective
businesses resulting, or which could reasonably be
expected to result after the Effective Time, from the
failure to obtain such consent.
6.2 HSR Act. In the event that Parent, the
Company or any shareholder of Parent or the Company reasonably determines that it is required to
make pre-merger notification filings (an “Antitrust
Filing”) under the Hart-Scott-Rodino Antitrust
Improvements Act of 1976, as amended (the “HSR
Act”), and any corresponding law or regulation of any
foreign Governmental Authority (a “Foreign Antitrust
Filing”) with respect to the Merger and the other
transactions contemplated hereby such party shall
promptly notify each other party of such requirement
and thereafter each of the parties will:
(a) as promptly as is practicable, make its
required filings under the HSR Act or any laws mandating a Foreign Antitrust Filing and in connection
therewith seek early termination of any applicable
waiting periods thereunder;
(b) as promptly as is practicable after receiving any governmental request under the HSR Act or
any corresponding law or regulation of any foreign
Governmental Authority for additional information,
documents, or other materials, use its commercially
reasonable best efforts to comply with such request;
(c) cooperate with the other in connection with
resolving any governmental inquiry or investigation,
whether domestic or foreign, relating to their respec-

681
tive HSR Act filings, Foreign Antitrust Filings, the
Merger or any related inquiry or investigation;
(d) promptly inform the other of any communication with, and any proposed understanding,
agreement, or undertaking with any governmental
entity, whether domestic or foreign, relating to their
respective HSR Act filings, Foreign Antitrust Filings,
the Merger or any related inquiry or investigation;
(e) to the extent reasonably practicable, give
the other reasonable advance notice of, and the
opportunity to participate in (directly or through its
representatives), any meeting or conference with any
governmental entity, whether domestic or foreign,
relating to their respective HSR Act filings, Foreign
Antitrust Filings, the Merger or any related inquiry or
investigation to the extent allowed by law; and
(f) pay any filing fees required to be paid in
connection with such filings, if any, under the HSR Act
or in connection with any Foreign Antitrust Filings.
6.3 Further Assurances.
(a) Following the Agreement Date, each of
Parent and the Company will:
(i) use its best efforts to take, or cause to be
taken, all appropriate action, and to do, or cause to be
done, all things necessary, proper or advisable, including such actions as may be necessary, proper or
advisable under applicable laws and regulations, to
consummate and make effective the Merger and the
transactions contemplated hereby, including using its
commercially reasonable best efforts to obtain all
permits, consents, approvals, authorizations, qualifications and orders of governmental authorities as are
necessary for the consummation of the Merger and the

682
other transactions contemplated hereby and to fulfill
the conditions set forth in Article 7; and
(ii) cooperate and use its best efforts to
vigorously contest and resist any action, including
administrative or judicial action, and to have vacated,
lifted, reversed or overturned any decree, judgment,
injunction or other order (whether temporary, preliminary or permanent) that is in effect and that restricts,
prevents or prohibits consummation of the Merger and
the other transactions contemplated hereby, including
by vigorously pursuing all available avenues of
administrative and judicial appeal.
(b) In case, at any time after the Effective
Time, any further action is necessary or desirable to
carry out the purposes of this Agreement, the proper
officers and directors of each party to this Agreement
shall use their commercially reasonable best efforts to
take all such action.
(c) Notwithstanding the terms of Sections 6.2
or 6.3(a), nothing in the Agreement, shall require or be
construed to require any party hereto, in order to
obtain the consent or successful termination of any
review of any Governmental Authority regarding the
transactions contemplated hereby, to (i) sell or hold
separate, or agree to sell or hold separate, before or
after the Effective Time, any material assets, businesses or any interests in any assets or businesses, of
Parent, the Company or any of their respective affiliates (or to consent to any sale, or agreement to sell, by
Parent or the Company, of any assets or businesses, or
any interests in any assets or businesses), or any
change in or restriction on the operation by Parent or
the Company of any assets or businesses, or (ii) enter
into any agreement or be bound by any obligation that,
in Parent’s good faith exercise of reasonable business

683
judgment, may have a material adverse effect on the
benefits to Parent of the transactions contemplated by
this Agreement. In the event that any party hereto
shall be required, in order to obtain the consent or
successful termination of any review under the HSR
Act regarding the transactions contemplated hereby,
to take any of the actions set forth in part (i) or (ii) of
the preceding sentence or if such consent or successful
termination has not been obtained within 90 days
following the initial pre-merger notification filings of
the Parent and the Company with respect to the
transactions contemplated hereby have been made
under the HSR Act with the U.S. Department of
Justice and Federal Trade Commission (the “HSR
Filing Date”), Parent shall have the right to abandon
its efforts to obtain approval under the HSR Act of the
transactions contemplated hereby, notwithstanding
Section 6.2 or 6.3(a). In the event that consent or
successful termination under the HSR Act regarding
the transactions contemplated hereby has not been
obtained within 120 days following the HSR Filing
Date, the Company shall have the right to abandon its
efforts to obtain approval under the HSR Act of the
transactions contemplated hereby, notwithstanding
Section 6.2 or 6.3(a). If the Parent or Company so
elects to abandon its efforts to seek such approval
pursuant to one of the preceding two sentences, it shall
promptly give notice of such abandonment to the other
party.
6.4 Shareholder Approval. As soon as practicable
following the Agreement Date, the Company will
promptly solicit the approval by written consent of the
execution and delivery by the Company of this
Agreement, and the consummation of the transactions
contemplated hereby, by Company Shareholders
holding the requisite number of shares of each class of

684
the Company’s capital stock required to approve the
execution and delivery of this Agreement and the
consummation of the transactions contemplated hereby (the “Shareholder Approval”). Such solicitation
shall be in the form of a proxy statement in a form to
be mutually agreed upon by the Parent and the
Company. The Company shall take all other action
necessary or advisable to secure the vote or consent of
shareholders required by California Law, if applicable,
to obtain such approval.
6.5 Notice of Developments. Parent, on the one
hand, and the Company, on the other hand, shall use
reasonable efforts to give prompt written notice to the
other party of any material development causing a
breach of any of its own representations and
warranties in this Agreement.
6.6 Exclusivity.
(a) From and after the Agreement Date until
the Effective Time or termination of this Agreement
pursuant to Article 8, the Company will not, nor will
it authorize or permit any of its officers, directors,
affiliates or employees or any investment banker,
attorney or other advisor or representative retained
by it to, directly or indirectly, (i) solicit, initiate or
induce the making, submission or announcement of
any Acquisition Proposal, (ii) participate in any discussions or negotiations regarding, or furnish to any
person any non-public information with respect to, or
take any other action to facilitate any inquiries or the
making of any proposal that constitutes or may
reasonably be expected to lead to, any Acquisition
Proposal, (iii) engage in discussions with any person
with respect to any Acquisition Proposal, except as to
disclose the existence of these provisions, (iv) endorse
or recommend any Acquisition Proposal, or (v) enter

685
into any letter of intent or similar document or any
contract, agreement or commitment contemplating or
otherwise relating to any Acquisition Proposal. The
Company and its Subsidiaries will, and will cause
their respective officers, directors, affiliates, employees, investment bankers, attorneys and other advisors
and representatives to, immediately cease any and all
existing activities, discussions or negotiations with
any parties conducted heretofore with respect to any
Acquisition Proposal. Without limiting the foregoing,
it is understood that any violation of the restrictions
set forth in the preceding two sentences by an officer
or director of the Company or any of its Subsidiaries
or any investment banker, attorney or other professional advisor of the Company or any of its
Subsidiaries shall be deemed to be a breach of this
Section 6.6 by the Company.
(b) In addition to the obligations of the Company set forth in Section 6.6(a), the Company as
promptly as practicable shall advise Parent in writing
of any Acquisition Proposal or of any request for
nonpublic information or other inquiry which the
Company reasonably believes could lead to an Acquisition Proposal, the material terms and conditions of
such Acquisition Proposal (to the extent known), and
the identity of the person or group making any such
request, inquiry or Acquisition Proposal. The Company agrees to keep Parent informed on a current
basis of the status and details (including any material
amendments or proposed amendments) of any such
request, inquiry or Acquisition Proposal.
6.7 Full Access. At all times from the Agreement
Date until the earlier of the Effective Time or termination of this Agreement in accordance with Article 8,
the Company will afford to Parent and its authorized

686
representatives, upon reasonable notice, full access
during normal business hours to all properties, books,
records, contracts and documents of the Company as
Parent and such authorized representatives may reasonably request and a complete opportunity to make
such investigations as Parent and such authorized
representatives reasonably request, and the Company
will furnish or cause to be furnished to Parent and its
authorized representatives all such information with
respect to the affairs and businesses of the Company
as they may reasonably request to the extent allowed
by law. All information obtained by Parent pursuant
to this Section 6.7 shall be kept confidential in
accordance with the Mutual Non-Disclosure Agreement, dated May 15, 2003 (the “Confidentiality
Agreement”), between Parent and the Company. No
investigation pursuant to this Section 6.7 shall affect
any representation or warranty in this Agreement of
any party hereto or any condition to the obligations of
the parties hereto or thereto.
6.8 Certain Tax Matters. If the Company is
obligated to make any payments, or is a party to any
agreement that under certain circumstances could
obligate it to make any payments, that will not be
deductible under Section 280G of the Code if the
shareholder approval requirements of Section
280G(b)(5)(B) are not satisfied and if that shareholder
approval has not already been obtained, Parent
agrees that it shall cooperate and assist the Company
in obtaining the requisite shareholder approval
described in Section 280G(b)(5)(B) of the Code, and
the Company agrees that it shall use commercially
reasonably efforts to obtain such shareholder approval
promptly after the Agreement Date and in any event
prior to the date on which the transactions contemplated by this Agreement are consummated.

687
6.9 Public Announcements. Prior to the closing of
the Merger, the Parent shall not, without having
previously informed the Company about the form,
content and timing of any such announcement, issue
any press release or otherwise make any public
statements with respect to this Agreement or the
transactions contemplated hereby, except as may be
required by (a) law, (b) the SEC, (c) the Securities Act
or the Exchange Act, or (d) any listing agreement with
the Nasdaq National Stock Market, the National
Association of Securities Dealers, Inc. or any national
securities exchange to which the Parent is subject.
Nothing herein express or implied shall require the
Parent to consult with the Company following the
closing of the Merger. The Company and the Company
Shareholders shall not, without the prior written
consent of the Parent, issue any press release or
otherwise make any public statements with respect to
this Agreement or the transactions contemplated
hereby at any time.
6.10 Benefit Plans.
(a) Following the Effective Time, Parent shall
arrange for each participant in the Company Benefit
Plans (the “Company Participants”) (including without limitation all dependents) who becomes a Parent
employee (or an employee of any Parent subsidiary or
Affiliate) after the Effective Time to be eligible for
the same benefits in the aggregate as those received
by Parent employees with similar positions and
responsibilities, provided, that nothing in this Section
6.10(a) shall be deemed to require Parent to offer any
particular Company Participants any particular
benefit. Each Company Participant shall, to the
extent permitted by law, applicable tax qualification
requirements and the existing terms of the applicable

688
employee benefit plans, and subject to any applicable
break in service or similar rule, receive credit for all
purposes including, without limitation, for eligibility
to participate, matching contributions, and vesting
under Parent employee benefit plans for years of
service with the Company (and its Subsidiaries and
predecessors) prior to the Effective Time. If applicable
and permitted by the relevant plan, Parent shall cause
any and all pre-existing condition (or actively at
work or similar) limitations, eligibility waiting periods
and evidence of insurability requirements under any
Parent employee benefit plans to be waived with
respect to such Company Participants and their
eligible dependents and shall provide them with
credit for any co-payments, deductibles, and offsets
(or similar payments) made during the plan year
including the Effective Time for the purposes of
satisfying any applicable deductible, out-of-pocket, or
similar requirements under any Parent employee
benefit plans in which they are eligible to participate
after the Effective Time.
(b) Parent agrees that, from and after the
Effective Time, the Company employees who become
employees of Parent or any of its Subsidiaries or
Affiliates may participate in the employee stock
purchase plan sponsored by Parent (the “Parent
ESPP”), subject to the terms and conditions of the
Parent ESPP, and that service with the Company
shall be treated as service with Parent or its Subsidiaries for determining eligibility of the Company’s
employees under the Parent ESPP.
6.11 Non-Competition Agreements. The Company shall use commercially reasonable best efforts
to cause each of the Company’s executive officers
specified in Schedule 6.11 to execute and deliver a non-

689
competition agreement with Parent in the form
attached hereto as Exhibit D-1.
6.12 Employment Agreements. The Company
and Parent shall use commercially reasonable best
efforts to cause the persons specified on Schedule 6.12
to enter into employment agreements in substantially
the form attached hereto as Exhibit D-2. The principal
terms of each such employment agreement shall be as
specified on Schedule 6.12.
6.13 Debt Financing. Parent shall use its commercially reasonable best efforts to (i) negotiate,
execute and deliver the MS Credit Agreement and all
ancillary agreements thereto with Morgan Stanley
containing terms substantially as set forth in the MS
Commitment Letter and (ii) satisfy, or obtain a waiver
of, all conditions applicable to Parent and within
Parent’s reasonable control in the MS Credit Agreement. Parent will keep the Company reasonably
informed on a regular ongoing basis of the status
of Parent’s efforts to borrow an amount of funds at
least equal to $250,000,000 pursuant to the MS Credit
Agreement or otherwise (the “Debt Financing”).
Notwithstanding the foregoing, nothing herein shall
be interpreted to require Parent to seek to obtain the
Debt Financing on terms that differ in any material
respect from those set forth in the MS Commitment
Letter. The Company shall provide all cooperation and
assistance reasonably requested by Parent in connection with the Debt Financing.
6.14 Certain Antitrust Filings. Prior to the Closing Date or the termination of this Agreement
pursuant to Section 8, Parent shall not enter into any
agreement that would require Parent to file an
Antitrust Filing under the HSR Act with respect any
transaction contemplated by such agreement if such

690
Antitrust Filing would reasonably be expected to
result in a material delay in the approval of or in the
termination of any applicable waiting period for any
Antitrust Filing filed with respect to the Merger and
the other transactions contemplated by this
Agreement.
6.15 Tail Insurance Coverage. The Company
shall elect to purchase the “tail” or “extension” with a
duration of at least five years under the product
liability and general liability insurance policies in
effect as of the Agreement Date and listed in Section
3.19 of the Company Disclosure Schedule to the extent
permitted in accordance with the terms thereof.
ARTICLE 7
CONDITIONS TO THE MERGER
7.1 Conditions to the Obligations of Each Party.
The obligations of the Company, Parent and Merger
Sub to consummate the Merger are subject to the
satisfaction of each of the following conditions:
(a) no order, stay, decree, judgment or injunction shall have been entered, issued or enforced by any
court of competent jurisdiction which prohibits
consummation of the Merger, and there shall not be
any action taken by any Governmental Authority, or
any statute, rule, regulation or order enacted, entered,
enforced or deemed applicable to the Merger, which
makes the consummation of the Merger illegal or
substantially deprives Parent, the Company or the
Participating Rights Holders of any of the anticipated
benefits of the Merger or the related transactions,
taken as a whole;
(b) all actions by or in respect of or filings with
any Governmental Authority required to permit the
consummation of the Merger in accordance with the

691
terms hereof, including but not limited to the
expiration or early termination of the waiting period
under the HSR Act, shall have been obtained (other
than those actions or filings which, if not obtained or
made prior to the consummation of the Merger, would
not result in and could not be reasonably expected to
result in a Material Adverse Effect on the Company
prior to or after the Effective Time or a Material
Adverse Effect on Parent after the Effective Time or
be reasonably likely to subject the Company, Parent,
Merger Sub, or any of their respective Subsidiaries or
any of their respective officers or directors to substantial penalties or criminal liability); and
(c) the Shareholder Approval shall have been
obtained.
7.2 Conditions to the Obligations of Parent and
Merger Sub. The obligations of Parent and Merger Sub
to consummate the Merger are subject to the
satisfaction of the following further conditions (any
one of which may be waived in whole or part by Parent
in its sole discretion by giving written notice to the
Company in compliance with Section 10.1 hereof):
(a) (i) the Company shall have performed all of
its material obligations hereunder required to be
performed by it at or prior to the Effective Time; and
(ii) Parent shall have received a certificate dated as of
the Closing Date and signed by the Company’s
President or Chief Executive Officer, certifying to the
foregoing effect;
(b) (i) each of the representations and warranties of the Company contained in this Agreement
shall have been true and correct (without regard to
any qualifications to such representations and
warranties as to materiality, Material Adverse Effect

692
of similar expressions) at the time originally made (as
qualified by the Company Disclosure Schedule) and
the representations and warranties made as of the
Agreement Date shall be true and correct as of the
Effective Time (as qualified by the Company Disclosure Schedule delivered on the Agreement Date),
except for breaches of such representations and warranties that, individually or in the aggregate, would
not and could not reasonably be expected to result in a
Material Adverse Effect; and (ii) the Company shall
deliver to Parent at the Closing a certificate, dated as
of the date of the Closing and signed by the Company’s
President or Chief Executive Officer, certifying to that
effect;
(c) no Material Adverse Effect with respect to
the Company shall have occurred or been discovered
by Parent since the Agreement Date;
(d) no injunction or other decree shall have
been issued by any court of competent jurisdiction
prohibiting the sale of the Company Products by the
Company or Parent on the basis of any rights held by
a third party (including without limitation any rights
of any third party in any. Intellectual Property);
(e) Wilson Sonsini Goodrich & Rosati will have
issued a legal opinion addressed to Parent in the form
attached hereto as Exhibit E;
(f) the Company shall have delivered a
properly executed statement, dated as of the Closing
Date, in a form reasonably acceptable to Parent
conforming to the requirements of Treasury Regulation Section 1.1445-2(c)(3);
(g) the Company shall have delivered to
Parent and Merger Sub a certificate that sets forth (i)
the information required to be set forth on Section 3.2

693
of the Company Disclosure Schedule, updated to
reflect capitalization as of immediately prior to the
Effective Time (giving effect to any conversion of
shares of Company Preferred Stock to Company
Common Stock that is made contingent upon the
Closing), (ii) the Fully-Diluted Common Stock Number
and the calculation thereof, and (iii) the aggregate
exercise price for all Company Options and Company
Warrants outstanding as of the Agreement Date (the
“Capitalization Certificate”), which Capitalization
Certificate shall be deemed to be representations and
warranties of the Company hereunder;
(h) the Company shall have obtained those
consents or approvals with respect to the consummation of the Merger of each person listed on Schedule
7.2(h);
(i) any and all rights, warrants, options or
other instruments or rights to purchase shares of
Company Common Stock or Company Preferred Stock
(other than Company Options and Company Warrants, which shall be converted into the right to
receive a portion of the Closing Payment Amount in
accordance with Section 2.1) outstanding immediately
prior to the Closing, whether or not exercisable,
whether or not vested, and whether or not performance based, shall have been exercised or terminated
(j) holders of no more than 5.0% of the aggregate outstanding Company Common Stock and Company Preferred Stock (calculated on an as-converted to
Company Common Stock basis) as of the Effective
Time shall have elected to, or continue to have
contingent rights to, exercise dissenters’, appraisal or
similar rights under California Law with respect to
such shares; and

694
(k) the Company shall have delivered a
certification to Parent, in form and substance (other
than with respect to any amounts set forth thereon)
satisfactory to Parent, setting forth the maximum
amount of fees and expenses that each professional
advisor engaged by the Company or its Board of
Directors in connection with this Agreement or the
Company’s efforts to consummate an initial public
offering of the Company Common Stock, consisting of
Piper Jaffray, Wilson Sonsini Goodrich & Rosati and
Ernst & Young, will charge with respect to the transactions contemplated hereby or the Company’s efforts
to consummate an initial public offering of the Company Common Stock (regardless of whether or not
such fees and expenses have been billed to, or collected
from, the Company) (each a “Transaction Cost
Certificate”), and Parent shall have received such
written assurances with respect to such amounts from
Piper Jaffray and Wilson Sonsini Goodrich & Rosati as
it shall reasonably request; and
(l) each holder of Company Warrants shall
have executed and delivered a amendment, in form
and substance reasonably satisfactory to Parent, to
the Company Warrants held by such holder acknowledging such holder will receive the portion of the
Closing Payment Amount calculated pursuant Section
2.1(c)(ii) in exchange for such Company Warrants; or,
alternatively, for any holders who have not delivered
such amendment, the Company Warrants held by
such holders shall terminate no later than the Effective Time.
7.3 Conditions to the Obligations of the Company.
The obligations of the Company to consummate the
Merger are subject to the satisfaction of the following

695
further conditions (any one of which may be waived in
whole or part by the Company):
(a) (i) Parent and Merger Sub shall have
performed all of their respective material obligations
hereunder required to be performed by them at or
prior to the Effective Time; and (ii) the Company shall
have received a certificate from each of Parent and
Merger Sub, each signed by an executive officer of
Parent or Merger Sub, as appropriate, to the foregoing
effect;
(b) (i) each of the representations and warranties of the Parent and the Merger Sub contained in this
Agreement shall have been true and correct at the
time originally made (as qualified by the Parent
Disclosure Schedule) and the representations and
warranties made as of the Agreement Date shall be
true and correct as of the Effective Time (as qualified
by the Parent Disclosure Schedule delivered on the
Agreement Date), except for breaches of such representations and warranties that, individually or in the
aggregate, would not and could not reasonably be
expected to result in a Material Adverse Effect; and (ii)
the Company shall have received a certificate from
each of Parent and Merger Sub, each signed by an
executive officer of Parent or Merger Sub, as
appropriate, certifying to that effect;
(c) no Material Adverse Effect with respect to
the Parent shall have occurred or been discovered by
Company since the Agreement Date which could
reasonably be expected to result in the Parent being
unable to consummate the Merger in accordance with
the terms hereof on or before the Final Termination
Date; and

696
(d) Bingham McCutchen LLP will have issued
a legal opinion in the form attached hereto as Exhibit
F.
ARTICLE 8
TERMINATION.
8.1 Termination. This Agreement may be terminated and the Merger may be abandoned at any time
prior to the Effective Time, notwithstanding any requisite approval and adoption of this Agreement and
the transactions contemplated hereby by the Company
Shareholders:
(a) by duly authorized mutual written consent
executed by each of Parent, Merger Sub and the
Company;
(b) by the Company if the Parent has not
consummated the Debt Financing, or otherwise
obtained cash in an amount sufficient to pay the
aggregate amount payable in respect of the Merger at
the Closing, on or before the later of the 30th day
following the Agreement Date or the fifth (5th) business day following the date on which the conditions
under Sections 7.1 and 7.2(a)(i), (b)(i), (c), (d), (h) and
(j) have been satisfied and the Company has certified
to the Parent that it could, as of such date, deliver
each certificate or other document required from the
Company by Sections 7.2(a)(ii), (b)(ii), (f), (g) and (k)
(or in the case of Section 7.2(e), that Wilson Sonsini
Goodrich & Rosati could deliver the document
required by such section) (the “Company Financing
Termination Date”), provided, that the right to
terminate this Agreement under this Section 8.1(b)
shall not be available to the Company if it is not
exercised by the Company prior to the end of the day

697
on the fifth business day following the Financing
Termination Date.
(c) by Parent, if the Parent has not consummated the Debt Financing, or otherwise obtained
cash in an amount sufficient to pay the aggregate
amount payable in respect of the Merger at the
Closing, on or before the 30th day following the
Agreement Date (the “Parent Financing Termination
Date”), provided, that the right to terminate this
Agreement under this Section 8.1(b) shall not be
available to Parent unless the Debt Financing shall
not have been consummated prior to the Financing
Termination Date because Morgan Stanley shall have
elected not to enter into the MS Credit Agreement or
otherwise not consummate the Debt Financing as a
result of either of the events described in clauses (b),
(c) (as it relates to the Company only), and (d) of the
last paragraph of page 2 of the MS Commitment Letter
or any similar provision in the MS Credit Agreement.
(d) by Parent, or by the Company, if the
Effective Time shall not have occurred before the 90th
day following the Agreement Date (the “Final
Termination Date”); provided, however, that (i) in the
event that one or both of Parent and the Company (or
any shareholder thereof) are required or deem it
advisable to make an Antitrust Filing under the HSR
Act, or under similar foreign statutes or regulations,
or seek any other governmental approvals or
authorizations as may be reasonably necessary in
connection with the closing of the Merger, including
any filings or notifications as may be reasonably
necessary that are to be made under California Law,
the Final Termination Date shall be delayed, without
further action of the parties, until the tenth (10th)
business day after, with respect to each necessary

698
approval or authorization, (x) the date on which any
applicable waiting periods thereunder have expired
or been terminated so that such approval or authorization is no longer required or (y) the date on which
the necessary approval and authorization is received,
as applicable and (ii) the right to terminate this
Agreement under this Section 8.1(d) shall not be
available to Parent in the event that the failure of the
Effective Time to occur on or before such date arises
out of or is related to Parent’s failure to fulfill any
obligation under this Agreement and the right to
terminate this Agreement under this Section 8.1(d)
shall not be available to the Company in the event that
the failure of the Effective Time to occur on or before
such date arises out of or is related to the failure by
the Company to fulfill any obligation under this
Agreement;
(e) automatically if there shall be any law that
makes consummation of the Merger illegal or
otherwise prohibited or if any court of competent
jurisdiction or Governmental Authority shall have
issued an order, decree, ruling or taken any other
action restraining, enjoining or otherwise prohibiting
the Merger and such order, decree, ruling or other
action shall have become final and non-appealable;
(f) by Parent, by giving written notice to the
Company at any time prior to the Closing in the event
that the Company has given Parent any notice pursuant to Section 6.5 above, if the breach or breaches
described in such notice would, individually or in
the aggregate, render any condition to the Merger
contained in Sections 7.1 or 7.2 hereof impossible of
being satisfied;
(g) by the Company, by giving written notice
to Parent at any time prior to the Closing in the event

699
that Parent has given the Company any notice pursuant to Section 6.5 above, if the breach or breaches
described in such notice would, individually or in the
aggregate, render any condition to the Merger contained in Sections 7.1 or 7.3 hereof impossible of being
satisfied; or
(h) automatically, in the event that Parent or
Company delivers notice of abandonment of its efforts
under the HSR Act in accordance with Section 6.3(c).
8.2 Effect of Termination. Except as provided in
Section 8.1 hereof, in the event of the termination of
this Agreement pursuant to Section 8.1, this Agreement shall forthwith become void, there shall be no
liability under this Agreement on the part of Parent,
Merger Sub or the Company or any of their respective
officers, directors, or shareholders, and all rights and
obligations of any party hereto shall cease, except for
liabilities arising from a breach of this Agreement
prior to such termination.
ARTICLE 9
INDEMNIFICATION
9.1 Indemnification by Parent and the Surviving
Corporation.
(a) Subject to the limitations set forth in
Section 9.5 hereof, from and after the Effective Time,
Parent and the Surviving Corporation, jointly and
severally, will indemnify, defend and hold harmless
each of the Company Shareholders, the Participating
Rights Holders and each of their respective directors,
officers, employees, representatives and other Affiliates (each such Indemnified Person a “Rights Holder
Indemnitee”), from and against any and all Damages
related to or arising out of or in connection with any
breach by Parent or Merger Sub of any representation,

700
warranty, covenant, agreement, obligation, or undertaking made by Parent or Merger Sub in this Agreement (including any schedule or exhibit hereto), or any
other agreement, instrument, certificate or other document delivered by or on behalf of Parent or Merger Sub
in connection with this Agreement, the Merger, or any
of the other transactions contemplated hereby.
(b) At all times after the Effective Time, each
Company Shareholder and Participating Rights
Holder shall be entitled to rely as third-party beneficiaries on the mutual promises of Parent and Merger
Sub pursuant to this Agreement and the Escrow
Agreement.
9.2 Indemnification of Parent by Resort to
Escrow. Subject to the limitations set forth in Section
9.5 hereof, from and after the Effective Time, Parent,
the Surviving Corporation, and each of their respective directors, officers, employees, representatives and
other Affiliates (each such Indemnified Person a
“Parent Indemnitee”) shall be entitled to recover from
the Escrowed Funds any and all Damages suffered by
such Parent Indemnitee related to or arising out of or
in connection with:
(a) any breach by the Company of any
representation, warranty, covenant, agreement, obligation or undertaking made by such party in or pursuant to this Agreement, or any other agreement,
instrument, certificate or other document delivered
by or on behalf of the Company in connection with
this Agreement, the Merger, or any of the other
transactions contemplated hereby, including but not
limited to the Capitalization Certificate;
(b) any actual liability of the Company, the
Surviving Corporation or any of its Affiliates for death

701
or injury to person or property related to or arising
out of the complaints described in Schedule 9.2(b)
hereto only to the extent such Damages are not
covered by insurance obtained by the Company prior
to the Effective Time (collectively, “Product Liability
Claims”);
(c) any payments made by Parent, the Merger
Sub or the Surviving Corporation after the Effective
Time with respect to any Dissenting Shares to the
extent that such payments exceed the portion of the
Closing Payment Amount to which the holders of such
Dissenting Shares would have been entitled had such
Dissenting Shares not been Dissenting Shares, with
any claims made pursuant to this Section 9.2(c) being
referred to hereafter as the “Appraisal Claims”;
(d) any lawsuit filed before the first anniversary of the Closing Date asserting claims or allegations that the development, manufacture, marketing,
distribution or sale of the Company Products infringes
or violates any patent rights or patents of third parties
(collectively “Specified Intellectual Property Claims”);
or
(e) any amounts which the Parent is required
to pay in respect of fees, expenses and other costs
incurred in respect of professional advisors engaged by
the Company in connection with this Agreement and
the transactions contemplated hereby, or the
Company’s efforts to consummate an initial public
offering of the Company Common Stock (including any
fees and expenses of legal counsel, outside auditors
and financial advisors retained by the Company or its
Board of Directors); but only to the extent that such
costs and expenses exceed the aggregate total of the
maximum amounts specified in the Transaction Cost
Certificate (such aggregate total being the “Aggregate

702
Maximum Transaction Cost” and such claims collectively constituting the “Transaction Cost Claims”).
9.3 Third-Party Claims.
(a) In the event that any Rights Holder
Indemnitee desires to make a claim against an Indemnifying Party (which term shall be deemed to include
all Indemnifying Parties if more than one) or in the
event that any Parent Indemnitee desires to make a
claim against the Escrowed Funds in connection with
any third-party litigation, arbitration, action, suit,
proceeding, claim or demand at any time instituted
against or made upon it for which it may seek
indemnification hereunder (a “Third-Party Claim”),
the Indemnified Person will promptly notify the
Indemnification Control Person of such Third-Party
Claim and of its claims of indemnification with respect
thereto; provided, that failure to promptly give such
notice will not relieve the Indemnifying Party of its
indemnification obligations under this Section 9.3,
except to the extent, if any, that the person or persons
represented by the Indemnification Control Person
have actually been prejudiced thereby.
(b) The Indemnification Control Person will
have the right to assume the defense of the ThirdParty Claim with counsel of its choice reasonably
satisfactory to the Indemnified Person by written
notice to the Indemnified Person within twenty (20)
days after the Indemnification Control Person has
received notice of the Third-Party Claim; provided,
however, that the Indemnification Control Person
must conduct the defense of the Third-Party Claim
actively and diligently thereafter in order to preserve
the rights of the person or persons represented by the
Indemnification Control Person in this regard; and
provided, further, that the Indemnified Person may

703
retain separate co-counsel at its sole cost and expense
and participate in the defense of the Third-Party
Claim.
(c) The Indemnification Control Person will
not consent to the entry of any judgment or enter into
any settlement with respect to the Third-Party Claim
without the prior written consent of the Indemnified
Person (which consent will not be unreasonably
conditioned, withheld or delayed) unless the judgment
or proposed settlement (i) includes an unconditional
release of all liability of each Indemnified Person with
respect to such Third-Party Claim, and (ii) involves
only the payment of money damages that are fully
covered by the Indemnifying Party (or fully covered by
amounts paid pursuant to Section 9.4 by distribution
of amounts to Parent Indemnitees from Escrowed
Funds) and does not impose an injunction or other
equitable relief upon the Indemnified Person. So long
as the Indemnification Control Person has assumed
and is conducting the defense of the Third-Party
Claim in accordance with Section 9.3(b) above, the
Indemnified Person will not consent to the entry of any
judgment or enter into any settlement with respect to
the Third-Party Claim without the prior written
consent of the Indemnification Control Person (which
consent will not be unreasonably conditioned, withheld or delayed).
(d) In the event that the Indemnification
Control Person fails to assume the defense of the
Third-Party Claim in accordance with Section 9.3(b)
above, (i) the Indemnified Person may defend against,
and consent to the entry of any judgment or enter in
to any settlement with respect to, the Third-Party
Claim in any manner it reasonably may deem appropriate (and the Indemnified Person need not consult

704
with, or obtain any consent from, the Indemnification
Control Person in connection therewith), and (ii) the
Indemnifying Party will remain responsible (or, as
applicable, the Parent Indemnitee may claim and
recover from the Escrowed Funds) for any Damages
the Indemnified Person may suffer as a result of
such Third-Party Claim to the extent subject to
indemnification under this Article 9.
(e) Notwithstanding the foregoing, Parent and
the Surviving Corporation shall be responsible for the
prosecution and defense of any claims relating to the
Intellectual Property of the Company (collectively, the
“Parent-Handled Claims”). Parent and the Surviving
Corporation shall pursue in good faith, through
counsel of their selection, the prosecution or defense of
all Parent-Handled Claims until such time, if any, that
Parent shall elect not to pursue indemnification with
respect to such Third-Party Claim.
(f) Parent shall, to the extent that Parent and
the Surviving Corporation are entitled to indemnification for Damages pursuant to this Article 9 and it
could reasonably be expected that Parent may recover
a substantial portion of the Damages relating to such
Parent-Handled Claim pursuant to this Article 9, (i)
provide the Shareholder Representative with access to
appropriate employees of Parent and the Surviving
Corporation for the purpose of discussing matters
relating to Parent-Handled Claims as the Shareholder
Representative may from time to time reasonably
request, (ii) permit the Shareholder Representative,
upon its reasonable request, to participate in the
process of any settlement or other resolution of any
Parent-Handled Claims pursuant to this Article 9; and
(iii) secure the written consent of the Shareholder
Representative before settling any Parent-Handled

705
Claim (which consent shall not be unreasonably
withheld, delayed or conditioned).
9.4 Payment of Claims. In the event of any
bona fide claim for indemnification hereunder, the
Indemnified Person will advise the Indemnification
Control Person in writing, advising the Indemnification Control person of the amount of the claim and,
with reasonable specificity, the circumstances surrounding the claim. With respect to liquidated claims
for Damages, if within thirty (30) days the Indemnification Control Person has neither objected nor
contested to such claim in writing, the Indemnifying
Party will pay the full amount thereof (or in the case
of a claim by an Parent Indemnitee against the
Escrowed Funds, such Parent Indemnitee shall
recover the full amount thereof from the Escrowed
Funds), subject to the limitations set forth in Section
9.5. If the Indemnification Control Person objects to
such claim in writing within such thirty-day period,
the objection will be resolved pursuant to the procedures in the Escrow Agreement. All recoveries from
Escrowed Funds shall be made on a pro rata basis
from the amounts that would otherwise be released
from the Escrowed Funds to the Participating Rights
Holders. The parties agree that to the greatest
extent possible the payment of any indemnity hereunder shall be treated as an adjustment to the
Closing Payment Amount paid by Parent hereunder
for Tax purposes. Indemnification obligations of Parent and the Merger Sub shall be satisfied by the
Parent in cash. Except in the case of fraud, resort to
indemnification pursuant to this Article 9 through
claims against the Escrowed Funds shall be the sole
remedy of Parent and Merger Sub and any other
Parent Indemnitee with respect to any and all Damages related to or arising out of or in connection with

706
(i) any breach by Company of any representation,
warranty, covenant, agreement, obligation or undertaking made by the Company in or pursuant to this
Agreement or any other agreement, instrument,
certificate or other document delivered by or on behalf
of the Company in connection with this Agreement, or
(ii) any other claim, for indemnification or otherwise,
arising out of or related to the subject matter of this
Agreement or any other agreement, instrument,
certificate or other document delivered by or on behalf
of the Company in connection with this Agreement.
9.5 Limitations of Liability.
(a) Deductible. No Indemnifying Party will be
required to indemnify an Indemnified Person and no
claim may be made against the Escrowed Funds
hereunder until such time as the amount of Damages
for which (i) all Parent lndemnitees, on the one hand,
or (ii) all Rights Holder Indemnitees, on the other
hand, are otherwise entitled to indemnification
pursuant to this Agreement exceeds $500,000 in the
aggregate for all such Damages, and then only to the
extent such aggregate amount exceeds $500,000. No
Indemnifying Party will be required to indemnify any
Rights Holder Indemnitee hereunder with respect to
any claim for Damages unless the amount of Damages
for which all Rights Holder Indemnitees are entitled
for such claim exceeds $50,000 in the aggregate. No
claim may be made against Escrowed Funds by any
Parent Indemnitee unless the amount of Damages for
which all Parent Indemnitees are entitled from such
claim exceeds $50,000 in the aggregate. Notwithstanding anything to the contrary in this Section 9.5, the
minimum claim limit and deductible imposed by this
Section 9.5(a) shall not apply to any Damages arising
out of or in connection with (A) any breach by the

707
Company of any Special Representations, (B) any
Special Claims, or (C) fraud, nor shall any such
Damages be counted against the foregoing deductible.
(b)

Maximum Recovery.

(i) The parties specifically agree that,
notwithstanding any provision of this Agreement to
the contrary, the maximum aggregate recovery by all
Parent Indemnitees from the Escrowed Funds for
indemnification under this Article 9, except in the case
of fraud, will not exceed a maximum amount equal to
the amount of the Initial Escrow Amount originally
deposited into escrow pursuant to the Escrow
Agreement. The parties specifically agree that, notwithstanding any provision of this Agreement to the
contrary, the maximum recovery of all Rights Holder
Indemnitees from the Parent under this Article 9,
except in the case of fraud, will not exceed a maximum
amount equal to the amount of the Initial Escrow
Amount originally deposited into escrow pursuant to
the Escrow Agreement.
(ii) As a further limitation, any claims of
Parent Indemnitees against the Escrowed Funds for
indemnification under this Article 9 with respect to
Specified Intellectual Property Claims shall not
exceed $10,000,000 in the aggregate for all such
Specified Intellectual Property Claims (the “Specified
Intellectual Property Claims Cap”), and as a further
limitation, shall not exceed $7,000,000 with respect to
Specified Intellectual Property Claims related to any
single third party (taken together with all of its
affiliates and related persons and entities) (the
“Specified Intellectual Property Claims Per Claim
Cap”). Notwithstanding the foregoing, the Specified
Intellectual Property Claims Cap shall be reduced to
$7,000,000, until such time (if ever) before the first

708
anniversary of the Closing Date that a third party
specified on Schedule 9.2(d) hereto files a lawsuit that
results in a Specified Intellectual Property Claim;
after such a claim is filed (if ever), the Specified
Intellectual Property Claims Cap shall be increased to
$10,000,000, however, the Specified Intellectual
Property Claims Per Claim Cap will remain at
$7,000,000.
(iii) As a further limitation, with respect to
any Product Liability Claims, Parent and the Surviving Corporation must use commercially reasonable
efforts to seek reimbursement from applicable insurance policies and first apply insurance proceeds from
applicable insurance policies to any Damages related
to Product Liability Claims; thereafter, once such
insurance proceeds, if any, are exhausted, any Parent
Indemnitee may make a claim against the Escrowed
Funds for Damages related to Product Liability
Claims; provided, however that Parent Indemnitees
shall not be entitled to recover an amount with respect
to such claims in excess of $5,000,000 in the aggregate
(the “Product Liability Claims Cap”). Notwithstanding
the foregoing, unless an insurance carrier has paid the
Product Liability Claims to the extent of insurance
coverage limits or confirmed in writing that it will
cover the Known Claims to the extent of insurance
coverage limits, without reservations other than
customary limited exclusions that do not reference
specific facts or circumstances that the applicable
carrier has identified as a potential basis for the denial
of coverage, after making claims for indemnification
that would exceed the Product Liability Claims Cap,
any Parent Indemnitee may make a further claim
against the Escrowed Funds for Damages related to
any Product Liability Claim not defended by an
insurance carrier; provided, however that such claims

709
shall be limited to a portion of the Escrowed Funds
(distinct from and in addition to the Product Liability
Claims Cap portion) not to exceed an additional
$5,000,000 in the aggregate, less any amounts that
have been paid by insurance in respect of Product
Liability Claims (the “Supplemental Product Liability
Claims Cap”). For avoidance of doubt, the purpose of
the Supplemental Product Liability Claims Cap
portion of the Escrowed Funds is to provide a remedy
for the Parent if the Company’s existing insurance
carriers determine pursuant to applicable insurance
policies not to cover the Product Liability Claims to the
extent of insurance coverage limits, and it is the intent
of the parties that such Supplemental Product
Liability Claims Cap will not be available to Parent if
insurance coverage for Product Liability Claims is
available.
(c) Time Limit. All representations and warranties in this Agreement shall survive the Closing
and shall expire on, and no Indemnifying Party will be
liable for any Damages hereunder and no claim may
be made against the Escrowed Funds with respect to
a breach of such representations and warranties
unless a written claim for indemnification is given by
the Indemnified Person to the Indemnification Control
Person with respect thereto prior to, the first anniversary of the Closing Date (the “Claim Deadline”). The
right to make claims for indemnification, shall expire
as of the Claim Deadline, except with respect to claims
(i) that have been duly noticed before Claim Deadline
and (ii) for which a reserve from the Escrowed Funds
has been duly established, each of (i) and (ii) in
accordance with this Agreement and the Escrow
Agreement, as applicable, provided, that notwithstanding the foregoing, the right of Parent to make
claims for indemnification with respect to a Product

710
Liability Claim shall survive until the sixtieth (60th)
day following the final resolution, including but not
limited to by way of final settlement agreement of all
of the parties or issuance of an order of a court having
jurisdiction over the matter which is final and not
subject to further court proceedings or appeal, of the
matter underlying such Product Liability Claim.
(d) No Liability of Company Shareholders,
Participating Rights Holders or Shareholder Representative. Notwithstanding anything to the contrary
in this Agreement and for purposes of clarification,
except in the case of fraud, the liability of the
Participating Rights Holders, including indemnification obligations, under this Agreement shall be
limited to the Escrowed Funds; and, once amounts
held pursuant to the Escrow Agreement are released
to the Participating Rights Holders pursuant to the
terms of the Escrow Agreement, Parent, the Surviving
Corporation and any Affiliates thereof and any other
Parent Indemnitees shall have no further claim to the
amount thereof from the Participating Rights Holders,
except in the case of fraud. Without limiting the ability
of the Parent to recover from the Escrowed Funds in
accordance with this Article 9, and except in the case
of fraud, nothing in this Agreement shall cause the
Shareholder Representative or Participating Rights
Holders to become personally liable for any indemnification claim pursuant to the provisions of this
Article 9.
9.6 Right to Bring Action; No Contribution.
Notwithstanding anything in this Article 9 or
elsewhere in this Agreement to the contrary, only the
Shareholder Representative shall have the right,
power and authority to commence any action, suit or
proceeding, including any arbitration proceeding, by

711
and on behalf of any or all Participating Rights
Holders against Parent or the Surviving Corporation
or any other Indemnified Person in connection with
the Agreement and the Escrow Agreement and the
transactions contemplated herebyand thereby, and in
no event shall any Participating Rights Holder
himself, herself or itself have the right to commence
any action, suit or proceeding, including any arbitration proceeding, against Parent or the Surviving
Corporation, or any other Indemnified Person in such
connection. By virtue of the adoption of this Agreement and the approval of the Merger by the Company
Shareholders, each Participating Rights Holder
(regardless of whether or not such Participating
Rights Holder votes in favor of the adoption of the
Agreement and the approval of the Merger, whether
at a meeting or by written consent in lieu thereof)
shall be deemed to have waived, and shall be deemed
to have acknowledged and agreed that such Participating Rights Holder shall not have and shall not
exercise or assert (or attempt to exercise or assert),
any right of contribution, right of indemnity or other
right or remedy against Surviving Corporation in
connection with any indemnification obligation or any
other liability to which he may become subject under
or in connection with this Agreement.
ARTICLE 10
GENERAL PROVISIONS
10.1 Notices. All notices, claims and demands
hereunder, and all other communications which are
required to be given in writing pursuant to this
Agreement, shall be in writing and shall be given
(and shall be deemed to have been duly given upon
receipt) by delivery in person or facsimile (received at
the facsimile machine to which it is transmitted prior

712
to 5 p.m., local time, on a business day for the party to
which it is sent, or if received after 5 p.m., local time,
as of the next business day) or by registered or certified mail (postage prepaid, return receipt requested)
to the respective parties at the following addresses (or
at such other address for a party as shall be specified
in a notice given in accordance with this Section 10.1):
if to Parent or Merger Sub:
Cytyc Corporation
85 Swanson Road
Boxborough, MA 01719
Attention: Vice President — Corporate Development
Facsimile: (978) 266-3008
with a copy to:
Bingham McCutchen LLP
150 Federal Street
Boston, Massachusetts 02110
Attention: Johan V. Brigham, Esq.
Facsimile: (617) 951-8736
if to the Company:
Novacept, Inc.
1047 Elwell Court
Palo Alto, California 94303 Attention: President
Facsimile: (650) 335-2613
with a copy to:
Wilson Sonsini Goodrich & Rosati
650 Page Mill Road
Palo Alto, CA 94304
Attention: Christopher D. Mitchell, Esq.
Facsimile: (650)-493-6811

713
and if to the Shareholder Representative:
David Clapper
860 Hobart Street
Menlo Park, CA 94025
Facsimile: (650)-493-6811 (c/o Chris Mitchell)
and:
Edward Unkart
6 Valley Oak
Portola Valley, CA 94028
Facsimile: (650)-493-6811 (c/o Chris Mitchell)
with a copy to:
Wilson Sonsini Goodrich & Rosati
650 Page Mill Road
Palo Alto, CA 94304
Attention: Christopher D. Mitchell, Esq.
Facsimile: (650) 493-6811
10.2 Certain Definitions. For purposes of this
Agreement, the term:
“Acquisition Proposal” means any bona fide offer or
proposal (other than an offer or proposal by Parent)
relating to any Acquisition Transaction.
“Acquisition Transaction” means (a) any transaction
or series of related transactions other than the transactions contemplated by this Agreement involving the
purchase of all or any significant portion of the capital
stock or assets of the Company, (b) any agreement to
enter into a business combination with the Company,
(c) any agreement made, other than in the ordinary
course of business, with regard to the Intellectual
Property owned or licensed by the Company, and (d)
any other extraordinary business transaction involving or otherwise relating to the Company or any Intellectual Property owned or licensed by the Company.

714
“Affiliate” means, with respect to any person, any
person that, directly or indirectly, through one or more
intermediaries, controls, is controlled by, or is under
common control with, such person. Until the consummation of the Merger, the Company shall not be
deemed for any purposes of this Agreement to be an
Affiliate of the Parent.
“Closing Payment Amount” means the amount of (i)
$325,000,000, plus (ii) the aggregate exercise price
of all Company Options and Company Warrants outstanding and unexercised immediately prior to the
Effective Time; and minus (iii) the Aggregate Maximum Transaction Cost.
“Code” means the Internal Revenue Code of 1986, as
amended.
“Company Licensed Intellectual Property” means all
Intellectual Property licensed to the Company or any
of its Subsidiaries by any third party.
“Company Owned Intellectual Property” means all
Intellectual Property owned by the Company or any of
its Subsidiaries.
“Company Products” means the Company’s NovaSure
impedance controlled endometrial ablation system in
its current configuration, together with all enhancements thereto currently under development.
“Company Warrant” means each unexercised right,
warrant or option to purchase Company Common
Stock or Company Preferred Stock listed in Section
3.2(f) of the Company Disclosure Schedule or the
Capitalization Certificate.
“Conversion Rate”, with respect to any series of
Company Preferred Stock, means at any point in time
the number of shares of Company Common Stock into

715
which each share of such Company Preferred Stock
may be converted pursuant to the then effective
Restated Articles.
“Damages” means all damages, losses, costs, and
expenses incurred or suffered, or that are reasonably
likely to be incurred or suffered, by a party with
respect to or relating to an event, circumstance or
state of facts. Damages shall specifically include court
costs and the reasonable fees and expenses of legal
counsel arising out of or relating to any direct or
third-party claims, demands, actions, causes of action,
suits, litigations, arbitrations or liabilities.
“Environmental Law” means any judgment, decree,
order, law license, rule or regulation pertaining to
environmental matters, including those arising under
any federal, state or local statute, regulation, ordinance, order or decree relating to the environment or
exposure to a Hazardous Substance.
“Environmental Permit” means all material permits, licenses and other authorizations required under
any Environmental Law.
“Escrowed Funds” means the amounts delivered to
the Escrow Agent pursuant to the provisions of Section
1.5 hereof less any such amounts distributed to the
Participating Rights Holders or to any Parent Indemnitee by the Escrow Agent in accordance with this
Agreement or the Escrow Agreement.
“Exchange Act” means the Securities Exchange Act
of 1934, as amended.
“FDA” means the United States Food and Drug
Administration.
“Financial Statements” means (a) the audited
consolidated financial statements (including balance

716
sheet, income statement and statement of cash flows)
as of and for the year ended December 31, 2003, and
with respect to representations made as of the Closing
Date also means (b) the unaudited consolidated
financial statements (including balance sheet, income
statement and statement of cash flows) as of the end
of the most recently completed fiscal quarter prior to
the Closing Date, and for the portion of the current
fiscal year ended on such date, each of which the
Company has made available to the Parent or its
counsel and included in the Company Disclosure
Schedule.
“Fully-Diluted Common Stock Number” means (i)
the number of shares of Company Common Stock
outstanding immediately prior to the Effective Time
(including Dissenting Shares and any shares of
Company Stock that would be issued upon conversion
of any shares of Company Preferred Stock that have
elected to be, or are required to be, converted into
Company Common Stock as of immediately prior to
the Effective Time in connection with the Merger),
plus (ii) the maximum number of shares of Company
Common Stock issuable upon exercise of unexercised
Company Options and Company Warrants outstanding immediately prior to the Effective Time, and
minus (iii) any shares of Company Common Stock,
Company Preferred Stock, Company Options or
Company Warrants (all calculated similarly as above)
held by the Company or any Subsidiary of the
Company or by Parent or any Affiliate of Parent. For
the purposes of this calculation, the number of shares
of Company Common Stock issuable upon exercise of
any Company Warrants exercisable for Company
Preferred Stock shall be deemed to be such number of
shares of Company Preferred Stock multiplied by the

717
conversion ratio for the applicable series of Company
Preferred Stock.
“GAAP” means United States generally accepted
accounting principles consistently applied.
“Governmental Authority” (whether such term is
capitalized or not) means any United States (federal,
state or local) or foreign government, or governmental,
regulatory or administrative authority, agency or
commission.
“Hazardous Substance” means (a) those substances
defined in or regulated under the following federal
statutes and their state counterparts and all regulations thereunder: the Hazardous Materials Transportation Act, the Resource Conservation and Recovery
Act, the Comprehensive Environmental Response,
Compensation and Liability Act, the Clean Water Act,
the Safe Drinking Water Act, the Atomic Energy Act,
the Federal Insecticide, Fungicide, and Rodenticide
Act and the Clean Air Act; (b) petroleum and petroleum products, including crude oil and any fractions
thereof; (c) natural gas, synthetic gas, and any mixtures thereof; (d) polychlorinated biphenyls, asbestos
and radon; and (e) any substance, material or waste
regulated by any federal, state, local or foreign
Governmental Authority pursuant to any Environmental Laws.
“Indebtedness” means, as applied to any person, (a)
all indebtedness for borrowed money, whether
current or funded, or secured or unsecured, (b) all
indebtedness for the deferred purchase price of
property or services represented by a note or other
security, (c) all indebtedness created or arising under
any conditional sale or other title retention agreement
with respect to property acquired (even though the

718
rights and remedies of the seller or lender under such
agreement in the event of default are limited to
repossession or sale of such property), (d) all indebtedness secured by a purchase money mortgage or other
lien to secure all or part of the purchase price of
property subject to such mortgage or lien, (e) all
obligations under leases which shall have been or
must be, in accordance with GAAP, recorded as
capital leases in respect of which such person is liable
as lessee, (f) any liability in respect of banker’s
acceptances or letters of credit, and (g) all indebtedness referred to in clauses (a), (b), (c), (d), (e) or (f)
above which is directly or indirectly guaranteed by or
which such person has agreed (contingently or
otherwise) to purchase or otherwise acquire or in
respect of which it has otherwise assured a creditor
against loss.
“Indemnification Control Person” means (i) in the
event of a claim by a Rights Holder Indemnitee, the
Parent or (ii) in the event of a claim made by a Parent
Indemnitee against the Escrowed Funds, the Shareholder Representative.
“Indemnifying Party” means any person against
whom indemnification may be sought pursuant to the
provisions of Article 9.
“Indemnified Person” means any person entitled to
seek indemnification pursuant to the provisions of
Article 9.
“Intellectual Property” means intellectual property
or proprietary rights of any description including (a)
rights in any patent, patent application (including any
provisionals, continuations, divisions, continuationsin-part, extensions, renewals, reissues, revivals and
reexaminations, any national phase PCT applications,

719
any PCT international applications, and all foreign
counterparts), copyright, industrial design, URL,
domain name, trademark, service mark, logo, trade
dress or trade name, (b) related registrations and
applications for registration, (c) trade secrets, moral
rights or publicity rights, and (d) inventions, discoveries, or improvements, modification, know-how, technique, methodology, writing, work of authorship,
design or data, whether or not patented, patentable,
copyrightable or reduced to practice, including any
inventions, discoveries, improvements, modification,
know-how, technique, methodology, writing, work of
authorship, design or data embodied or disclosed in
any: (i) computer source code (human-readable format) and object code (machine-readable format); (ii)
specifications; (iii) manufacturing, assembly, test,
installation, service and inspection instructions and
procedures; (iv) engineering, programming, service
and maintenance notes and logs; (v) technical, operating and service and maintenance manuals and data;
(vi) hardware reference manuals; and (vii) user
documentation, help files or training materials.
“knowledge” of the Company or any Subsidiary
whether or not capitalized means the actual
knowledge of David Clapper, Edward Unkart, Russ
Sampson, Eugene Skalnyi and Donald Nathe.
“Material Adverse Effect” means with respect to the
Company or Parent, as the case may be, any change or
effect that, when taken individually or together with
all other adverse changes or effects, materially
adversely effects the business, results of operations
and financial condition of the Company or Parent, as
the case may be, together with their respective
Subsidiaries, taken as a whole; provided, however that
any event or occurrence resulting from the announce-

720
ment or pendency of the Merger, this Agreement and
the transactions contemplated hereby shall not be
deemed to result in a Material Adverse Effect;
provided, further, however that any event or occurrence resulting from (i) changes in general economic or
political conditions, (ii) changes in law, regulation or
policy or (iii) changes in the healthcare industry
generally, the medical device industry generally or the
market for products and procedures for the treatment
of excessive menstrual bleeding in particular shall not
be deemed to result in a Material Adverse Effect,
unless in any such instance such change described in
(i), (ii) or (iii) above impacts the Company in a
materially disproportionate manner relative to a
preponderance of other entities impacted by such
change.
“PBGC” means the Pension Benefit Guaranty
Corporation.
“Participating Rights Holders” means those persons
(other than the holders of Dissenting Shares, the
Company, Parent or any Subsidiary of the Company
or Parent) who, immediately prior to the Effective
Time of the Merger, were holders of shares of
Company Common Stock, Company Preferred Stock,
Company Options or Company Warrants and whose
interests therein, as the result of the Merger, are
converted into rights to receive a portion of the Closing
Payment Amount.
“Per Share Common Closing Payment” means the
amount equal to the quotient obtained by dividing (x)
the amount of the Closing Payment Amount minus the
Preferred Closing Payment Amount, and minus the
Representative Reimbursement Amount, by (y) the
Fully-Diluted Common Stock Number.

721
“Per Share Preferred Closing Payment” means, with
respect to each share of any series of Company
Preferred Stock outstanding immediately prior to the
Effective Time (other than any shares of Company
Preferred Stock held by Parent and any shares of
Company Preferred Stock converted into Common
Stock immediately prior to the Effective Time in
connection with the Merger), the portion of the Closing
Payment Amount allocable to such share, in preference to any share of Company Common Stock or other
series of Preferred Stock, pursuant to the Company’s
Restated Articles as in effect immediately prior to the
Effective Time.
“Preferred Closing Payment Amount” means an
amount equal to the sum of all Per Share Preferred
Closing Payments for all series of Company Preferred
Stock.
“Principal Business” means the design, development, manufacture, marketing and sale of the
Company Products.
“Restated Articles” means the Amended and
Restated Articles of Incorporation of the Company.
“SEC” means the United States Securities and
Exchange Commission.
“Securities” means all shares of Company Common
Stock and Company Preferred Stock, all outstanding
options, warrants, convertible notes, rights of conversion and other rights to acquire capital stock of the
Company, and all shares issuable upon exercise or
conversion of the Company Preferred Stock, options,
warrants, convertible notes, rights of conversion and
other rights to acquire stock of the Company,
outstanding from time to time, whether or not then
currently vested, exercisable or convertible.

722
“Securities Act” means the Securities Act of 1933, as
amended, and the rules and regulations promulgated
thereunder.
“Securityholder” means any holder of Securities.
“Shareholder Representative” means the individual
appointed to serve as such under Section 2.5.
“Special Claims” means any Tax Claims, Appraisal
Claims, Product Liability Claims and Transaction
Cost Claims.
“Special Representations” means any representations or warranties relating to Section 3.2 of this
Agreement or representations or warranties contained
in the Capitalization Certificate.
“Subsidiary or Subsidiaries” (whether or not
capitalized) of any person means any corporation,
partnership, limited liability company, association,
trust, joint venture or other legal entity of which such
person (either above or through or together with any
other Subsidiary), owns, directly or indirectly, more
than 50% of the stock or other equity interests the
holders of which are generally entitled to vote for the
election of the board of directors or other governing
body of such corporation or other legal entity.
“Tax” or “Taxes” (and with correlative meaning,
“Taxable” and “Taxing”) means any United States
federal, state or local, or non-United States, income,
gross receipts, franchise, estimated, alternative minimum, add-on minimum, sales, use, transfer, registration, value added, excise, natural resources, severance, stamp, withholding, occupation, premium, windfall profit, environmental, customs, duties, real property, personal property, capital stock, net worth,
intangibles, social security, unemployment, disability,

723
payroll, license, employee or other tax or similar levy,
of any kind whatsoever, including any interest,
penalties or additions to tax in respect of the foregoing.
“Taxation Authority” means any Governmental
Authority having any responsibility for (a) the
determination, assessment or collection or payment of
any Tax, or (b) the administration, implementation or
enforcement of or compliance with any law relating to
any Tax.
“Tax Claims” means a claim resulting from any
breach of any representation or warranty in Section
3.24 of this Agreement or any covenant in Sections
5.1(p), 5.2, or 6.8 of this Agreement;
“Tax Return” means any return, declaration, report,
claim for refund, information return or other document (including any related or supporting estimates,
elections, schedules, statements or information) filed
or required to be filed in connection with the
determination, assessment or collection of any Tax or
the administration of any laws, regulations or administrative requirements relating to any Tax.
The following table sets forth certain other defined
terms and the Section of the Agreement in which the
meaning of each such term appears:
Section(s)
“Activities to Date” .......................................... 3.21(a)
“Agreement” ..................................................... Preamble
“Aggregate Maximum Transaction Cost” ...... 9.2(e)
“Agreement Date”............................................ Preamble
“Antitrust Filing” ............................................ 6.2
“Appraisal Claims” .......................................... 9.2(c)

724
Section(s)
“California Law” .............................................. Preamble
“Capitalization Certificate”............................. 7.2(i)
“Certificates” .................................................... 2.2(a)(i)
“Claim Deadline” ............................................. 9.5(c)
“Closing” ........................................................... 1.1(b)
“Closing Date”.................................................. 1.1(b)
“Company” ....................................................... Preamble
“Company Board” ............................................ Preamble
“Company Common Stock”-............................ Preamble
“Company Disclosure Schedule” .................... Article 3
“Company Financing Termination Date” ...... 8.1(b)
“Company Licenses” ........................................ 3.21(a)
“Company Option”........................................... 2.1(c)
“Company Option Plan” ................................. 2.1(c)
“Company Participants” ................................. 6.10(a)
“Company Preferred Stock” ............................ Preamble
“Company Shareholders” ................................ Preamble
“Company Warrant”........................................ 2.1(c)(ii)
“Confidentiality Agreement” .......................... 6.7
“Debt Financing” ............................................. 6.13
“Derivative Instruments”................................ 2.2(a)(i)
“Dissenting Shares” ........................................ 2.4(a)
“Effective Time” ............................................... 1.1(b)
“Employee Benefit Plan”................................. 3.20(a)

725
Section(s)
“Escrow Agent” ................................................ 1.5(b)
“Escrow Agreement” ....................................... 1.5(b)
“Final Termination Date” ............................... 8.1(d)
“Foreign Antitrust Filing”............................... 6.2
“HIPPA” ........................................................... 3.14
“HSR Act”......................................................... 6.2
“HSR Filing Date” ........................................... 6.3(c)
“Initial Escrow Amount” ................................. 1.5(b)
“Joint Representative” .................................... 2.5(a)
“Merger” ........................................................... Preamble
“Merger Document” ......................................... 1.1(b)
“Merger Sub” ................................................... Preamble
“MS Commitment Letter”............................... 4.5
“MS Credit Agreement” .................................. 4.5
“Notified Party” .............................................. 3.9(g)
“Option Shares” .............................................. 2.1(c)
“Parent” ............................................................ Preamble
“Parent ESPP” ................................................. 6.10(b)
“Parent Financing Termination Date” .......... 8.1(c)
“Parent-Handled Claims” ............................... 9.3(e)
“Parent Indemnitee” ....................................... 9.2
“Permits” .......................................................... 3.14
“Product Liability Claims” .............................. 9.2(b)
“Product Liablity Claims Cap” ....................... 9.5(b)(iii)

726
Section(s)
“Recent Tax Returns”...................................... 3.24(a)
“Representative Reimbursement Amount” ... 1.5(c)
“Rights Holder Indenmitee” ........................... 9.1(a)
“Shareholder Approval” .................................. 6.4
“Specified Intellectual Property Claims” ....... 9.2(d)
“Specified Intellectual Property Claims
Cap” .................................................................. 9.5(b)(ii)
“Specified Intellectual Property Claims
Per Claim Cap” ................................................ 9.5(b)(ii)
“SR Expenses” ................................................. 2.5(c)
“Surviving Corporation”.................................. 1.1
“Surviving Corporation Charter” ................... 1.3(a)
“Third-Party Claim” ........................................ 9.3(a)
“Transaction Cost Certificate” ........................ 7.2(k)
“Transaction Cost Claims”.............................. 9.2(e)
“Warrant Shares” .......................................... 2.1(c)(ii)
10.3 Severability. If any term or other provision
of this Agreement is invalid, illegal or incapable of
being enforced by any rule of applicable law, or public
policy, all other conditions and provisions of this
Agreement shall nevertheless remain in full force and
effect so long as the economic or legal substance of the
Merger is not affected in any manner materially
adverse to any party. Upon such determination that
any term or other provision is invalid, illegal or
incapable of being enforced, the parties hereto shall
negotiate in good faith to modify this Agreement so as
to effect the original intent of the parties as closely as
possible in a mutually acceptable manner in order that

727
the Merger be consummated as originally contemplated to the fullest extent possible.
10.4 Entire Agreement; Assignment. This Agreement, together with the Confidentiality Agreement
and, when executed and delivered by the parties
thereto, the Escrow Agreement, constitutes the entire
agreement among the parties with respect to the
subject matter hereof and thereof and supersedes all
prior agreements and undertakings, both written and
oral, among the parties, or any of them, with respect
to the subject matter hereof and thereof. This
Agreement shall not be assigned by operation of law or
otherwise, except that (a) Parent and Merger Sub may
assign all or any of their rights and obligations
hereunder to any Affiliate of Parent; provided, that no
such assignment to an Affiliate shall relieve the
assigning party of its obligations hereunder, and (b)
after the Effective Time, Parent may assign all of its
rights and obligations hereunder to a person that
acquires all of the capital stock, or substantially all of
the assets, of the division or business unit of Parent
responsible for the business of the Company; provided,
that such person assumes this Agreement, in writing,
and agrees to be bound by and to comply with all of the
terms and conditions hereof.
10.5 Parties in Interest. This Agreement shall be
binding upon and inure solely to the benefit of each
party hereto and nothing in this Agreement, express
or implied is intended to or shall confer upon any other
person any right, benefit or remedy of any nature
whatsoever under or by reason of this Agreement.
10.6 Specific Performance. The parties hereto
agree that irreparable damage would occur in the
event that any provision of this Agreement was not
performed in accordance with the terms hereof and

728
that the parties shall be entitled to specific performance of the terms hereof, in addition to any other
remedy at law or equity.
10.7 Governing Law. This Agreement shall be
governed by, and construed in accordance with the
laws of the State of California applicable to contracts
executed in and to be performed in that state.
10.8 Consent to Jurisdiction.
(a) EACH OF PARENT, THE COMPANY
AND MERGER SUB HEREBY IRREVOCABLY
SUBMITS TO THE EXCLUSIVE JURISDICTION OF
THE STATE COURTS OF CALIFORNIA AND TO
THE JURISDICTION OF THE UNITED STATES
DISTRICT COURT FOR NORTHERN DISTRICT
OF CALIFORNIA, FOR THE PURPOSE OF ANY
ACTION OR PROCEEDING ARISING OUT OF OR
RELATING TO THIS AGREEMENT AND EACH
OF PARENT, THE COMPANY AND MERGER
SUB HEREBY IRREVOCABLY AGREES THAT
ALL CLAIMS IN RESPECT TO SUCH ACTION OR
PROCEEDING MAY BE HEARD AND DETERMINED EXCLUSIVELY IN ANY CALIFORNIA
STATE OR FEDERAL COURT SITTING IN THE
CITY OF SAN FRANCISCO. EACH OF PARENT,
THE COMPANY AND MERGER SUB AGREES
THAT A FINAL JUDGMENT IN ANY ACTION OR,
PROCEEDING SHALL BE CONCLUSIVE AND MAY
BE ENFORCED IN OTHER JURISDICTIONS BY
SUIT ON THE JUDGMENT OR IN ANY OTHER
MANNER PROVIDED BY LAW.
(b) EACH OF PARENT, THE COMPANY
AND MERGER SUB IRREVOCABLY CONSENTS
TO THE SERVICE OF THE SUMMONS AND
COMPLAINT AND ANY OTHER PROCESS IN ANY

729
OTHER ACTION OR PROCEEDING RELATING
TO THE TRANSACTIONS CONTEMPLATED BY
THIS AGREEMENT, ON BEHALF OF ITSELF OR
ITS PROPERTY, BY THE PERSONAL DELIVERY
OF COPIES OF SUCH PROCESS TO SUCH PARTY.
NOTHING IN THIS SECTION 10.8 SHALL AFFECT
THE RIGHT OF ANY PARTY TO SERVE LEGAL
PROCESS IN ANY OTHER MANNER PERMITTED
BY LAW.
10.9 Headings; Interpretation. The descriptive
headings contained in this Agreement are included for
convenience of reference only and shall not affect in
any way the meaning or interpretation of this
Agreement. Whenever the word “include,” “includes,”
or “including” appears in this Agreement, it shall be
deemed in each instance to be followed by the words
“without limitation.”
10.10 Counterparts. This Agreement may be
executed and delivered (including by facsimile transmission) in one or more counterparts, and by the
different parties hereto in separate counterparts, each
of which when executed and delivered shall be deemed
to be an original but all of which taken together shall
constitute one and the same agreement.
10.11 Fees and Expenses. Except for claims for
Damages pursuant to Article 9 and as provided in
Section 2.5(c) hereof and as such fees and expenses
are incorporated in the definitions of “Closing
Payment Amount” and “Aggregate Maximum Transaction Cost”, each party hereto shall be responsible for
all fees and expenses (including the fees and expenses
of legal counsel and financial advisors engaged by such
parties) incurred by such party in connection with the
preparation and negotiation of this Agreement, and
the consummation of the transactions contemplated

730
hereby, including, in the case of the Company, any fees
and expenses incurred by the Company in any related
or alternative transactions, including but not limited
to the preparation and filing of the Company’s registration statement on Form S-1 filed with the SEC on
January 12, 2004 and any amendments thereto.
10.12 Amendment. This Agreement may be
amended prior to the Effective Time only by an instrument in writing, duly authorized by the Company
Board, executed by Parent or its designee, the Merger
Sub, the Company and the Shareholder Representative. This Agreement may be amended subsequent to
the Effective Time only by an instrument in writing
executed by Parent, the Surviving Corporation and the
Shareholder Representative, after authorization by
written consent the Participating Rights Holders entitled to a majority in amount of the Escrowed Funds
then in the possession of the Escrow Agent.
10.13 Waiver. At any time prior to the Effective
Time, Parent and the Company may agree to (a)
extend the time for the performance of any obligation
or other act of the other (including, in the case of
Parent, the Merger Sub) party hereto, (b) waive any
inaccuracy in the representations and warranties of
the other contained herein or in any document delivered pursuant hereto, and (c) waive compliance by the
other, as the case may be, with any agreement or condition contained herein. Any such extension or waiver
shall be valid if set forth in an instrument in writing
signed by the party or parties to be bound thereby.
* * *
[The remainder of the page is intentionally left blank.]
* * *

731
IN WITNESS WHEREOF, Parent, Merger Sub, the
Company and, for the limited purposes of agreeing to
perform the duties specified in Section 2.5, the Shareholder Representative, have duly executed this Agreement and Plan of Merger as an instrument under seal
as of the date first above written.
CYTYC CORPORATION
By: /s/ Patrick J. Sullivan
Name: Patrick J. Sullivan
Title: President
RADIO ACQUISITION CORP.
By: /s/ Patrick J. Sullivan
Name: Patrick J. Sullivan
Title: President
NOVACEPT
By: /s/ David M. Clapper
Name: David Clapper
Title: President
SHAREHOLDER REPRESENTATIVE
for the limited purposes of
agreeing to perform the duties
expressly delegated to the
“Shareholder Representative”
hereunder
/s/ David M. Clapper
Name: David Clapper, Joint
Representative
/s/ Edward Unkart
Name: Edward Unkart, Joint
Representative

From:
Sent:
To:
Subject:

732
mare@minervasurgical.com
Sunday, July 18, 2010 5:42 PM
Michael Regan
Fw: Resend: Questions for budget
purposes regarding endometrialablation
trials

Mike
Interesting. We’re getting better response from FDA
than from our own advisory board.
Talk to you tomorrow.
Mary
Sent via BlackBerry by AT&T
From:

To:
Subject:

“Pollard, Cohn M.”
<Collin.Pollard@fda.hhs.gov> Date: Sun,
18 Jul 2010 16:57:22 -0700
Mary
Edwards<marye@minervasurgical.com>
RE: Resend: Questions for budget
purposes regarding endometrial ablation
trials

I’m sorry. I was away last week on vacation. I had
hoped my last e-mail to you would help, but I will find
some time to talk to you tomorrow, even if it’s late in
the day.
Colin

From:
Sent:
To:
Subject:

733
Mary Edwards
[mailto:marye@minervasurgical.com]
Monday, July 12, 2010 7:51 PM
Pollard, Colin M.
RE: Resend: Questions for budget
purposes regarding endometrial ablation
trials

Colin:
I’m under huge fire because I warvs not able to get
answers after almost 6 weeks. [I know it’s crazy for
you; but not getting any internal sympathy]. We have
a board meeting on the 20th and fundraising will be
dependent on the regulatory plan. I’m really hoping
that we could touch base for just a couple minutes on
the Monday when you return. I fully understand that
some of the below might sound new — but they really
are not new questions.
1. We are still going to use resection/rollerball as
the control arm.
2. We are not changing any of the other endpoints
hence the non-inferiority margin of 20%.
3. The Minerva device is almost dead identical to
NovaSure except using plasma energy (RF).
4. The 6 months question is straight out of the
guidance document which states PMA can be
filed with 6 months data. I thought that had
changed to filing the PMA with full 12 month
data, but just needed to confirm.
5. There was rumors in the investment community that because of the switch to AH instead of
PBLAC that the patient numbers have gone up
(rumor has it at approximately 600 patients).

734
6. Lastly, you had committed to me for some
feedback regarding the number of follow-ups for
AH. (all I need is whether it will be 3,6 and 12
or 3 and 6— plus baseline, of course).

735
From:
Thomas Pendlebury
To:
Dave Clapper; Eugene Skalnyi;
Jon Wangsness; Michael Regan;
Dominique Filloux
Sent:
8/15/2015 4:27:31 PM
Subject: FW: JMIG article about Minerva
endometrial ablation
Attachments: ATT00001.htm: JMIG Article.pdf
Dave, Eugene,
This (his e-mail below) is from Dr. Tom Fromuth,
Lancaster, PA. I will be talking with him next week to
get details on # cases and date.
Tom
Dr. Deborah Willwerth named CEO at
Heart of Lancaster
By Larry Portzline, (February 23, 2013 at 11:07 AM
Dr. Deborah Willwerth has been named chief executive officer of Heart of Lancaster Regional Medical
Center, according to a news release from the hospital
today.
Dr. Deborah Willwerth
Dr. Deborah Willwerth - (Photo/Submitted)
From:
Date:
To:
Subject:

Thomas Fromuth <tfromie@comcast.net>
Friday, August 14, 2015 at 7:24 AM
Deborah Willwerth
<deborah.Willwerth@hma.com>
Fwd: JMIG article about Minerva
endometrial ablation

Deborah,
Attached is the article about Minerva, the newest
endometrial ablation technique to be FDA approved.
It is based on the technology of Novasure, the most

736
common type of ablation procedure we do at Heart. It
augments the technology to improve the overall
effectiveness and amenorrhea rate while maintaining
the same safety profile. I would really like for Heart to
be the first in the area to use this newest technology.
As I mentioned it is a new start up company so will not
be a member of the CHS purchasing group.
I have tried over the last few months to work through
our system to get it in at least for a trial. I have had
no success; not sure why. Please help me to get some
of the devices purchased at least as a trial. I have the
support of many of my physicians who also would like
to try it. If you approve of and can help with getting
the devices I can ask the surgery desk to put several
ablations on one day with as many physicians as we
can. The inventor of the device has offered to come in
and train all of us. I worked with him in the past when
he developed the Novasure and together we brought
Novasure to Lancaster.
I appreciate in advance anything you can do to help
Thank you.
drtomfromuth
Begin forwarded message:
From:
Subject:
Date:
To:

Thomas Pendlebury
<thomas.pendlebury@minervasurgical.com>
JMIG article
August 12, 2015 at 10:16:44 AM EDT
Thomas Fromuth <tfromie@comcast.net>

From:
To:
CC:
Sent:
Subject:

737
Csaba Truckai
Callahan, Amanda
Csaba Truckai
12/19/2014 10:51:07 AM
RE: Patent declaration

Dear Mandy:
Following up on my email sent December 2, 2014
reference to US Patent Application No. 13/003,011, I
have now reviewed the Declaration that you attached
to your letter of November 21, 2014, and I cannot in
good faith sign it. The Declaration states that “I
believe that I am the original inventor or an original
joint inventor of a claimed invention in the application.” I have reviewed the claims in the application
that you provided, and I do not believe that those
claims define any invention. The use of mechanical
spreaders for indicating the width of a uterus was well
known at the time that we tiled the application
describing uterine measurement. I was aware of such
devices, and I incorporated such features into the
device design described in the application that you
sent. At no time have I ever considered the use of the
mechanical indicator mechanism disclosed and for the
first time now claimed in the application to be an
invention.
Thus, I cannot sign the Declaration. Best regards,
Csaba Truckai

738
-----Original Message----From:

Callahan, Amanda
[mailto:Amanda.Callahan@hologic.com]
Sent:
Monday, December 03, 2014 2:12 PM
To:
Csaba Truckai
Subject: RE: Patent declaration
Good evening Csaba – thanks very much for getting
back to me so quickly. Next week is perfect; safe journeys
home!
All the best, Mandy
Mandy Callahan
IP Paralegal
O: 503-263-3492
F: 50M-263-2959
Amanda.Callahan@hologic.com
Hologic, Inc. 250 Campus Drive
Marlborough, MA 01752
-----Original Message----From:

Csaba Truckai
[mailto:csabat@hermesinnovations.com]
Sent:
Tuesday, December 02, 2014 2:34 PM
To:
Callahan, Amanda
Subject: Patent declaration
Dear Amanda,
I am in Europe till late next week (pending Lufthansa
strike). My wife told me that I need to sign the declaration for a patent. I hope next week is not to late for
returning the document.
Best,
Csaba
Sent from my iPhone

739
Inadequate physician training and inexperience
related to Minerva Device use has the potential to lead
to use error. Although you specify in your label that
physicians using the Minerva Endometrial Ablation
System should have sufficient training in performing
hysteroscopic procedures and be familiar with the
Operator’s Manual, including the trouble shooting
section, experience with one device type does not necessarily translate into mastery with another. In order to
optimize patient safety and new provider use, please
clarify whether you have implemented any specific
training practices when introducing your product to
physician groups for initial clinical use.
Since the start of Minerva Endometrial Ablation
System commercialization the Minerva Surgical has
not developed and/or implemented any specific
training practices when introducing our product to
physician groups for initial clinical use. In large this
was and continues to be based on the fact that
adequacy of Physician Training with any device and
mastery of any surgical procedure is fundamentally
controlled, monitored and verified by the Credentialing Departments of each medical institution/facility.
They operate using their own Standards and methods
in assessing the degree of such adequacy and overall
proficiency. Pre-requisites and requirements used by
different institution vary and we are not aware of
mechanisms for credentialing of such “industry sponsored training” modules.
Most importantly, endometrial ablation in general
and independently of the method used is not novel and
quite uniform with respect to patient selection criteria.
When it comes to the steps of Minerva procedure, it is
important to appreciate that the Minerva system was
specifically designed to virtually mimic the steps of the
NovaSure procedure, endometrial ablation procedure

740
most commonly used in the United States today. As a
result, during our almost 16 months of commercialization we observed a seamless transition from NovaSure
and adoption of Minerva.
Lastly, we would like to state that Minerva Surgical
as a company never received requests for formal
training from medical institutions and/or individual
physicians.

741
Outlook E-mail
From:
Sent:
To:
Cc:

Subject:

O’Neill, Tom
8/18/2015 7:20:56 AN
Parachek, Whitney; GSS Division Sales
Management Team
GSS Division Sales RBD Team;
Mascari, Adam; Hunter, Mark;
Sharma, Val; Sheffer, Danielle;
Compton, Eric; McMahon, Bob
RE: Minerva Hiring

Team,
Great message by both Whit and Brian!
While you don’t know me yet, I have past experience
in a “star- up” company. The best thing we can do is to
not let them get a footing in ANY market. This will put
tremendous financial pressure on their entire organization and we will stop them in there tracks. Their
entire company/business model is set up to eventually
sell to a PE or to a strategic. In short, Minerva is all
about driving to a sale of the company. WE on the
other hand are in it for the long term. We are focused
on long term commitment to our customers and to
women’s health long term.
I have also heard from some of you that they are hiring
some of ex Hologic reps who are very good. While I
don’t know these individuals, I do know that you as a
collective group are closing an amazing year. You have
12+ year old products and you are growing near double
digits this past quarter. To that end, they may have
some very good ex Hologic reps hut the CLEAR FACT
IS THAT YOU ARE BETTER!

742
Take it personally. Don’t let them off the ground. Don’t
let them have even one case. We will win as a team!
Tom
From:
Sent:
To:
Cc:

Subject:

Parachek, Whitney
Friday, August 14, 2015 6:50 AM
GSS Division Sales Management Team
GSS Division Sales RBD Team;
Mascari, Adam; Hunter, Mark; O’Neill,
Tom; Sharma, Vai; Sheffer, Danielle
Re: Minerva Hiring

This is fantastic guidance and leadership from Brian!
It’s specific, actionable, and in complete alignment
with the strategies we’ve discussed. Please read and
replicate this message to your teams TODAY. We need
ALL hands on deck to insulate our business, isolate
this distraction, and demonstrate our story of
commitment and partnership to our customers.

.

His analogy of “ankle biting vs. hemorrhaging” is right
on! We may lose a case but we will not lose an account.
TMs must understand their priority NS accounts and
have a plan in place to defend them. As a management
team, we need to be inspecting our position in these
accounts and exploring options to lock down our
business.
This is our call to action! These next 3 months are
critical! We cannot allow them any traction. With over
200 people sharing our value messagee will not be
beat! Thank you, Brian!
Game On!
Whitney
Sent from my iPhone

743
CA TEAM –
As you can see from Dan’s email below Minerva is
ramping up their sales force with a sales training class
taking place this week and In September.
As discussed on our call I want each of you to work
with a sense of urgency and belief that you will have a
new competitor in your territory tomorrow. As we
invest in our clinical competitive knowledge let’s make
sure upfront you know those “Beachhead” accounts
you can’t afford to allow any access whatsoever. The
goal is to drive your competition to those inconsequential accounts where case conversion/ankle biting is
not going to lead to absolute hemorrhaging of your
business. I have attached a MS Infiltration report
that is sorted by stack ranking of NS sales. I have
highlighted in green each of your top accounts. The top
forty accounts of this list comprise of approximately
64% of our Novasure sales in the past four quarters.
My expectation is that you similarly know and have a
plan for those top accounts that drive the majority of
your NS sales. We need to defend and prepare to wage
war in these accounts. Think of your defense of these
accounts as building a moat around your castle. The
more successful we are upfront of this defense the
better positioned we are to execute on the year we all
expect to have in 2016. Think “#1 District in the
Country” and “COE”.
So how do we execute from an activity perspective in
these key accounts today:
• Sell the whole HOI.X story / value proposition
• Maximize the TM/CS partnership
• Senior Management account visit
• DrivelT promotion

744
• Leverage our entire product portfolio
• Implement multi product agreements with
market share commitments
• Ramp up frequency and reach of calls to the key
practices and physicians that are the volume
driver of these key acounts...(you can be sure
the competitor will be knocking on these doors)
• Quality clinical calls to the entire office...MD,
APC, Biller, Surgery Scheduler
• Raise the level of visibility of the great solutions
that NS is by painting the office with NS
marketing collateral....at a minimum patient
education (English & Spanish) and poster clings
• Consultative approach... engage your customers
/ practices on how you can assist to grow their
procedures
• Via a Business review help them understand
the reimbursement picture / what their plans
reimburse / leverage the economic calculator
• Super User Dinners
Scheduler Dinners

//

APC

&

Surgery

• Leverage your territory physician advocates
The first 90-180 days are going to be absolutely critical
in keeping the competition at bay. Our best opportunity at denying them the ability to capture attention
and Initiate trials Is going to be right out of the gate.
As busy as we are with Myosure...competing for new
accounts, securing contractual commitments and selling
MS/AQcapital we can’t lose sight of how important the
work upfront is to defend the Novasure business we
have developed over the past 10 plus years. TM’s
please take a look at your Novasure stack ranking and

745
email me back by the close of business Wednesday,
Aug 195h with your top five accounts and the total
amount of sales each had over the last four successive
quarters. We will be discussing these accounts and the
key physicians that drive the volume in the corning
weeks.
Thanks,
Brian Logan | District Sales Manager, California District
Mobile: 559-244-9305 | brian.logan@hologic.com
Hologic, Inc. | 250 Campus Drive, Marlborough, MA
01752
<image001.jpg>
From:
Sent:
To:
Cc:
Subject:

Eby, Daniel
Wednesday, August 12, 2015 7:04 AM
Logan, Brian
Surg Mgrs West Region
Re: Minerva hires

Team
Thanks for the updates here. There is a new hire
training taking place this week, so they will be in the
field next. There is another training taking place place
9/16.
They are going to be active and coming after our
business. Let’s be sure to keep communication high in
these areas where they are being placed.
ThanksDan Eby
616-450-5792
<Top NS Customers.xls>
<image001.jpg>

746
Outlook E-mail
From:
Sent:
To:
Subject:

O’Neill, Tom
10/2/2015 8:46:36 AM
Parachek, Whitney; Fruhan, Bill;
Evantash, Edward
RE: Minerva

Thank you. Let’s plan on reviewing the plan and the
costs by next Friday. Does that work?
From:
Sent:
To:
Subject:

Parachek, Whitney
Friday, October02, 2015 7:57 AM
O’Neill, Tom; Fruhan, Bill;
Evantash, Edward
RE: Minerva

Tom,
Sorry for the delayed response. I planned to respond to
this during our 1:1 but we did not get to it.
We have an outline of aggressive ideas for a “scorched
earth” strategy that I will forward. These will he
vetted and prioritized with the Minerva Task Force
later this afternoon. I met with Adam Jay this week
and clarified his priorities in his interiMinerva defense”
role. He will be attending the Task Force meeting and
will work closely with me and the team to outline next
steps.
Edward, Bill, and I met to discuss expediting Regional
education/training summits and are outlining the roll
out. Our goal is to pilot our first program in early
December in California and estimate the cost to be @
$90,000. We’e also engaged Anne to discuss a “turn
key” office strategy to include social selling and co-op
marketing to implement with our customers to drive
partnership, growth and insulation. We strongly believe
med/ed (both large and small programs) and marketing

747
will be our key to solidifying our message, our customers,
and our business.
Once vetted and prioritized we will present to you
recommended strategies and budgets.
Thanks,
Whitney
From:
Sent:
To:
Subject:

O’Neill, Tom
Wednesday, September 30, 2015 9:32 AM
Fruhan, Bill; Evantash, Edward;
Parachek, Whitney
Minerva

Where are we with the Minerva defense program we
discussed last week at dinner?
Thanks, Tom

748
Strategy Planning Meeting Key Themes and Take
Aways
NovaSure key issues:
1. Lost market share
2. IP expiring in 2016
3. Key competitors entering GEA market in 2015
4. Quality complaints are up considerably
NovaSure Sales Flattening- ANALYZE AND DEPLOY
PROPER SIZE AND SKILL SALESFORCE
• DTC appears to be having a positive effect in the
marketplace.
• Economy, more specifically patient deductibles,
have stopped the short term growth of the GEA
market. (Can we help pay deductibles????)
• Effect of DTC also muted by some declining share.
Share loss due to both competitive ramping up of
sales and GSP decreased time per product with
launch of MyoSure.
• The contraindication is hurting. Rather than our
reps using it to leverage Adiana we have been
outsold. If we are contraindicated for use with Essure
so should every other thermal energy product. I
would like to see a study launched immediately to
show the thermal effects of other products used in
conjunction with the Essure coil. This should be
combined with an analysis of the MAUDE database.
• Marketing to launch a customer satisfaction survey
• Marketing to launch patient pathway surveywhere are we losing them these days and why

749
• Brodeur to provide the public with information
about robotic complications and costs
NovaSure Gen 4- ACCELERATE OUR TIME TO
MARKET
• AEGEA and Minerva are for real and they aren’t
going to just go away. They are well capitalized
with very viable product platforms.
• We can buy them before they get through clinicals
o

Pros- Could become next generation NS

o Cons- Likely expensive and where does it stop
• R&D/BD subcommittee to determine strategy here
• Current thinking on Gen 4: Smaller diameter
catheter. This is right thought process but not
enough. NovaSure is successful because it is quick,
simple, safe, successful. We need to focus on more
quick and more simple. Workflow and patient
comfort key concepts.
• We are out of time and need to solve this problem.
We have been working on feasibility for a year and
our concept is not complete.
• Our Gen 4 team must focus their efforts on laying
minefields around our products to:
o

A. Prevent more entrants into this field

o

B. Protect our current portfolio

• What Gen 4 isn’t- A rush to copy the small features
of a new entrant that will simply move to a price
strategy in the event they offer no new features. We
need to “move the cheese” and we need to move
it quickly. While we are inventing the next
smartphone we also need to invent an IPAD.

750
Adiana key issues:
1. Regulatory hurdles on RO and 2.0
2. Patency rates
3. 2015 revenue decreased massively due to efficacy labeling
4. Instant occlusion is the holy grail
Concomitant Use: NEW PRE-IDE REQUEST FOR
THIS CHANGED PROTOCOL
• Current $6M strategy costly, too long, and not
aggressive enough. Sales/Marketing says it will
help- need to quantify how much. How do we avoid
class labeling change?
• Attempt to eliminate the HSG requirement- can
fall back to current clinical if this path fails.
2.0- CHANGE ACCESS STUDY PROTOCOL IN
ANTICIPATION OF FDA REQUEST FOR CLINICAL?
• It is now possible that the 2.0 catheter will need
some form of clinical beyond the access study.
Potential cost for delay is $24M+ lost business.
• Need regulatory/Marketing/R&D
decision on this

caucus

and

• Requirements should be issued to team for IP
submissions. We must focus on protecting our edge
here
APACS
• Delay tied to RO. Continue enrolling dots.
RO
• Not yet understood how RO will affect the patency
rate. Initial in-growth data appears positive.

751
Sales
• Remains a complicated sale with excess sales time
spent on getting people back after a negative event
(expectation setting???)
MyoSure Key Issues
1. Patent Suit
2. Definition of polyp device
3. Office reimbursement strategy (why?)
• Work around for lawsuit is now #1 priority
• Speed to market of a polyp device can be
accomplished with a hybrid ATEC/MyoSure
product. We don’t have to invent the IPAD here.
COGS= $70.
• We are nowhere on the polyp device and haven’t
determined what it is yet. We need a PDD ASAP
so we can get started on designing this product.
Nicole to complete.
• Is it worth bringing this device into the office?
Will it be supported? Where will this market be
in 3 years? Where will our reps be? Can we get
reimbursement increased here?
THS Key Issues
1. Transfer price very high- sales commitment
high as well
2. 2012 less of an office focus
• We are selling these products and not just
placing them. This needs to add revenue and
cash to the GSP income statement.
• Need to incorporate into rep comp to see any
focus from sales force.

752
General themes/comments
• We are spending too much time in the office (I’m
not sure I agree with this- smaller territories
may fix this)
• We have a negative reputation- especially
regarding price flexibility
• Strength of new hires (Hunter/Farmer)
Tactical notes
• Key account development (more Mayo’s)
• Heightened presence in residency programs
• We must focus our tactical or the message
becomes diluted with the reps

755
SUMMARY OF SAFETY AND
EFFECTIVENESS DATA (SSED)
I. GENERAL INFORMATION

Device Generic Name:

Thermal (Radiofrequency
Ionized Argon Gas)
Endometrial Ablation
Device

Device Trade Name:

MinervaTm Endometrial
Ablation System

Device Procode:

MNB

Applicant’s Name
and Address:

Minerva Surgical, Inc.
101 Saginaw Drive
Redwood City, CA 94063

Date(s) of Panel
Recommendation:

None

Premarket Approval
Application (PMA)
Number:

P140013

Date of FDA Notice
of Approval:

July 27, 2105

Priority Review:

No

II. INDICATIONS FOR USE
The Minerva Endometrial Ablation System is
indicated to ablate the endometrial lining of the uterus
in pre-menopausal women with menorrhagia (excessive menstrual bleeding) due to benign causes for
whom childbearing is complete.

756
III. CONTRAINDICATIONS
The Minerva Endometrial Ablation System is
contraindicated for use in the following:


A patient who is pregnant or who wants to
become pregnant in the future. PREGNANCIES FOLLOWING ABLATION CAN BE
DANGEROUS FOR BOTH MOTHER AND
FETUS.



A patient with known or suspected (uterine
cancer) or pre-malignant conditions of the
endometrium, such as unresolved adenomatous hyperplasia.



A patient with any anatomic condition (e.g.,
history of previous classical cesarean section or
transmural myomectomy, including hysteroscopic and/or laparoscopic myomectomy performed immediately prior to the Minerva
procedure) or pathologic condition (e.g., requiring long-term medical therapy) that could lead
to weakening of the myometrium.
* * *
2. Effectiveness Results

The analysis of effectiveness was based on the 110
evaluable subjects at the 12-month time point. Key
effectiveness outcomes are presented in Table 4 and
Table 5.
Based on the success rate of 91.8% with a 95%
confidence interval (CI) of (85.0%, 96.2%) observed in
the Minerva ITT population, the null hypothesis was
rejected at the significance level of 5%, and the 12month follow-up success rate observed with the
Minerva Endometrial Ablation System was demon-

757
strated to be statistically significantly greater than
the OPC of 66% (p-value <0.0001).
This analysis did not compare the success rate of
the Minerva Endometrial Ablation Device to the
individual success rates of the five approved endometrial ablation devices used to set the OPC.
Table 2 summarizes the effectiveness outcomes from
the single arm study.
Table 2 Effectiveness outcomes from single arm study
MINERVATM
N (% OF 110)
Number of successful patients
(diary score < 75)

101

Study success rate (% patients
with PBLAC score < 75) — NonProportional (Traditional) Method1

91.8%

Study success rate (% patients with
PBLAC score < 75) — Proportional
Method

87.3%

Number of patients reporting
amenorrhea (PBLAC score=0)
Amenorrhoea rate (% patients with
PBLC score = 0)

1

73
66 4%

The success rate compared to the OPC. See discussion of nonproportion (traditional) versus proportional method below.

758
When using the PBLAC scoring method, subjects in
the single arm study compared the appearances of
their catamenial products (pads and tampons) to a set
of pictures/icons. To calibrate these icons with the
blood volume absorbed by catamenial products used in
this study, expired diluted human blood was applied
in 0.5 ml increments to the catamenial products to
determine the minimum and maximum amount of
blood needed to produce each icon on the PBLAC (i.e.,
heavy, moderate and light staining). This yielded a
range of volumes for each icon. The process was
repeated five times by the same investigator, yielding
15 scores for each pad/tampon. The mean volume was
determined for each icon for each pad/tampon. The
applicant used the mean volumes for the icons for one
brand of pads as the baseline for the PBLAC scores.
The scores for the icons for the other brands of pads
were then calibrated using an “adjustment factor.”
The purpose of this adjustment factor is to account for
the variability across pads. This method is referred to
as the non-proportional or traditional method.
To evaluate whether the PBLAC instrument could
be appropriately applied in the study, two investigators and ten female observers were randomly assigned
catamenial products with known amounts of expired
diluted blood applied. The
* * *

759
SUMMARY OF SAFETY AND
EFFECTIVENESS DATA:
NovaSureTM Impedance Controlled
Endometrial Ablation System
I.

GENERAL INFORMATION

DEVICE GENERIC
NAME:

Thermal (RadioFrequency) Endometrial
Ablation Device

DEVICE TRADE
NAME:

NovaSureTM Impedance
Controlled Endometrial
Ablation System

APPLICANT’S NAME
AND ADDRESS:

Novacept, Inc.
1047 Elwell Court
Palo Alto, CA 94303

PREMARKET
APPROVAL
APPLICATION (PMA)
NUMBER:

P010013

DATE OF PANEL
N/A
RECOMMENDATION:
II. INDICATIONS FOR USE
The NovaSureTM System is intended to ablate the
endometrial lining of the uterus in premenopausal
women with menorrhagia (excessive bleeding) due to
benign causes for whom childbearing is complete.
III. CONTRAINDICATIONS
Use of the NovaSureTM Impedance Controlled
Endometrial Ablation System (hereafter referred to as
the NovaSureTM System) is contraindicated for
patients with the following conditions:



760
A patient who is pregnant or who wants to
become pregnant in the future. Pregnancies
following ablation can be dangerous for both
mother and fetus.



A patient with known or suspected endometrial carcinoma (uterine cancer) or premalignant change of the endometrium, such as
unresolved adenomatous hyperplasia.



A patient with any anatomic or pathologic
condition in which weakness of the myometrium could exist, such as history of previous
classical cesarean section or transmural
myomectomy.
* * *

These issues were addressed with minor modifications
made during the incorporation of the Cavity Integrity
Assessment system into the device.


Patient Accountability

A total of 265 subjects were enrolled in the study.
Table 2C identifies the numbers of patients at key
points of the study.

761
TABLE 2C. PATIENT ACCOUNTABILITY
NUMBER OF
PATIENTS

NOVASURETM

LOOP RESECTION
PLUS ROLLERBALL

175

90

4

0

0

2

171

88

4

2

2

2

2

2

1

0

162

82

1

0

1

0

4

0

156

82

Entered into study
Aborted
procedures—
uterine size or
shape*
Aborted
procedures—
uterine
perforation*
Treated
Failed — required
additional
treatment*
Hysterectomy
performed*
Lost to follow-up*
Hodgkin’s disease
diagnosed post
treatment*
6-Month Follow-up
Hysterectomy
performed*
Pelvic pain —
administered
leuprolide*
Lost to follow-up*
12-Month Followup

* Discontinued patients



762
Efficacy at One Year: Diary Scores

Patient success was based on a reduction in diary
score from >150 pre-treatment to <75 at one year.
Effectiveness rates were based on the Intent-to-Treat
population.
TABLE 3— EFFECTIVENESS*:
DIARY SCORES AT 1 YEAR
NOVASURETM

LOOP RESECTION
PLUS ROLLERBALL
n(% OF 175)
n (% of 90)

Number of successful patients
(diary score<75)

136

67

Study success rate
(% patients with
score <75)

77.7%

74.4%

Number of patients
with amenorrhea
(score=0)

63

29

36.0%

32.2%

Amenorrhea rate
(% patients with
score=0)

* * *

